<html>
<title> - COMMITTEE MARKUPS OF H.RES. 72, H.CON.RES. 76, H.RES. 252, H.CON.RES. 95, H.RES. 316, H.R. 364, H.RES. 487, H.R. 2850, AND H.R. 5789</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                    COMMITTEE MARKUPS OF H.RES. 72,
                       H.CON.RES. 76, H.RES. 252,
                  H.CON.RES. 95, H.RES. 316, H.R. 364,
                  H.RES. 487, H.R. 2850, AND H.R. 5789

=======================================================================

                         COMPILATION OF MARKUPS

                               BEFORE THE

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                       FIRST AND SECOND SESSIONS

                               ----------                              

                               2007-2008

                               ----------                              

                           Serial No. 110-54

                               ----------                              

     Printed for the use of the Committee on Science and Technology

  COMPILATION OF MARKUPSthe following is for the title page (inside)
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001



                    COMMITTEE MARKUPS OF H.RES. 72,
                       H.CON.RES. 76, H.RES. 252,
                  H.CON.RES. 95, H.RES. 316, H.R. 364,
                  H.RES. 487, H.R. 2850, AND H.R. 5789

=======================================================================

                         COMPILATION OF MARKUPS

                               BEFORE THE

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                       FIRST AND SECOND SESSIONS

                               __________

                               2007-2008

                               __________

                           Serial No. 110-54

                               __________

     Printed for the use of the Committee on Science and Technology


 (This compilation includes Full Committee markup proceedings that did 
            not get filed as part of a legislative report.)

     Available via the World Wide Web: http://www.science.house.gov

                                 ______

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              ROSCOE G. BARTLETT, Maryland
BRAD MILLER, North Carolina          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            FRANK D. LUCAS, Oklahoma
NICK LAMPSON, Texas                  JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           TOM FEENEY, Florida
LAURA RICHARDSON, California         RANDY NEUGEBAUER, Texas
DONNA F. EDWARDS, Maryland           BOB INGLIS, South Carolina
STEVEN R. ROTHMAN, New Jersey        DAVID G. REICHERT, Washington
JIM MATHESON, Utah                   MICHAEL T. MCCAUL, Texas
MIKE ROSS, Arkansas                  MARIO DIAZ-BALART, Florida
BEN CHANDLER, Kentucky               PHIL GINGREY, Georgia
RUSS CARNAHAN, Missouri              BRIAN P. BILBRAY, California
CHARLIE MELANCON, Louisiana          ADRIAN SMITH, Nebraska
BARON P. HILL, Indiana               PAUL C. BROUN, Georgia
HARRY E. MITCHELL, Arizona           VACANCY
CHARLES A. WILSON, Ohio
ANDRE CARSON, Indiana
                                 ------                                

                 Subcommittee on Energy and Environment

                   HON. NICK LAMPSON, Texas, Chairman
JERRY F. COSTELLO, Illinois          BOB INGLIS, South Carolina
LYNN C. WOOLSEY, California          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           RANDY NEUGEBAUER, Texas
MARK UDALL, Colorado                 MICHAEL T. MCCAUL, Texas
BRIAN BAIRD, Washington              MARIO DIAZ-BALART, Florida
PAUL KANJORSKI, Pennsylvania             
BART GORDON, Tennessee               RALPH M. HALL, Texas
                                 ------                                

              Subcommittee on Investigations and Oversight

               HON. BRAD MILLER, North Carolina, Chairman
JERRY F. COSTELLO, Illinois          F. JAMES SENSENBRENNER JR., 
EDDIE BERNICE JOHNSON, Texas             Wisconsin
STEVEN R. ROTHMAN, New Jersey        DANA ROHRABACHER, California
BRIAN BAIRD, Washington              DAVID G. REICHERT, Washington
ANDRE CARSON, Indiana                PAUL C. BROUN, Georgia
BART GORDON, Tennessee               RALPH M. HALL, Texas
                                 ------                                

               Subcommittee on Technology and Innovation

                    HON. DAVID WU, Oregon, Chairman
JIM MATHESON, Utah                   PHIL GINGREY, Georgia
HARRY E. MITCHELL, Arizona           VERNON J. EHLERS, Michigan
CHARLIE A. WILSON, Ohio              JUDY BIGGERT, Illinois
BEN CHANDLER, Kentucky               ADRIAN SMITH, Nebraska
MIKE ROSS, Arizona                   PAUL C. BROUN, Georgia
LAURA RICHARDSON, California           
BART GORDON, Tennessee               RALPH M. HALL, Texas


                            C O N T E N T S

                               2007-2008

                                                                   Page
H.Res. 72--Recognizing the work and accomplishments of Mr. Britt 
  ``Max'' Mayfield, Director of the National Hurricane Center's 
  Tropical Prediction Center upon his retirement
    Proceedings of the markup held by the Full Committee, January 
      31, 2007...................................................     1

H.Con.Res. 76--Honoring the 50th Anniversary of the International 
  Geophysical Year (IGY)
    Proceedings of the markup held by the Full Committee, March 
      28, 2007...................................................    11

H.Res. 252--Recognizing the 45th Anniversary of John Herschel 
  Glenn Jr.'s historic achievement in becoming the first United 
  States astronaut to orbit the Earth
    Proceedings of the markup held by the Full Committee, March 
      28, 2007...................................................    21

H.Con.Res. 95--Honoring the career and research accomplishments 
  of Frances E. Allen, the 2006 recipient of the A.M. Turing 
  Award
    Proceedings of the markup held by the Full Committee, April 
      25, 2007...................................................    33

H.Res. 316--Recognizing the accomplishments of Rodger D. 
  Kornberg, Andrew Fire, Craig Mello, John C. Mather, and George 
  F. Smoot for being awarded Nobel Prizes in the fields of 
  chemistry, physiology or medicine, and physics
    Proceedings of the markup held by the Full Committee, April 
      25, 2007...................................................    47

H.R. 364--To provide for the establishment of the Advanced 
  Research Projects Agency-Energy................................    61
    Proceedings of the markup held by the Subcommittee on Energy 
      and Environment, May 10, 2007..............................    81
    Proceedings of the markup held by the Full Committee, May 23, 
      2007.......................................................   127

H.Res. 487--Recognizing the contribution of modeling and 
  simulation technology to the security and prosperity of the 
  United States, and recognizing modeling and simulation as a 
  National Critical Technology
    Proceedings of the markup held by the Full Committee, June 
      22, 2007...................................................   231

H.R. 2850--Green Chemistry Research and Development Act of 2007..   247
    Proceedings of the markup held by the Full Committee, July 
      11, 2007...................................................   263

H.R. 5789--Science and Technology Innovation Act of 2008
    Proceedings of the markup held by the Subcommittee on 
      Technology and Innovation, April 16, 2008..................   320

Business Meeting to consider authorization of a subpoena for 
  documents related to the Department of Energy's FutureGen 
  project, held by the Subcommittee on Investigations and 
  Oversight, June 26, 2008.......................................   373


PROCEEDINGS OF THE FULL COMMITTEE MARKUP ON H.RES. 72, RECOGNIZING THE 
WORK AND ACCOMPLISHMENTS OF MR. BRITT ``MAX'' MAYFIELD, DIRECTOR OF THE 
    NATIONAL HURRICANE CENTER'S TROPICAL PREDICTION CENTER UPON HIS 
                               RETIREMENT

                              ----------                              


                      WEDNESDAY, JANUARY 31, 2007

                  House of Representatives,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 11:05 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Bart Gordon 
[Chairman of the Committee] presiding.
    Chairman Gordon. Welcome, everyone, to the Committee of 
Science and Technology, and we will come to order. Pursuant to 
notice, the Committee meets to consider the following measures: 
H.R. 547, the Advanced Fuels Infrastructure Research and 
Development Act; H.Res. 72, Recognition of the work and 
accomplishments of Mr. Britt Max Mayfield, Director of the 
National Hurricane Center's Tropical Prediction Center upon his 
retirement. We are moving forward now for two reasons: one is 
because it is time to move forward, and the second is that we 
are going to be having votes in about 15 minutes. And if some 
of your Members aren't here yet, we are not trying to preempt 
them but rather provide them the courtesy of being able to get 
to vote and not have to come back.
    We now will consider H.Res. 72, Recognizing the work and 
accomplishments of Mr. Britt ``Max'' Mayfield, Director of the 
National Hurricane Center's Tropical Prediction Center upon his 
retirement. I yield myself five minutes.
    Today, as I said, the House will consider H.Res. 72, 
introduced by Representative Tim Mahoney. H.Res. 72 recognizes 
the work and the accomplishments of Mr. ``Max'' Mayfield, who 
recently retired from his position as Director of the National 
Hurricane Center's Tropical Prediction Center. The NOAA 
Hurricane Center, part of NOAA's National Weather Service, has 
been a focal point of the Nation's hurricane forecast and 
warnings programs for 50 years. The mission of the Hurricane 
Center is to save lives, mitigate property loss by issuing the 
best watches, warnings, and forecasts of hazardous tropical 
weather. Mr. Mayfield attained national celebrity status during 
the period of 2004 and 2005 hurricane season, appearing on 
television with hourly updates as Hurricanes Charlie, Ivan, 
Francis, Wilma bore down on the Southeastern United States. 
With his calm and steady presence, Mr. Mayfield helped millions 
of Americans prepare for hurricanes during his tenure with the 
National Hurricane Center. H.Res. 72 thanks Mr. Mayfield for 
his service, which has undoubtedly helped to save countless 
lives and the property of citizens around the world.
    Mr. Mayfield will be missed. He has served our nation with 
distinction for 30 years. I can think of no better mentor and 
teacher for our current and future meteorological 
professionals. Mr. Mayfield's knowledge, experience, and sound 
direction have been assets to the safety of our nation and 
security of our citizens. I ask my colleagues on the Committee 
to support this resolution.
    [The prepared statement of Chairman Gordon follows:]

               Prepared Statement of Chairman Bart Gordon

    Today the Committee will consider House Resolution 72, introduced 
by Representative Tim Mahoney.
    H.Res. 72 recognizes the work and accomplishments of Mr. Max 
Mayfield, who recently retired from his position as Director of the 
National Hurricane Center's Tropical Prediction Center.
    The National Oceanic and Atmospheric Administration's (NOAA) 
National Hurricane Center, part of NOAA's National Weather Service, has 
been the focal point of the Nation's hurricane forecast and warning 
program for 50 years. The mission of the hurricane center is to save 
lives and mitigate property loss by issuing the best watches, warnings, 
and forecasts of hazardous tropical weather.
    Mr. Mayfield attained national celebrity status during the 
tempestuous 2004 and 2005 hurricane seasons, appearing on television 
with hourly updates as hurricanes Charley, Ivan, and Wilma bore down on 
the Southeastern United States. With his calm and steadying presence, 
Mr. Max Mayfield helped millions of Americans prepare for hurricanes 
during his tenure with the National Hurricane Center.
    H.Res. 72 thanks Mr. Mayfield for his service, which has 
undoubtedly helped to save countless lives and the property of citizens 
around the world.
    In addition, this resolution commends Mr. Mayfield's dedication to 
expanding educational opportunities for State and local emergency 
management officials and acknowledges the critical role that Mr. 
Mayfield has played in forecast and service improvements over his 34-
year career.
    Born in Oklahoma, Mr. Mayfield holds a Bachelor's degree in 
mathematics from the University of Oklahoma and a Master's degree in 
meteorology from Florida State University. Getting his start on the 
ground floor, Max joined the hurricane center in 1972 as an intern. In 
1988, he became a hurricane forecaster, rising to senior forecaster two 
years later. Mr. Mayfield was named Deputy Director in 1998 and became 
Acting Director in January 2000 when Jerry Jarrell retired.
    Mr. Mayfield will be missed. He has served our nation with 
distinction for over 30 years. Mr. Mayfield is well known to all of our 
citizens, especially those in hurricane-prone areas. Mr. Mayfield's 
leadership of his forecasting team at the National Hurricane Center, 
his clear presentation of hurricane forecasts, and his abilities to 
coordinate and communicate with local emergency management personnel 
resulted safer and better informed communities.
    The National Weather Service and the National Hurricane Center--
under the Directorship of Mr. Mayfield--did an excellent job of 
predicting the track of the storm and issuing watches and warnings that 
permitted State and local officials to evacuate many of the people who 
were in the path of this devastating storm.
    The U.S. Department of Commerce recognized Mr. Mayfield with Gold 
Medals for his work during Hurricane Andrew (1992) and Hurricane Isabel 
(2003), and a Silver Medal during Hurricane Gilbert (1988). He was also 
awarded a National Oceanic and Atmospheric Administration (NOAA) Bronze 
Medal for creating a public-private partnership to support the Nation's 
disaster preparedness.
    Max Mayfield has set a high standard for future Directors of the 
Hurricane Center.
    I suspect he will continue to be involved in meteorology through 
his membership in the American Meteorological Society.
    I can think of no better mentor and teacher for current and future 
meteorological professionals.
    Mr. Mayfield's knowledge, experience and sound direction have been 
assets to the safety of our nation and the security of our citizens. I 
ask my colleagues on the Committee to support this resolution.

    Chairman Gordon. And now I recognize Mr. Bonner for five 
minutes.
    Mr. Bonner. Thank you, Mr. Chairman. As one of the few 
Members of the Gulf Coast who has had firsthand experience 
dealing with Mr. Mayfield, I, too, commend you for bringing 
this resolution to the Floor today, and am pleased that the 
Committee is considering H.Res. 72, Recognizing the work and 
accomplishments of Mr. Britt ``Max'' Mayfield, Director of the 
National Hurricane Center's Tropical Prediction Center upon his 
retirement.
    For 34 years, Mr. Mayfield served our country as a 
meteorologist. For the last six years, however, he was the face 
and voice Americans turned to and trusted for the latest 
information about hurricanes and tropical storms. Over the 
years, his forecasts have saved thousands of lives by providing 
advanced warnings so people could evacuate prior to storms 
hitting.
    For each tropical storm or hurricane that threatens 
America's coastline, Mr. Mayfield and the staff of the National 
Hurricane Center, worked around the clock, gathering 
information about the storms and constantly improving the 
projection of the storm's track. As the storm nears the U.S. 
coast, they often spend days at a time at the National 
Hurricane Center making sure that the public continues to 
receive vital forecasts and warning information. Throughout his 
distinguished career, Mr. Mayfield went above and beyond his 
responsibilities by spending much of the off-season doing 
outreach to communities to make sure they are prepared for 
hurricanes and know what to do to protect themselves from these 
deadly storms.
    Mr. Chairman, I am pleased to join my colleagues in 
honoring this outstanding public servant. Just a few minutes 
ago, I had the pleasure of meeting with eight young ladies, who 
are here as part of ``Students of the Storm,'' young students, 
who have come up from New Orleans, to remind America that the 
devastation of Hurricane Katrina still exists. And I know they 
believe, as we all do, that ``Max'' Mayfield helped save lives, 
even during the worst natural disaster in American history.
    I yield back the balance of my time.
    Chairman Gordon. Thank you, Mr. Bonner, and we look forward 
to your active participation in the NOAA legislation this year. 
You have firsthand knowledge and can be a real asset to us.
    Does anyone else wish to be recognized?
    Then I ask unanimous consent that the bill is considered as 
read and open to amendment, and that Members proceed with the 
amendments in the order of the roster. Without objection, so 
ordered.
    Are there any amendments?
    Hearing none, the vote is on the bill, H.Res. 72, 
Recognizing the work and accomplishments of Mr. Britt ``Max'' 
Mayfield, Director of the National Hurricane Center's Tropical 
Prediction Center upon his retirement. All of those in favor 
will say aye. All of those opposed, say no. In the opinion of 
the Chair, the ayes have it.
    I recognize Mr. Hall to offer a motion.
    Mr. Hall. Mr. Chairman, I move that the Committee favorably 
report H.Res. 72 to the House with the recommendation that the 
bill do pass. Furthermore, I move that the staff be instructed 
to make necessary technical and conforming changes, and that 
the Chairman take all necessary steps to bring the bill before 
the House for consideration.
    I yield back my time.
    Chairman Gordon. The question is on the motion to report 
the bill favorably. Those in favor of the motion will signify 
by saying aye. Opposed, no. The ayes have it, and the bill is 
favorably reported.
    Without objection, the motion to reconsider is laid upon 
the table. I move that Members have two subsequent calendar 
days in which to submit supplemental, minority, or additional 
views on the measure. I move pursuant to Clause 1 of the Rule 
22 of the House of Representatives, that the Committee 
authorize the Chairman to offer such motions as may be 
necessary in the House to adopt and pass H.Res. 72, Recognizing 
the work and accomplishments of Mr. Britt ``Max'' Mayfield, 
Director of the National Hurricane Center's Tropical Prediction 
Center upon his retirement. Without objection, so ordered.
    And let me say to our new Members and other Members today. 
This was a bit of a bim-bam operation today, the reason being a 
couple of things. First of all, these bills were well vetted. 
They were bipartisan. Also, we had consultation with our other 
committees of jurisdiction. And as I mentioned to you, we are 
going to be having votes any moment now. Let this be the 
opening of discussion about climate change, of energy, and of 
alternative energies. We have got a lot to do here. I know that 
Mrs. Biggert has a couple of bills that she has just 
introduced. We are looking forward to those. Mrs. Biggert, we 
are glad you are here. And we welcome other bills on this 
issue. We want to try to get a good idea, vet it well, take it 
out and get it passed, and then we hope that you will talk with 
senators in your states, and we will get some things done.
    So I want to thank the Members for their attendance, and 
this concludes our markup.
    [Whereupon, at 11:29 a.m., the Committee was adjourned.]
                               Appendix:

                              ----------                              


                               H.Res. 72


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



PROCEEDINGS OF THE FULL COMMITTEE MARKUP ON H.CON.RES. 76, HONORING THE 
      50TH ANNIVERSARY OF THE INTERNATIONAL GEOPHYSICAL YEAR (IGY)

                              ----------                              


                       WEDNESDAY, MARCH 28, 2007

                  House of Representatives,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:07 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Bart Gordon 
[Chairman of the Committee] presiding.
    Chairman Gordon. Good morning. The Committee on Science and 
Technology will come to order.
    Pursuant to notice, the Committee meets to consider the 
following measures: H.R. 362, ``10,000 Teachers, 10 Million 
Minds'' Math and Science Scholarship Act; H.Con.Res. 76, 
Honoring the 50th Anniversary of the International Geophysical 
Year; and H.R. 252, Recognizing the 45th Anniversary of John 
Herschel Glenn Jr.'s Historic Achievement in Becoming the First 
United States Astronaut to Orbit the Earth.
    We will now proceed with the markup.
    Today, we are meeting to markup three bipartisan bills.
    I realize that I am starting to sound like a broken record, 
but I sincerely hope that the Committee on Science and 
Technology is a place where Members of both parties can come 
together to get work done on important issues in a bipartisan 
way.
    The important, non-partisan issue of this markup is 
competitiveness. This is one of the most critical issues facing 
our nation today. H.R. 362, the ``10,000 Teachers, 10 Million 
Minds'' Science and Math Scholarship Act, which I sponsored and 
which my friend, Ralph Hall, co-sponsored, takes a big step 
forward in dealing with the vital issues.
    Together with H.R. 363, which this committee reported out 
earlier this month, these bills take the recommendations from 
the National Academy of Sciences ``Rising Above the Gathering 
Storm'' report, and turn them into real legislation that will 
make a difference.
    In addition to H.R. 362, we are also marking up two other 
bills.
    H.Con.Res. 76 is a resolution honoring the 50th anniversary 
of the International Geophysical Year, an international 
cooperative initiative that led to significant advances in 
space and Earth science, and which was marked by the dawn of 
the Space Age.
    H.Res. 252 recognizes the 45th anniversary of John Glenn's 
historic space mission, in which he became the first American 
to orbit the Earth.
    The space race of the 1950's and 1960's helped advance--to 
drive scientific achievement and technological innovation in 
the 20th century, and it is fitting that today, as we honor the 
scientific and technological achievements of the past, we are 
also helping to ensure this country's ability to make these 
great gains in the future.
    [The prepared statement of Chairman Gordon follows:]

               Prepared Statement of Chairman Bart Gordon

    Today we are meeting to markup three bipartisan bills.
    I realize that I'm starting to sound like a broken record, but I 
sincerely hope that the Committee on Science and Technology is a place 
where Members of both parties can come together to get work done on 
important issues in a bipartisan way.
    The important, non-partisan issue of this markup is U.S. 
competitiveness. This is one of the most critical issues facing our 
nation today. H.R. 362, the ``10,000 Teachers, 10 Million Minds'' 
Science and Math Scholarship Act, which I sponsored and Ralph Hall co-
sponsored, takes a big step forward in dealing with this vital issue.
    Together with H.R. 363, which this committee reported out earlier 
this month, these bills take recommendations from the National Academy 
of Sciences ``Rising Above the Gathering Storm'' report, and turn them 
into real legislation that will make a difference.
    In addition to H.R. 362, we are also marking up two other bills.
    H.Con.Res. 76 is a resolution honoring the 50th anniversary of the 
International Geophysical Year, an international cooperative initiative 
that led to significant advances in space and Earth science, and which 
was marked by the dawn of the Space Age.
    H.Res. 252 recognizes the 45th anniversary of John Glenn's historic 
space mission in which he became the first American to orbit the Earth.
    The space race of the 1950's and 1960's helped to drive scientific 
achievement and technological innovation in the 20th century.
    It is fitting that today, as we honor the scientific and 
technological achievements of the past, we are also helping to insure 
this country's ability to make these great gains in the future.

    Chairman Gordon. I recognize Mr. Hall to present his 
opening remarks.
    Mr. Hall. Mr. Chairman, I thank you, of course, as usual, 
for calling this markup today.
    We have before us three measures, as you have stated, and a 
very important piece of innovation and competitiveness agenda 
that targets improving the caliber of our future K-12 math and 
science teachers and two space-related resolutions.
    With regard to H.R. 362, I am very pleased to see us 
considering the bill. It has many of the elements that this 
committee passed last year. As I have stated before, I am 
especially pleased to see that we are using the University of 
Texas's UTeach program for the basis for a scholarship program 
for STEM students who commit to teaching K-12 science and math 
classes after graduation.
    Now I understand that there will be an amendment in the 
nature of a substitute offered to H.R. 362, which includes 
agreed-upon improvements to the bill.
    Mr. Chairman, I really do thank you for working with our 
side, as you have always done, on making these improvements, 
not only to the underlying measure, but also with regards to 
H.R. 524, the Partnership for Access to Laboratory Science Act, 
which I believe is also going to be offered as an amendment to 
H.R. 362.
    Okay. With that, I yield back my time.
    Chairman Gordon. Thank you, Mr. Hall, for your support of 
the bill and, more importantly, for your good additions to make 
a good bill even better.
    Without objection, Members may place statements in the 
record at this point.
    We now offer--we now will consider H.Con.Res. 76, Honoring 
the 50th Anniversary of the International Geophysical Year. I 
yield Mr. Udall five minutes to describe his bill.
    Mr. Udall. Thank you, Mr. Chairman.
    I am pleased that we are here today to markup H.Con.Res. 
76, which is a concurrent resolution honoring the 50th 
anniversary of the International Geophysical Year, also known 
as the IGY.
    The resolution marks the 50th anniversary of the 
International Geophysical Year, honors its contributions to 
space research, and looks forward to future accomplishments.
    I want to thank several of my colleagues from the Science 
and Technology Committee that joined me as original co-
sponsors, and in particular I would thank, the Space and 
Aeronautics Subcommittee Ranking Member Calvert, Chairman 
Gordon, and Research and Science Education Subcommittee 
Chairman Baird for their support.
    The International Geophysical Year of 1957/1958 was a 
highly-successful international effort involving 67 nations 
that came together during the Cold War to coordinate global 
observations and measurements of the solid Earth, oceans, the 
atmosphere, and the near-Earth space environment.
    During the IGY, successful launches of the first artificial 
satellites took place, Sputnik 1 by the former Soviet Union, 
and Explorer 1 by the United States, marking the dawn of the 
space age. The Explorer 1 also enabled one of the most notable 
achievements of the IGY, the discovery of the belts of trapped, 
charged particles in the Earth's upper atmosphere by the late 
Dr. James Van Allen of Iowa.
    I introduced a similar resolution in the 108th Congress, 
which passed the House, to honor the IGY and to encourage the 
celebration of its 50th anniversary throughout the country and 
the globe.
    This year's commemoration serves to not only remember the 
great scientific work that was done during this period, but 
also to inspire the next generation of scientists and 
engineers, who will be critical to our continued progress and 
economic well being.
    In that regard, H.Con.Res. 76 encourages the public and in 
particular our young people to participate in celebrations 
planned for the IGY anniversary year and to embrace challenging 
goals for future research in Earth and space science. So that 
we will be able to look back, 50 years from now, on equally 
exciting accomplishments and discoveries.
    Mr. Chairman, I urge my colleagues to support this 
important resolution at today's markup in order that we may 
recognize and honor the 50th anniversary of the International 
Geophysical Year.
    Thank you, and I would yield back my time.
    [The prepared statement of Mr. Udall follows:]

            Prepared Statement of Representative Mark Udall

    Thank you, Mr. Chairman. I am pleased that we are here today to 
mark up H.Con.Res. 76, Honoring the 50th Anniversary of the 
International Geophysical Year (IGY).
    This resolution marks the 50th anniversary of the International 
Geophysical Year (IGY), honors its contributions to space research, and 
looks forward to future accomplishments.
    I am pleased that several of my colleagues from the Science and 
Technology Committee have joined me as original co-sponsors and would 
like to thank Space and Aeronautics Subcommittee Ranking Member 
Calvert, Chairman Gordon, Research and Science Education Subcommittee 
Chairman Baird for their support.
    The International Geophysical Year of 1957-1958 was a highly 
successful international effort involving 67 nations that came together 
during the Cold War to coordinate global observations and measurements 
of the solid Earth, oceans, the atmosphere, and the near-Earth space 
environment.
    During the IGY, the successful launches of the first artificial 
satellites took place--Sputnik 1 by the former Soviet Union and 
Explorer 1 by the United States--marking the dawn of the Space Age.
    Explorer 1 also enabled one of the most notable achievements of the 
IGY, the discovery of belts of trapped, charged particles in the 
Earth's upper atmosphere by the late Dr. James Van Allen of Iowa.
    I introduced a similar resolution in the 108th Congress, which 
passed the House, to honor the IGY and to encourage the celebration of 
its 50th anniversary throughout the country and the globe.
    This year's commemoration serves to not only remember the great 
scientific work that was done during the IGY, but also to inspire the 
next generation of scientists and engineers, who will be critical to 
our continued progress and economic well being.
    In that regard, H.Con.Res. 76 encourages the public and in 
particular our young people to participate in celebrations planned for 
the IGY anniversary year and to embrace challenging goals for future 
research in Earth and space science--so that we will be able to look 
back, 50 years from now, on equally exciting accomplishments and 
discoveries.
    Mr. Chairman, I urge my colleagues to support H.Con.Res. 76 at 
today's markup in order that we may recognize and honor the fiftieth 
anniversary of the International Geophysical Year.
    Thank you and I yield back the balance of my time.

    Chairman Gordon. Thank you, Mr. Udall.
    The Chair recognizes Mr. Hall to present any remarks on the 
bill.
    Mr. Hall. Mr. Chairman, I don't think there is any 
disagreement on this committee that it is appropriate to 
recognize the 50th anniversary of the International Geophysical 
Year and all of its contributions to scientific research.
    We passed this exact same resolution two years ago in 
anticipation of the upcoming International Polar Year, which 
has now arrived. I believe the point of the resolution then was 
to encourage participation in future IGYs. Well, we are 
actively participating now.
    I am not sure that I understand why we have chosen to omit 
any mention of the current IPY in this resolution, as our 
committee has jurisdiction over the most prominent federal 
agency participating in it.
    In addition to NASA, which this resolution highlights, the 
National Science Foundation and the National Oceanic and 
Atmospheric Administration and the Department of Energy are all 
very actively participating. In fact, NSF is the lead U.S. 
agency for this endeavor.
    Now Mr. Chairman, I support this resolution, because I 
agree with everything it states, however, I believe the current 
IPY also has a potential to have an even greater impact on our 
future. On a day when we are reporting innovation and 
competitiveness legislation, I feel it is only appropriate to 
also tip our hats to the current IPY that ``promises to bring 
about fundamental advances in many areas of science and to fire 
the enthusiasm of young men and women for careers in science 
and engineering.''
    At this time, I would like to yield Mr. Calvert the balance 
of my time.
    [The prepared statement of Mr. Hall follows:]

           Prepared Statement of Representative Ralph M. Hall

    Mr. Chairman, I do not think there is any disagreement on this 
committee that it is appropriate to recognize the 50th anniversary of 
the International Geophysical Year (IGY) and ALL of its contributions 
to scientific research. We passed this exact same resolution two years 
ago in anticipation of the upcoming International Polar Year (IPY), 
which has now arrived. I believe the point of the resolution then was 
to encourage participation in future ``IGYs.'' Well, we are actively 
participating now.
    I am not sure I understand why we have chosen to omit any mention 
of the current IPY in this resolution, as our committee has 
jurisdiction over the most prominent federal agencies participating in 
it. In addition to NASA, which this resolution highlights, the National 
Science Foundation (NSF), the National Oceanic and Atmospheric 
Administration (NOAA), and the Department of Energy are all very 
actively participating. In fact, NSF is the lead US agency for this 
endeavor.
    Mr. Chairman, I support this resolution because I agree with 
everything it states; however, I believe the current IPY also has the 
potential to have an even greater impact on our future. On a day when 
we are reporting innovation and competitiveness legislation, I feel it 
is only appropriate to also tip our hats to the current IPY that 
``promises. . .to bring about fundamental advances in many areas of 
science, and to fire the enthusiasm of young men and women for careers 
in science and engineering.''

    Mr. Calvert. Thank you, Mr. Hall.
    I have, really, no further comment other than the fact that 
I am happy to join Congressman Udall as an original co-sponsor 
and would encourage everyone's support, and I certainly share 
the comments of Mr. Hall, also.
    Thank you.
    Chairman Gordon. Thank you, Mr. Hall and Mr. Calvert.
    Does anyone else wish to be recognized?
    I ask unanimous consent the bill is considered as read and 
open to amendment and that any Members--and that Members 
proceed with the amendments in the order of the roster. Without 
objection, so ordered.
    Are there any amendments?
    Hearing none, the vote is on the bill, H.Con.Res. 76. All 
in favor will say aye. All of those opposed, say no. In the 
opinion of the Chair, the ayes have it.
    I recognize Mr. Hall for a motion.
    Mr. Hall. Mr. Chairman, I move that the Committee favorably 
report House Concurrent Resolution 76 to the House with the 
recommendation that the bill do pass. Furthermore, I move that 
the staff be instructed to make necessary technical and 
conforming changes and that the Chairman take all necessary 
steps to bring the bill before the House for consideration.
    I yield back.
    Chairman Gordon. The question on the motion to report the 
bill favorably. Those in favor of the motion will signify by 
saying aye. Opposed, no. The ayes have it. The bill is 
favorably reported.
    Without objection, the motion to reconsider is laid upon 
the table. I move that Members have two subsequent calendar 
days in which to submit supplemental, minority, or additional 
views on the measure. I move pursuant to Clause 1 of Rule 22 of 
the Rules of the House of Representatives that the Committee 
authorize the Chairman to offer such motions as may be 
necessary in the House to adopt and pass H.Con.Res. 76, 
Honoring the 50th Anniversary of the International Geophysical 
Year. Without objection, so ordered.
    I want--let me, again, thank all you Members today. This 
has been another, I think, productive markup, bipartisan, non-
partisan, that I hope that everyone will go home and take 
credit for it, because you all deserve it.
    And I will see you on the Floor probably the first week 
that we come back.
    And the Committee is adjourned.
    [Whereupon, at 11:17 a.m., the Committee was adjourned.]

                               Appendix:

                              ----------                              


                             H.Con.Res. 76



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



PROCEEDINGS OF THE FULL COMMITTEE MARKUP ON H.RES. 252, RECOGNIZING THE 
45TH ANNIVERSARY OF JOHN HERSCHEL GLENN, JR.'S HISTORIC ACHIEVEMENT IN 
     BECOMING THE FIRST UNITED STATES ASTRONAUT TO ORBIT THE EARTH

                              ----------                              


                       WEDNESDAY, MARCH 28, 2007

                  House of Representatives,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:07 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Bart Gordon 
[Chairman of the Committee] presiding.
    Chairman Gordon. Good morning. The Committee on Science and 
Technology will come to order.
    Pursuant to notice, the Committee meets to consider the 
following measures: H.R. 362, ``10,000 Teachers, 10 Million 
Minds'' Math and Science Scholarship Act; H.Con.Res. 76, 
Honoring the 50th Anniversary of the International Geophysical 
Year; and H.R. 252, Recognizing the 45th Anniversary of John 
Herschel Glenn Jr.'s Historic Achievement in Becoming the First 
United States Astronaut to Orbit the Earth.
    We will now proceed with the markup.
    Today, we are meeting to markup three bipartisan bills.
    I realize that I am starting to sound like a broken record, 
but I sincerely hope that the Committee on Science and 
Technology is a place where Members of both parties can come 
together to get work done on important issues in a bipartisan 
way.
    The important, non-partisan issue of this markup is 
competitiveness. This is one of the most critical issues facing 
our nation today. H.R. 362, the ``10,000 Teachers, 10 Million 
Minds'' Science and Math Scholarship Act, which I sponsored and 
which my friend, Ralph Hall, co-sponsored, takes a big step 
forward in dealing with the vital issues.
    Together with H.R. 363, which this committee reported out 
earlier this month, these bills take the recommendations from 
the National Academy of Sciences ``Rising Above the Gathering 
Storm'' report, and turn them into real legislation that will 
make a difference.
    In addition to H.R. 362, we are also marking up two other 
bills.
    H.Con.Res. 76 is a resolution honoring the 50th anniversary 
of the International Geophysical Year, an international 
cooperative initiative that led to significant advances in 
space and Earth science, and which was marked by the dawn of 
the Space Age.
    H.Res. 252 recognizes the 45th anniversary of John Glenn's 
historic space mission, in which he became the first American 
to orbit the Earth.
    The space race of the 1950's and 1960's helped advance--to 
drive scientific achievement and technological innovation in 
the 20th century, and it is fitting that today, as we honor the 
scientific and technological achievements of the past, we are 
also helping to ensure this country's ability to make these 
great gains in the future.
    [The prepared statement of Chairman Gordon follows:]

               Prepared Statement of Chairman Bart Gordon

    Today we are meeting to markup three bipartisan bills.
    I realize that I'm starting to sound like a broken record, but I 
sincerely hope that the Committee on Science and Technology is a place 
where Members of both parties can come together to get work done on 
important issues in a bipartisan way.
    The important, non-partisan issue of this markup is U.S. 
competitiveness. This is one of the most critical issues facing our 
nation today. H.R. 362, the ``10,000 Teachers, 10 Million Minds'' 
Science and Math Scholarship Act, which I sponsored and Ralph Hall co-
sponsored, takes a big step forward in dealing with this vital issue.
    Together with H.R. 363, which this committee reported out earlier 
this month, these bills take recommendations from the National Academy 
of Sciences ``Rising Above the Gathering Storm'' report, and turn them 
into real legislation that will make a difference.
    In addition to H.R. 362, we are also marking up two other bills.
    H.Con.Res. 76 is a resolution honoring the 50th anniversary of the 
International Geophysical Year, an international cooperative initiative 
that led to significant advances in space and Earth science, and which 
was marked by the dawn of the Space Age.
    H.Res. 252 recognizes the 45th anniversary of John Glenn's historic 
space mission in which he became the first American to orbit the Earth.
    The space race of the 1950's and 1960's helped to drive scientific 
achievement and technological innovation in the 20th century.
    It is fitting that today, as we honor the scientific and 
technological achievements of the past, we are also helping to insure 
this country's ability to make these great gains in the future.

    Chairman Gordon. I recognize Mr. Hall to present his 
opening remarks.
    Mr. Hall. Mr. Chairman, I thank you, of course, as usual, 
for calling this markup today.
    We have before us three measures, as you have stated, and a 
very important piece of innovation and competitiveness agenda 
that targets improving the caliber of our future K-12 math and 
science teachers and two space-related resolutions.
    With regard to H.R. 362, I am very pleased to see us 
considering the bill. It has many of the elements that this 
committee passed last year. As I have stated before, I am 
especially pleased to see that we are using the University of 
Texas's UTeach program for the basis for a scholarship program 
for STEM students who commit to teaching K-12 science and math 
classes after graduation.
    Now I understand that there will be an amendment in the 
nature of a substitute offered to H.R. 362, which includes 
agreed-upon improvements to the bill.
    Mr. Chairman, I really do thank you for working with our 
side, as you have always done, on making these improvements, 
not only to the underlying measure, but also with regards to 
H.R. 524, the Partnership for Access to Laboratory Science Act, 
which I believe is also going to be offered as an amendment to 
H.R. 362.
    Okay. With that, I yield back my time.
    Chairman Gordon. Thank you, Mr. Hall, for your support of 
the bill and, more importantly, for your good additions to make 
a good bill even better.
    Without objection, Members may place statements in the 
record at this point.
    Chairman Gordon. We will now consider H.Res. 252, 
Recognizing the 45th Anniversary of John Herschel Glenn, Jr.'s 
Historic Achievement in Becoming the First United States 
Astronaut to Orbit the Earth. Can you believe it? It was 45 
years.
    I yield Mr. Wilson five minutes to describe his bill.
    Mr. Wilson. Thank you, Mr. Chairman.
    I am pleased to be an original co-sponsor of House 
Resolution 252, which commends the accomplishments of John 
Glenn, an American hero from my State of Ohio.
    As a young man, John Glenn was a dedicated military 
officer, flying 149 missions during two wars. In 1959, he was 
selected as one of the original seven astronauts in the United 
States Space Program.
    John Glenn's courage inspired the Nation and paved the way 
for generations of space exploration. As a Senator, he has 
helped build a safer world by co-authoring the Nuclear 
Nonproliferation Act. Since his retirement from the Senate, he 
has contributed in many ways to the greatness of America, 
especially by founding the John Glenn School of Public Affairs 
at the Ohio State University, which instills his values of 
courage, integrity, and service into the next generation of 
American leaders.
    As a Member of the Science and Technology Committee in 
Ohio, and I am very pleased to be a co-sponsor of this 
legislation, honoring the 45th anniversary of John Glenn's 
orbital flight.
    Thank you, Mr. Chairman, and I encourage my colleagues to 
support this resolution.
    Chairman Gordon. I recognize Mr. Hall to present any 
remarks on the bill.
    Mr. Hall. Mr. Chairman, House Resolution 252 honors the 
45th anniversary, as you have stated, of John Glenn, Jr.'s 
historic mission as the first American to circle the Earth 
aboard the Mercury spacecraft, Friendship 7. His mission 
completed three orbits around the Earth, reaching an 
approximate maximum altitude of 162 statute miles and an 
approximate orbital velocity of 17,500 miles per hour. This was 
truly a landmark event in the progress of our human space 
flight program, and it was important as a catalyst to space 
exploration and scientific advancement in the United States. 
These early successes captured the minds and the imaginations 
of people all around the world.
    After retiring from the space program, John Glenn continued 
to serve his country as a distinguished Member of the Senate 
for 24 years, and in 1998, John Glenn returned to space after 
36 years as a member of the crew of the Space Shuttle 
Discovery, serving as a subject for basic research into the 
effects of weightlessness on the body of an older person.
    John Glenn is truly an American hero. And it is high time 
we start recognizing these old guys.
    And I yield back.
    [The prepared statement of Mr. Hall follows:]

           Prepared Statement of Representative Ralph M. Hall

    Mr. Chairman, House Resolution 252 honors the 45th anniversary of 
John Herschel Glenn, Jr.'s historic mission as the first American to 
circle the Earth aboard the Mercury spacecraft ``Friendship-7.'' His 
mission completed three orbits around Earth, reaching an approximate 
maximum altitude of 162 statute miles and an approximate orbital 
velocity of 17,500 miles per hour. This was truly a landmark event in 
the progress of our human space flight program, and was important as a 
catalyst to space exploration and scientific advancement in the United 
States. These early successes captured the minds and imaginations of 
people around the world. After retiring from the space program, John 
Glenn continued to serve his country as a distinguished Member of the 
Senate for 24 years. In 1998, John Glenn returned to space after 36 
years as a member of the crew of the space shuttle Discovery, serving 
as a subject for basic research into the effects of weightlessness on 
the body of an older person. John Glenn is truly an American hero.

    Chairman Gordon. Mr. Hall, are you volunteering for 
service?
    Mr. Hall. I would like to volunteer the guy that is going 
to run against me for a space flight.
    Chairman Gordon. Well, this resolution will be on the 
Floor, as mentioned, and we welcome everyone that wants to come 
to that. If there are any remarks now? John Glenn is a very 
decent, courageous public servant. I guess to quote someone, we 
are all Ohioans today, because he is for everybody.
    Mr. Hall. Mr. Chairman, can I tell you a story about Glenn 
real brief?
    Chairman Gordon. Certainly.
    Mr. Hall. He was tired, and the campaign for President, 
came home all beat down, had a hard day. He was going down in 
the rankings and everything, and he came in and his wife was 
not just overly comforting to him, but his dog ran up and 
licked his hand. And he said, ``You know, when I come home, I 
ought to have at least two friends here.'' She bought him 
another dog.
    Mr. Calvert. Mr. Chairman? Mr. Chairman?
    Chairman Gordon. Mr. Calvert is recognized.
    Mr. Calvert. I just want to certainly join in our 
admiration of John Glenn, but I also want to point out another 
Ohioan, Neil Armstrong. And I think we are going to have an 
opportunity, hopefully, later this Congress, to recognize him, 
also. So I hope we take that opportunity to do so.
    Chairman Gordon. We will welcome that opportunity and look 
forward to your leadership in that regard.
    Anyone else?
    Mr. Sensenbrenner. Will the Chairman yield?
    Chairman Gordon. Certainly.
    Mr. Sensenbrenner. Does all this talk mean we have to be 
for Ohio State this weekend?
    Chairman Gordon. Any other--anyone else wish to make a 
comment, pertinent or not?
    Okay. If not, I ask unanimous consent the bill is 
considered as read and open to amendment at any point and that 
the Members proceed with the amendment in the order of the 
roster. Without objection, so ordered.
    Are there any amendments?
    Hearing none, the vote is on the bill, H.Res. 252. All 
those in favor, say aye. All of those opposed, say no. In the 
opinion of the Chair, the ayes have it.
    I will recognize Mr. Hall to offer a motion.
    Mr. Hall. Mr. Chairman, I move that the Committee favorably 
report House Resolution 252 to the House with the 
recommendation that the bill do pass. Furthermore, I move that 
the staff be instructed to make necessary technical and 
conforming changes and that the Chairman take all necessary 
steps to bring the bill before the House for consideration.
    I yield back.
    Chairman Gordon. The question on the motion to report the 
bill favorably. Those in favor of the motion will signify by 
saying aye. Opposed, no. The ayes have it. The bill is 
favorably reported.
    Without objection, the motion to reconsider is laid upon 
the table. I move that Members have two subsequent calendar 
days in which to submit supplemental, minority, or additional 
views on the measure. I move pursuant to Clause 1 of Rule 22 of 
the Rules of the House of Representatives that the Committee 
authorize the Chairman to offer such motions as may be 
necessary in the House to adopt and pass H.Res. 252, 
Recognizing the 45th Anniversary of John Herschel Glenn, Jr.'s 
Historic Achievement in Becoming the First United States 
Astronaut to Orbit the Earth. Without objection, so ordered.
    Let me, again, thank all you Members today. This has been 
another, I think, productive markup, bipartisan, non-partisan, 
that I hope that everyone will go home and take credit for it, 
because you all deserve it.
    And I will see you on the Floor probably the first week 
that we come back.
    And the Committee is adjourned.
    [Whereupon, at 11:17 a.m., the Committee was adjourned.]


                               Appendix:

                              ----------                              


                               H.Res. 252


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



PROCEEDINGS OF THE FULL COMMITTEE MARKUP ON H.CON.RES. 95, HONORING THE 
   CAREER AND RESEARCH ACCOMPLISHMENTS OF FRANCES E. ALLEN, THE 2006 
                   RECIPIENT OF THE A.M. TURING AWARD

                              ----------                              


                       WEDNESDAY, APRIL 25, 2007

                  House of Representatives,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:00 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Bart Gordon 
[Chairman of the Committee] presiding.
    Chairman Gordon. The Committee on Science and Technology 
will come to order. Pursuant to notice, the Committee on 
Science and Technology meets to consider the following 
measures, H.R. 1867, the National Science Foundation 
Authorization Act of 2007; H.R. 1868, Technological Innovation 
and Manufacturing Stimulation Act of 2007; H.Con.Res. 95, 
Honoring the career and research accomplishments of Frances E. 
Allen, the 2006 recipient of the A.M. Turing Award; and H.Res. 
316, Recognizing the accomplishments of Roger D. Kornberg, 
Andrew Fire, Craig Mello, John C. Mather, and George F. Smoot 
for being awarded Nobel Prizes in the fields of chemistry, 
physiology or medicine, and physics.
    And we will now proceed with the markup. Today the 
Committee is meeting to markup four good, bipartisan bills. The 
first bill we will consider today is H.R. 1867, the National 
Science Foundation Authorization Act of 2007. H.R. 1867 was 
introduced by Chairman Baird, Ranking Member Ehlers, and other 
Members of the Research and Science Education Subcommittee. The 
Subcommittee met last Wednesday to consider H.R. 1867 and 
favorably reported the bill by voice vote after adopting three 
amendments. I want to thank and congratulate Members of the 
Subcommittee for their hard work and bipartisan cooperation on 
this excellent bill.
    The core of this bill is the three-year authorization that 
keeps the Foundation on a ten-year doubling path. NSF is a 
major source of federal backing for basic research at 
universities across all disciplines, and Members of the Science 
and Technology Committee often have a difficult time explaining 
to our constituents and other Members of Congress why it is so 
important to fund basic research. The benefits to you and me 
can seem so intangible in comparison to many of the other 
things the Federal Government does. But with the publicity 
around the recent reports like Rising Above the Gathering 
Storm, more of our colleagues and constituents understand that 
federally funded research pays enormous dividends to society.
    Economic growth, public health, national defense, and 
social advancements have all been tied to technological 
developments resulting from basic research. Let me just quickly 
add that as we know, there is a long time between basic 
research and applied research; and what we are talking about 
really--when we look at the big problems today, whether they 
are energy independence, whether it is climate change, whether 
it is competitiveness, our kids' and grandkids' jobs really are 
going to depend upon the technology that is developed today. 
There are seven billion people in the world, half of which make 
less than $2 a day. We can't compete with them at $2. We don't 
want to. So it is the technologies that we are developing today 
that are going to let our kids and grandkids be more 
productive, and that is why it is so important that the 
National Science Foundation continue to do its work.
    In addition to providing strong research budgets, H.R. 1867 
provides important funding for some critical STEM education 
programs including three K-12 programs this committee expanded 
and refined in H.R. 362 which I am happy to say just passed the 
House yesterday. And again, I want to thank everyone here for 
that bipartisan work. It is a good bill. Mr. Gingrey spoke on 
it, and certainly Ralph and others spoke to that. I hope that 
everybody is in their local newspapers today because you were 
all a part of this bill, and it is a very good bill.
    And I am pleased that H.R. 1867 once again reaffirms the 
critical role that the National Science Foundation plays with 
STEM education. This is a good bill, and I urge my colleagues 
to support it and continue to work with me to assure that the 
rest of our colleagues in Congress understand the value of 
basic research as we do.
    Today we will also take up H.R. 1868, the Technological 
Innovation and Manufacturing Stimulation Act of 2007. This is 
an authorization bill for the programs of the National 
Institute of Standards and Technology, NIST. This bill is a 
bipartisan product of the Technology and Innovation 
Subcommittee, and I want to commend Chairman Wu and Ranking 
Member Gingrey for moving this bill through the Subcommittee 
expeditiously. The Science and Technology Committee needs to 
send a strong signal to the Appropriations Committees about the 
importance we place on full funding of NIST. The pace of 
technology keeps accelerating, particularly in areas such as 
biofuels, pharmaceutical biologics, and health care IT. NIST 
has an important role to play in the adoption of these 
technologies through the creation of standards and the new 
measurement technologies.
    And let me speak just a moment on this. You know, NIST is 
probably one of the most under-estimated aspects of the Federal 
Government. It was originally meant to take care of measures 
and standards. Now it goes much beyond that, and I think it is 
an agency that all of us can feel comfortable with because this 
is not a regulatory agency. This is an agency that brings 
together the business community and the manufacturing 
community, to work out problems on standards. And I think you 
are going to find that our committee here, besides the 
Technology and Innovation Subcommittee, is going to get a lot 
more respect within Washington and elsewhere because of this 
agency. We are where the Commerce Committee has been stagnant 
in terms of health care IT. Ways and Means hasn't been able to 
go forward. We are going to be able to step forward and solve 
some of those problems where the health care community is going 
to look at the Science and Technology Committee as the one who 
made that breakthrough. Financial services is going to look at 
us pretty soon as a committee that can make those kind of 
breakthroughs because of NIST. So we are going to continue 
working on that, and I think you are going to see NIST help us 
to make our committee much more relevant.
    The Committee is also aware of the important role that the 
Manufacturing Extension Partnership, MEP, plays in keeping good 
manufacturing jobs here in the United States, and NIST has a 
proven track record of implementing its technology development 
programs.
    Finally, the last two measures we are considering today, 
H.Con.Res. 95 and H.Res. 316 recognize the outstanding 
achievements of a group of American scientists. It is important 
that Congress recognize Americans who achieve great things in 
science, not just for the satisfaction of individual scientists 
but to show the public that Congress truly values the work that 
scientists do.
    And now I will recognize Mr. Hall to present his opening 
statement.
    [The prepared statement of Chairman Gordon follows:]
               Prepared Statement of Chairman Bart Gordon
    Good Morning. Pursuant to notice, the Committee on Science and 
Technology meets to consider the following measures:

        <bullet>  H.R. 1867, the National Science Foundation 
        Authorization Act of 2007;

        <bullet>  H.R. 1868, Technology Innovation and Manufacturing 
        Stimulation Act of 2007;

        <bullet>  H.Con.Res. 95, Honoring the career and research 
        accomplishments of Frances E. Allen, the 2006 recipient of the 
        A.M. Turing Award; and

        <bullet>  H.Res. 316, Recognizing the accomplishments of Roger 
        D. Kornberg, Andrew Fire, Craig Mello, John C. Mather, and 
        George F. Smoot for being awarded Nobel Prizes in the fields of 
        chemistry, physiology or medicine, and physics.

    Today the Committee is meeting to markup four good bipartisan 
bills. The first bill we will consider today is H.R. 1867, the National 
Science Foundation Authorization Act of 2007. H.R. 1867 was introduced 
by Chairman Baird, Ranking Member Ehlers and other Members of the 
Research and Science Education Subcommittee.
    The Subcommittee met last Wednesday to consider H.R. 1867, and 
favorably reported the bill by voice vote after adopting three 
amendments. I want to thank and congratulate Members of the 
Subcommittee for their hard work and bipartisan cooperation on this 
excellent bill. The core of this bill is the three-year authorization 
that keeps the Foundation on a 10-year doubling path.
    NSF is a major source of federal backing for basic research at 
universities, across all disciplines.
    Members of the Science and Technology Committee often have a 
difficult time explaining to our constituents and other Members of 
Congress why it is so important to fund basic research. The benefits to 
you and me can seem so intangible in comparison to many of the other 
things the Federal Government funds.
    But with the publicity around recent reports like ``Rising Above 
the Gathering Storm,'' more of our colleagues and constituents 
understand that federally-funded research pays enormous dividends to 
society. Economic growth, public health, national defense, and social 
advancement have all been tied to technological developments resulting 
from basic research.
    In addition to providing strong research budgets, H.R. 1867 
provides important funding for some critical STEM education programs, 
including three K-12 programs that this committee expanded and refined 
in H.R. 362, which I am happy to say just passed the House yesterday.
    The education programs at NSF are perhaps more tangible to the 
typical American, as everybody wants their children to be taught by 
highly qualified teachers and to graduate high school and community 
college prepared for the workforce of the 21st Century, or to have the 
opportunity to pursue even higher degrees if they so desire.
    I am pleased that H.R. 1867 once again reaffirms the critical role 
that NSF plays in STEM education. This is a good bill. I urge my 
colleagues to support it, and to continue to work with me to ensure 
that the rest of our colleagues in Congress understand the value of 
basic research as we do.
    Today, we'll also take up H.R. 1868, the Technology Innovation and 
Manufacturing Stimulation Act of 2007. This is an authorization bill 
for the programs of the National institute of Standards and Technology 
(NIST).
    This bill is the bipartisan product of the Technology and 
Innovation Subcommittee. I want to commend Chairman Wu and Ranking 
Member Gingrey for moving this bill through the Subcommittee 
expeditiously. The Science and Technology Committee needs to send a 
strong signal to the Appropriations Committee about the importance we 
place on full funding for NIST.
    H.R. 1868 places the NIST budget on the path to doubling over the 
next 10 years. The Science and Technology Committee has always been in 
the ``amen corner'' for fully funding all of NIST.
    The pace of technology keeps accelerating--particularly in areas 
such as biofuels, pharmaceutical biologics and health care IT. NIST has 
an important role to play in the adoption of these technologies through 
the creation of standards and new measurement technologies.
    This committee is also aware of the important role that the 
Manufacturing Extension Partnership (MEP) program plays in keeping good 
manufacturing jobs here in the U.S. And NIST has a proven track record 
in implementing its technology development program. H.R. 1868 does an 
excellent job of balancing and funding these priorities and everyone on 
this committee should support this legislation.
    Finally, the last two measures we are considering today, H.Con.Res. 
95 and H.Res. 316, recognize the outstanding achievements of a group of 
American scientists.
    It is important that Congress recognizes Americans who achieve 
great things in the sciences, not just for the satisfaction of the 
individual scientists, but to show the public that the Congress truly 
values the work that scientists do.
    I recognize Mr. Hall to present his opening remarks.

    Mr. Hall. Mr. Chairman, thank you for the chance to make 
some opening remarks. Of course, as you say, we are considering 
two authorization bills relating to the President's American 
Competitive Initiative and two resolutions honoring the 
accomplishments of some very eminent American scientists.
    The National Science Foundation Authorization Act of 2007 
authorizes funding for NSF for the next three fiscal years. 
This measure goes a long way in keeping with the President's 
ACI plan to double the budget within ten years. In fact, it 
goes slightly beyond that to incorporate some of the additions 
to education programs that the House passed just yesterday.
    I appreciate the work of the Subcommittee Ranking Member, 
Mr. Ehlers, for his dedication and work on this bill; and I 
thank the Chairman and I thank Congressman Baird for their 
willingness to cooperate on making this really a truly 
bipartisan endeavor. I look forward to our continuing working 
together to improve this legislation and pass it with broad 
support.
    I am also pleased that we are marking up H.R. 1868, the 
Technology Innovation and Manufacturing Stimulation Act of 
2007. H.R. 1868 supports the President's ACI by setting the 
NIST lab budget on a path to double by fiscal year 2017. This 
bill ensures that America's small- and medium-sized 
manufacturers have access to the latest technologies and 
processes by authorizing the Manufacturing Extension 
Partnership Program.
    Finally, H.R. 1868 authorizes the Technology Innovation 
Program to promote the swift development of high-risk research 
into marketable technologies. And I thank Dr. Ehlers and Dr. 
Gingrey for their extensive input into developing this bill, as 
well as the staff who dedicated considerable time in this 
endeavor. Also I want to thank my Democratic colleagues for 
incorporating these important priorities in this bipartisan 
legislation.
    Mr. Chairman, I am also pleased this committee will honor 
six esteemed American scientists today. H.Con.Res. 95 
recognizes the first woman to receive the prestigious computer 
science A.M. Turing Award, Frances Allen. H.Res. 316 honors the 
five American scientists who received Nobel Prizes in 2006, 
Roger Kornberg for chemistry, Andrew Fire for medicine, Craig 
Mello for Medicine, John Mather for physics, and George Smoot 
for physics.
    Before I close, I want to point out that the NSF and NIST 
bills, as you have said, Mr. Chairman, both major pieces of 
legislation, were developed after only a few hearings on each 
topic, only one in the case of NIST. These hearings were at the 
subcommittee level, so only a few Members of the Committee were 
able to attend the hearings. Also, with regard to the NIST 
bill, there was never a hearing on the New Technology 
Innovation Program. In fact, these two bills were put together 
so quickly we have yet to receive all the witnesses' response 
and questions--their response to the questions for the record 
submitted by Members of the Committee.
    So Mr. Chairman, while I certainly support these bills in 
their current form, once I have received all of the witnesses' 
response, I, or some other Members, may want to propose further 
amendments to these bills when they are considered on the House 
Floor. I know you will work with us on that.
    With that, I yield back the balance of my time, and I thank 
you for laying out a good bill and preparing for a good 
hearing. I yield back.
    [The prepared statement of Mr. Hall follows:]

           Prepared Statement of Representative Ralph M. Hall

        <bullet>  H.R. 1867, National Science Foundation Authorization 
        Act of 2007

        <bullet>  H.R. 1868, Technology Innovation and Manufacturing 
        Stimulation Act of 2007

        <bullet>  H.Con.Res. 95, Honoring the Career and Research 
        Accomplishments of Frances E. Allen, the 2006 Recipient of the 
        A.M. Turing Award

        <bullet>  H.Res. 316, Recognizing the accomplishments of Roger 
        D. Kornberg, Andrew Fire, Craig Mello, John C. Mather, and 
        George F. Smoot for being award Nobel Prizes in the fields of 
        chemistry, physiology or medicine, and physics.

    Thank you, Chairman Gordon, for the chance to make some opening 
remarks about today's markup. Today we are considering two 
authorization bills related to the President's American Competitiveness 
Initiative (ACI) and two resolutions honoring the accomplishments of 
eminent American scientists.
    The National Science Foundation (NSF) Authorization Act of 2007, 
H.R. 1867, authorizes funding for NSF for the next three fiscal years. 
This measure goes a long way in keeping with the President's ACI plan 
to double the budget within ten years. In fact, it goes slightly beyond 
that to incorporate some of the additions to education programs that 
the House passed yesterday. I appreciate the work of the Subcommittee 
Ranking Member, Mr. Ehlers, for his dedication and work on this bill 
and thank the Chairman and Mr. Baird for their willingness to cooperate 
on making this a bipartisan endeavor. I look forward to our continuing 
to work together to improve this legislation and pass it with broad 
support.
    I am pleased to be an original co-sponsor of H.R. 1868, the 
Technology Innovation and Manufacturing Stimulation Act of 2007. H.R. 
1868 supports the President's ACI by setting NIST's lab budget on a 
path to double the budget by fiscal year 2017. The bill will ensure 
America's small- and medium-sized manufacturers have access to the 
latest technologies and processes by authorizing the Manufacturing 
Extension Partnership Program. Finally, H.R. 1868 authorizes the 
Technology Innovation Program to promote the swift development of high-
risk research into marketable technologies. I thank Dr. Ehlers and Dr. 
Gingrey for their extensive input in developing this bill and my 
Democratic colleagues for incorporating our priorities into this 
bipartisan legislation.
    I also am pleased the Committee will honor six esteemed American 
scientists today. H.Con.Res. 95 recognizes the first woman to receive 
the prestigious computer science A.M. Turner award, Frances Allen. 
H.Res. 316 honors the five American scientists who received Nobel 
prizes in 2006: Roger Kornberg for chemistry; Andrew Fire for medicine; 
Craig Mello for medicine; John Mather for physics; and George Smoot for 
physics.
    Before I close, I want to point out that the NSF and NIST bills, 
both major pieces of legislation, were developed after only one hearing 
on each topic. Those hearings were at the Subcommittee level, so only a 
few Members of the Committee were able to attend the hearings. In the 
case of the NIST bill there was never a hearing on the new Technology 
Innovation Program. In fact, these two bills were put together so 
quickly that we have yet to receive all of the witnesses' responses to 
questions for the record submitted by Members of this committee. 
Therefore, Mr. Chairman, while I support these bills in their current 
form, once I have reviewed all of the witnesses responses I, or other 
Members, may want to propose further amendments to these bills when 
they are considered on the House Floor.
    With that I yield back the balance of my time.

    Chairman Gordon. Thank you, Mr. Hall. Let me assure you 
that we want to continue to work in the spirit that we have to 
get good bills. You know, the last NIST authorization was in 
1992 out of this committee. It has been five years since we had 
a National Science Foundation authorization. There have been 
lots of hearings in between, but you know, it is time to get 
something done; and we want to have the best bill possible, and 
you can be absolutely assured that we will continue with that 
collaboration.
    Without objection, Members may place statements in the 
record at this point.
    We now will consider H. Con. Resolution 95, Honoring the 
career and research accomplishments of Frances E. Allen, the 
2006 recipient of the A.M. Turing Award. I yield Ms. Woolsey 
five minutes to describe this resolution.
    Ms. Woolsey. Thank you, Mr. Chairman. Thank you for 
bringing H.Con.Res. 94 before the Committee for consideration. 
H.Con.Res. 95 honors a pioneer in the world of computing, Dr. 
Frances Allen, the first woman awarded the A.M. Turing Award by 
the Association for Computing Machinery, ACM.
    The Turing Award is widely considered to be actually the 
Nobel Prize of computing and by being the first female 
recipient, Dr. Allen is highlighted as a role model for women 
everywhere to aspire to a career in math and science.
    As a scientist at IBM since the early 1960s, Dr. Allen 
pioneered new technologies which serve as the basis for complex 
theories that are widely used today throughout the computer 
industry. Because of this, she was also the first woman to be 
recognized as an IBM Fellow in 1989.
    It should come as no surprise to any Member of this 
committee that the Nation's IT workforce is suffering from a 
lack of qualified candidates. It is certainly telling that 
women who earn more than half of all undergraduate degrees in 
this country and make up more than half of the professional 
workforce represent only 25 percent of all IT workers. In fact, 
that percentage of women graduating with degrees in computer 
science has fallen from 37 percent of total graduates in '95 to 
just 15 percent in 2005.
    With grim statistics like these, it is clear that if we are 
going to close the gap and ensure the information technologies 
sector has enough workers, we must get young women into this 
workforce.
    Besides her outstanding scientific achievements, Dr. Allen 
has also been an inspirational mentor to all young researchers 
and a leader within the computing community. She is an Advisory 
Council member of the Anita Board Institute for Women and 
Technology whose goal is to increase participation of women in 
all aspects of technology. It is clear that Dr. Allen deserves 
recognition for all the tireless work she has done to promote 
women's roles in computing.
    Mr. Chairman, Dr. Frances Allen is a role model for 
scientists everywhere. Having succeeded at the highest levels 
of math and science, I therefore urge my colleagues to support 
this bill and not only congratulate Dr. Allen on her success 
but show that this Congress appreciates her setting the bar 
high in her support of an increased presence of women in 
science and technology.
    With that I yield back.
    Chairman Gordon. Thank you, Ms. Woolsey, and I recognize 
Mr. Hall to present any remarks on the resolution.
    Mr. Hall. Mr. Chairman, Ms. Woolsey has very adequately set 
out the reasons that this lady is being honored and 
respectfully has done it in a great manner. It is a good 
resolution honoring a true pioneer, and I am pleased to support 
the resolution. I yield back my time.
    Chairman Gordon. Thank you. Does anyone else wish to be 
recognized? If not, I ask unanimous consent that the resolution 
is considered as read and open to amendment at any point and 
that the Members proceed with the amendments in the order of 
the roster. Without objection, so ordered.
    The first amendment on the roster is offered by the 
gentlelady from California, Ms. Woolsey. Are you ready to 
proceed with your amendment?
    Ms. Woolsey. Yes, Mr. Chairman, I have an amendment at the 
desk.
    Chairman Gordon. The Clerk will report the amendment.
    The Clerk. Amendment to H.Con.Res. 95 offered by Ms. 
Woolsey.
    Chairman Gordon. I ask unanimous consent to dispense with 
the reading. Without objection, so ordered.
    The gentlelady is recognized for five minutes to explain 
her amendment.
    Ms. Woolsey. Mr. Chairman, in drafting this bill, mention 
of the Association for Computing Machinery was inadvertently 
left out of my bill, and the amendment simply adds the 
following whereas statement, whereas the Association for 
Computing Machinery, an international organization of computing 
professionals, gives the A.M. Turing Award annually to 
individuals whose contributions in the field of computing are 
long-lasting and are of major technical importance. That is the 
end of the change and additions, Chairman.
    Chairman Gordon. Thank you, Ms. Woolsey. Is there further 
discussion on the amendment? If not, the vote occurs on the 
amendment. All in favor say aye, those opposed no. The ayes 
have it, and the amendment is agreed to.
    Are there other amendments? Hearing none, the vote is on 
the resolution, H.Con.Res. 95 as amended. All those in favor 
will say aye, all those opposed no. In the opinion of the 
Chair, the ayes have it.
    I recognize Mr. Hall to offer a motion.
    Mr. Hall. Mr. Chairman, I move that the Committee favorably 
report House Concurrent Resolution 95, as amended, to the House 
with the recommendation that the bill do pass. Further, I move 
that staff be instructed to make necessary technical and 
conforming changes and that the Chairman take all the necessary 
steps to bring the resolution before the House for 
consideration. I yield back.
    Chairman Gordon. The question is on the motion to report 
the resolution favorably. Those in favor of the motion will 
signify by saying aye, opposed no. The ayes have it, and the 
resolution is favorably reported.
    Without objection the motion to reconsider is laid upon the 
table. I move the Members have two subsequent calendar days in 
which to submit supplemental minority or additional views on 
the measure. I move pursuant to Clause 1 of Rule 22 of the 
Rules of the House of Representatives that the Committee 
authorize the Chairman to offer such motions as may be 
necessary in the House to adopt and pass H.Con.Res. 95, 
Honoring the career and research accomplishments of Frances E. 
Allen, the 2006 recipient of the A.M. Turing Award, as amended. 
Without objection, so ordered.
    And finally, let me look at all of you say thank you for 
being the hard core and staying here as we completed our 
business. We had four good resolutions today, and I want to 
thank all of you again; and this meeting is concluded.
    [Whereupon, at 11:28 a.m., the Committee was adjourned.]
                               Appendix:

                              ----------                              


                    H.Con.Res. 95, Amendment Roster


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



PROCEEDINGS OF THE FULL COMMITTEE MARKUP ON H.RES. 316, RECOGNIZING THE 
 ACCOMPLISHMENTS OF RODGER D. KORNBERG, ANDREW FIRE, CRAIG MELLO, JOHN 
 C. MATHER, AND GEORGE F. SMOOT FOR BEING AWARDED NOBEL PRIZES IN THE 
        FIELDS OF CHEMISTRY, PHYSIOLOGY OR MEDICINE, AND PHYSICS

                              ----------                              


                       WEDNESDAY, APRIL 25, 2007

                  House of Representatives,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:00 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Bart Gordon 
[Chairman of the Committee] presiding.
    Chairman Gordon. The Committee on Science and Technology 
will come to order. Pursuant to notice, the Committee on 
Science and Technology meets to consider the following 
measures, H.R. 1867, the National Science Foundation 
Authorization Act of 2007; H.R. 1868, Technological Innovation 
and Manufacturing Stimulation Act of 2007; H.Con.Res. 95, 
Honoring the career and research accomplishments of Frances E. 
Allen, the 2006 recipient of the A.M. Turing Award; and H.Res. 
316, Recognizing the accomplishments of Roger D. Kornberg, 
Andrew Fire, Craig Mello, John C. Mather, and George F. Smoot 
for being awarded Nobel Prizes in the fields of chemistry, 
physiology or medicine, and physics.
    And we will now proceed with the markup. Today the 
Committee is meeting to markup four good, bipartisan bills. The 
first bill we will consider today is H.R. 1867, the National 
Science Foundation Authorization Act of 2007. H.R. 1867 was 
introduced by Chairman Baird, Ranking Member Ehlers, and other 
Members of the Research and Science Education Subcommittee. The 
Subcommittee met last Wednesday to consider H.R. 1867 and 
favorably reported the bill by voice vote after adopting three 
amendments. I want to thank and congratulate Members of the 
Subcommittee for their hard work and bipartisan cooperation on 
this excellent bill.
    The core of this bill is the three-year authorization that 
keeps the Foundation on a ten-year doubling path. NSF is a 
major source of federal backing for basic research at 
universities across all disciplines, and Members of the Science 
and Technology Committee often have a difficult time explaining 
to our constituents and other Members of Congress why it is so 
important to fund basic research. The benefits to you and me 
can seem so intangible in comparison to many of the other 
things the Federal Government does. But with the publicity 
around the recent reports like Rising Above the Gathering 
Storm, more of our colleagues and constituents understand that 
federally funded research pays enormous dividends to society.
    Economic growth, public health, national defense, and 
social advancements have all been tied to technological 
developments resulting from basic research. Let me just quickly 
add that as we know, there is a long time between basic 
research and applied research; and what we are talking about 
really--when we look at the big problems today, whether they 
are energy independence, whether it is climate change, whether 
it is competitiveness, our kids' and grandkids' jobs really are 
going to depend upon the technology that is developed today. 
There are seven billion people in the world, half of which make 
less $2 a day. We can't compete with them at $2. We don't want 
to. So it is the technologies that we are developing today that 
are going to let our kids and grandkids be more productive, and 
that is why it is so important that the National Science 
Foundation continue to do its work.
    In addition to providing strong research budgets, H.R. 1867 
provides important funding for some critical STEM education 
programs including three K-12 programs this committee expanded 
and refined in H.R. 362 which I am happy to say just passed the 
House yesterday. And again, I want to thank everyone here for 
that bipartisan work. It is a good bill. Mr. Gingrey spoke on 
it, and certainly Ralph and others spoke to that. I hope that 
everybody is in their local newspapers today because you were 
all a part of this bill, and it is a very good bill.
    And I am pleased that H.R. 1867 once again reaffirms the 
critical role that the National Science Foundation plays with 
STEM education. This is a good bill, and I urge my colleagues 
to support it and continue to work with me to assure that the 
rest of our colleagues in Congress understand the value of 
basic research as we do.
    Today we will also take up H.R. 1868, the Technological 
Innovation and Manufacturing Stimulation Act of 2007. This is 
an authorization bill for the programs of the National 
Institute of Standards and Technology, NIST. This bill is a 
bipartisan product of the Technology and Innovation 
Subcommittee, and I want to commend Chairman Wu and Ranking 
Member Gingrey for moving this bill through the Subcommittee 
expeditiously. The Science and Technology Committee needs to 
send a strong signal to the Appropriations Committees about the 
importance we place on full funding of NIST. The pace of 
technology keeps accelerating, particularly in areas such as 
biofuels, pharmaceutical biologics, and health care IT. NIST 
has an important role to play in the adoption of these 
technologies through the creation of standards and the new 
measurement technologies.
    And let me speak just a moment on this. You know, NIST is 
probably one of the most under-estimated aspects of the Federal 
Government. It was originally meant to take care of measures 
and standards. Now it goes much beyond that, and I think it is 
an agency that all of us can feel comfortable with because this 
is not a regulatory agency. This is an agency that brings 
together the business community and the manufacturing 
community, to work out problems on standards. And I think you 
are going to find that our committee here, besides the 
Technology and Innovation Subcommittee, is going to get a lot 
more respect within Washington and elsewhere because of this 
agency. We are where the Commerce Committee has been stagnant 
in terms of health care IT. Ways and Means hasn't been able to 
go forward. We are going to be able to step forward and solve 
some of those problems where the health care community is going 
to look at the Science and Technology Committee as the one who 
made that breakthrough. Financial services is going to look at 
us pretty soon as a committee that can make those kind of 
breakthroughs because of NIST. So we are going to continue 
working on that, and I think you are going to see NIST help us 
to make our committee much more relevant.
    The Committee is also aware of the important role that the 
Manufacturing Extension Partnership, MEP, plays in keeping good 
manufacturing jobs here in the United States, and NIST has a 
proven track record of implementing its technology development 
programs.
    Finally, the last two measures we are considering today, 
H.Con.Res. 95 and H.Res. 316 recognize the outstanding 
achievements of a group of American scientists. It is important 
that Congress recognize Americans who achieve great things in 
science, not just for the satisfaction of individual scientists 
but to show the public that Congress truly values the work that 
scientists do.
    And now I will recognize Mr. Hall to present his opening 
statement.
    [The prepared statement of Chairman Gordon follows:]
               Prepared Statement of Chairman Bart Gordon
    Good Morning. Pursuant to notice, the Committee on Science and 
Technology meets to consider the following measures:

        <bullet>  H.R. 1867, the National Science Foundation 
        Authorization Act of 2007;

        <bullet>  H.R. 1868, Technology Innovation and Manufacturing 
        Stimulation Act of 2007;

        <bullet>  H.Con.Res. 95, Honoring the career and research 
        accomplishments of Frances E. Allen, the 2006 recipient of the 
        A.M. Turing Award; and

        <bullet>  H.Res. 316, Recognizing the accomplishments of Roger 
        D. Kornberg, Andrew Fire, Craig Mello, John C. Mather, and 
        George F. Smoot for being awarded Nobel Prizes in the fields of 
        chemistry, physiology or medicine, and physics.

    Today the Committee is meeting to markup four good bipartisan 
bills. The first bill we will consider today is H.R. 1867, the National 
Science Foundation Authorization Act of 2007. H.R. 1867 was introduced 
by Chairman Baird, Ranking Member Ehlers and other Members of the 
Research and Science Education Subcommittee.
    The Subcommittee met last Wednesday to consider H.R. 1867, and 
favorably reported the bill by voice vote after adopting three 
amendments. I want to thank and congratulate Members of the 
Subcommittee for their hard work and bipartisan cooperation on this 
excellent bill. The core of this bill is the three-year authorization 
that keeps the Foundation on a 10-year doubling path.
    NSF is a major source of federal backing for basic research at 
universities, across all disciplines.
    Members of the Science and Technology Committee often have a 
difficult time explaining to our constituents and other Members of 
Congress why it is so important to fund basic research. The benefits to 
you and me can seem so intangible in comparison to many of the other 
things the Federal Government funds.
    But with the publicity around recent reports like ``Rising Above 
the Gathering Storm,'' more of our colleagues and constituents 
understand that federally-funded research pays enormous dividends to 
society. Economic growth, public health, national defense, and social 
advancement have all been tied to technological developments resulting 
from basic research.
    In addition to providing strong research budgets, H.R. 1867 
provides important funding for some critical STEM education programs, 
including three K-12 programs that this committee expanded and refined 
in H.R. 362, which I am happy to say just passed the House yesterday.
    The education programs at NSF are perhaps more tangible to the 
typical American, as everybody wants their children to be taught by 
highly qualified teachers and to graduate high school and community 
college prepared for the workforce of the 21st Century, or to have the 
opportunity to pursue even higher degrees if they so desire.
    I am pleased that H.R. 1867 once again reaffirms the critical role 
that NSF plays in STEM education. This is a good bill. I urge my 
colleagues to support it, and to continue to work with me to ensure 
that the rest of our colleagues in Congress understand the value of 
basic research as we do.
    Today, we'll also take up H.R. 1868, the Technology Innovation and 
Manufacturing Stimulation Act of 2007. This is an authorization bill 
for the programs of the National institute of Standards and Technology 
(NIST).
    This bill is the bipartisan product of the Technology and 
Innovation Subcommittee. I want to commend Chairman Wu and Ranking 
Member Gingrey for moving this bill through the Subcommittee 
expeditiously. The Science and Technology Committee needs to send a 
strong signal to the Appropriations Committee about the importance we 
place on full funding for NIST.
    H.R. 1868 places the NIST budget on the path to doubling over the 
next 10 years. The Science and Technology Committee has always been in 
the ``amen corner'' for fully funding all of NIST.
    The pace of technology keeps accelerating--particularly in areas 
such as biofuels, pharmaceutical biologics and health care IT. NIST has 
an important role to play in the adoption of these technologies through 
the creation of standards and new measurement technologies.
    This committee is also aware of the important role that the 
Manufacturing Extension Partnership (MEP) program plays in keeping good 
manufacturing jobs here in the U.S. And NIST has a proven track record 
in implementing its technology development program. H.R. 1868 does an 
excellent job of balancing and funding these priorities and everyone on 
this committee should support this legislation.
    Finally, the last two measures we are considering today, H.Con.Res. 
95 and H.Res. 316, recognize the outstanding achievements of a group of 
American scientists.
    It is important that Congress recognizes Americans who achieve 
great things in the sciences, not just for the satisfaction of the 
individual scientists, but to show the public that the Congress truly 
values the work that scientists do.
    I recognize Mr. Hall to present his opening remarks.

    Mr. Hall. Mr. Chairman, thank you for the chance to make 
some opening remarks. Of course, as you say, we are considering 
two authorization bills relating to the President's American 
Competitive Initiative and two resolutions honoring the 
accomplishments of some very eminent American scientists.
    The National Science Foundation Authorization Act of 2007 
authorizes funding for NSF for the next three fiscal years. 
This measure goes a long way in keeping with the President's 
ACI plan to double the budget within ten years. In fact, it 
goes slightly beyond that to incorporate some of the additions 
to education programs that the House passed just yesterday.
    I appreciate the work of the Subcommittee Ranking Member, 
Mr. Ehlers, for his dedication and work on this bill; and I 
thank the Chairman and I thank Congressman Baird for their 
willingness to cooperate on making this really a truly 
bipartisan endeavor. I look forward to our continuing working 
together to improve this legislation and pass it with broad 
support.
    I am also pleased that we are marking up H.R. 1868, the 
Technology Innovation and Manufacturing Stimulation Act of 
2007. H.R. 1868 supports the President's ACI by setting the 
NIST lab budget on a path to double by fiscal year 2017. This 
bill ensures that America's small- and medium-sized 
manufacturers have access to the latest technologies and 
processes by authorizing the Manufacturing Extension 
Partnership Program.
    Finally, H.R. 1868 authorizes the Technology Innovation 
Program to promote the swift development of high-risk research 
into marketable technologies. And I thank Dr. Ehlers and Dr. 
Gingrey for their extensive input into developing this bill, as 
well as the staff who dedicated considerable time in this 
endeavor. Also I want to thank my Democratic colleagues for 
incorporating these important priorities in this bipartisan 
legislation.
    Mr. Chairman, I am also pleased this committee will honor 
six esteemed American scientists today. H.Con.Res. 95 
recognizes the first woman to receive the prestigious computer 
science A.M. Turing Award, Frances Allen. H.Res. 316 honors the 
five American scientists who received Nobel Prizes in 2006, 
Roger Kornberg for chemistry, Andrew Fire for medicine, Craig 
Mello for Medicine, John Mather for physics, and George Smoot 
for physics.
    And before I close, I want to point out that the NSF and 
NIST bills as you have said, Mr. Chairman, both major pieces of 
legislation, were developed after only a few hearings on each 
topic, only one in the case of NIST. These hearings were at the 
subcommittee level, so only a few Members of the Committee were 
able to attend the hearings. Also, with regard to the NIST 
bill, there was never a hearing on the New Technology 
Innovation Program. In fact, these two bills were put together 
so quickly we have yet to receive all the witnesses' response 
and questions--their response to the questions for the record 
submitted by Members of the Committee.
    So Mr. Chairman, while I certainly support these bills in 
their current form and once I have received all of the 
witnesses' response, I or some other Members may want to 
propose further amendments to these bills when they are 
considered on the House Floor, and I know you will work with us 
on that.
    With that, I yield back the balance of my time, and I thank 
you for laying out a good bill and preparing for a good 
hearing. I yield back.
    [The prepared statement of Mr. Hall follows:]
           Prepared Statement of Representative Ralph M. Hall

        <bullet>  H.R. 1867, National Science Foundation Authorization 
        Act of 2007

        <bullet>  H.R. 1868, Technology Innovation and Manufacturing 
        Stimulation Act of 2007

        <bullet>  H.Con.Res. 95, Honoring the Career and Research 
        Accomplishments of Frances E. Allen, the 2006 Recipient of the 
        A.M. Turing Award

        <bullet>  H.Res. 316, Recognizing the accomplishments of Roger 
        D. Kornberg, Andrew Fire, Craig Mello, John C. Mather, and 
        George F. Smoot for being award Nobel Prizes in the fields of 
        chemistry, physiology or medicine, and physics.

    Thank you, Chairman Gordon, for the chance to make some opening 
remarks about today's markup. Today we are considering two 
authorization bills related to the President's American Competitiveness 
Initiative (ACI) and two resolutions honoring the accomplishments of 
eminent American scientists.
    The National Science Foundation (NSF) Authorization Act of 2007, 
H.R. 1867, authorizes funding for NSF for the next three fiscal years. 
This measure goes a long way in keeping with the President's ACI plan 
to double the budget within ten years. In fact, it goes slightly beyond 
that to incorporate some of the additions to education programs that 
the House passed yesterday. I appreciate the work of the Subcommittee 
Ranking Member, Mr. Ehlers, for his dedication and work on this bill 
and thank the Chairman and Mr. Baird for their willingness to cooperate 
on making this a bipartisan endeavor. I look forward to our continuing 
to work together to improve this legislation and pass it with broad 
support.
    I am pleased to be an original co-sponsor of H.R. 1868, the 
Technology Innovation and Manufacturing Stimulation Act of 2007. H.R. 
1868 supports the President's ACI by setting NIST's lab budget on a 
path to double the budget by fiscal year 2017. The bill will ensure 
America's small- and medium-sized manufacturers have access to the 
latest technologies and processes by authorizing the Manufacturing 
Extension Partnership Program. Finally, H.R. 1868 authorizes the 
Technology Innovation Program to promote the swift development of high-
risk research into marketable technologies. I thank Dr. Ehlers and Dr. 
Gingrey for their extensive input in developing this bill and my 
Democratic colleagues for incorporating our priorities into this 
bipartisan legislation.
    I also am pleased the Committee will honor six esteemed American 
scientists today. H.Con.Res. 95 recognizes the first woman to receive 
the prestigious computer science A.M. Turner award, Frances Allen. 
H.Res. 316 honors the five American scientists who received Nobel 
prizes in 2006: Roger Kornberg for chemistry; Andrew Fire for medicine; 
Craig Mello for medicine; John Mather for physics; and George Smoot for 
physics.
    Before I close, I want to point out that the NSF and NIST bills, 
both major pieces of legislation, were developed after only one hearing 
on each topic. Those hearings were at the Subcommittee level, so only a 
few Members of the Committee were able to attend the hearings. In the 
case of the NIST bill there was never a hearing on the new Technology 
Innovation Program. In fact, these two bills were put together so 
quickly that we have yet to receive all of the witnesses' responses to 
questions for the record submitted by Members of this committee. 
Therefore, Mr. Chairman, while I support these bills in their current 
form, once I have reviewed all of the witnesses responses I, or other 
Members, may want to propose further amendments to these bills when 
they are considered on the House Floor.
    With that I yield back the balance of my time.

    Chairman Gordon. Thank you, Mr. Hall. Let me assure you 
that we want to continue to work in the spirit that we have to 
get good bills. You know, the last NIST authorization was in 
1992 out of this committee. It has been five years since we had 
a National Science Foundation authorization. There have been 
lots of hearings in between, but you know, it is time to get 
something done; and we want to have the best bill possible, and 
you can be absolutely assured that we will continue with that 
collaboration.
    Without objection, Members may place statements in the 
record at this point.
    We will now consider H.Con.Res. 316, Recognizing the 
accomplishments of Roger D. Kornberg, Andrew Fire, Craig Mello, 
John C. Mather, and George F. Smoot for being awarded the Nobel 
Prize in the fields of chemistry, physiology or medicine, and 
physics.
    Mr. McNerney is not here right now but let me say I very 
much appreciate the attendance here at the end. Oh, and here he 
is. We were going to proceed anyway because you were so good to 
stay but since Mr. McNerney is here, I would recognize him for 
opening remarks.
    Mr. McNerney. Thank you, Mr. Chairman, for allowing that 
dramatic entrance. And I also thank Ranking Member Hall for 
your support in this resolution for working quickly to ensure 
that we recognize a deserving group of scientists on their 
important achievements. I especially appreciate the opportunity 
to describe this legislation that highlights the contributions 
of American scientists.
    H.Res. 316 is a scientific work not only because it 
applauds the breakthrough of scientific work but the bill also 
draws attention to many of the issues we frequently work on in 
the Committee, putting a spotlight on scientific discovery as a 
way to inspire a new generation to become involved in fields 
that they might otherwise ignore.
    For the first time in over 20 years U.S. researchers have 
swept the scientific categories of the Nobel Prize by winning 
awards for chemistry, physiology or medicine, and physics. It 
is fitting that we recognize the contributions of these 
individuals, and I am proud that we are doing so here today.
    In December of last year, the Nobel Prize in chemistry was 
awarded to Roger Kornberg from Stanford University in my home 
State of California, the physiology prize went to Andrew Fire 
who works also at Stanford in the school of medicine, and the 
physics award went to John Mather from NASA's Goddard Space 
Center and to George Smoot from the University of California at 
Berkeley.
    Mr. Smoot has also the timely distinction of adding his 
name to the list of more than 170 National Science Foundation 
grantees who were awarded the Nobel Prizes over the years. I am 
sure that with the improvements we have just made to programs 
at NSF and the dedication that we all have to moving this 
country forward, Professor Smoot will certainly not be the last 
Nobel Prize winner to benefit from NSF funding.
    H.Res. 316 officially recognizes the accomplishments of 
these scientists and their contributions to improving society.
    Mr. Chairman, I can't think of a better way to honor these 
individuals and commend them for helping the United States 
sweep science Nobel Prizes for the first time in 33 years. As I 
look out here, I see a number of young scientists and implore 
you to continue your work. We will do our work here in the 
Committee to see that you get the money you need and the 
recognition, and you need to work as hard as you can to fulfill 
your visions and your dreams of making new awards and new 
discoveries in science.
    I thank you and I yield back the back of my time.
    [The prepared statement of Mr. McNerney follows:]

          Prepared Statement of Representative Jerry McNerney

    Thank you Mr. Chairman.
    And thank you, Ranking Member Hall, for your support of this 
resolution and for working quickly to ensure that we recognize a very 
deserving group of scientists on their important achievements.
    I appreciate the opportunity to describe this legislation that 
highlights the contributions of American scientists.
    H.Res. 316 is significant, not only because it applauds 
breakthrough scientific work, but the bill also draws attention to many 
of the issues we frequently work on in this committee; putting the 
spotlight on scientific discovery as a way to get young people 
interested in fields they might otherwise ignore.
    For the first time in more than 20 years, U.S. researchers swept 
the scientific categories of the Nobel Prize by winning the awards for 
chemistry, physiology or medicine, and physics.
    It is fitting that we recognize the contributions of these 
individuals, and I'm pleased that we're doing so here today.
    In December of last year the Nobel Prize in Chemistry was awarded 
to Roger Kornberg from Stanford University in my State of California; 
the physiology prize went to Andrew Fire, who also works at Stanford--
in the School of Medicine--and the physics award went to John Mather 
from NASA's Goddard Space Center and to George Smoot from the 
University of California at Berkeley.
    Mr. Smoot also has the timely distinction of adding his name to the 
list of more than 170 NSF grantees who were awarded Nobel Prizes over 
the years.
    I'm sure that with the improvements we've just made to the programs 
at NSF, and the dedication that we all have to moving this country 
forward, Professor Smoot will certainly not be the last Nobel winner to 
benefit from NSF funding.
    H.Res. 316 officially recognizes the accomplishments of these 
scientists and their contributions to improving society.
    Mr. Chairman, I can't think of a better way to honor these 
individuals and commend them for helping the U.S. sweep the science 
Nobel Prizes for the first time in 33 years.
    Thank you, and I yield my time.

    Chairman Gordon. Thank you for those remarks, and I will 
remind everyone that these are not only significant awards for 
individuals, but this is really an award for America that we 
would sweep these and that these Nobel Prize winners will be 
honored at a luncheon next week here in the Science Committee 
Room; and we welcome everyone to join.
    And I recognize Mr. Hall to present any remarks on the 
resolution.
    Mr. Hall. I thank you, Mr. Chairman. I am pleased to 
support the resolution. I would like to add that these men are 
true testaments to the spirit of American innovation. In an 
increasingly competitive world, it is impressive that our 
Nation continues to produce world-class scholars such as these 
men. It really doesn't surprise me that the Nation that 
invented the light bulb and put a man on the Moon fosters such 
innovative solutions to the most pressing challenges. It is my 
hope that our innovation agenda will continue to provide a 
foundation from which scholars and entrepreneurs can launch 
their ideas into the competitive marketplace as these men have 
done. I yield back.
    Chairman Gordon. Thank you, Mr. Hall, and I think our NSF 
authorization and our NIST authorization today will help 
accomplish what you had suggested.
    Does anyone else wish to be recognized? Dr. Baird.
    Mr. Baird. Mr. Chairman, very briefly, during our debate on 
H.R. 362 and 363, I observed that we need to embody--we spoke 
about the need to improve respect for science and math 
education nationwide, and I suggest that we need to embody that 
with the Congress, and I observe that we tend to offer more 
resolutions congratulating athletic teams or movie stars than 
we do honoring sciences; and I very much commend Mr. McNerney 
for reversing that trend and it is richly deserved that we 
honor and that the Congress really embody the principle of 
honoring these scientists with this resolution. I commend him 
for it and thank him for offering this resolution.
    Chairman Gordon. Thank you. And once again, we invite 
everyone to come meet them next week.
    Is there anyone else that would like to speak to this 
resolution? If not, I ask unanimous consent that the resolution 
is considered as read and open to amendment at any point and 
that Members proceed with amendments in the order of the 
roster. Without objection, so ordered.
    Are there any amendments? Hearing none, the vote is on the 
resolution, H. Res. 316. All those in favor say aye, all those 
opposed say no. In opinion of the Chair, the ayes have it.
    I recognize Mr. Hall to offer a motion.
    Mr. Hall. Mr. Chairman, I move that the Committee favorably 
report House Resolution 316 to the House with the 
recommendation that the bill do pass. Furthermore, I move that 
staff be instructed to make necessary technical and conforming 
changes and that the Chairman take all the necessary steps to 
bring the resolution before the House for consideration. I 
yield back my time.
    Chairman Gordon. The question is on the motion to report 
the resolution favorably. Those in favor of the motion will 
signify by saying aye, opposed no. The ayes have it. The 
resolution is reported favorably. Without objection the motion 
to reconsider is laid upon the table. I move the Members have 
two subsequent calendar days in which to submit supplemental 
minority or additional views on the measure. I move pursuant to 
Clause 1 of Rule 22 of the Rules of the House of 
Representatives that the Committee authorize the Chairman to 
offer such motions as may be necessary in the House to adopt 
and pass H.Res. 316, Recognizing the accomplishments of Dr. 
Roger D. Kornberg, Andrew Fire, Craig Mello, John C. Mather, 
and George F. Smoot for being awarded the Nobel Prizes in the 
fields of chemistry, physiology or medicine, and physics. 
Without objection, so ordered.
    And finally, let me look at all of you say thank you for 
being the hard core and staying here as we completed our 
business. We had four good resolutions today, and I want to 
thank all of you again; and this meeting is concluded.
    [Whereupon, at 11:28 a.m., the Committee was adjourned.]
                               Appendix:

                              ----------                              


                               H.Res. 316


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                ADVANCED RESEARCH PROJECTS AGENCY-ENERGY

                              ------------

    Mr. Gordon of Tennessee, from the Committee on Science and 
Technology, submitted the following:

                              R E P O R T

    [To accompany H.R. 364]

    [Including cost estimate of the Congressional Budget 
Office]

    The Committee on Science and Technology, to whom was 
referred the bill (H.R. 364) to provide for the establishment 
of the Advanced Research Projects Agency-Energy, having 
considered the same, reports favorably thereon with an 
amendment and recommends that the bill as amended do pass.

                                                                                                                CONTENTS

                                                                                                                                                                                                                                    Page

I.                                                                                                                                                                                                                      Amendment   62
II.                                                                                                                                                                                                           Purpose of the Bill   64
III.                                                                                                                                                                                                 Background and Need for the Leg64lation
IV.                                                                                                                                                                                                               Committee Views   65
V.                                                                                                                                                                                                                Hearing Summary   67
VI.                                                                                                                                                                                                             Committee Actions   68
VII.                                                                                                                                                                                      Summary of Major Provisions of the Bill   70
VIII.                                                                                                                                                                          Section-by-Section Analysis (by Title and Section)   70
IX.                                                                                                                                                                                                              Dissenting Views   72
X.                                                                                                                                                                                                                  Cost Estimate   75
XI.                                                                                                                                                                                     Congressional Budget Office Cost Estimate   75
XII.                                                                                                                                                                                                      Compliance with Public Law7704-4
XIII.                                                                                                                                                                            Committee Oversight Findings and Recommendations   77
XIV.                                                                                                                                                                        Statement on General Performance Goals and Objectives   77
XV.                                                                                                                                                                                            Constitutional Authority Statement   77
XVI.                                                                                                                                                                                         Federal Advisory Committee Statement   77
XVII.                                                                                                                                                                                            Congressional Accountability Act   77
XVIII.                                                                                                                                                                                                     Earmark Identification   77
XIX.                                                                                                                                                                                           Statement on Preemption of State, Loc77,
XX.                                                                                                                                                                                                     Committee Recommendations   77
XXI.                                                                                                                                                                                                                 Exchange of Let78rs
XXII.                                                                                                                                                                                      Proceedings of the Subcommittee Markup   81
XXIII.                                                                                                                                                                                   Proceedings of the Full Committee Markup   127


                          I. Amendment

    The amendment is as follows:
    Strike all after the enacting clause and insert the 
following:

SECTION 1. FINDINGS.

         The Congress finds the following:

             (1) The United States faces a range of energy challenges 
        that affect our economy, security, and environment. 
        Fundamentally, these challenges involve science and technology.

             (2) The Department of Energy already has some of the 
        mechanisms necessary to promote long-term research, but it 
        lacks the mechanisms for quickly transforming the results into 
        technology that meets national needs.

             (3) A recent report of the Secretary of Energy's Advisory 
        Board's Task Force on the Future of Science Programs at the 
        Department of Energy concluded that America can meet its energy 
        needs only if we make a strong and sustained investment in 
        research in physical science, engineering, and applicable life 
        sciences and if we translate advancing scientific knowledge 
        into practice.''

             (4) The Department of Defense, since 1958, has used its 
        Defense Advanced Projects Research Agency (DARPA) for 
        aggressively addressing real-time defense problems through 
        targeted programs of research and technology development that 
        have improved our national defense through transformational 
        technologies.

             (5) The National Academy of Sciences' report entitled 
        ``Rising Above the Gathering Storm: Energizing and Employing 
        America for a Brighter Economic Future'' recommends creating a 
        new agency within the Department of Energy to sponsor 
        ``creative, out-of-the-box, transformational, generic energy 
        research in those areas where industry by itself cannot or will 
        not undertake such sponsorship, where risks and payoffs are 
        high.'' Such an organization would be able to accelerate the 
        process by which research is transformed to address energy-
        related economic, environmental, and security issues to 
        decrease dependence on foreign energy through targeted research 
        and technology development.

SEC. 2. ADVANCED RESEARCH PROJECTS AGENCY-ENERGY.

    (a) ESTABLISHMENT.--There is established the Advanced Research 
Projects Agency-Energy (in this Act referred to as ``ARPA-E'') within 
the Department of Energy.
    (b) GOALS.--The goals of ARPA-E are to enhance the Nation's 
economic and energy security through reductions in imports of energy 
from foreign sources, to reduce emissions of greenhouse gases from the 
energy and industrial sectors, to improve energy efficiency of all 
economic sectors, and to ensure that the United States maintains a 
technological lead in developing and deploying energy technologies. 
ARPA-E will achieve this by--

             (1) identifying and promoting revolutionary advances in 
        fundamental sciences with potential energy and environmental 
        applications;

             (2) translating scientific discoveries and cutting-edge 
        engineering innovations into technologies that promote energy 
        security and sound environmental stewardship; and

             (3) accelerating the market adoption of transformational 
        technological advances in areas such as alternative fuels and 
        transportation technology, energy efficiency, electricity 
        production and infrastructure, and carbon capture and 
        sequestration.
    (c) DIRECTOR.--ARPA-E shall be headed by a Director who shall be 
appointed by the Secretary of Energy. The Director shall report to the 
Secretary. No other programs within the Department of Energy shall 
report to the Director of ARPA-E.
    (d) RESPONSIBILITIES.--The Director shall administer the Fund 
established under section 3 to award competitive grants, cooperative 
agreements, or contracts to institutions of higher education, 
companies, research foundations, trade and industry research 
collaborations, or consortia of such entities which may include 
federally funded research and development centers, to achieve the goals 
stated in subsection (b) through targeted acceleration of--

             (1) novel early-stage energy research with possible 
        technology applications;

             (2) development of techniques, processes, and 
        technologies, and related testing and evaluation;

             (3) development of manufacturing processes for 
        technologies; and

             (4) demonstration and coordination with non-governmental 
        entities for commercial applications of technologies and 
        research applications.
    (e) PERSONNEL.--

             (1) PROGRAM MANAGERS.--The Director shall designate 
        employees to serve as program managers for each of the programs 
        established pursuant to the responsibilities established for 
        ARPA-E under subsection (d). Program managers shall be 
        responsible for--

                     (A) establishing research and development goals 
                for the program, including through the convening of 
                workshops and conferring with outside experts as well 
                as publicizing its goals to the public and private 
                sectors;

                     (B) soliciting applications for specific areas of 
                particular promise, especially those which the private 
                sector alone cannot or will not provide funding;

                     (C) building research collaborations for carrying 
                out the program;

                     (D) selecting on the basis of merit, with advice 
                under section 4 as appropriate, each of the projects to 
                be supported under the program following consideration 
                of--

                             (i) the novelty and scientific and 
                        technical merit of the proposed projects;

                             (ii) the demonstrated capabilities of the 
                        applicants to successfully carry out the 
                        proposed research project;

                             (iii) the applicant's consideration of 
                        future commercial applications of the project, 
                        including the feasibility of partnering with a 
                        commercial entity or entities to help increase 
                        the chances of market penetration;

                             (iv) such other criteria as are 
                        established by the Director; and

                     (E) monitoring the progress of projects supported 
                under the program, and prescribing program restructure 
                or termination of research partner ships or whole 
                projects that do not show promise.

             (2) HIRING AND MANAGEMENT.--In hiring personnel for ARPA-
        E, the Secretary shall have the hiring and management 
        authorities described in section 1101 of the Strom Thurmond 
        National Defense Authorization Act for Fiscal Year 1999 (5 
        U.S.C. 3104 note). For purposes of subsection (c)(1) of that 
        section, the term of appointments for employees may not exceed 
        three years before the granting of any extension. In hiring 
        initial staff the Secretary shall give preference to applicants 
        with experience in the Defense Advanced Research Projects 
        Agency, academia, or private sector technology development. The 
        Secretary or Director may contract with private recruiting 
        firms in hiring qualified technical staff.

             (3) ADDITIONAL HIRING.--The Director may hire additional 
        technical, financial, managerial, or other staff as needed to 
        carry out the activities of the program.
    (f) COORDINATION AND NON-DUPLICATION.--To the extent practicable, 
the Director shall ensure that the activities of ARPA-E are coordinate 
with, and do not duplicate the efforts of, existing programs and 
laboratories within the Department of Energy and other relevant 
research agencies. Where appropriate, the Director may coordinate 
technology transfer efforts with the Technology Transfer Coordinator 
established in section 1001 of the Energy Policy Act of 2005 (42 U.S.C. 
16391).
    (g) FEDERAL USE of TECHNOLOGIES.--The Secretary shall seek 
opportunities to utilize federal agencies' purchasing and procurement 
programs to demonstrate technologies resulting from activities funded 
through ARPA-E and to facilitate their entry into private markets.

SEC. 3. FUND.

    (a) ESTABLISHMENT.--There is established in the Treasury the Energy 
Transformation Acceleration Fund (in this Act referred to as the 
``Fund''), which shall be administered by the Director of ARPA-E for 
the purposes of carrying out this Act.
    (b) AUTHORIZATION OF APPROPRIATIONS.--There are authorized to be 
appropriated to the Director of ARPA-E for deposit in the Fund 
$300,000,000 for fiscal year 2008 $1,000,000,000 for fiscal year 2009 
$1,100,000,000 for fiscal year 2010, $1,200,000,000 for fiscal year 
2011, and $1,300,000,000 for fiscal year 2012, to remain available 
until expended.
    (c) LIMITATION.--No amounts may be appropriated for the first year 
of funding for ARPA-E unless the amount appropriated for the activities 
of the Office of Science of the Department of Energy for that fiscal 
year exceed the amount appropriated for that Office for fiscal year 
2007, as adjusted for inflation according to the Consumer Price Index.
    (d) ALLOCATION.--Of the amounts appropriated for a fiscal year 
under subsection (b)--

             (1) not more than 50 percent shall be for activities under 
        section 2(d)(4);

             (2) not more than eight percent shall be made available to 
        Federally Funded Research and Development Centers;

             (3) not more than 10 percent may be used for 
        administrative expenses;

             (4) at least 2.5 percent shall be designated for 
        technology transfer and outreach activities; and

             (5) during the first five years of operation of ARPA-E, no 
        funds may be used for construction of new buildings or 
        facilities.

SEC. 4. ADVICE.

    (a) ADVISORY COMMITTEES.--The Director may seek advice on any 
aspect of ARPA-E from--

             (1) existing Department of Energy advisory committees; and

             (2) new advisory committees organized to support the 
        programs of ARPA-E and to provide advice and assistance on--

                     (A) specific program tasks; or

                     (B) overall direction of ARPA-E.
    (b) APPLICABILITY.--Section 14 of the Federal Advisory Committee 
Act shall not apply to advisory committees organized under subsection 
(a)(2).
    (c) ADDITIONAL SOURCES OF ADVICE.--The Director may seek advice and 
review from the National Academy of Sciences, the National Academy for 
Engineering, and any other professional or scientific organization with 
expertise in specific processes or technologies under development by 
ARPA-E.

SEC. 5. ARPA-E EVALUATION.

    After ARPA-E has been in operation for 54 months, the President's 
Committee on Science and Technology shall begin an evaluation to be 
completed within 12 months) of how well ARPA-E is achieving its goals 
and mission. The evaluation shall include the recommendation of such 
Committee on whether ARPA-E should be continued or terminated, as well 
as lessons-learned from its operation. The evaluation shall be made 
available to Congress and to the public upon completion.

SEC. 6. SAVINGS CLAUSE.

    The authorities granted by this Act are in addition to existing 
authorities granted to the Secretary of Energy, and not intended to 
supersede or modify any existing authorities.

                    II. Purpose of the Bill

    The purpose of the bill is to establish within the 
Department of Energy, the Advanced Research Projects Agency-
Energy (ARPA-E), and set up an Energy Transformation 
Acceleration Fund to conduct activities under the Act.

          III. Background and Need for the Legislation

    H.R. 364 follows a recommendation of the National Academies 
2005 report, Rising Above the Gathering Storm, also known as 
the ``Augustine Report'' for its Chair, retired Lockheed Martin 
CEO Norman Augustine. In addition to a wide range of 
recommendations for boosting the global competitiveness of the 
U.S. technology sector, this report called on the Federal 
Government to create a new energy research agency within the 
Department of Energy patterned loosely on the successful 
Defense Advanced Research Projects Agency (DARPA) within the 
Department of Defense. According to the Gathering Storm report, 
ARPA-E should be structured to ``sponsor creative, out-of-the-
box, transformational, generic energy research in those areas 
where industry itself cannot or will not undertake such 
sponsorships, where risks and potential payoffs are high, and 
where success could provide dramatic benefits for the Nation. 
ARPA-E would accelerate the process by which research is 
transformed to address economic, environmental, and security 
issues. It would be designed as a lean, effective, and agile--
but largely independent--organization that can start and stop 
targeted programs based on performance and ultimate 
relevance.'' In addition to H.R. 364, a number of bills 
establishing an ARPA-E were introduced in both the 109th and 
110th Congress in both the House and Senate (including S. 696, 
the Energy Research Act of 2007, and S. 761, the Senate 
COMPETES Act).
    Despite the growing focus on energy challenges, R&D 
investment in energy remains far below the historically high 
levels of the 1970's. A GAO report commissioned by Chairman 
Gordon and Congressman Honda noted that ``DOE's total budget 
authority for energy R&D dropped by over 85 percent (in real 
terms) from 1978 to 2005, peaking in the late 1970's but 
falling sharply when oil prices returned to lower levels in the 
mid-1980's.'' (GAO-07-106) Witnesses at the April 26 
Subcommittee hearing all agreed that for ARPA-E to be 
successful, the program must be funded at levels to match the 
magnitude and complexity of energy challenges, and the high 
costs of energy research and technology demonstration. 
According to venture capitalist and Subcommittee witness John 
Denniston:

        L``... federal spending on renewable energy research 
        amounts to little more than $1 billion per year. 
        Frankly, this is inadequate relative to the scope of 
        our problems, and the sheer size of the energy and 
        transportation industries which amount to over $1.8 
        trillion annually. We are way off scale.''

    It was suggested in the hearing that no other technology-
based industry has such a small proportion of revenues invested 
in research, either through private or government resources. It 
was pointed out in the hearing that the National Institute of 
Health receives $28 billion for research annually, and DARPA 
itself was initially budgeted for the equivalent of $3.5 
billion, and remains at roughly the same level today.

                      IV. Committee Views

    The primary motivations of the Committee for establishing 
an ARPA-E are the need for the U.S. to obtain more energy from 
domestic sources, become more energy efficient, and become less 
reliant on energy sources and technologies that have an adverse 
effect on the environment. The push for new energy technologies 
is especially urgent given the geopolitical forces that 
threaten global energy supplies and economic stability, the 
rising costs of energy to consumers, the looming threat of 
global climate change, and probable regulation of carbon 
dioxide emissions. In addition to addressing the Nation's 
energy challenges, the Gathering Storm report also concluded 
that ARPA-E will contribute to U.S. competitiveness by playing 
an important role in ``advancing research in engineering, the 
physical sciences, and mathematics; and in developing the next 
generation of researchers.'' While isolated elements in the 
national labs, industry, and academia have collaborated with 
varying degrees of success, there is currently no federal 
program charged with bringing these elements together. Such an 
effort would result in a stronger and more diverse domestic 
community of researchers and technology developers focused on 
pushing transformational energy solutions into the marketplace. 
ARPA-E is intended to play this critical role.
    To pursue truly innovative and transformational research 
ARPA-E will utilize an organizational structure and approach 
projects in a way that is fundamentally different from that of 
the traditional energy research enterprise. Critics of the 
Department of Energy's management of research programs contend 
that the stove-piped structure and bureaucratic culture of DOE 
is not conducive to the rapid development of cross-cutting 
energy solutions, or translating basic research discoveries 
into technology applications for the marketplace. Potentially 
revolutionary research may be too risky or multi-disciplinary 
to fit into a specific program's mission at DOE, and the peer 
review system tends to favor established investigators pursuing 
incremental advances in well-understood concepts. On the 
contrary ARPA-E will be driven by its mission, minimizing 
interaction with the DOE bureaucracy. It should be a relatively 
flat and nimble organization, similar to the small, flexible, 
non-hierarchical reporting structure that supported a unique 
and highly successful culture of innovation at DARPA.
    ARPA-E will also have autonomy within DOE similar to that 
of DARPA within DOD. Because the director of ARPA-E reports 
directly to the Secretary of Energy, and no other programs 
report to ARPA-E, it does not add another layer to the DOE 
bureaucracy. This also ensures that ARPA-E has a unique 
independence within DOE, it is not beholden to any one 
particular technology area or research program within DOE. To 
address concerns about political pressures to direct ARPA-E 
funding, language was added to further ensure that all projects 
funded by ARPA-E will be evaluated on the basis of merit. 
Bureaucratic and political meddling are the main impediments 
ARPA-E is designed to avoid.
    ARPA-E's unique function is best described as that of a 
``marriage broker'' that can identify people and capabilities 
within industry, universities, and the national labs, and 
assemble hybrid research teams to quickly develop novel 
solutions to pressing energy problems. Key to this function is 
the Program Manager. As in DARPA, Program Managers for ARPA-E 
should be exceptionally talented, creative and knowledgeable, 
experienced in industry or academia, and passionate in pursuit 
of their objectives. Because of the flexible hiring authority 
that is written into Section 2 of the bill, talented Program 
Managers can be recruited from a variety of fields, hired for a 
term of approximately three years, and paid a salary 
commensurate with what they would make in the private sector. 
To allow ARPA-E to pursue truly novel technology areas, 
projects will not undergo the traditional peer-review process. 
Instead, Program Managers and their superiors are given 
extraordinary autonomy and resources to pursue unique 
technology pathways at will, to assemble quickly teams of 
researchers and technology developers, and to just as quickly 
change course or terminate research projects that do not look 
fruitful. This is different from the current DOE model which is 
criticized for requiring inordinate amounts of time to start up 
research projects, not looking broadly enough for research 
participants, and then sustaining support for projects and 
people beyond a timeframe where meaningful results are likely.
    ARPA-E is expected to pursue a ``whatever it takes'' 
approach to moving potentially transformational research and 
technologies from the labs to the marketplace. With adequate 
funding and authority ARPA-E will leverage its resources and 
institutional capabilities to engage in activities across the 
entire innovation spectrum. This includes anything from early-
stage basic research into fundamental concepts with possible 
technology applications, to later-stage technology prototyping, 
large-scale demonstrations and commercial applications.
    Investment in ARPA-E should be seen in the context of 
increasing overall energy R&D expenditures enough to address 
the scope and complexity of the challenges. It is not intended 
for funding of ARPA-E to come at the expense of other research 
accounts within DOE, especially the basic research of the 
Office of Science, and language was added in the Full Committee 
markup to further clarify that. The Gathering Storm report 
calls for ARPA-E to be authorized at $300 million in the first 
year, and quickly escalate to $1 billion within five years. 
Responding to concerns on the part of the witnesses and other 
outside stakeholders, the Committee chose to pursue a more 
aggressive funding profile that matches the scale of the 
challenge, the costs of energy research, and the likelihood 
that ARPA-E funding would not continue to grow gradually over 
time. Initial funding for ARPA-E in H.R. 364 is set at $300 
million, and increases to $1 billion in the second year to 
allow ARPA-E to be fully operational more quickly. Though no 
provision was included to address this, the hearing witnesses 
and others have suggested that a high-cost, risk-tolerant 
program like ARPA-E would be most effective if it has a 
dedicated stream of funding, and would therefore not be subject 
to annual political and financial pressures and fluctuations 
that stifle innovation today. Future Administrations and 
Congresses should consider a range of mechanisms that ensure 
steady and reliable funding for ARPA-E.

                       V. Hearing Summary

    On March 9, 2006 the House Committee on Science held a 
hearing to review the concept of an ARPA-E (House Report 109-
39). The Committee received testimony from the following 
witnesses.

        <bullet> LDr. Steven Chu--Director of the Lawrence 
        Berkeley National Laboratory, Nobel Prize winner, and 
        member of the National Academies panel that recommended 
        establishing an ARPA-E.

        <bullet> LDr. Catherine Cotell--Vice President for 
        Strategy, University and Early-Stage Development at In-
        Q-Tel, a firm established by the Central Intelligence 
        Agency to gain access to new technologies emerging from 
        small startup companies.

        <bullet> LDr. Fernando L. Fernandez--former Director of 
        the Defense Advanced Research Projects Agency (DARPA) 
        from 1998 to 2001.

        <bullet> LMs. Melanie Kenderdine--Vice President, 
        Washington Operations, for the Gas Technology 
        Institute, and former Director of the Office of Policy 
        in the Department of Energy.

        <bullet> LDr. David Mowery--Professor of New Enterprise 
        Development at the Haas School of Business, University 
        of California at Berkeley.

    On April 26, 2007 the House Committee on Science and 
Technology, Subcommittee on Energy and Environment held a 
hearing on H.R. 364. The Subcommittee received testimony from 
the following witnesses:

        <bullet> LMr. John Denniston--partner in the venture 
        capital firm of Kleiner Perkins Caufield and Byers, and 
        energy technology investor.

        <bullet> LMr. William Bonvillian--Director of the 
        Washington Office of the Massachusetts Institute of 
        Technology and former Senate staff on legislation 
        establishing HS-ARPA at the Department of Homeland 
        Security.

        <bullet> LDr. Stephen Forrest--Vice President for 
        Research at the University of Michigan, which recently 
        established the Michigan Memorial Phoenix Energy 
        Institute.

        <bullet> LDr. Richard Van Atta--senior researcher at 
        the Science & Technology Policy Institute of the 
        Institute for Defense Analysis, and one of the leading 
        experts on DARPA history.

                     VI. Committee Actions

    H.R. 364 was introduced by Chairman Gordon on January 10, 
2007, and referred to the House Committee on Science and 
Technology, Subcommittee on Energy and Environment. This bill 
was first introduced as H.R. 4435 in the 109th Congress. In the 
109th Congress, the House Committee on Science held a hearing 
on March 9, 2006 examining the concept of an ARPA-E (Committee 
Print. 109-39).
    On Thursday, May 10, 2007 the Subcommittee on Energy and 
Environment met to consider H.R. 364 and the following 
amendments to the bill:

        1. LAn amendment offered by Mr. Lampson, Ms. Giffords, 
        and Mr. Bartlett that adds additional goals for 
        greenhouse gas emissions, efficiency, and economic 
        competitiveness; clarifies reporting structure, 
        personnel responsibilities, activities, and 
        participants; specifies desired experience of some 
        personnel and limits terms to three years; specifies 
        coordination and non-duplication with DOE and other 
        agencies; increases authorization levels; sets 
        guidelines and limits for funding allocations for 
        demonstration and commercial application, federally 
        funded R&D Centers, overhead expenses, and new 
        construction. The amendment was agreed to by voice 
        vote.

        2. LAn amendment offered by Ms. Biggert that replaces 
        text with directions to DOE and NAS to study ARPA-E 
        concept and make recommendations on implementation. The 
        amendment was defeated by voice vote.

    Ms. Giffords moved that the Subcommittee favorably report 
the bill, H.R. 364, as amended, to the Full Committee. The 
motion was agreed to by voice vote.
    On Wednesday, May 23, 2007 the Full Committee on Science 
and Technology met to consider H.R. 364 and the following 
amendments to the bill:

         1. LA manager's amendment offered by Mr. Gordon that 
        expands hiring authorities of the Director; clarifies 
        the Program Manager's role in changing and terminating 
        projects; changes the name of the fund; strikes the 
        last year of funding; and strikes the section on 
        recoupment. The amendment was agreed to by voice vote.

         2. LAn amendment in the nature of a substitute offered 
        by Mr. Hall, Mr. Gingrey, and Ms. Biggert that makes 
        technical and substantive changes to various sections 
        of the underlying bill. The amendment was defeated by 
        recorded vote of 24-12.

         3. LAn amendment offered by Mr. Inglis to provide for 
        a one-year protection for existing funding levels for 
        the Office of Science; directs the program managers of 
        ARPA-E to select projects on the basis of merit; 
        enhances technology transfer and outreach activities. 
        The amendment was agreed to by voice vote.

         4. LAn amendment offered by Ms. Biggert conditioning 
        appropriated funds for ARPA-E in any fiscal year on the 
        appropriation of the full authorization amount under 
        section 971(b) of EPAct 2005 for the previous year. The 
        amendment was defeated by recorded vote of 19-11.

         5. LAn amendment offered by Ms. Biggert striking the 
        eight percent funding limit on funding for Federally 
        Funded Research and Development Centers. The amendment 
        was defeated by recorded vote of 23-13.

         6. LAn amendment offered by Mr. Ehlers to have the 
        Under Secretary of Energy for Science appoint the 
        Director of ARPA-E and have the Director report to the 
        Under Secretary of Energy for Science. The amendment 
        was defeated by voice vote.

         7. LAn amendment offered by Mr. Bilbray which strikes 
        the funding section of the bill. The amendment was 
        defeated by voice vote.

         8. LAn amendment offered by Mr. Smith of Nebraska to 
        provide for termination of ARPA-E if the study required 
        under section 1821 of EPAct 2005 concludes that ARPA-E 
        should not be established. The amendment was defeated 
        by recorded vote 25-13.

         9. LAn amendment offered by Mr. Gingrey to halt 
        appropriations for ARPA-E unless the study required 
        under section 1821 of EPAct 2005 is completed and 
        concludes that ARPA-E should be established. The 
        amendment was defeated by recorded vote 25-13.

        10. LAn amendment offered by Mr. Akin that adds a new 
        section providing for termination of ARPA-E after 60 
        months. The amendment was defeated by voice vote.

        11. LAn amendment offered by Mr. Diaz-Balart, presented 
        by Mr. McCaul, that adds a new section terminating 
        ARPA-E after five years if energy imports do not 
        decrease by at least five percent from date of 
        enactment, and after 10 years if imports do not 
        decrease by at least 20 percent from date of enactment. 
        The amendment was defeated by recorded vote of 23-12.

        12. LAn amendment offered by Mr. Gingrey that adds a 
        new section creating a savings clause. The amendment 
        was agreed to by voice vote.

    The bill was approved for final passage by a recorded vote 
of 25-12. Mr. Lampson moved that the Committee favorably report 
the bill H.R. 364, as amended, to the House for consideration. 
The motion was agreed to by voice vote.

          VII. Summary of Major Provisions of the Bill

    H.R. 364 authorizes $4.9 billion for ARPA-E for the fiscal 
years 2008-2012, with initial year funding contingent on an 
increase in the DOE Office of Science. The bill also outlines 
the organizational structure, hiring practices, goals, and 
activities of ARPA-E. The bill specifies that, to the extent 
practicable, ARPA-E will not duplicate the specific efforts of 
other research programs, will coordinate with those programs 
wherever possible, and seek opportunities to demonstrate 
technologies within the Federal Government. Specific guidelines 
are set for the proportion of funds that may be used for 
overhead expenses, late-stage demonstration and commercial 
applications, federally funded research and development 
centers, new construction, and technology transfer and outreach 
activities. After roughly five years of operations ARPA-E will 
be evaluated by the President's Committee on Science and 
Technology.

               VIII. Section-by-Section Analysis

Section 1. Findings

    The U.S. should address long-term energy challenges through 
sustained investment in energy research programs at DOE augmented by an 
innovative and aggressive new energy technology development effort 
based on the same operating principles that make DARPA successful.

Section 2. Advanced Research Projects Agency-Energy

    This section establishes the Advanced Research Projects Agency-
Energy (ARPA-E) within the Department of Energy. Similar to the 
Department of Defense's Advanced Research Projects Agency (DARPA), this 
new organizational structure will support revolutionary and 
transformational energy research where risk and payoffs are high.
    The stated goal of ARPA-E is to enhance the Nation's economic and 
energy security through research and development of technologies that 
reduce U.S. dependence on foreign energy sources, improve energy 
efficiency of the U.S. economy, reduce the impact of the energy sector 
on the environment, and ensure the U.S. leadership in developing energy 
technologies. To achieve this ARPA-E will support collaborative, 
targeted, high-risk, high payoff research to accelerate the innovation 
cycle for transformational energy technologies.
    ARPA-E shall be headed by a Director, appointed by the Secretary. 
No other program within DOE will report to ARPA-E. The Director will 
administer competitive grants, cooperative agreements, or contracts to 
universities, private companies, research foundations, industry 
collaborations, and consortia. These consortia can include federal 
laboratories, in addition to the aforementioned parties, and can be led 
by federal laboratories. Funds may be used for activities in any stage 
of the innovation spectrum from early-stage basic research to late-
stage demonstration. A special emphasis should be placed on activities 
that serve to bridge between these stages and, ultimately, across the 
``valley of death'' to commercial applications of the technologies.
    The organizational structure of ARPA-E should be flat and nimble to 
avoid bureaucratic impediments that stifle innovation today. The 
Director shall designate Program Managers who will have flexibility in 
establishing R&D goals for the program, publicizing goals, convening 
workshops of potential research participants, issuing solicitations, 
selecting projects and building research teams, monitoring their 
progress, and prescribing restructuring or elimination of projects as 
needed. Program managers will make selections for all projects under 
ARPA-E based on merit, taking into account factors such as novelty, 
scientific and technical merit, applicant's capabilities, the 
applicant's consideration of commercial applications of the research 
and inclusion of commercial partner, and other criteria as the Director 
determines. As with DARPA, the Director of ARPA-E will have special 
authority to hire program managers and other technical, managerial, and 
financial staff for limited terms, and at a salary commensurate with 
what such staff would expect to make in the private sector. In finding 
and attracting qualified and specialized staff the Director may 
contract with outside recruiting firms.
    In addition, the Director shall ensure that ARPA-E's activities do 
not duplicate and are coordinated with other federal research and 
technology transfer programs, and shall seek opportunities to 
demonstrate ARPA-E research and technologies through procurement in the 
Federal Government.

Section. 3. Fund

    This section establishes the Energy Transformation Acceleration 
Fund administered by the Director of ARPA-E. $4.9 billion is authorized 
for FY 2008 through 2012, to remain available until expended. Funding 
for the initial year of ARPA-E operations shall not be available unless 
the DOE Office of Science funding increases from the previous year 
(2007).
    This section also lays out general guidelines for how money should 
be allocated in a given fiscal year. Not more than 50 percent of funds 
allocated shall be for expensive late-stage demonstrations and 
commercial applications of technologies and research. Not more than 
eight percent of funds are to be made available directly to Federally 
Funded Research and Development Centers (FFRDCs). However, FFRDCs can 
receive, in addition to the eight percent, payment for services from 
ARPA-E grantees, contractors, cooperative agreement participants 
regardless of the source of funds. Not more than 10 percent of funds 
shall be used for administrative expenses. To ensure a robust 
technology transfer and outreach activities, 2.5 percent of funds shall 
be dedicated to these activities. To ensure ARPA-E funds go towards 
funding research within the Nation's existing private and public 
research infrastructure, for the first five years, no funds should be 
used for construction of new buildings or facilities.

Section 4. Advice

    The Director of ARPA-E has the flexibility to seek advice either 
from an existing DOE advisory committee, or to establish a new advisory 
committee. The Director may also seek advice and review from the 
National Academies of Science and Engineering, and any other 
professional or scientific organization.

Section 5. ARPA-E Evaluation

    At the end of five and one-half years, the President's Committee on 
Science and Technology (PCAST) shall complete an evaluation of the 
performance of ARPA-E in achieving its goals and mission, to be made 
available to Congress and the public. In this evaluation the Committee 
is required to recommend whether ARPA-E should be continued or 
terminated as well as provide lessons-learned from its operation.

Section 6. Savings Clause

    This clarifies that authorities granted by this Act are in addition 
to, and do not supersede or modify, existing authorities of the 
Secretary of Energy.

                      IX. Dissenting Views

    Dissenting Views of Representatives Ralph M. Hall, Judy 
 Biggert, Jo Bonner, Tom Feeney, Randy Neugebauer, Michael T. 
  McCaul, Mario Diaz-Balart, Phil Gingrey, Brian Bilbray and 
                          Adrian Smith

    We oppose H.R. 364, to provide for the establishment of the 
Advanced Research Projects Agency-Energy. The bill would create 
an unnecessary bureaucracy at the Department of Energy (DOE) 
that the agency does not want and does not support. 
Furthermore, we are concerned with authorizing $4.9 billion for 
a new agency that is likely to compete with existing programs 
for increasingly limited federal dollars. It poses a direct 
threat to DOE's Office of Science, which was singled out to 
receive priority funding in the October 2005 National Academy 
of Sciences (NAS) report, Rising Above the Gathering Storm: 
Energizing and Employing America for a Brighter Economic 
Future, on which the bill is said to be based.
    We see the potential benefit that ``creative, out-of-the-
box, transformational'' research could provide to our country. 
However, we have yet to be convinced that the DOE, as currently 
structured, cannot support, and does not already support, such 
research. For example, some Members of the Committee believe 
that the DOE's FreedomCAR and Hydrogen Initiatives, FutureGen, 
the Global Nuclear Energy Partnership, and U.S. participation 
in ITER, the international fusion experiment, already qualify 
as ``creative, out-of-the-box, transformational'' research.
    While the Department of Defense's (DOD) Defense Advanced 
Research Project Agency (DARPA) has proven to be largely a 
success at DOD, differences in the structure and culture of the 
DOD and DOE should not be ignored. Just because something works 
at DOD, does not mean it will work at DOE. A case in point is 
the creation of the Homeland Security Advanced Research 
Projects Agency. According to the testimony of William 
Bonvillian, ``While the Committee provided HS-ARPA with a 
strong and flexible authorization closely modeled on DARPA's 
strengths, HS-ARPA has never been adequately utilized or 
implemented. . .. An innovation culture is critical to success, 
and legislation alone can't create this unless the implementing 
agency shows real leadership, supports the new R&D mission, and 
is determined to use flexible statutory authorities to create a 
strong entity.'' The lack of support by the current Secretary 
and Administration suggests that, in the face of such 
opposition, ARPA-E would likely fail.
    We would also point out that the bill strays from the 
Rising Above the Gathering Storm report's ARPA-E recommendation 
which states that ARPA-E should report to the Under Secretary 
for Science. Instead, the bill explicitly states, ``The 
Director shall report to the Secretary.'' It also appears that 
the NAS panel never received outside advice or testimony on the 
ARPA-E idea. Furthermore, the recommendation to create an ARPA-
E was the only one of 20 action items in the Gathering Storm 
report not to receive the unanimous support of the panel. One 
of the panel members, the energy industry representative, 
dissented from the recommendation of the panel. Like a number 
of Members of the Committee, he expressed concern that a new 
DARPA-like agency at DOE would put the government in the 
position of picking technology winners and losers for the 
private sector. Unlike DARPA, whose primary customer is the 
Federal Government, ARPA-E is supposed to pick technologies for 
the private sector, which in contrast to the government is much 
more sensitive to cost and price. Recognizing the legitimacy of 
this other perspective on the ARPA-E concept, even the NAS 
report acknowledged that, ``some believe that industry and 
venture capital investors will already fund the things that 
have a reasonable probability of commercial utility (the 
invisible hand of the free markets at work), and what is not 
funded by existing sources is not worthy of funding.'' Last 
Congress, the House passed H.R. 6203, which included a 
provision directing the Secretary, with the National Academy of 
Sciences, to conduct a detailed study of, and make further 
recommendations on, the NAS recommendation to establish an 
ARPA-E. It included the following pertinent questions:

        1) LWhat basic research related to new energy 
        technologies is occurring now, what entities are 
        funding it, and what is preventing the results of that 
        research from reaching the market?

        2) LWhat economic evidence indicates that the limiting 
        factor in the market penetration of new energy 
        technologies is a lack of basic research on path-
        breaking new technologies? What barriers do those 
        trying to develop new energy technologies face during 
        later stages of research and development?

        3) LTo what extent is the Defense Advanced Research 
        Projects Agency an appropriate model for an energy 
        research agency, given that the Federal Government 
        would not be the primary customer for its technology 
        and where cost is an important concern?

        4) LHow would research and development sponsored by 
        ARPA-E differ from research and development conducted 
        by the National Laboratories or sponsored by the 
        Department through the Office of Science, the Office of 
        Energy Efficiency and Renewable Energy, the Office of 
        Fossil Energy, the Office of Electricity Delivery and 
        Energy Reliability, and the Office of Nuclear Energy?

        5) LShould industry or National Laboratories be 
        recipients of ARPA-E grants? What institutional or 
        organizational arrangements would be required to ensure 
        that ARPA-E sponsors transformational, rather than 
        incremental, research and development?

    While the bill was not signed into law, the questions still 
remain. This was confirmed during a recent Energy and 
Environment Subcommittee hearing at which all the witnesses 
agreed that the NAS recommendation was vague and really just an 
``idea.'' One of the witnesses, John Denniston, a partner with 
the firm Kleiner, Perkins, Caufeld & Byers, said, ``I don't 
think that the Gathering Storm report provided implementation 
details. I view it as an idea. So, they don't talk specifically 
about which technologies, fossil, nuclear, renewable. They 
don't talk about stage of research, should it be translational, 
is it basic, is it applied? They don't talk about the 
organizational details, much of which you have heard today.''
    Section 1821 of the Energy Policy Act of 2005 (EPAct) also 
contained a study on the applicability of the management 
practices used by DARPA and the advisability of creating an 
ARPA-E. This study was to have been completed by January of 
2007. On May 22, 2007, Ranking Member Hall along with 13 other 
Members of this committee sent a letter to Secretary of Energy 
Bodman urging the agency to complete the study and implement 
Section 1401 of EPAct. Section 1001 of EPAct directed the 
Secretary to appoint a Technology Transfer Coordinator and 
establish a Technology Transfer Working Group.
    As an alternative to the bill, Ranking Member Hall along 
with Members Gingrey, and Biggert offered a substitute, which 
was defeated, addressing the aforementioned concerns with the 
bill. The substitute recognized that while the Department of 
Energy has the authority to promote technology transfer of 
basic and applied research, a need exists to quickly identify 
opportunities to accelerate the commercial application of new 
energy technologies to meet the Nation's energy needs. As well, 
a fully integrated approach to advanced energy research will 
help bridge the gap between basic research and applied 
technology, thus overcoming long-term and high-risk barriers to 
the development of advanced energy technologies. The substitute 
conditioned the establishment of ARPA-E on the Section 1821 
study in EPAct putting forward a recommendation that the 
management practices used by DARPA would apply to research 
programs at DOE.
    The substitute amendment did not create a new agency, but 
required the Secretary to use existing authority coupled with 
newly established DARPA like hiring authority to undertake 
ARPA-E type projects. It authorized $750 million over five 
years for the Secretary to carry out the projects and required 
the Secretary to report to Congress on their status. It 
permitted the Secretary to coordinate with other agencies on 
advanced energy projects, directed the Secretary to coordinate 
with the to-be-appointed Technology Transfer Coordinator, 
allowed the Secretary to award prizes for achievement under an 
advanced energy research project, and established cost sharing 
according to that provided in the Energy Policy Act of 2005.
    While we have the utmost respect for the Chairman and for 
the positive manner in which debate on this bill ensued, we 
believe the substitute addressed the goals sought by the 
Committee in a more responsible and effective manner. Thus we 
are unable to support H.R. 364 in its current form.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                        X. Cost Estimate

    A cost estimate and comparison prepared by the Director of 
the Congressional Budget Office under section 402 of the 
Congressional Budget Act of 1974 has been timely submitted to 
the Committee on Science and Technology prior to the filing of 
this report and is included in Section XI of this report 
pursuant to House Rule XIII, clause 3(c)(3).
    H.R. 364 does not contain new budget authority, credit 
authority, or changes in revenues or tax expenditures. Assuming 
that the sums authorized under the bill are appropriated, H.R. 
364 does authorize additional discretionary spending, as 
described in the Congressional Budget Office report on the 
bill, which is contained in Section XI of this report.

         XI. Congressional Budget Office Cost Estimate

Summary

    H.R. 364 would authorize the appropriation of $4.9 billion 
over the 2008-2012 period for the Department of Energy (DOE) to 
establish the Advanced Research Projects Agency-Energy (ARPA-
E). ARPA-E would award competitive grants, cooperative 
agreements, and contracts for the research and development of 
projects with potential energy and environmental applications. 
CBO estimates that implementing H.R. 364 would cost $4.1 
billion over the 2008-2012 period, assuming the appropriation 
of the specified amounts. Enacting H.R. 364 would have no 
effect on direct spending or revenues.
    H.R. 364 contains no intergovernmental or private-sector 
mandates as defined in the Unfunded Mandates Reform Act (UMRA). 
The bill would benefit public institutions of higher education 
and any costs they may incur would result from complying with 
conditions of federal assistance.

Estimated Cost to the Federal Government

    The estimated budgetary impact of H.R. 364 is shown in the 
following table. The costs of this legislation fall within 
budget function 250 (general science, space, and technology).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Basis of Estimate

    For this estimate, CBO assumes that the bill will be 
enacted in fiscal year 2007 and that the amounts authorized by 
the bill will be appropriated for each fiscal year. H.R. 364 
would authorize the appropriation of $4.9 billion over the next 
five years to establish ARPA-E within DOE.
    The mission of the new agency would be to reduce energy 
imports and greenhouse gas emissions, improve energy 
efficiency, and develop and deploy energy technologies. To meet 
these goals, ARPA-E would award competitive grants, cooperative 
agreements, and contracts to institutions of higher education, 
research foundations, private companies, and collaborations of 
trade and industry. Such awards would be used to identify and 
promote significant advances in basic sciences that have 
potential energy and environmental applications, translate 
these discoveries into workable technologies, and accelerate 
their market adoption.
    Based on the historical spending patterns of similar 
programs (notably the DOE Office and Science and the Defense 
Advanced Research Projects Agency), CBO estimates that 
implementing H.R. 364 would cost $165 million in 2008 and $4.1 
billion over the 2008-2012 period, assuming appropriations at 
the levels specified in the bill.

Intergovernmental and Private-Sector Impact

    H.R. 364 contains no intergovernmental or private-sector 
mandates as defined in UMRA. Funding authorized by the bill may 
benefit public institutions of higher education that compete 
for funds in connection with the research goals of ARPA-E. Any 
costs that they might incur would result from complying with 
conditions of federal assistance.

Estimate Prepared By:

Federal Costs: Daniel Hoople
Impact on State, Local, and Tribal Governments: Lisa Ramirez-
Branum
Impact on the Private Sector: Craig Cammarata

Estimate Approved By:

Peter H. Fontaine, Deputy Assistant Director for Budget 
Analysis

             XII. Compliance With Public Law 104-4

    H.R. 364 contains no unfunded mandates.

     XIII. Committee Oversight Findings and Recommendations

    The oversight findings and recommendations of the Committee 
on Science and Technology are reflected in the body of this 
report.

   XIV. Statement on General Performance Goals and Objectives

    Pursuant to clause (3)(c) of House rule XIII, the goals of 
H.R. 364 to enhance energy research and development through the 
establishment within the Department of Energy of the Advanced 
Research Projects Agency-Energy (ARPA-E), and by setting up an 
Energy Independence Acceleration Fund to conduct activities 
under the Act.

             XV. Constitutional Authority Statement

    Article I, section 8 of the Constitution of the United 
States grants Congress the authority to enact H.R. 364.

           XVI. Federal Advisory Committee Statement

    The functions of the advisory committee authorized in H.R. 
6063 are not currently being nor could they be performed by one 
or more agencies or by enlarging the mandate of another 
existing advisory committee.

             XVII. Congressional Accountability Act

    The Committee finds that H.R. 364 does not relate to the 
terms and conditions of employment or access to public services 
or accommodations within the meaning of section 102(b)(3) of 
the Congressional Accountability Act (Public Law 104-1).

                 XVIII. Earmark Identification

    H.R. 364 does not contain any congressional earmarks, 
limited tax benefits, or limited tariff benefits as defined in 
clause 9(d), 9(e), or 9(f) of Rule XXI.

  XIX. Statement on Preemption of State, Local, or Tribal Law

    This bill is not intended to preempt any State, local, or 
tribal law.

                 XX. Committee Recommendations

    On May 23, 2007, the Committee on Science and Technology 
favorably reported H.R. 364, as amended, by a recorded vote of 
25 to 12 and recommended its enactment.

                    XXI. Exchange of Letters

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



   XXII: PROCEEDINGS OF THE MARKUP BY THE SUBCOMMITTEE ON ENERGY AND 
   ENVIRONMENT ON H.R. 364, TO PROVIDE FOR THE ESTABLISHMENT OF THE 
                ADVANCED RESEARCH PROJECTS AGENCY-ENERGY

                              ----------                              


                         THURSDAY, MAY 10, 2007

                  House of Representatives,
            Subcommittee on Energy and Environment,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:15 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Nick 
Lampson [Chairman of the Subcommittee] presiding.
    Chairman Lampson. The Subcommittee on Energy and 
Environment will come to order. Pursuant to notice, the 
Subcommittee on Energy and Environment meets to consider the 
following measures: H.R. 364, To provide for the establishment 
of the Advanced Research Projects Agency-Energy, and H.R. 632, 
the H-Prize Act of 2007.
    We will now proceed with the markup beginning with opening 
statements and I will begin.
    Today we will consider two bills that represent another 
step of the Committee's effort to push the envelope of 
technological possibility and provide the American people a 
future with cheaper, cleaner and better energy options.
    For decades my district has been synonymous with oil and 
gas or energy generally. To a large extent it has been the 
economic foundation for that area, for the great State of Texas 
and even for the Nation. And the truth is that we should expect 
that oil, gas and other traditional sources of energy such as 
coal and nuclear will provide much of our nation's energy for 
decades to come.
    But the winds of change are indeed blowing. And the folks 
in my district know as well as anyone the predicament that we 
face in sky-high energy prices, the environmental impacts of 
our energy use and the critical need for maintaining jobs in 
the energy sector.
    In this respect, the Nation faces a challenge like none we 
have encountered before. Unlike the Apollo and Manhattan 
Projects which galvanized our nation's scientists to win a 
global race to put a man on the Moon or create a ``weapon to 
end all wars'' there is no finish line in this race. We are 
attempting to transform a national and to some extent global 
economy which is based on only a handful of unsustainable 
energy resources. Resources that we know will simply not last.
    Despite their remarkable technological advances, we cannot 
expect the energy industry and the current programs at the 
Department of Energy to tackle these problems on their own. 
Only through ground-breaking research and the development of 
truly transformational technologies can we begin to match up to 
the scale and the complexity of these challenges.
    Now this requires from us a rock solid commitment to 
innovative energy R&D and a leap of faith that somewhere on the 
shelves of our national labs or in the garages in our nation's 
inventors or in the halls of research universities there are 
discoveries and technologies waiting to be exploited by a new 
energy industry.
    The two bills that we are here to mark up today represent 
the kind of bold efforts that are needed in advancing energy 
research and ensuring that the United States maintains a lead 
in these emerging technology fields. Therefore, I urge their 
passage and look forward to getting them to the House Floor.
    [The prepared statement of Chairman Lampson follows:]

              Prepared Statement of Chairman Nick Lampson

    Today we will consider two bills that represent another step in 
this committee's efforts to push the envelope of technological 
possibility, and provide the American people a future with cheaper, 
cleaner, better energy options.
    For decades my district has been synonymous with oil and gas (or 
Energy, generally). To a large extent it has been the economic 
foundation for this area, for the great State of Texas, and even for 
the Nation.
    And the truth is that we should expect that oil, gas and other more 
traditional sources of energy, such as coal and nuclear, will provide 
much of our nation's energy for decades to come.
    But the winds of change are blowing, and the folks in my district 
know as well as anyone the predicament we face in sky-high energy 
prices, the environmental impacts of our energy use, and the critical 
need for maintaining jobs in the energy sector.
    In this respect, the Nation faces a challenge like none we have 
encountered before. Unlike the Apollo and Manhattan projects, which 
galvanized our nation's scientist to win a global race to put a man on 
the Moon, or create a ``weapon to end all wars,'' there is no finish 
line in this race.
    We are attempting to transform a national, and to some extent 
global, economy which is based on only a handful of unsustainable 
energy resources. Resources that we know will simply not last.
    Despite their remarkable technological advances, we can't expect 
the energy industry, and the current programs at the Department of 
Energy to tackle these problems on their own.
    Only through ground-breaking research, and the development of truly 
transformational technologies, can we begin to match up to the scale 
and complexity of these challenges.
    This requires from us a rock-solid commitment to innovative energy 
R&D, and a leap of faith that somewhere on the shelves of our national 
labs, in the garages of our nation's inventors, and in the halls of our 
research universities, there are discoveries and technologies waiting 
to be exploited by a new energy industry.
    The two bills that we are here to markup today represent the kind 
of bold efforts that are needed in advancing energy research, and 
ensuring the U.S. maintains a lead in these emerging technology fields.
    Therefore I urge their passage, and look forward to getting them to 
the House Floor.

    Chairman Lampson. I will now recognize Mr. Inglis to 
present his opening remarks.
    Mr. Inglis. And I thank the Chairman for yielding. First of 
all, we are very happy to have you back in the Chair, Mr. 
Lampson. It is----
    Chairman Lampson. Thank you very----
    Mr. Inglis.--great to----
    Chairman Lampson.--very much.
    Mr. Inglis.--have you back. You are looking great and----
    Chairman Lampson. Thank you.
    Mr. Inglis.--healthy and all of that, now you had some 
capable folks filling in for you. But we are----
    Chairman Lampson. I am very appreciative----
    Mr. Inglis.--but we are happy to have you back.
    Chairman Lampson. Thank you very much.
    Mr. Inglis.--and, you know, it is helpful to be here today 
talking about energy and two different bills that can help us 
achieve some of the objectives that we have.
    Sometimes people wonder about those objectives. My wife was 
at a gathering a couple of months ago and a lady told her Bob 
has got to stop talking about energy so much. We are tired of 
hearing from him about energy. I would note that as the price 
of gasoline is now above three dollars a gallon that probably 
Marianne would have a different message coming from that lady 
now and that it is good to focus a lot on energy. So it depends 
on what the price at the pump is as to whether we think it is a 
great thing to focus on.
    But the objective of these bills today is to look long-term 
and not to the gas prices that fluctuate up and down based on 
the month. I do hope that we take the message from those gas 
prices, that they are volatile. They will go up and down. But 
the long-term trajectory has to be up. And so therefore we are 
looking for energy sources besides those.
    And so today two bills that help us get to there--to that 
place of energy independence, we hope, one is, ARPA-E, which is 
designed to create breakthrough technology opportunities, and 
the other, the H-Prize Bill, which is even a little bit longer-
term proposition, but that can hopefully lead us to a new 
source of energy. So we are happy to be here marking up these 
bills, Mr. Chairman. I have got a more complete opening 
statement that I would like to submit for the record.
    Chairman Lampson. With no--without objection.
    [The prepared statement of Mr. Inglis follows:]

            Prepared Statement of Representative Bob Inglis

    Thank you, Mr. Chairman, for holding this markup on the 
establishment of the H-Prize and ARPA-E. The bills we discuss today 
represent a common goal: harnessing American innovation to meet our 
need for energy and improve our energy security.
    One hundred years ago, the space travel concept was madness. Forty 
years ago, only a select group of elite astronauts could visit the 
Moon. Ten years ago, just a handful of visionaries thought that the 
highway to space would soon open to all travelers. Today, paying 
customers can pre-book flights to space, and in two years, from their 
seat on a space plane, they will take digital pictures of the Earth to 
share with their friends and family back home.
    Twelve short years mark the gap between science fiction and 
commercial space flight. Imagination and innovation bridged the gap. In 
1996, Peter Diamandis joined forces with the Ansari family of investors 
and created the X-Prize, offering $10 million to the first reusable 
sub-orbital space vehicle. Eight years later, Burt Rutan's SpaceshipOne 
won the prize, launching into sub-orbital space flight twice in two 
weeks. Shortly after, Richard Branson teamed up with Rutan, and Virgin 
Galactic will soon convert a space-age science project into a new 
tourist industry.
    The energy industry in 2007 looks a lot like the space flight 
sector did in 1996. We've seen important incremental gains, but overall 
innovation has slowed. We depend on volatile fossil fuels, scratch our 
head at how to deal with carbon emissions, and get more and more 
frustrated with each cent increase in the cost of gasoline. We know 
that there has to be a better way to do energy.
    Taking a prize approach to the energy problem allows our 
imagination to run with the prospects of coupling a pioneering vision 
with a hydrogen prize, or H-Prize, incentive for innovation in hydrogen 
energy. Our history tells us that what starts with an imaginative dream 
or vision typically finishes in a legacy of American innovation. 
There's a multi-billion, if not trillion, dollar industry that we can 
create from a hydrogen energy source free of emissions, renewable, 
cost-effective, and American-made.
    Imagine an inventor in Spartanburg, SC and an entrepreneur in 
Greenville teaming up to work on the challenge of hydrogen storage. The 
entrepreneur secures a license for metal hydride storage material from 
the Hydrogen Research Center at the Savannah River National Lab. The 
inventor is a retiree from the Oak Ridge National Lab, with a lifetime 
of experience in alternative fuels. They've heard about the H-Prize, 
and it's provided the spark to light the fuse of their imagination. The 
Discovery Channel has a new idea for a show on alternative fuels, and 
has agreed to follow their progress.
    They set to work improving the material to store more hydrogen at 
lower weight, and a year later they submit their work to the H-Prize 
judging panel for best incremental gain in storage technology. Their 
careful work wins the prize, and they've got $1 million to show for it. 
They use part of the money to pay their investors, but they convince 
their investors that they could win even bigger in the prototype 
competition. They assemble a small team and get to work.
    After a year of all-nighters and Ramen noodles, they have their 
prototype for a storage subsystem. The Discovery Channel has the 
beginnings of a new reality show (who knew scientists could be so 
caddy?). Their metal hydride dust could fill the frame of a car, safely 
providing the hydrogen fuel and eliminating the need for a fuel tank. 
BMW loves the idea and before their team even won the $4 million prize 
for best prototype, BMW is competing to license their technology for 
the next version of the Hydrogen 7 sedan.
    Now the team's investors are really buzzing. They've partnered with 
automotive engineering departments at several universities and are hard 
at work designing a new mass-producible vehicle at Clemson University's 
International Center for Automotive Research in Greenville. They've got 
their eyes on the grand prize for transformational technologies. Duke 
Power has become a partner to provide economical, carbon-free hydrogen 
from nuclear power. A local gasoline marketer has jumped in to help 
with distribution, offering modified fuel trucks running on biodiesel 
and pump space for hydrogen. Corporate investors from around the world 
are pitching in to get their logo--NASCARstyle--on the car, fueling 
station, and everything in between.
    The South Carolina team is only one of many around the country, but 
the Discovery Channel cameras testify that their hearts are in it to 
win. Over the course of five years, Team Palmetto assembles, jimmy-
rigs, and invents the technologies to take them to the top. The judges 
deem them the best, and they receive the $10 million cash prize for 
their hard work. Of course, at this point their investors see that more 
gains lie ahead, so the team easily raises $40 million in venture 
capital, which is matched by other private money for corporate 
sponsorship of the H-Prize. Within three years, their emission-free 
HyFlyer cars zipping along the East and West Coast Hydrogen Highways, 
in Europe, and even Japan and China.
    It's not so farfetched. The prize idea has worked in the past, from 
the Transcontinental Railroad, to Lindbergh and the Orteig Prize, to 
Burt Rutan and the X-Prize. Others see the prize working in the future: 
the Automotive X-Prize, Rep. Frank Wolf's NSF prize, Rep. Dan Lungren's 
Automotive Prize. H-Prize has the advantage of focusing on a far 
reaching technology where breakthroughs are needed and harnessing the 
American innovative and entrepreneurial spirit to tackle those 
challenges.
    Prize money is one seed from which energy technology and industry 
can grow. But it will not be the only source for energy breakthroughs. 
There is still a need for research and development funding for our 
nation's scientists, labs, and universities. The ARPA-E bill that we 
will markup today addresses a need to sponsor exploration in high-risk 
endeavors.
    ARPA-E research could offer a big payoff in the commercial energy 
market. At the same time, I already see real payoffs coming from 
existing DOE research, especially hydrogen, nuclear, wind, and solar 
programs. I'm concerned that the ARPA-E fund will divert funds away 
from these existing programs and jeopardize the advances we're already 
seeing in these areas. I hope that we can find a way to ensure this 
doesn't happen.
    Thank you again, Mr. Chairman, I look forward to working with you 
on these two bills.

    Mr. Inglis. Thank you. I look forward to the markup here.
    Chairman Lampson. Thank you very much, Ranking Member 
Inglis. And I think it is appropriate because we have the 
Chairman of the Science Committee here with us today, Mr. Bart 
Gordon, that we give him an opportunity to make some comments. 
Mr. Chairman?
    Chairman Gordon. Thank you, Chairman Lampson. And let me 
also say welcome back and----
    Chairman Lampson. Thank you.
    Chairman Gordon.--we are glad that you are looking fit as a 
fiddle. I will say in your absence that Ms. Giffords did an 
excellent job with a very informative hearing the other day.
    Chairman Lampson. Believe it or not, I heard that all the 
way down in Texas.
    Chairman Gordon. So, you better look over your shoulder. 
And Mr. Inglis, you know almost all of Former Chairman 
Boehlert's opening statements, I would say I concur. And let me 
continue that by saying I concur with your opening statement. 
And particularly, in not taking the short view of this. You 
know, back in the '70s if we had followed through on some of 
the initiatives that we talked about we would not be in this 
situation now.
    Now to this bill. And I want to thank you for bringing up 
H.R. 364. If you read the Washington Post this morning on the 
top left-hand side you saw where Mayor Fenty had gotten into 
some trouble because he had plagiarized some of the statements 
in a Charlotte, North Carolina program that was similar to his 
efforts to take over the school system here. So I want to make 
it very clear today that I am plagiarizing with permission. 
This is not a Bart Gordon Bill. This is not a Democratic bill. 
This is not a Republican bill. This is simply putting into 
legislative language the recommendations of the Rising Above 
the Gathering Storm.
    And we are familiar with this. I will not belabor it. But 
quickly to say, when we ask them to look at competitiveness of 
American 21st Century, they had two recommendations: one with 
the Math and Science skills and the other was energy 
independence. And this was prior to the price of oil going up. 
And I think they were very farsighted in seeing that. And so, 
that is what we attempt to do today.
    It is a bill that is modeled after, and once again on their 
suggestions, the successful DARPA program. It has a nimble 
organization with a minimal amount of administrative layers. 
Its purpose is to look at high-risk high-reward areas that the 
private sector will not invest in. This is the basic of the 
basic research. And you also have to keep in mind that since 
the '80s that the federal energy technologies R&D, is down 85 
percent. And so this is a very important way.
    And I think the key to it is again looking at those high 
risk areas, bringing the public sector to the private sector or 
national labs, the universities, everyone together to crash on 
these and to make some real breakthroughs. I know that a number 
of the Committee Members met this weekend with the 
International Energy Association. And you will remember in 
talking about it they see sort of a three-legged stool to 
energy independence as well as dealing with the climate change. 
One is conservation. The second is better use of our existing 
energy sources. And the third is this type of transformational 
technology. Not only for new types of technology but also to 
use our existing types of fuels better. So I think this is very 
important.
    I know that there will be some that say that the 
authorizing level is too high. Let me say the authorizing level 
is the recommendation from the Rising Above the Gathering Storm 
that the appropriators ultimately in the House Floor will 
determine what is the actual appropriation. But I think that it 
is wise to give flexibility. Others might say that well, you 
know, the Energy Department is doing a good job. Let us do not, 
you know, throw something else in there. Well, if you are 
satisfied with status quo then we do not need this. I am not. I 
think we can do a better job. I think this is an important 
bill.
    I thank the Subcommittee for the good hearings that they 
have had and I thank them for bringing up this bill. And I 
yield back my time.
    [The prepared statement of Chairman Gordon follows:]

               Prepared Statement of Chairman Bart Gordon

    I would like to thank Chairman Lampson and the other Members of the 
Energy & Environment Subcommittee for their assistance in bringing H.R. 
364, a bill to establish an Advanced Research Projects Agency for 
Energy, before the Subcommittee this morning.
    I first introduced this bill in the 109th Congress in response to 
recommendations in the National Academies report, Rising Above the 
Gathering Storm.
    This report recognized that the U.S. dependence on traditional 
energy sources and outdated technologies puts us in a perilous 
position.
    We cannot afford to wait until we face severe disruptions to fossil 
energy supplies or serious impacts from climate change to address this 
challenge.
    The Gathering Storm report recommended establishing ARPA-E, modeled 
on DARPA's successful innovation model, to sponsor creative out-of-the-
box, transformational energy research in those areas where the private 
sector cannot or will not invest on its own.
    DARPA succeeded largely because it fostered a culture of 
innovation. We cannot legislate an agency's culture. But we can set up 
a nimble organization with minimal administrative layers and the 
ability to quickly start and stop research programs. These elements are 
key to the success of ARPA-E, and to transforming energy R&D from the 
laboratory bench into market-ready technologies.
    This transformation simply won't happen on the cheap. We must 
commit to providing adequate resources to get us there. We simply have 
not been making the kind of investments needed to move us into a new 
energy future.
    During the past 35 years, we have become more dependent upon 
foreign energy supplies and greenhouse gas emissions have grown so that 
we face an uncertain future due to climate change.
    During this same time period, federal investment in energy 
technology R&D has declined by 85 percent from its peak in 1978. We 
must reverse this trend.
    Investment in ARPA-E must be seen as the first step in boosting 
energy research and development to a level that addresses the true 
scale of the challenge before us, and the true cost of doing 
transformational research.
    Establishing an ARPA-E in H.R. 364 is a bold step, but we've got to 
be willing to push this envelope, make some tough but firm commitments 
to get the job done.
    I appreciate my colleagues' support, and I look forward to 
continuing to work with all of you as this legislation moves forward.

    Chairman Lampson. Thank you, Mr. Chairman. I note that 
Ranking Member Hall is not here right now and when he comes in 
he will also be called on for opening remarks that he might 
want to make. Without objection, Members may place statements 
in the record at this point.
    We will now consider H.R. 364 to provide for the 
establishment of the Advanced Research Projects Agency-Energy. 
I yield five minutes to Mr. Gordon to describe this bill.
    Chairman Gordon. Mr. Chairman, I think that I have and I 
will not take the Committee's time to do it again. I think that 
we have had adequate hearings on it. It is a bipartisan bill 
with many co-sponsors and I think my earlier opening remarks 
accomplished that. So I will yield it back but would certainly 
be open to any questions that anyone would like to have for 
clarification.
    Chairman Lampson. Thank you, Mr. Chairman. And I recognize 
Mr. Inglis to present any remarks he has on the bill.
    Mr. Inglis. And, you know, I might ask the Chairman a 
couple of questions as part of that. There are some questions 
over here. We think that we share the same vision. We also are 
excited about investing in this kind of breakthrough 
technology. That is what we have been talking about for a long 
time on this committee. There are some questions and maybe you 
can help clear them up.
    One of the challenges of the Department of Energy has been 
a bunch of earmarks that have eaten up the money that was 
available to pursue projects that would really be 
breakthroughs. Do you have any sense that in the setup that we 
are going to be able to avoid that scenario--that with the six 
billion that we would authorize that somehow we can protect it 
from earmarks for less than optimal demonstration projects?
    Chairman Gordon. If the Chairman--or if the Ranking Member 
would yield, I think that we saw that in DARPA that we did not 
see any type of earmarks. Within the National Science 
Foundation you do not see earmarks.
    Mr. Inglis. Right.
    Chairman Gordon. And so this committee should, I think, be 
on full record as saying that there should not be earmarks. I 
mean, there is not going to be a lot of projects. There is only 
going to be, you know, maybe seven or eight projects. And we 
need to put the full resources toward those. So I would work 
with you in any way to avoid that.
    Mr. Inglis. Yeah, because that would be a major concern of 
mine is figuring out a way to follow the NSF model, which 
functions so well and has excellence and pursues really good 
things. But--and I hope you share the concern that the 
Department of Energy--we have had, for example, in the hydrogen 
area. The reports we get back from the DOE folks is we could 
make some progress in this area if it were not for spending 
money on member-directed initiatives into small, not likely to 
produce many results, kind of things. And----
    Chairman Gordon. If the gentleman would yield, you know, 
potentially, for whatever it is worth, I think we should put 
report language into this bill to that effect and would be glad 
to work with you in any way to accomplish that. And I think, 
you know, we as a committee need to stand firm on the floor 
against anything like that.
    Mr. Inglis. Well, that would be helpful and help me--as to 
say we share the same vision and maybe a number of the same 
goals and strategies. The concern that I have is that it really 
has to do with making something in DOE working right.
    Chairman Gordon. If the Ranking Member would yield, I would 
consider that this was a failure if that happened. I mean, it 
is completely contrary to the purpose of ARPA-E and it would be 
a failure. And I will work with you in any way to avoid that. 
And let me also say that we are going to have, there is going 
to be an amendment, I think, that encompasses a variety of 
recommendations that have been made from both sides. And rather 
than have a markup next week at the Full Committee level, you 
know, I would like to postpone that for two weeks so that we 
can continue to work in a collaborative effort over these next 
two weeks if there is anything else that comes up like that 
because again I think this is a good bill but it can be made 
better as there are questions raised. So I would, you know, 
would work with you in any way we can do to accomplish our 
common goal.
    Mr. Inglis. I would be happy to yield back for the rest of 
my opening statement. It was not an opening statement. I had 
some questions. But that is helpful here at the Committee.
    Chairman Lampson. Ms. Biggert.
    Ms. Biggert. Thank you, Mr. Chairman. I too would like to 
welcome you back. I have a question, first of all, for counsel, 
if I might and then a question for Chairman Gordon. I would 
like to know is there a definition of consortia in the current 
law or is it a procurement term of art? And does it speak to a 
lead entity? It is cited in the bill on page four, lines six 
through 19.
    Chairman Lampson. On page four, the consortia that is 
intended in this bill--I am not aware that it is defined in 
current law. And this does refer to consortia of institutions 
of higher education and companies or consortia that may include 
federally funded research and development centers.
    Ms. Biggert. Does it----
    Chairman Lampson. It does not designate a lead entity.
    Ms. Biggert. All right. Then Chairman Gordon, we have 
worked so hard, I think, to increase the funding for the Office 
of Science and I think that it really has gone up. Even this 
year we wrote a letter to make sure that--and it was put into 
the supplemental--that we would increase that money to keep the 
labs open at that point. I believe, and I think we all believe, 
in basic research and development. How do we ensure that the 
money that goes to the basic research, the Office of Science, 
does not provide an offset to put more money into ARPA-E?
    Chairman Gordon. If the gentlelady would yield, first to 
your concern about consortium, if you feel that that needs to 
be better defined then certainly we need to work to accomplish 
that. You know, I mean, there are no guarantees around here. I 
certainly do not think that should happen. What our purpose 
is--there is, for lack of a better term, a bit of a trust fund 
that is going to be created with the recruitment from some of 
the tax breaks from the oil industry. And I think this will be 
the major source for that. Again, I think we need to do more, 
not less.
    I think there are really two different types of research. 
This is going to be cutting-edge research things that the 
Office of Science is not doing now. And it will be under that 
kind of microscope. It will have to be more nimble and be able 
to get things done. It will be working with the labs. And I, 
you know, I would like to give you a guarantee, but there are 
no guarantees other than that I would certainly oppose that.
    Ms. Biggert. I thank the gentleman. I have concerns about 
the fact that we authorize the funds and then the appropriators 
are the ones that actually determine the amounts and that is 
where we lose control of this, that----
    Chairman Gordon. Well, if the gentlelady would yield. 
Again, this is a different concept. And it--and if you think 
that status quo at whatever funding level within the Department 
of Energy on cutting-edge technology is working, then maybe we 
do not need this. But if you think that we do need 
breakthroughs than this is an important--if you want to say--I 
do not even think it is a risk. I think this is something that 
has to be done.
    Ms. Biggert. I do have some concerns and we will discuss 
that later, but let me go back then to consortia. There is no 
definition in this. Is there a definition in the Federal 
Acquisition Regulations?
    Chairman Gordon. I am not aware of a definition.
    Ms. Biggert. I think we need to work on that to make sure 
that we define exactly how that would work. And my concern is 
whether you have, let us say, a couple of scientists from a 
national lab and they have an idea and wanted to use this, can 
they be the lead entity? I mean, it would--that they would have 
to either go to a university or they would have to go to a 
company in order to be able to proceed with their scientific 
discovery.
    Chairman Gordon. If the gentlelady would yield. I will read 
you the language here: ``The Director shall administer the fund 
established under Section 3 to award competitive grants, 
cooperative agreements or contracts to institutions of higher 
education, companies or consortia or such entities which may 
include federally funded research and development centers to 
achieve the goals stated.'' And then it goes on.
    Ms. Biggert. The question----
    Chairman Gordon. Let me tell you what I think it means. It 
means that the director will be able to look again at the 
private sector, the public sector, the labs, the universities, 
anyone that is doing some work in a particular area, bring the 
best of that together. That is my intention. And if you do not 
think that our language accomplishes that then we will try to 
get better language.
    Ms. Biggert. Thank you. I think in putting on my lawyer hat 
that the way that it is written is that you have got two 
institutions of higher education----
    Chairman Gordon. Yes.
    Ms. Biggert.--companies or--and this is where--if it said 
competitive grants to institutions of higher education, 
companies, federal funded research and development centers or a 
consortia of such----
    Chairman Gordon. Yeah.
    Ms. Biggert.--you see----
    Chairman Gordon. Well, if the gentlelady will yield. I 
think often times--and I am sure you are concerned about labs. 
And the labs are----
    Ms. Biggert. Obviously.
    Chairman Gordon.--consortium, you know, in most situations. 
It would be my expectation that in most anything you do here 
the labs are going to play a major role. I do not know where 
there is more expertise than in the labs. So this is not--if--
this is not an effort to take them out. If anything, it is to 
step up what they are doing in those areas. And we will work to 
get that----
    Ms. Biggert. Okay.
    Chairman Gordon.--language so that it is so reflected.
    Ms. Biggert. I thank the gentleman and yield back.
    Chairman Lampson. Thank you, gentlelady. Does anyone else 
wish to be recognized? Mr. Balart.
    Mr. Diaz-Balart. Thank you, Mr. Chairman. I also want to 
first have my words to let you know--express that we are very 
happy that you are back and you look good and we know you are 
in for the fight again, so it is great to have you back.
    Chairman Lampson. Thank you very much.
    Mr. Diaz-Balart. My question--obviously the intent is one 
that we will share and is good. My question would be what is 
the cost of the actual Department going to--how much is that 
going to cost? In other words, I understand what it is trying 
to do, but it would seem to me that if there is a way to do it 
without creating a new entity, a new bureaucracy, that that 
would be the preferable way to do it, if it is possible. So the 
question is why is that not possible? And also, if you have 
some numbers on the cost--preliminary numbers on what the cost 
actually is of the actual department.
    Chairman Gordon. If the gentleman would yield. What we are 
trying to do is de-bureaucrat it. We may not share this view, I 
think, within previous Democratic and Republican 
administrations. Many think that once ideas get into the 
bureaucracy of the Department of Energy they sometimes get 
stuck in the mud. What we want to do is have a very lean 
operation here with as few administrators as possible. And it 
is pulling these groups together. So, you know, again I think 
we are trying to accomplish what you want to see done. To the 
question of the cost, the authorization level would be $300,000 
in the first year going up to a billion dollars thereafter.
    Mr. Diaz-Balart. Mr. Chairman.
    Chairman Gordon. I yield back.
    Mr. Diaz-Balart. Thank you, Mr. Chairman. You know, I 
clearly understand what the intent is and I applaud the intent. 
And you are absolutely right that obviously things do get stuck 
in the mud, so to speak, as you said, sir, in the Department of 
Energy. My only question is, I mean, we are dealing here with 
the Federal Government. And we are dealing with a new 
department in the Federal Government. Not in, you know, even 
the State of Florida or not even in some foreign country. When 
you are dealing with a new department in the Federal 
Government--and I am just concerned, but I am not questioning 
the sponsor's intent. But creating a new department is 
something that frankly does not seem to be in my view a 
solution to create less bureaucracy. Because when you are 
dealing with the Federal Government, federal departments are 
the bureaucracy, are the problems, are the cause of all the 
mud--things stuck in the mud. So it is----
    Chairman Gordon. If the gentleman would yield.
    Mr. Diaz-Balart. Yes, sir.
    Chairman Gordon. I need to correct myself. I said $300,000. 
It is $300 million to start. So, pardon me. Again, I would say 
that DARPA demonstrated that--and some would say that sometimes 
things get stuck in the Department of Defense, too, and that 
DARPA demonstrated that when you can take an agency out of that 
bureaucracy, make it lean. And again, what they are doing is--
this is not layers. It is a project manager that then is trying 
to bring together, again, the public sector, private sector 
labs to accomplish something. And so I do not think they could 
do it any other way. And again, the private sector clearly is 
not going to make these kinds of cutting-edge recommendations--
or cutting-edge investments. And if you think that somehow the 
department is going to turn over a new leaf and do this better 
than they have over decades than maybe this is not a good idea. 
I do not have that confidence.
    Mr. Diaz-Balart. Mr. Chairman. Thank you for your 
indulgence. And I appreciate it. I do not have--I clearly do 
not have the years of experience that you do have here. 
Obviously in a perfect world what one would do is task people 
who are already there in that huge department to get it done as 
opposed to creating a new department; which for somebody who 
has not been here that long frankly sounds counter-intuitive 
that, in order to shrink the bureaucracy you create a new one. 
That just sounds counter-intuitive for someone who does not 
have the experience as you all. And that is why to me it is 
kind of a hard sell.
    Chairman Gordon. If the gentleman would yield.
    Mr. Diaz-Balart. And again, thank you for your indulgence 
and I----
    Chairman Gordon. Oh, sure. If the gentleman would yield. I 
will not take offense with you calling me an old man. 
Experience is different altogether. And let me, you know, 
again, we are getting into things that maybe are not fully 
accurate. And I would hate to say it publicly, but there are 
those that think that a lot of the real talented folks within 
the Department of Energy have been poached out into the private 
sector. There are those who say a lot of the talented people 
get frustrated with the bureaucracy there and leave. And so we 
want to pay more. You know, I mean, we want to pay well and 
have an exciting challenge so that you can bring the very best 
people in the world. If they are the very best people for the 
Department of Energy, we ought to get them. If the very best 
person is in Exxon or is in anywhere else, let us go get them 
and bring them into this. That is what we want to try to 
accomplish. I yield back.
    Mr. Diaz-Balart. Chairman, can I have one last question? 
Again, you have been very generous with allowing me to----
    Chairman Gordon. Certainly. I will point out--and--I think 
we are going to have votes in a few minutes here, but that 
should not--this is too important to rush. But I will just--I 
will point that out. Yes, sir. I welcome your question.
    Mr. Diaz-Balart. Thank you. And again, you have been 
extremely kind with time, Chairman. Just this--will this new 
department have a different setup? Will people be able to get 
fired or is there going to be pretty much the same federal 
protections that people have in other departments so that once 
you are there basically--it is almost impossible to get fired? 
Because obviously if it was different--if it was an innovative 
new kind of outside the box thinking where people would get 
paid for performance--and I think that is obviously what the 
private sector does and you could get fired if you do not 
perform then that might be something very interesting. Or is it 
going to be pretty much the same--I do not know how that works.
    Chairman Gordon. Well, first let me ask counsel, here. How 
many--how large a staff would be there? What would be your 
expectation?
    The Counsel. Well, depending on the size of the budget, of 
course, it is not stated, but there could be anywhere--it is 
really guessing right now--50 people or so.
    Chairman Gordon. So----
    The Counsel. I mean, if they had a very large budget it 
would of course be more.
    Chairman Gordon. I think if you have 50 or even 100 people 
counting, you know, clerical folks there, they are going to be 
under a spotlight. They cannot hide. And this is important 
business. And this is not a place for folks to go retire. And I 
think that is the good thing about starting it up new. You 
know, you are not bringing them in on seniority basis. You are 
bringing in the best and the brightest to get a job done. I 
yield back. I guess-and the final thing is--again, I cannot 
give guarantees to anything. We can just take our best shot. 
But we can look at models that have worked that seems 
reasonable. And I think you and I should have a joint hearing 
on oversight on anyone who is not doing their job there. And I 
would welcome to join you in that.
    Chairman Lampson. You know, as I understand that, there is 
going to be basically temporary people rotated in and out three 
to five years. So there should not be a problem.
    Mr. Diaz-Balart. You know, it would be interesting. I 
understand where the Chairman is going. It might be interesting 
to look at that performance criteria and sunsets--that if you 
do not meet a certain performance criteria, and I do not know 
what those would be obviously, that the department goes away.
    Chairman Gordon. If the gentleman would yield. It is 
somewhat counter-intuitive to what we are trying to do. We--I 
mean, I do not--this is a bad way to say it. We expect some 
people to fail. I mean, the Internet was successful in DARPA. 
The technology was successful. How many were not successful? 
You know, this is an area that we want people not to be afraid 
to fail. And so, you know, failure is not your idea did not 
work out but you did not hit your best lick in trying it. So I 
think you have to be careful. Sometimes, quite frankly, when 
you talk in the scientific community they talk about old DARPA 
and new DARPA. New DARPA has gotten to be more of a less--it is 
more risk averse because they do not want to have those 
failures, where old DARPA was looking--you know, they were 
swinging for the fences. And that is what we want these folks 
to do. I yield back.
    Chairman Lampson. The Chair recognizes Mr. Bartlett.
    Mr. Bartlett. Thank you very much. Actually, in basic 
research and leading edge engineering there are no failures. 
You pursue something that you think may bear fruit and if it 
does not bear fruit you know it does not and that is not a 
failure. You look at science very differently than you do the 
business world. Everything you do in science is successful. You 
have a hypothesis. You are testing a hypothesis and you either 
have reason to accept it or not to accept the hypothesis. So it 
is a learning experience. If we are patterned after--if ARPA-E 
is patterned after DARPA, there is no bureaucracy. And they 
intentionally bring fresh blood in and they stay only a 
relative few years and they cycle through. So this is not going 
to be a bureaucracy. I would just like to return to the 
question that Ms. Biggert referred to, and that is lines eight, 
nine and 10 on page four, where we enumerate the entities to 
which we will give these contracts. And there is a danger when 
you have a list like this that it will tend to limit to whom 
you give contracts. And every one of these is a bureaucracy of 
some sort or another. I will shortly have my 81st birthday. And 
I have worked on a lot of different jobs and I will tell you 
that bureaucracies, wherever they are, are stifling. Whether it 
is universities or businesses--I worked for IBM. I worked for 
the really big guys. And we have no--we apparently here have 
excluded that entrepreneur out there--that small business man 
who may be a company of one who has a really great idea. Are we 
not going to give him a chance?
    Chairman Gordon. If the gentleman would yield. I am of the 
opinion that there is a garage scientist somewhere that 
probably, you know, has--you know, the best ideas come out of 
the garage.
    Mr. Bartlett. Right.
    Chairman Gordon. There is somebody that is thinking outside 
the box. So clearly these project managers would have the 
option to go, you know, anywhere and everywhere.
    Mr. Bartlett. But we should yet put wording in here that 
they would interpret precluded them from doing that, right?
    Chairman Gordon. Correct. And again, I think that we need 
to work over these next two weeks, meeting your concerns and 
Ms. Biggert's concern. And maybe less is better than more but 
we need to get this language correct and we will.
    Mr. Bartlett. And I am big fan of this. If we had 
leadership in our country on energy starting from the White 
House down to the Department of Energy we might not need this. 
But the sad truth is that we do not have adequate--we do not 
have leadership adequate to the challenge out there. This may 
not work. But nothing we are doing now works. And so, you know, 
let us try this. This has a big chance of working. DARPA has 
been enormously successful. And there is no entity in our 
government that had such leverage as DARPA has. And let us hope 
that ARPA-E can be--if it is half as successful as DARPA, it is 
going to be a big success. Thank you very much and thank you, 
Mr. Chairman, for bringing us this.
    Chairman Lampson. Thank you. Anyone else? I might mention 
that the word ``companies'' certainly would not be limited to 
one or two people. And access hopefully is adequately responded 
to in this. Anyone else seek recognition? If not, then I ask 
unanimous consent that the bill is considered as read and open 
to amendment at any point and that Members proceed with the 
amendments in order of the roster. Without objection, it is so 
ordered.
    First amendment on the roster is a managers amendment 
offered by myself and Ms. Giffords. Now the Clerk will report 
the amendment.
    The Clerk. Amendment to H.R. 364 offered by Mr. Lampson of 
Texas, Ms. Giffords of Arizona, and Mr. Bartlett of Maryland.
    Chairman Lampson. I ask unanimous consent to dispense with 
the reading. Without objection, it is so ordered. And I 
recognize myself for five minutes to explain the amendment.
    Following on the witness testimony at the Subcommittee 
hearing as well as feedback from several outside groups with 
interest in the bill, this managers amendment makes the 
following changes. ARPA-E's mission now includes reducing 
greenhouse gases, improving energy efficiency, ensuring the 
Nation's economic competitiveness in the field of emerging 
energy technologies as well as decreasing reliance on foreign 
energy; clarifies that ARPA-E should conduct research through 
hybrid teams of participants from private industry and 
government and university researchers and may include all 
stages of innovation from directed basic research to late stage 
commercial scale type demonstrations.
    Furthermore, the amendment ensures an innovative culture at 
ARPA-E by translating some of the critical organizational 
elements that made DARPA successful, such as autonomy within 
DOE, a hierarchical reporting structure, the ability to start 
up and terminate programs quickly, hiring of talented program 
managers for relatively short terms, minimal bureaucracy and 
overhead costs, utilizing existing DOE resources and ensuring 
current activities are not duplicated.
    Making customers within the Federal Government to aid 
limits the amount of funds that might be spent internally 
within DOE and on expensive late stage demonstrations. More 
importantly, the amendment makes what many of us consider to be 
a realistic commitment to increased funding for energy research 
and development. Energy research and development is not cheap 
but we have been acting like it is. We simply have to fund 
ARPA-E at a level commensurate with the scale and complexity of 
the challenge.
    Is there further discussion? I would like to--I would at 
this time ask Mr. Bartlett if he has any comments.
    Mr. Bartlett. Well, I concur with the managers amendment. 
It has improved what was a good bill. I am happy to support it. 
Thank you very much.
    Chairman Lampson. Thank you, Mr. Bartlett. And I would 
recognize Ms. Giffords. Any comments? Do you want to be 
recognized?
    Ms. Giffords. Mr. Chairman, I move to strike the last word.
    Chairman Lampson. You are recognized for five minutes.
    Ms. Giffords. Thank you. I will speak quickly. My nickname 
is Gabby for a reason. Let me just say that I thought that the 
ARPA-E hearing that we had a couple weeks ago and unfortunately 
was at a time when most Members were not here was one of the 
most interesting hearings that I have ever been able to partake 
in here at Congress. We had a chance to hear from Dr. William 
Bonvillian who took the DARPA concept and incorporated it into 
the Homeland Security bill. We had Dr. John--or excuse me, Mr. 
John Denniston who is a venture capitalist; Dr. Steven Forrest 
who talked about the university's effort for a DARPA-like 
funding project for energy; and Dr. Van Atta.
    Three areas that were repeated over and over in terms of 
what we need to do as a nation: energy independence, 
competitiveness--that Americans are competitive, and looking at 
global warming. So when I--when we heard about what ARPA-E 
could accomplish--this breakthrough technology. We are not 
talking about making coal cleaner or nuclear safer. We are 
talking about those innovative cutting-edge types of 
technology. And this bill really pulls it all together, Mr. 
Chairman. So with that I am pleased to co-sponsor this 
amendment and I ask my colleagues for support.
    [The prepared statement of Ms. Giffords follows:]

        Prepared Statement of Representative Gabrielle Giffords

    I move to strike the last word.
    I am very pleased to co-sponsor this amendment with Chairman 
Lampson, and I am proud to support this important legislation.
    Two weeks ago, we hosted an excellent panel of witnesses who 
provided us with a number of suggestions for improving H.R. 364. Our 
amendment incorporates a number of these suggestions and clarifies the 
structure envisioned for this new organization within the Department of 
Energy (DOE).
    Our witnesses all supported the establishment of ARPA-E as a new 
organization with limited administration and emphasized the important 
role of program managers in fostering a creative, dynamic environment. 
The witnesses also emphasized the need for ARPA-E to engage in energy 
research at all stages of technology development and to search for 
better processes as well as better products. Our amendment provides 
direction to project managers consistent with this advice.
    The witnesses all supported funding levels for ARPA-E above those 
established in the original bill. The authorization levels are raised 
to reflect their recommendations.
    ARPA-E is intended to jump-start the transformation of 
breakthroughs in basic energy research into new fuels, processes and 
energy technologies that will make us more energy efficient, less 
dependent upon foreign sources of energy, and that will be less harmful 
to the environment.
    I believe that energy independence is the Apollo mission of our 
generation, and ARPA-E will help us achieve this goal.
    DOE has done and will continue to do good research through its 
existing R&D programs. But DOE has not been very successful in the 
important task of moving its research from the laboratory bench to the 
marketplace.
    The establishment of an organization like ARPA-E within DOE can 
influence the culture of DOE in a positive way. It can provide a path 
for more of the basic energy research at DOE to be applied in new ways. 
We must be willing to experiment with different models of technology 
development especially when we know from experience that we are not 
seeing the pace of technological advance that we want and need under 
the current model for energy R&D.
    We face a significant challenge in transforming the pattern of 
energy use that we have followed in past decades. We must make a 
significant investment in energy R&D if we are going to meet this 
challenge. The investments we make must support a wide range of ideas, 
foster creative thinking, and support the development and demonstration 
of new technologies in partnerships with the industry.
    H.R. 364 will get us started in this effort and provide us with the 
future energy technologies that we need to support a vibrant economy 
and the quality of life that we enjoy today.
    I urge my colleagues to support our amendment and to support H.R. 
364.

    Chairman Lampson. Thank you very much. I always thought 
that Gabby meant that you talked a lot, not just fast. Who else 
seeks recognition? Ms. Biggert.
    Ms. Biggert. Thank you, Mr. Chairman. I move to strike the 
last word.
    Chairman Lampson. You are recognized for five minutes.
    Ms. Biggert. In the spirit of full disclosure I will admit 
that I do not support this bill in its current form. While I 
believe there are a number of provisions in the managers 
amendment that make it less objectionable, there are a number 
of provisions that make it more objectionable. First, the 
managers amendment I think has a lot of contradictions. The 
managers amendment clarifies that ARPA-E should support all 
stages of technology development including research 
development, demonstration and commercialization and should not 
have authority over any other program at DOE.
    At the same time, I think the managers amendment specifies 
that ARPA-E should not duplicate the efforts of any other 
agency or program at DOE. As a result, the managers amendment 
seemingly directs ARPA-E to do everything but not anything that 
has already been done at DOE. I got the impression from the 
Subcommittee hearing on ARPA-E two weeks ago that ARPA-E is 
supposed to fill a niche and bridge the gap between basic and 
applied research efforts and I do not see how the bill or this 
amendment accomplishes that or does what we really want it to.
    And by further broadening the responsibilities of the 
director, we could be creating tremendous management challenges 
for program managers both within and outside of ARPA-E as well 
as for the Secretary of Energy.
    Secondly, I have real concerns that this managers amendment 
almost doubles the authorized funding for ARPA-E from $3.3 
billion to $6.4 billion for a brand new untested agency. And 
DARPA, despite being in one form or another since 1958, has a 
fiscal year 2007 budget of only $3 billion, yet the managers 
amendment would make ARPA-E in only its second year of 
existence one-third the size of DARPA and one-forth the size of 
the Office of Science.
    The managers amendment ignores I think the advice of one of 
the witnesses at the Subcommittee hearing two weeks ago who 
warned that if ARPA-E is stood up and requires funding 
comparable to DARPA's, however it would be operated at a far 
larger scale and its market interventions would affect 
competitive outcomes and this could be a problem. That was Mr. 
Bonvillian.
    I just do not see how an agency could wisely spend $1 
billion in its second year of existence. But you might find 
some project that will change the world. And I think currently 
if the DOE had an extra $1 billion in new money they should be 
spending it on energy research, especially energy efficiency, 
renewable energy, energy conservation and nuclear energy 
research.
    And finally, I believe that one of the problems is that 
there is no way to address the relationship between this ARPA-E 
and the existing DOE National Laboratories. And again, we 
talked about the definition a little bit, but the managers 
amendment specifically says that no more than half the funds 
may be used for late stage demonstrations. No more than eight 
percent may go directly to federal funded research and 
development centers. And I think even though they might take 
the--if they could take the lead--if they could, only eight 
percent can go to them. So--and in testimony, one witness 
stated that to create an effective ARPA-E, one of the elements 
that Congress would need to address is DOE's existing lab 
structure. And he said, and I quote, ``ARPA-E will need to 
contend with a research infrastructure in the national 
laboratories that had no such precedent in DOD. The service R&D 
structure lacked the scale and scope of the current energy labs 
and also the support on Capitol Hill that these labs have 
had.'' But instead of addressing these issues, I think the 
managers amendment limits the amount of funds that can go to 
the federal research and development. And more than that, I 
think that the managers amendment also limits how much could be 
spent on the demonstration activities, that this bill is 
supposed to create an agile organization as the Gathering Storm 
report recommends. I am not clear why we are already putting 
limits on how much can be spent on something like demonstration 
projects. For all we know, given all the years of energy 
research Congress has funded, there may be a backlog of 
technologies that need demonstrating at this point, so--and I 
am glad that the Chairman has said that, you know, to take a 
couple weeks to really look at this and I would love to discuss 
it more. So with that I would yield back the balance of my 
time.
    [The prepared statement of Ms. Biggert follows:]

           Prepared Statement of Representative Judy Biggert

    In the spirit of full disclosure, I will admit that I do not 
support this bill in its current form. And while I believe there are a 
number of provisions in the manager's amendment that make it less 
objectionable, there are a number of provisions that make it more 
objectionable.
    First, the manager's amendment seems to be full of contradictions.
    The manager's amendment clarifies that ARPA-E should support all 
stages of technology development--including research, development, 
demonstration, and commercialization--and should not have authority 
over any other program at DOE.
    At the same time, the manager's amendment specifies that ARPA-E 
should not duplicate the efforts of any other agency or program at DOE.
    As a result, the manager's amendment seemingly directs ARPA-E to do 
everything, but not anything that's already being done at DOE.
    I got the impression from the Subcommittee hearing on ARPA-E two 
weeks ago that ARPA-E is supposed to fill a niche, and ``bridge the 
gap'' between basic and applied research efforts. I don't see how the 
bill, or this amendment, accomplishes that.
    And by further broadening the responsibilities of the director, we 
could be creating tremendous management challenges for program managers 
both within and outside of ARPA-E as well as for the Secretary of 
Energy.
    Secondly, I have real concerns that this manager's amendment almost 
doubles the authorized funding for ARPA-E from $3.3 billion to $6.4 
billion for a brand new, untested agency.
    DARPA, despite existing in one form or another since 1958, has an 
FY07 budget of only around $3 billion. Yet, the manager's amendment 
would make ARPA-E--in only its second year of existence--one-third the 
size of DARPA, and one-fourth the size of the DOE Office of Science.
    This manager's amendment ignores the advice of one of the witnesses 
at the Subcommittee hearing on ARPA-E two weeks ago who warned that:

         ``If an ARPA-E, is stood up and acquires funding comparable to 
        DARPA's, however, it would be operating at a far larger scale 
        and its market interventions could affect competitive outcomes. 
        This could be a problem.'' (Mr. William Bonvillian)

    I just don't see how any agency could wisely spend $1 billion in 
its second year of existence, especially an agency still trying to 
figure out how best to operate within a complex organization like the 
DOE.
    Nor can I even imagine where that money would come from. Don't we 
think that if the DOE currently had an extra $1 billion in new money 
today they'd be spending it on energy research, especially energy 
efficiency, renewable energy, energy conservation, and nuclear energy 
research?
    Finally, of this bill's many flaws, I believe that one of its 
greatest is that it in no way addresses the relationship between this 
new ARPA-E and the existing DOE national laboratories.
    Again, in testimony before this subcommittee, one witness stated 
that to create an effective ARPA-E, one of the elements that Congress 
would need to address is DOE's existing lab structure. He said:

         ``ARPA-E will need to contend with a research infrastructure 
        in the National Laboratories, that had no such precedent in 
        DOD. The Service R&D structure lacked the scale and scope of 
        the current ``energy labs'' and also the support on Capitol 
        Hill that these labs have.'' (Dr. Richard Van Atta)

    But instead of addressing these issues, the manager's amendment 
arbitrarily limits the amount of funds that can go to federal funded 
research and development centers, of which the DOE labs are a rather 
small subset.
    But more than that, the manager's amendment also limits how much 
could be spent on demonstration activities. If this bill is supposed to 
create an ``agile'' organization as the Gathering Storm report 
recommends, I'm not clear why we're already putting limits on how much 
it can spend on something like demonstration projects. For all we know, 
given all the years of energy research Congress has funded, there may 
be a backlog of technologies that need demonstrating at this point.
    For all these reasons, I urge my colleagues to oppose the manager's 
amendment, and I yield back the balance of my time.

    Chairman Lampson. I thank the gentlelady. Who else seeks 
recognition? Ranking Member Mr. Inglis.
    Mr. Inglis. Hello, Mr. Chairman. Do you think we have time?
    Chairman Lampson. We are getting close, but we can--we have 
got a few more minutes if we can--if there is not too much more 
that----
    Mr. Inglis. Yeah.
    Chairman Lampson.--is taken.
    Mr. Inglis. Several questions and it would be great if 
Chairman Gordon would maybe respond to some of these perhaps as 
I want to make sure I understand the organizational structure 
of ARPA-E.
    Chairman Gordon. Let me make a suggestion, here. This is an 
important bill. I do not want to rush you through it. And so if 
you are going to have several questions, maybe we should just 
come back later because----
    Mr. Inglis. Okay.
    Chairman Gordon.--you deserve----
    Mr. Inglis. That sounds good.
    Chairman Gordon.--to have a full airing.
    Mr. Inglis. Let us do it.
    Chairman Gordon. Okay.
    Chairman Lampson. Okay. And if that is the case, pursuant 
to Rule 1J, the Subcommittee will be in recess until 
immediately following the series of votes on the Floor and ask 
that everyone please come back quickly thereafter. We are in 
recess.
    [Recess.]
    Chairman Lampson. Okay. We will reconvene our meeting. 
Thanks for everyone's patience while we had so many votes. We 
left while still having discussion on the first amendment. And 
I believe that Mr. Inglis was controlling the time and so you 
are recognized for five minutes.
    Mr. Inglis. I realize that people want to move along 
quickly, so I will--these questions may be just things that 
Chairman Gordon may want to respond to now or it may be that 
you want to respond as we move from here to Full Committee 
markup, but--I am interested in making sure that what--that we 
have--I have mentioned earlier, learning what we learn from 
NSF. But maybe the better comparison in talking with Mr. 
Lipinski on the floor here recently is that DARPA may be 
actually the better comparison as to whether we have learned--
my question is whether we have learned everything we need to 
learn from DARPA and can apply it to this bill so that whatever 
structures were set up for DARPA we have mimicked them in this.
    And so for example, within--that is the broad question. 
Specific questions under that would be what is the 
organizational structure that is anticipated for ARPA-E. Where 
are they going to get the money? How is it going to be 
appropriated? What Subcommittee appropriations will that come 
through? Or will it come through the DOE and therefore perhaps 
DOE will take the money and put it somewhere else? Or how is it 
preserved for ARPA-E? And then--so those are just the questions 
about--I think they fall under the heading of have we learned 
everything we could learn from DARPA and applied it to ARPA-E 
and built it in to the authorizing language.
    Particularly I have heard--I am asking a bunch of questions 
here, but I have also heard in the break for those votes, my 
capable staff found out that NSF maybe is not so much statutory 
setup as it is the culture and expectation that has come around 
NSF as to how it will be preserved from earmarking and that 
sort of thing. So my question with the ARPA-E is, in a 
different world now where earmarking is so common, do we need 
to build protection into this authorizing language? So you can 
pick up any of those questions, Mr. Gordon. And also the last 
one I throw out is how do we get from three billion to six 
billion? Any one of those three broad questions.
    Chairman Gordon. Those are all good questions. Let me start 
with our review of DARPA. There has been an exhaustive effort 
to talk with folks in DARPA, folks that have--you know, that 
are currently there, have been there. We have had hearings with 
the DARPA representatives. And it was an effort to incorporate 
that. I will also say that, as I said earlier, there are some 
that think of old DARPA and new DARPA. The old DARPA took 
risks. The new DARPA does not take that many risks now. So we 
tried to model it more on the old DARPA. So I think there has 
been a good conversation with them.
    In concerning the appropriation amount, the authorizing 
amount, that is the amount that was recommended by the Rising 
Above the Gathering Storm report. And again, I put that in 
context, we have had an 85 percent reduction in Energy R&D 
since the '80s.
    Are there other more specific questions or do you want to 
repeat anything specifically that I did not cover there that 
you would like?
    Mr. Inglis. How do you see us? Do you think we need to 
build protections into the authorizing language to keep it from 
morphing into a middling Department of Energy program where 
things are earmarked away and where the budget gets spent and--
--
    Chairman Gordon. You know, if the gentleman would yield. As 
I said earlier, I am adamantly opposed to that. As a practical 
matter, ARPA-E really is only going to be dealing with--and 
this is something we learned from DARPA. They said you should 
limit the number of projects to eight to 10. So if you are only 
going to have eight or 10 projects, you know, you cannot--to 
earmark something is like 10 percent or more of that. So I 
welcome any thoughts on being more specific as to why that, you 
know, why that would be bad. So if you have some ways to do 
it--I do not think it is going to happen. I think that it would 
be an outrage to try to do something like that because there 
would be such an enormous figure.
    Mr. Inglis. My time is nearly up and I want to make sure to 
give others here the opportunity to ask questions. But I look 
forward to working with you as we move from this markup to the 
Full Committee and maybe address some of these things in more 
detail there.
    Chairman Gordon. Yeah. You know, as a practical matter, 
this bill has been out for a long time. But I understand we are 
all busy and a lot of times we do not start focusing until--you 
know, like homework is due. And so homework is due now and now 
that everybody is focusing we will intensely go through this in 
the next two weeks and if it takes longer, we will do, you 
know, whatever we need to do.
    Mr. Inglis. I yield back, Mr. Chairman.
    Chairman Lampson. Thank you very much. Who seeks 
recognition? Ms. Biggert, you are recognized for five minutes.
    Ms. Biggert. Thank you. I would go back to the DARPA and 
also the Homeland Security. It seems to me that the difference 
between DARPA and ARPA-E is that DARPA was established to be 
the research arm of the Department of Defense. And we do not, 
in ARPA-E, we already have the research. And also, if you could 
just answer--obviously the Homeland Security ARPA did not work, 
dealing with private--if you could comment on the difference 
between ARPA-E and the Homeland Security.
    Chairman Gordon. Let me first go back to your first 
question with the Defense Department. The Defense Department 
had--they were already doing research. ARPA-E was set up 
specifically for advanced research. So it was not a new--I 
mean, it was not that Defense had not done any research. It was 
set up for advanced research for many of the same reasons that 
we are talking about today in terms of problems that could 
occur within the bureaucracy of the Department of Energy.
    In terms of the Homeland Security, I do not know that there 
are problems there. And there may be. And I cannot address that 
because I am just not aware. Is counsel or anyone else aware of 
that?
    Ms. Biggert. The witnesses spoke on--one of the witnesses, 
Mr. Bonvillian, spoke on the problems at HS-ARPA and that it 
was largely an issue of execution of the authorization 
language, that one of the things was that it could not build in 
the culture like we are talking about here.
    I yield back.
    Chairman Lampson. Who seeks recognition? If there is no 
further discussion on this amendment then the vote will occur 
on the amendment. And I would ask that all in favor say aye. 
Those opposed say no.
    The ayes have it and the amendment is agreed to. The second 
amendment on the roster is an amendment offered by the 
gentlewoman from Illinois, Ms. Biggert. Are you ready to 
proceed with your amendment?
    Ms. Biggert. Yes, Mr. Chairman. I have an amendment at the 
desk.
    Chairman Lampson. The Clerk will report the amendment.
    The Clerk. Amendment in the nature of a substitute to H.R. 
364 offered by Mrs. Biggert of Illinois.
    Chairman Lampson. I ask unanimous consent to dispense with 
the reading and without objection it is so ordered. I recognize 
Ms. Biggert for five minutes to explain the amendment.
    Ms. Biggert. Thank you, Mr. Chairman. It should come as no 
surprise to everyone on this subcommittee that I have long been 
skeptical about the National Academy's proposal to create an 
Advanced Research Project Agency at DOE, or ARPA-E. And I first 
raised questions about this proposal at a Science Committee 
hearing that we had in the 109th Congress in March of 2006. And 
despite participating in a second hearing just two weeks ago, I 
think that many of the questions have not been answered. It 
still is not clear what problems we are trying to solve with 
the creation of ARPA-E or what its function, role, or structure 
should be. So is it a lack of private sector involvement in 
long-term or basic research? And if so, how do we solve the 
problem by creating a brand new agency to distribute scarce 
federal resources to companies to conduct research that they 
would not otherwise conduct.
    Correct me if I am wrong, but does not the academy's 
version of ARPA-E put the Federal Government in the position of 
picking what companies are the winners. It is a lack of federal 
funding for high risk transformational research? And if so, how 
would you characterize DOE's current FreedomCAR and hydrogen 
initiatives, for example. How about the President's global 
nuclear energy partnership, FutureGen, or U.S. participation in 
either. I do not know about my colleagues, but I would put 
these in the category of high risk transformational research.
    Is it a failure of the Department of Energy to effectively 
transfer new energy technologies from the laboratory to the 
market? And if so, would not it make more sense to closely 
examine the legal and policy obstacles to the transfer of 
technology from our universities, national labs, and other 
research institutions? And how should ARPA be structured to 
take full advantage of the existing energy R&D infrastructure 
of our national labs?
    Where exactly are we going to get the money for ARPA-E with 
growing demands on our limited federal resources? Is there 
really new money available for this agency? Really, no. The 
money will come from other basic and applied DOE research 
programs, I am afraid.
    So some of these questions are included in this amendment 
that I am offering today. Instead of creating a new agency, a 
new bureaucracy at the DOE based on what I think is a vague 
recommendation by the National Academies. My amendment would 
direct the NSA to conduct a detailed study and clarify their 
recommendation to establish an ARPA-E and to answer a number of 
remaining questions. And I think this is a reasonable and 
responsible course of action on the only Gathering Storm 
recommendation in which there was not consensus.
    And on the National Academy's panel--and the panel said--
sought no outside advice in crafting. At the hearing on ARPA-E 
held by this subcommittee two weeks ago, I specifically asked 
the witnesses if they thought the NAS recommendation was clear 
as to the extent of the function, role and structure of ARPA-E 
or if they believed that the recommendation left a lot of 
questions unanswered. And I think the panel was unanimous that 
the NAS recommendation was really just an idea that left a lot 
of questions unanswered.
    One of the witnesses, John Denniston, said I do not think 
that the Gathering Storm report provided implementation 
details. I view it as an idea. So they do not talk specifically 
about what technologies, fossil, nuclear, renewable--they do 
not talk about the stage of research. Should it be 
translational? Is it basic? Is it applied? And they do not talk 
about the organizational details, much of which you have heard 
today.
    And when I asked the same witnesses if it would be 
worthwhile for NAS to answer some of those unanswered 
questions, come to a consensus and flesh out the details of 
whether the ARPA-E recommendation before Congress went so far 
as to create another federal agency, they said no. So while 
they all agreed that the recommendation was vague, they all 
thought we should go ahead and implement it anyway.
    While those witnesses certainly are entitled to their 
opinion, we all have a responsibility to ensure that the 
Federal Government is a good steward of the taxpayers' dollars. 
And I am not willing to spend billions of dollars to create a 
whole new agency based on a vague recommendation. I know, Mr. 
Chairman, that you have spent a lot more time on this in moving 
it forward. But I have always taken my responsibility for 
overseeing the research and development programs at the DOE 
very seriously. And I cannot think really of anything more 
important to our national security, our economy, and our 
standard of living than energy. And I know that everyone here 
is generally interested in finding solutions to our nation's 
energy challenges. And I think we need to find the right 
solution, not just any solution.
    And if ARPA-E is the right solution, I will support it. But 
to get to the right solution, I think we have the obligation to 
ask the tough questions. And that is the purpose of my 
amendment today. So I would urge my colleagues to support it 
and yield back the balance of my time.
    [The prepared statement of Ms. Biggert follows:]
           Prepared Statement of Representative Judy Biggert
    It should come as no surprise to anyone on this subcommittee that I 
have long been skeptical about the National Academies' (NAS) proposal 
to create an Advanced Research Projects Agency at the Department of 
Energy (DOE), or ARPA-E. I first raised questions about this proposal 
at a Science Committee hearing during the 109th Congress in March of 
2006.
    Despite participating in a second hearing on this topic just two 
weeks ago, many of my questions still have not been answered.
    It still isn't clear what problems we are trying to solve with the 
creation of an ARPA-E, nor what its function, role or structure should 
be.
    Is it a lack of private sector investment in long-term or basic 
research? If so, how do we solve the problem by creating a brand new 
agency to distribute scarce federal resources to companies to conduct 
research they wouldn't otherwise conduct? Correct me if I'm wrong, but 
doesn't the Academies' version of ARPA-E put the Federal Government in 
the position of picking what companies are winners?
    Is it a lack of federal funding for high-risk, transformational 
research? If so, how would you characterize DOE's current FreedomCAR 
and Hydrogen Initiatives? How about the President's Global Nuclear 
Energy Partnership, FutureGen, or U.S. participation in ITER, the 
international fusion experiment? I don't know about my colleagues, but 
I would put these in the category of high-risk, transformational 
research.
    Is it a failure by the Department of Energy to effectively transfer 
new energy technologies from the laboratory to the market? If so, 
wouldn't it make more sense to closely examine the legal and policy 
obstacles to the transfer of technology from our universities, national 
laboratories, and other research institutions?
    And how should ARPA-E be structured to take full advantage of the 
existing energy R&D infrastructure at our national labs? Where exactly 
are we going to get the money for ARPA-E? With growing demands on our 
limited federal resources, is there really ``new money'' available for 
this agency? Realistically, no; the money will come from other basic 
and applied DOE research programs.
    Some of these questions are included in this amendment I am 
offering today. Instead of creating a new agency--a new bureaucracy--at 
the DOE based on a vague recommendation by the National Academies, my 
amendment would direct the NAS to conduct a detailed study of and 
clarify their recommendation to establish an ARPA-E, and to answer a 
number of remaining questions.
    I think this is a reasonable and responsible course of action on 
the only Gathering Storm recommendation on which there was not 
consensus, and on which the National Academies' panel sought no outside 
advice in crafting.
    At the hearing on ARPA-E held by this subcommittee two weeks ago, I 
specifically asked the witnesses if they thought the NAS recommendation 
was clear as to the exact function, role, and structure of ARPA-E, or 
if they believed the recommendation left a lot of questions unanswered. 
The panel was unanimous that the NAS recommendation was really just an 
``idea'' that left a lot of questions unanswered.
    One of the witnesses, John Denniston, a partner with the firm 
Kleiner, Perkins, Caufield & Byers, said, ``I don't think that the 
Gathering Storm report provided implementation details. I view it as an 
idea. So, they don't talk specifically about which technologies, 
fossil, nuclear, renewable. They don't talk about stage of research, 
should it be translational, is it basic, is it applied? They don't talk 
about the organizational details, much of which you have heard today.''
    When I asked the same witnesses if it would be worthwhile for the 
NAS to answer some these unanswered questions, come to a consensus, and 
flesh out the details of their ARPA-E recommendation before Congress 
went so far as to create another federal agency, they said no.
    So while they all agreed the recommendation was vague, they all 
thought we should go ahead and implement it anyway.
    While those witnesses certainly are entitled to their opinion, we 
all have a responsibility to ensure that the Federal Government is a 
good steward of the taxpayer's dollars. And I'm not willing to spend 
billions of dollars to create a whole new agency based on a vague 
recommendation.
    As past Chairman of this subcommittee, I always took my 
responsibility for overseeing the research and development programs at 
the DOE very seriously. I can't think of anything more important to our 
national security, our economy, and our standard of living than energy. 
And I know everyone here is genuinely interested in finding solutions 
to our nation's energy challenges.
    But we need to find the ``right'' solutions, not just any solution. 
If ARPA-E is the right solution, I will support it. But to get to the 
``right'' solution, we have an obligation to ask tough questions. 
That's the purpose of my amendment today. I urge my colleagues to 
support it, and I yield back the balance of my time.

    Chairman Lampson. I thank the gentlelady. Is there----
    Chairman Gordon. Strike the last word.
    Chairman Lampson. The Chairman of the Committee is 
recognized. Mr. Gordon.
    Chairman Gordon. You cover a lot of territory there, Ms. 
Biggert. Let me try to address some of these. First of all, you 
said that this was not a consensus recommendation of the Rising 
Above the Gathering Storm. It was consensus. It was not 
unanimous. The only member of the community that voted against 
it was the Chairman of the Board of Exxon.
    You quoted Mr. Denniston as being somehow negative toward 
it. You asked him some questions in the--when there was a 
Subcommittee hearing. Let me repeat back to you his answer. And 
Mr. Denniston said and this is in response to you, ``Can I take 
a shot at that, Congresswoman? First is on the question of the 
study. I will not do--I would not do a study. I think this 
subcommittee has the facts and the expertise to be able to 
decide those details. A study delays implementation, which I 
would be very much opposed to. And let me also say that it is 
also not necessary to have this amendment because it is already 
the law.''
    The Energy Policy Act of 2005, Section 1821, DOE was 
required to have a similar study done by the National Academy 
of Public Administration and submit it to Congress by January 
of this year. DOE never initiated the report. So it is pretty 
clear that if you are against this developing ARPA-E then you 
should vote for this amendment because it, you know--somebody 
might even make a commentary that DOE couldn't even do what 
they are required to do. And this may be a reason why we want 
to set up something separately. But if you want the study all 
you have to do is ask DOE to do what they were required to do 
and have not done. I yield back.
    Ms. Biggert. If the gentleman will yield.
    Chairman Gordon. Oh, certainly.
    Ms. Biggert. I think I did make it clear that they all 
recommended that we go ahead and not wait for any study. I 
tried to briefly say that.
    Chairman Gordon. Well, I apologize if I----
    Ms. Biggert. No, that is okay.
    Chairman Gordon.--mischaracterized.
    Ms. Biggert. That is all right. I think that one of the 
problems with the implementation is that I think it is going to 
be difficult when we do not have the buy-in of the Department 
of Energy. Maybe to ask them for doing a study. But I would 
agree with you that I have also asked them for studies such as 
this. Systems analysis for the GNEP. And they refused that. 
They were against the bill and a study like that. So, I think 
there are problems.
    I am not saying that I agree with everything that the 
Department of Energy has done. But I just wonder if--again, I 
think it is the question of the whole agency. But I think that 
we can work it out at some point. Yield back.
    Chairman Gordon. I yield back the balance of my time.
    Mr. Bartlett. Mr. Chairman?
    Chairman Lampson. Mr. Bartlett.
    Mr. Bartlett. Thank you very much. You know, if we were 
sitting here five or 10 years ago, I could enthusiastically 
support this proposal. But very frankly, we have run out of 
time. The time for this was five or 10 years ago. As a matter 
of fact, the time for this was 27 years ago.
    In 1956, M. King Hubbard predicted the United States would 
reach its maximum oil production in 1970. That happened right 
on schedule. By 1980, we knew darn well that M. King Hubbard 
was right about the United States. And in spite of drilling 
more oil wells than all the rest of the world put together, in 
spite of finding oil in Alaska, in spite of drilling four times 
as many wells in the Gulf of Mexico as all the wells in Saudi 
Arabia, we still are only producing half as much oil as we did 
in 1970.
    And we knew darn well by 1980 that M. King Hubbard was 
right, which is why I say we should have been doing this 27 
years ago. Certainly the United States is a microcosm of the 
world. He predicted that the world would be peaking in oil 
production about now. Have you seen the latest Chevron ad? They 
agree that we probably reached peak production. The time for 
this study is gone. We have now run out of time. We have now 
run out of energy. If we had any extra surplus energy to invest 
in alternatives, oil wouldn't be 60-couple dollars a barrel. We 
needed to be doing this 27 years ago. We cannot roll back the 
hands of time, so we need to move.
    I would hope that the National Science Foundation and 
National Academy of Sciences would work with us in developing 
this new entity so that it will be as effective as it can be. 
You know, time is really more than of the essence here. I went 
over during the holidays to China. They start their discussion 
of energy by talking about post-oil. Wow. I wish our guys got 
it here.
    They have a five-point program which ought to be our five-
point program. Conservation first. Diversify. Get as much of it 
as you can at home. Be kind to the environment. Surprise that 
they would say that. They know that they are huge polluters and 
they are saying please help us. We have 1,300,000,000 people. 
They have got to be fed and clothed. And the fifth one was 
international cooperation.
    It is high time that we get on with this. It may not work. 
But, you know, God knows what we are doing now sure as heck is 
not working. Year by year goes by. The price of oil goes up 
more and more. And I had a map that I wish I kept here to show 
you--the world according to oil. And it shows what the 
countries of the world would look like if their size was 
relative to the amount of oil that they have. We are way over 
insignificant in a corner. And Saudi Arabia, of course, just 
dominates the globe. And the Middle East and Northern Africa 
dominates the globe.
    You know, it is high time we get on with this. And the 
reason for this--the reason for this--and the reason the 
marketplace will not take care of this and the reason that the 
DOD could not count on the marketplace to take care of the 
innovations they needed, which was why they set up DARPA--is 
because the market signals will not be early enough or strong 
enough.
    I know I have many colleagues on my side of the yard that 
worship the market. They think the market is omniscient and 
omnipotent. It knows all and is all-powerful. And if there were 
infinite resources, I could trust the market. The problem is 
there are not infinite resources here and our USGS and our 
energy information agency do not understand that. They project 
that the future will be like the past. And in the past we have 
always had as much gas and oil as we wanted. And they are 
saying that our two percent increase in growth is going to 
continue. It is, and it will be accelerated with China and 
India and the developing world coming on board. And they say 
that there will be enough gas and oil there to meet those 
demands.
    And clearly La Horara says that this is absolutely 
implausible to believe that we are going to find as much more 
oil as all the oil that now exists in the world. And that is 
what they are telling us will happen. Mr. Chairman and the 
Chairman of the Full Committee, thank you very much for 
bringing this before us. This is more than timely. It would 
have been timely 17 years ago. It is the kind of thing we 
should have been doing 27 years ago and shame on us if we do 
not do it now.
    Ms. Biggert. Will the gentleman yield?
    Mr. Bartlett. Yes. I would be happy to yield.
    Ms. Biggert. Okay. Thank you. I know that this is something 
that you really believe in and I do too. I wish that we had 
started much earlier. But I do not want to just leave it to 
imply that there is not any energy R&D underway currently. And 
the Department of Energy is spending billions on energy R&D 
now. I think that--and this investment I think is paying off.
    For instance, the National Academy of Science has found 
that for every dollar that Congress invested in energy 
efficiency R&D between 1978 and 2000, that more than four 
dollars of economic benefit was realized. So I think that we--I 
do not know that this will delay it. I think that we have to 
move as fast as we can, too. And I certainly do not want to let 
one minute go by that we do not continue in the research and 
development. And with that I would yield back.
    Mr. Bartlett. Thank you very much. I yield back, Mr. 
Chairman.
    Chairman Lampson. Thank you both very much. Who seeks 
recognition? Any further discussion? Being none, the vote will 
now occur on the amendment. All in favor say aye. Those opposed 
say no.
    The nos have it and the amendment is not agreed to. Are 
there any other amendments? Any other amendments? Hearing none, 
the vote is on the bill, H.R. 364, To provide for the 
establishment of the Advanced Research Projects Agency-Energy 
as amended. All those in favor will say aye. All those opposed 
will say no. In the opinion of the Chair, the ayes have it. I 
will recognize the Vice Chairman of our Subcommittee for a 
motion.
    Ms. Giffords. Thank you, Mr. Chairman. I move that the 
Subcommittee favorably report House Resolution 364's amendment 
as amended to the Full Committee. Furthermore, I move that 
staff be instructed to prepare the Subcommittee legislative 
report and make necessary technical and conforming changes to 
the bill as amended in accordance with the recommendation of 
the Subcommittee.
    Chairman Lampson. The question is on the motion to report 
the bill favorably. Those in favor of the motion will signify 
by saying aye. Opposed say no. The ayes have it, and the bill 
is favorably reported. Without objection the motion to 
reconsider is laid upon the table. Subcommittee Members may 
submit additional or Minority views on the measure.
    I would like to thank the Members for their attendance, 
everyone who stayed all the way through this thing. And this 
concludes our subcommittee markup. We are adjourned. Thank you.
    [Whereupon, at 1:00 p.m., the Subcommittee was adjourned.]


                               Appendix:

                              ----------                              


        H.R. 364, Section-by-Section Analysis, Amendment Roster


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                Section-by-Section Analysis of H.R. 364,
                To provide for the establishment of the
                Advanced Research Projects Agency-Energy

Summary

    H.R. 364 establishes an Advanced Research Projects Agency for 
Energy within the U.S. Department of Energy. Modeled after the 
Department of Defense's Defense Advanced Research Projects Agency, 
ARPA-E is a new program charged with the mission of reducing U.S. 
dependence on oil through the rapid development and commercialization 
of transformational clean energy technologies. This bill follows on the 
recommendations of the National Academy of Sciences' report ``Rising 
Above the Gathering Storm: Energizing and Employing America for a 
Brighter Economic Future.''

Section-by-Section

Section 1. Findings

    The U.S. can meet long-term energy challenges through sustained 
investment in energy research programs at DOE augmented by an 
innovative and aggressive new energy technology development effort 
based on the same operating principles that make DARPA successful.

Section 2. Advanced Research Projects Agency-Energy

    Establishes the Advanced Research Projects Agency-Energy (ARPA-E) 
within the Department of Energy. Similar to the Department of Defense's 
successful Advanced Research Projects Agency (DARPA), this new 
organizational structure will be well-positioned to support 
revolutionary and transformational energy research where risk and pay-
offs are high.
    The stated goal of ARPA-E is to reduce the dependence of the U.S. 
on foreign energy sources by 20 percent over the next 10 years. To 
achieve this ARPA-E should support targeted high-risk, high pay-off 
research to accelerate the innovation cycle for both traditional and 
alternative energy sources and energy efficiency. ARPA-E shall be 
headed by a Director, appointed by the Secretary, who will administer 
competitive grants, cooperative agreements, or contracts to 
universities, industry and consortia which may include federal labs.
    Organization of ARPA-E will be very flat and nimble to avoid 
bureaucratic impediments that stifle innovation today. The Director 
shall designate program managers who will have flexibility in 
establishing R&D goals for the program, publicizing goals, issuing 
solicitations and selecting projects for support as well as monitoring 
their progress. Projects will be chosen based on factors such as 
novelty, scientific and technical merit, applicant's capabilities and 
other criteria as the Director determines. ARPA-E will have authority 
to hire specialized science and engineering personnel to be program 
managers. (This is similar to DARPA and HS-ARPA.)
    In addition, the Director shall ensure that ARPA-E's activities are 
coordinated with other federal research agencies and that ARPA-E may 
carry out projects jointly with other agencies.

Section. 3. Energy Independence Acceleration Fund

    Establishes the Energy Independence Acceleration Fund administered 
by the Director of ARPA-E. Funding is authorized from FY 2008 thru 2013 
ramping up 25 percent per year from an initial authorization of $300 
million to $915 million.

Section 4. Recoupment

    If a project is successful the Federal Government can recoup some 
of its original investment. The provision allows the Secretary complete 
flexibility in developing recoupment agreements, and the ability to 
waive it entirely if necessary for the commercial viability of a 
project. All recouped funds will be returned to the Energy Independence 
Acceleration Fund.

Section 5. Advisory Committee

    The ARPA-E Advisory Committee may seek advice either from an 
existing DOE advisory committee or may establish a new advisory 
committee. If the Director of ARPA-E requires industry advice, a panel 
to advise on a specific technology area, or to hire an outside 
consultant, this provision provides the appropriate authorities.

Section 6. ARPA-E Evaluation

    At the end of five and one-half years, the President's Committee on 
Science and Technology (PCAST) shall evaluate how well ARPA-E has 
performed in achieving its goals and mission. The Committee is required 
to recommend whether ARPA-E should be continued or terminated as well 
as lessons learned from its operation.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



XXIII: PROCEEDINGS OF THE FULL COMMITTEE MARKUP ON H.R. 364, TO PROVIDE 
 FOR THE ESTABLISHMENT OF THE ADVANCED RESEARCH PROJECTS AGENCY-ENERGY

                              ----------                              


                        WEDNESDAY, MAY 23, 2007

                  House of Representatives,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:10 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Bart Gordon 
[Chairman of the Committee] presiding.
    Chairman Gordon. Good morning everyone. The Committee on 
Science and Technology will come to order. Pursuant to notice, 
the Committee meets to consider the following measures: H.R. 
364, To provide for the establishment of the Advanced Research 
Projects Agency-Energy; H.R. 1467, the 10,000 Trained by 2010 
Act; H.R. 1716, the Green Energy Education of 2007; and H.R. 
632, the H-Prize Act of 2007.
    Before we get started with this markup though, we have one 
quick piece of Committee business to attend to. The 
distinguished Member from California, Mr. Calvert, recently 
took a leave of absence from the Committee to serve on 
Appropriations. This left the Space and Aeronautics 
Subcommittee without a Ranking Member. Last week Mr. Hall 
announced that Representative Feeney would take over as Ranking 
Member of the Subcommittee, and I now ask unanimous consent 
that the Committee on Science and Technology ratify the 
selection of Mr. Feeney as Ranking Member of the Space and 
Aeronautics Subcommittee. Without objection----
    Mr. Hall. Mr. Chairman, do you have to be present to be 
proposed or----
    Chairman Gordon. Well, I am considering that no objection 
and--or may I say, I consider that a slight objection and it is 
so ordered. I want to congratulate Mr. Feeney.
    Let me also say that Ken Calvert--I was Ranking Member of 
this committee and Ken did much more than I did. He made an 
effort to go to every facility all across the country and 
became very knowledgeable and we hope that he will be a 
continuing asset and I am sure that Mr. Feeney will also do a 
good job, but Ken did a particularly good job and hopefully he 
will be there on Appropriations to understand these issues.
    We now begin with the markup and I will begin with a brief 
statement. Today the Committee is marking up four bills. The 
first bill we will consider is a bill that I introduced, H.R. 
364, which establishes the Advanced Research Project Agency for 
Energy, and in the Subcommittee hearing and in the markup we 
had a very healthy discussion that I believe pointed to the 
critical need for such an entity. We have worked hard with our 
friends from across the aisle, and while there are still a few 
differences, it has resulted in a better bill. It is my 
understanding that this discussion will continue today with a 
number of amendments, and I look forward to addressing those 
concerns.
    The next bill we will take up is H.R. 1467, the 10,000 
Trained by 2010 Act, introduced by Chairman Wu. This is a good 
bill which I support. There has been a lot of talking in 
Washington about the need to push health care IT forward. Our 
medical system is far behind other sectors in the use of 
information technology. However, it is common knowledge that 
information technology could significantly improve patient care 
and reduce health care costs, and let me just collaterally say 
that I have just introduced H.R. 2406. It is a health care IT 
bill that will be in the jurisdiction of this committee. As I 
think Mr. Gingerich can tell you, it is going to be wildly 
popular within the health care area, doctors, physicians, 
everyone. Health care IT or IT in the health care area is one 
of the few areas that hasn't really matured. It is so popular 
that Newt Gingerich and Hillary Clinton are supporting this 
concept and so I would suggest to all of you to take a look at 
it. Don't get involved if you don't want to but I think you 
will find that it will be something that is going to be a good 
bill and will be popular for you.
    And we also have H.R. 1716, the Green Energy Education Act 
of 2007. It was introduced by Mr. McCaul, and H.R. 1716 raises 
the profile of a very important issue, university research and 
education on clean energy including energy efficiency and green 
building design and technologies. It would bring together the 
Department of Energy, a mission agency, and the National 
Science Foundation, which has a long history with science and 
technological education, in a common goal to help educate the 
next generation of energy technology experts and green building 
professionals. This bill helps meet a very important need, and 
I thank Mr. McCaul for bringing it to the Committee, and who 
would have known he would have been such a greenie. But we 
thank you. This is a good bill.
    We also will consider Mr. Lipinski's and Mr. Inglis' H.R. 
362, the H-Prize Act of 2007. Hydrogen technology represents 
just the type of transformational possibilities that we are 
hoping to achieve with ARPA-E and may some day make an 
important piece of our energy puzzle, and I commend our 
colleagues, Mr. Inglis and Mr. Lipinski, for working together 
to make this a good bipartisan bill and I look forward to 
moving it through the Committee today.
    So these are the four good bills that we have before us and 
I now would like to recognize Mr. Hall to present his opening 
remarks.
    [The prepared statement of Chairman Gordon follows:]

               Prepared Statement of Chairman Bart Gordon

    Today the Committee is meeting to markup four bills.
    The first bill we will consider today is a bill that I introduced, 
H.R. 364, which establishes an Advanced Research Projects Agency for 
Energy. In the Subcommittee hearing and markup we had a very healthy 
discussion that, I believe, pointed to the critical need for such an 
entity.
    We have worked hard with our friends across the aisle. And, while 
there are still substantial differences, it has resulted in a better 
bill. It is my understanding that this discussion will continue today 
with a number of amendments, and I look forward to addressing your 
concerns.
    The next bill we will take up is H.R. 1467, the 10,000 Trained by 
2010 Act introduced by Chairman Wu. This is a good bill which I 
support.
    There has been a lot of talk in Washington about the need to push 
health care IT forward. Our medical system is far behind other sectors 
in the use of information technology. However, it is common knowledge 
that information technology could significantly improve patient care 
and reduce health care costs.
    While there has been a lot of discussion on the issue in Congress, 
not much has actually been done. In this case, Chairman Wu and other 
Members of the Committee have identified one component of the issue and 
how the Science and Technology Committee could make a real and positive 
contribution in this area.
    I strongly support this legislation and would urge everyone on the 
Committee to do so as well.
    H.R. 1716, the Green Energy Education Act of 2007, was reintroduced 
by Mr. McCaul this year after having passed the House as part of a 
broader bipartisan Science Committee Energy R&D bill at the end of the 
109th Congress.
    H.R. 1716 raises the profile of a very important issue--university 
research and education on clean energy, including energy efficiency and 
green building design and technologies. It would bring together the 
Department of Energy, a mission agency, and the National Science 
Foundation, which has a long history with science and technology 
education, in a common goal to help educate the next generation of 
energy technology experts and green building professionals.
    This bill helps meet a very important need and I thank Mr. McCaul 
for bringing it to the Committee.
    We will also consider by Mr. Lipinski, H.R. 632, the H-Prize Act of 
2007. Hydrogen technologies represent just the type of transformational 
possibilities that we are hoping to achieve with ARPA-E, and may some 
day make up an important piece of our energy puzzle.
    I commend my colleagues Mr. Inglis and Mr. Lipinski for working 
together and for working hard to make this a good, bipartisan bill. I 
look forward to moving it through Committee today.
    These are four good bills, and I strongly encourage my colleagues 
to support all of them.

    Mr. Hall. Mr. Chairman, you and I have been working 
together now for over 22 years and on the same side of the 
aisle for most of that time, and if it weren't for me switching 
parties you might not even be Chairman right now. And I have 
been talked to by 4/5 of you bunch asking me to switch back. A 
good group on both sides. I appreciate everybody on both sides 
of the Chairman here, and you can thank me later if you would 
like.
    When you work with someone as long as we have, not only on 
this committee but also on the Commerce Committee--we are on 
that Committee together--there are bound to be some times when 
we are going to disagree. And as much as I dislike going 
against my friend from Tennessee, sometimes it just happens. As 
it turns out, today is one of those days. While I commend you, 
Bart, for your efforts on behalf of boosting energy R&D, I 
disagree with the way H.R. 364 does it. I have to say that I 
have a problem with the idea of creating a new bureaucracy 
within the Department of Energy that will regardless of 
intention fight for money with existing and future programs at 
DOE. With the tight budget parameters we are working with, I am 
not comfortable authorizing the creation of ARPA-E based on a 
vague recommendation that was in the Gathering Storm report. 
The facts are that DOE currently has the authority to do ARPA-
type projects but DOE is woefully under-funded. I am concerned 
that we could be faced with the problem of having both the 
Office of Science and ARPA-E underfunded so that neither of 
them is operating at full potential if we go forward with the 
creation of this new agency. Before we go forward with any 
ARPA-type projects, I would like the Section 1821 study in 
EPAct to be completed that looks at the applicability of the 
DARPA management practices and the advisability of creating a 
DARPA-type agency within DOE. Before we move toward this 
legislation, and to that end, I will be introducing an 
amendment that, without creating a new bureaucracy, would 
require the Secretary of Energy to identify and accelerate 
advanced research projects at the DOE that will address our 
energy needs. I, along with several of my colleagues, have sent 
a letter to the Secretary urging him to complete the study as 
mandated by law so that we all might benefit from its 
recommendations.
    In addition to the letter, we also ask the Secretary to 
appoint a technology transfer coordinator and establish the 
technology transfer working group. As several of our witnesses 
testified to in our committee hearing, technology transfer 
plays a very integral part in the process from basic research 
to widespread commercialization. I don't think anyone would 
dispute that our country needs clean, affordable, reliable 
energy that is generated through research and development. This 
committee should continue to advance legislation that addresses 
our most critical energy needs in a fiscally responsible 
manner. To that end, I will be introducing legislation by the 
end of the week that will help accomplish these goals.
    In addition to the ARPA-E legislation, we will also be 
marking up H.R. 1467, H.R. 1716 and H.R. 632. I am an original 
co-sponsor of H.R. 1467, the 10,000 Trained by 2010 Act, and I 
am supportive of the primary goal it seeks to achieve. If 
implemented correctly and efficiently, health information 
technology can revolutionize our health care system but we have 
to have an educated workforce properly trained in health IT in 
order for it to be successful, and this is what H.R. 1467 is 
about. NSF is already doing work, yeoman's work, in the IT 
arena, but this measure will increase the focus on health IT. I 
encourage my colleagues to support it.
    I urge my colleagues to support H.R. 1716, the Green Energy 
Education Act of 2007, introduced by my fellow Texan, Mr. 
McCaul. This is a good piece of legislation. It was voted out 
of this committee in the last Congress. The fact that it has 
also been included in larger packages on both sides of the 
aisle in this Congress indicates its overwhelming support. 
Simply put, this measure encourages the Department of Energy to 
work with the National Science Foundation to help develop the 
next generation of engineers and architects to work effectively 
together to produce buildings that will incorporate the latest 
in energy-efficient technologies. I commend Mr. McCaul for his 
fine work on this bill.
    Finally, I urge my colleagues to support H.R. 632, the H-
Prize Act, sponsored by Mr. Inglis and Mr. Lipinski. This 
legislation was introduced in the last Congress and passed 
overwhelmingly by the House of Representatives. This bill 
directs the Secretary of Energy to award competitive cash 
prizes biannually to advance the research, development, 
demonstration and commercial applications of hydrogen energy 
technologies. Categories eligible for prizes include 
advancements in certain hydrogen components or systems, 
prototypes of hydrogen-powered vehicles and transformational 
changes in the technologies for hydrogen distribution or 
production. I commend Mr. Inglis and Mr. Lipinski for 
introducing this legislation and I encourage my colleagues to 
support it.
    Once again, Mr. Chairman, I am happy to be supportive of 
these three bipartisan pieces of legislation. I look forward to 
working with you to advance these bills.
    I yield back my time, sir.
    [The prepared statement of Mr. Hall follows:]

           Prepared Statement of Representative Ralph M. Hall

    Mr. Chairman, you and I have been working together for over 22 
years now--and on the same side of the aisle for most of that time. 
Why, if it weren't for me switching parties, you might not be the 
Chairman right now! You can thank me later. . .. When you work with 
someone as long as we have, not only on this committee, but also on the 
Commerce Committee, there are bound to be times when we're going to 
disagree, and as much as I dislike going against my good friend from 
Tennessee, sometimes it just happens. As it turns out, today is one of 
those days. While I commend my friend for his efforts on behalf of 
boosting energy R&D, I disagree with the way H.R. 364 does it. I have 
to say that I have a problem with the idea of creating a new 
bureaucracy within the Department of Energy that will, regardless of 
intention, fight for money with existing and future programs at DOE. 
With the tight budget parameters we are working with, I am not 
comfortable authorizing the creation of ARPA-E based on a vague 
recommendation that was in the Gathering Storm report.
    The facts are that DOE currently has the authority to do ARPA-type 
projects, but DOE is woefully under-funded. I am concerned that we 
could be faced with the problem of having both the Office of Science 
and ARPA-E under-funded so that neither of them is operating at its 
full potential if we go forward with creating this new agency. Before 
we go forward with any ARPA-type projects, I would like the Section 
1821 study in EPAct to be completed that looks at the applicability of 
the DARPA management practices and the advisability of creating a 
DARPA-type agency within DOE before moving forward with legislation. To 
that end I will be introducing an amendment that, without creating a 
new bureaucracy, would require the Secretary of Energy to identify and 
accelerate advanced research projects at the DOE that will address our 
energy needs. I, along with several of my colleagues, have sent a 
letter to the Secretary urging him to complete the study as mandated by 
law so that we all may benefit from its recommendations. In addition, 
in the letter we also ask the Secretary to appoint the Technology 
Transfer Coordinator and establish the Technology Transfer Working 
Group. As several of our witnesses testified to in our Subcommittee 
hearing, technology transfer plays an integral part in the process from 
basic research to widespread commercialization.
    I don't think anyone would dispute that our country needs clean, 
affordable, reliable energy that is generated through research and 
development. This committee should continue to advance legislation that 
addresses our most critical energy needs in a fiscally responsible 
manner. To that end, I will be introducing legislation by the end of 
this week that will help accomplish these goals.
    In addition to the ARPA-E legislation we will also be marking up 
H.R. 1467, H.R. 1716, and H.R. 632. I am an original co-sponsor of H.R. 
1467, the 10,000 Trained by 2010 Act, and am supportive of the primary 
goal it seeks to achieve. If implemented correctly and efficiently, 
health information technology (IT) can revolutionize our health care 
system. But, we must have an educated workforce, properly trained in 
health IT, in order for it to be successful. This is what H.R. 1467 is 
about. NSF is already doing work yeoman's work in the IT arena, but 
this measure will increase the focus on health IT. I encourage my 
colleagues to support it.
    I urge my colleagues to support H.R. 1716, the Green Energy 
Education Act of 2007, introduced my fellow Texan, Mr. McCaul. This is 
a good piece of legislation that was voted out of this committee in the 
last Congress. The fact that it is also being included in larger energy 
packages on both sides of the aisle in this Congress indicates its 
overwhelming support. Simply put, this measure encourages the 
Department of Energy to work with the National Science Foundation to 
help develop the next generation of engineers and architects to work 
effectively together to produce buildings that incorporate the latest 
in energy efficient technologies. I commend Mr. McCaul for his fine 
work on this bill.
    Finally, I also urge my colleagues to support H.R. 632, the H-Prize 
Act sponsored by Inglis and Lipinski. This legislation was introduced 
in the last Congress and passed overwhelmingly by the House of 
Representatives. The bill directs the Secretary of Energy to award 
competitive cash prizes biennially to advance the research, 
development, demonstration, and commercial application of hydrogen 
energy technologies. Categories eligible for prizes include 
advancements in certain hydrogen components or systems, prototypes of 
hydrogen-powered vehicles, and transformational changes in technologies 
for hydrogen distribution or production. I commend Mr. Inglis and Mr. 
Lipinski for introducing this legislation, and I encourage my 
colleagues to support it.
    Once again, Mr. Chairman, I am happy to be supportive of these 
three bipartisan pieces of legislation and look forward to working with 
you to advance these bills. I yield back the balance of my time.

    Chairman Gordon. Thank you, Mr. Hall. As you have pointed 
out, we have had a good working relationship and I will point 
out that every bill that has come out of this committee has 
been unanimous and the only--one bill received 21 negative 
votes on the Floor. That is the worst we have done on the 
Floor. We are going to have I hope three unanimous bills today 
and I think the reason that we have been able to do this is, we 
have started with good bills. We have had extensive 
consultation and by making better bills. At the end of the day 
we are going to have our first disagreement but I think two 
things will happen: We are going to have amendments today that 
will make the bill even better and I think at the end of the 
day that it will be a bipartisan bill but it won't be a 
unanimous bill, and we will try to proceed without kicking or 
scratching and we will get this done. So without objection, 
Members may place statements in the record at this point.
    [The prepared statement of Mr. Mitchell follows:]

         Prepared Statement of Representative Harry E. Mitchell

    Thank you, Mr. Chairman.
    Today we are considering several bills to decrease our dependence 
on foreign oil and encourage renewable sources of energy.
    As the world leader in emissions of greenhouse gasses, it is 
imperative that we as a nation actively pursue the means to reduce 
those emissions. We have an obligation to lead the world toward a 
solution. One way to accomplish this is to invest in alternative energy 
sources.
    The bills before us today would put in place necessary components 
to take us where we need to be as a nation including education and 
training, monetary incentives, and fast acting, responsive research 
programs.
    The United States must lead by example and invest in clean, 
renewable energy sources.
    Today, we are considering several bills to address this issue and I 
look forward to working on them.
    Sustainable energy is an issue that affects our environment, our 
economy, and our national security, and we cannot leave this problem 
for future generations of Americans to solve.
    I yield back the balance of my time.

    Chairman Gordon. We will now consider H.R. 364, To provide 
for the establishment of Advanced Research Projects Agency-
Energy. I yield myself five minutes to describe the bill.
    H.R. 364 addresses the National Academies of Science Rising 
Above the Gathering Storm, which recommended establishing an 
ARPA-E to shorten the time period for transforming research 
into technologies that will make us more energy-efficient, 
sustain our economy, achieve energy security and improve our 
environment. Energy powers our economy and supports the quality 
of life we enjoy in this country. We owe it to our children and 
grandchildren to tackle our energy supply problems now before 
we reach a crisis. By investing in research, development and 
deployment of new technologies, we can deliver to them an 
energy-secure future. If you are satisfied with the status quo 
and you believe that the current pace of technology transfer 
will get us to the energy future we need, then you would 
conclude we do not need an ARPA-E. However, if you are not 
satisfied with our current progress, if you believe we need a 
new model of technology transfer that moves creative basic 
science from the laboratory bench to the marketplace, you 
should support H.R. 364. We must engage the private sector, the 
national labs and the universities in a manner not done today 
and we need a strong, cohesive community of researchers, 
technology developers intent on transforming our energy economy 
as we know it.
    I want to thank my colleagues on the Committee for working 
with me on this bill. Over the past two weeks we have had very 
productive discussions that are embodied in several of the 
amendments we will consider this morning. Mr. Inglis and Mr. 
Bartlett have been especially helpful in the effort to craft 
this legislation and the bill will be improved this morning as 
a result of their efforts. Our constituents get the best 
outcome when we work together to achieve our common goals. So I 
urge my colleagues to support H.R. 364 and vote for a brighter, 
more secure energy future.
    And let me read to the Committee just a few of the 
endorsements. We really haven't sought endorsements but to give 
you an idea of the wide breadth of this, the American Public 
Power Association, the American Iron and Steel Institute, the 
American Petroleum Institute, the American Society for 
Mechanical Engineers, the American Federation of Scientists, 
the Edison Electric Institute, the Gas Technology Institute, 
the Independent Petroleum Association of America, Information, 
MIT, the National Association of Manufacturers, the National 
Hydrogen Association, the National Association of Rural 
Electric Cooperatives, Texas A&M, University of Michigan, the 
Climate Policy Center, the National Commission on Energy 
Policy, and they continue to come in every day. So this is 
widely, widely supported.
    So now I recognize Mr. Hall to present any remarks on the 
bill.
    Mr. Hall. Mr. Chairman, I think I have pretty well 
expressed myself in the opening statement in that it creates 
another agency within DOE and is way, way, way too expensive.
    I yield back.
    Chairman Gordon. Does anyone else wish to be recognized? 
Yes, Mr. Rohrabacher.
    Mr. Rohrabacher. I am sorry. I haven't really studied the 
bill and I will have to admit that; and I will have to note 
that I disagree with my Ranking Member respectfully that the 
idea of just creating a new bureaucracy. I mean, that is--I 
think that this is just the opposite of that. I think it 
actually is a way to get around the bureaucracy and try to get 
some resources directly to some creative-thinking people. So I 
would be inclined to support your concept. I am interested in 
how we are going to pay for it and how much we are talking 
about here. Maybe you can enlighten us to where we are going to 
get the money and how much is going to be spent.
    Chairman Gordon. Mr. Rohrabacher, I think that is a very 
fair question. First of all, you are correct. The idea is to 
get around the bureaucracy. This is a DARPA-type program. This 
is going to be a very thin program. I hope there is less than 
100 people. They are going to subcontract this out to the 
private sector, the public sector, to national labs. You are 
going to have a program manager that is going to try to, you 
know, corral all this, and the purpose--the reason you want to 
get it out of the bureaucracy is--Mr. Ehlers can--he spoke to 
it eloquently the other day when he said, you know, a part of 
science research is failing. This is high risk, high reward. 
Some of these are going to fail. We expect them to fail. If you 
are in the Department of Energy and you fail, then you are in 
trouble. Here we want to take those risks. Just like the 
Internet, the developing Internet was a risk, developing 
stealth technology----
    Mr. Rohrabacher. Well, I agree with you on that but what 
about the money?
    Chairman Gordon. Okay. The money--at the start of this 
session, I think it was maybe the fifth bill, I am not sure, 
there was a bill in Congress that has also I think passed the 
Senate that needs to be compromised or it needs to be 
conferenced that will do away with the tax breaks that were 
given to so-called Big Oil for additional drilling in the last 
Congress. The feeling was that with the price of oil as high as 
it is, they don't need additional incentives to go drilling, 
and I think that is several billion--I will ask the counsel, do 
you know how many billions of dollars that is?
    Mr. Counsel. I believe it is scored at $14 billion roughly.
    Chairman Gordon. That is $14 billion----
    Mr. Rohrabacher. Well, Mr. Chairman, that is the right 
answer because I happen to be one of the few Republicans who 
voted against those tax incentives that I didn't feel were 
necessary at a time of high profit as well. So that is the 
right answer.
    Chairman Gordon. We have spoken directly with the Speaker 
about this. This is a high priority for her and again in the 
whole, you know, so many of the private sector. So we will be 
going into that trust fund for those--you know, that money. 
Now, again, in all honesty, when you get into bookkeeping, you 
know, I guess it is one pot or the other pot but that is where 
we intend to go for new money.
    Mr. Rohrabacher. Well, Mr. Chairman, I would feel more 
comfortable with this if it indeed was being taken out of the 
current bureaucracy and being fenced off, and I know a lot of 
people who would have just the opposite reaction. To me, it 
seems it makes more sense, but by and large, the idea about 
having a DARPA-like agency or DARPA-like effort in the 
Department of Energy is a sound idea. National security today 
depends on energy self-sufficiency and efficiency and I am 
going to be supportive of this concept and your legislation.
    Ms. Giffords. Mr. Chairman?
    Chairman Gordon. Let me see if anybody from this side of 
the aisle wanted to comment.
    Ms. Giffords, then we will go to you.
    Ms. Giffords. Thank you, Mr. Chairman. I just want to speak 
briefly and congratulate you and thank you for bringing this 
bill forward. As we head into the Memorial Day weekend, we see 
record-high prices for gasoline, and what this piece of 
legislation does effectively is deal with three major issues 
that we face every day in southern Arizona, we face across our 
country: energy independence, making sure that we start 
investing in energy sources that are completely independent of 
foreign countries so that that we can be self-sustaining. The 
second area is global warming and we have heard testimony time 
and time again about how our planet is getting hotter, how we 
need to start investing in new types of technology, new energy 
systems that are going to be clean and that are not going to be 
releasing greenhouse gases. The third area is U.S. 
competitiveness. We need, as the Rising Above the Gathering 
Storm report talks about, to make sure that we are producing 
scientists and engineers and mathematicians so that we can 
complete in this global new economy. Where we are graduating 
60,000 engineers, China graduates 600,000 engineers. So this 
piece of legislation, Mr. Chairman, pulls together some of the 
most pressing issues of our day and offers a solution that--and 
like you said, Mr. Chairman, some people will fail--but here we 
have a DARPA-like agency where engineers and scientists can be 
free to think totally outside the box and have that 
breakthrough Eureka moment that is so important if we need to, 
you know, change the way that, you know, we live on this 
planet. So Mr. Chairman, I am looking forward to voting for 
this bill. I want to thank you again for bringing it forward.
    Chairman Gordon. Ms. Biggert.
    Ms. Biggert. Thank you, Mr. Chairman. I just have a 
question. You talked about the fund of $14 million, I believe. 
Is there a provision in this bill which will allow access to 
that fund?
    Chairman Gordon. I don't know.
    Mr. Hall. Did you say billion or million?
    Ms. Biggert. Billion. I think I said million but I meant 
billion.
    Chairman Gordon. I don't know how you would have in an 
authorization any kind of language that would tap into an 
appropriation. We would like to do it. I wish we could, but I 
don't think that would be possible.
    Ms. Biggert. Well, we seem to be doing this in the housing 
area where we have an affordable housing fund established. 
Couldn't we have a bill that would, if money is authorized, you 
take that money if it is appropriated by the appropriators.
    Chairman Gordon. I don't think there is any way you can do 
that. I mean, if you--potentially if this was Ways and Means 
and going through Ways and Means, they might be able to go back 
to that tax provision but I don't think it is possible to do it 
with this type of authorization.
    Ms. Biggert. What about the Highway Trust Fund?
    Chairman Gordon. Well, we don't have authority over the 
Highway Trust Fund.
    Ms. Biggert. No, I know, but this is similar. We actually 
authorized the money for the----
    Chairman Gordon. The Transportation Committee does.
    Ms. Biggert. Yes.
    Chairman Gordon. But this is not----
    Ms. Biggert. But isn't there a way to establish that this 
provision would be in this bill? Otherwise there is $14 billion 
there and then we are going to go for $6 billion someplace 
else?
    Chairman Gordon. You know, the simple fact is, the fund 
isn't jurisdiction to us. What I would like to do is, we have a 
period of time between this bill now going to the Floor where 
we can have a manager's amendment, coming back in conference, 
and let me point out to you a similar bill had 67 co-sponsors 
on the Senate including McConnell and Reid, and passed there 
with less than ten opposition votes. But I would love to be 
able to find a way to guarantee these funds and we will be 
happy to work with you between now and the final date to do 
that, and it would be, as Ms. Giffords said, a Eureka moment if 
we can accomplish that. So we will work together and try to do 
so but I don't see how that can happen and I certainly don't 
have language for it----
    Ms. Biggert. No, there is a fund that we have presently 
that the appropriators have tried to do away with and we have 
always made them aware how important it is. And that is a fund 
for scientists when they are working on a project and discover 
that what they were working on fails but they found something 
else and they can switch to that based on the funds that are 
available through that. It seems like there is some way that we 
could get this into the bill.
    Chairman Gordon. Yeah, I would suggest that we work on that 
together and we will have a manager's amendment to accomplish 
that and we will have a duel Eureka if we can get that 
accomplished.
    Ms. Biggert. Thank you. I yield back.
    Mr. Hall. Will the gentlelady yield?
    Ms. Biggert. Yes, I yield to the Ranking Member.
    Mr. Hall. By the way, doesn't the Senate bill--it doesn't 
set up a new agency. That is half of my objection that they 
have cured for us, and it still costs more--and we are trying 
to follow the Gathering Storm recommendations. It still costs 
more than the Gathering Storm reported by $1.6 billion 
additional, and I have asked the gentlelady if she understands 
that this--and Professor Ehlers would understand that this 
practically and potentially takes away from basic research at 
the Office of Science which was also a priority of the 
Gathering Storm report. It is too much increase in a new 
agency. That is my basic objections to it.
    Thank you, Mr. Chairman.
    Chairman Gordon. If the gentlelady would yield just to 
respond to Mr. Hall. In response to his suggestion, we will 
have a manager's amendment that will reduce the authorizing 
level by $1.4 billion. Again in an effort to be responsive, I 
think there is going to be an amendment by Mr. Inglis that will 
provide protection for the Office of Science, again trying to 
make a good bill better.
    Ms. Biggert. Reclaiming my time. I think that we will be 
speaking to that amendment, but I also have one that will 
increase the funding, or make sure that the Office of Science 
has full funding for the priority. I think that Mr. Inglis' 
amendment really sets a floor which Appropriations will look at 
and say that that is all that they have to fund in the Office 
of Science if his amendment is passed, but we will address that 
later.
    I yield back.
    Chairman Gordon. Does anyone else wish to be recognized?
    Mr. Bilbray. Mr. Chairman.
    Chairman Gordon. Mr. Bilbray.
    Mr. Bilbray. Mr. Chairman, it is obvious that my dear 
colleague from California hadn't read the bill because I think 
he would see some of the red lights that we recognized when we 
made the mistake, or some people around here made the mistake, 
of creating what they thought would be the super-agency for 
homeland security. And that creating a new structure with a new 
name was somehow going to break through and create new answers, 
when in fact it created new problems. So I just ask my 
colleagues to look seriously at the issue. So often we are so 
quick as elected officials to want to put our name onto a new 
agency so we can say we created that agency. And I don't need 
to go down the list of how many agencies that we created that 
supposedly are going to educate our children, end poverty as we 
know it, secure our neighborhoods; and in reality we spend a 
lot of money on a structure and not on answers. I just think 
that too often that a comparison with DARPA is not appropriate 
at this level. DARPA has a guaranteed market, the United States 
Federal Government, when it produces a product. What you are 
proposing today, is the United States Government is going to be 
buying this energy or whatever product comes out of this 
agency. It is a whole different approach to this and I just ask 
that we at least have some peer review by the scientists about 
what does work or doesn't work. I mean, American Chemical 
Societies sat there and said that they saw the Office of 
Science that would be the vehicle that is underfunded right now 
by $500 million in unmet opportunities. Creating a new agency 
doesn't fulfill the scientific demand out there or the unmet 
opportunities just by hiring people to supervise another side 
of this issue. I yield back, Mr. Chairman, but I just wanted to 
raise my concerns on this issue.
    Chairman Gordon. Would you yield to me?
    Mr. Bilbray. Yes, I would, Mr. Chairman.
    Chairman Gordon. Thank you. You raised a lot of issues 
there. Let me try to address some of them. On the one hand, you 
say just giving more money doesn't solve problems. Well, if you 
think that the Department of Energy with doing the status quo 
right now is adequate, which is basically what you are arguing 
for, then everything is hunky-dory.
    Mr. Bilbray. Reclaiming my time.
    Chairman Gordon. Sure.
    Mr. Bilbray. I am not saying that, Mr. Chairman. I am 
saying that creating a new separate section while you have the 
Office on Science and then expect this new section to tool up, 
create its whole bureaucracy, create internal protocols and 
then be able to respond is exactly the mistake we made with 
Homeland Security.
    Chairman Gordon. I was going to get to that. So again, 
first of all I think there is an argument for status quo. The 
second thing is, you are absolutely correct about the Homeland 
Security Office. It was a mess, and we learned from that, and 
the reason it was a mess is, it was a part of the bureaucracy. 
ARPA-E is not going to be part of bureaucracy. It is going to 
report directly to the Secretary of Energy. It is going to be a 
DARPA model. It is going to be a very thin little line and so 
work is going to be done outside of Washington, outside of the 
Department of Energy. You are going to have a program director 
that is going to be the maestro that is going to work with 
private sector, universities and labs to bring all this 
together. The whole idea is to take it out of the bureaucracy 
because the bureaucracy is not performing properly. The status 
quo is not getting the job done. This is going to be different 
than what they did in Homeland Security.
    Mr. Bilbray. Reclaiming my time, Mr. Chairman.
    Chairman Gordon. Certainly.
    Mr. Bilbray. Look, the direction comes from up above, and 
the fact is, is that the priorities have been set by the 
Administration. Both the past Administration, which did 
everything to decommission zero generation, shut down 
hydroelectric, shut down--you know, basically defund ITER 
technology, which is exactly the kind of definition we are 
talking about, developing fusion. The previous Administration 
abandoned it. The present one didn't. You are not going to 
change that by creating a new structure with a new set of 
bureaucrats that are going to still be bureaucrats once you 
created them. And to think that extra layer is somehow going to 
get out from the administrative oversight, that is a challenge 
that we have to do to get both administrations, Democrats and 
Republicans, to focus on this. It is so easy to talk about 
process, that by creating a new agency, we will create a secret 
process or a new process that will change the outcome. It is 
the substance that leads to the outcome that matters and 
process be damned. I agree with you that the outcome has not 
been successful. I just don't think this vehicle will be the 
vehicle to get to the outcome that you are aiming for.
    I yield back, Mr. Chairman.
    Chairman Gordon. Thank you, sir. Your argument is for let 
us continue to do what we are doing and that is a fair 
argument, and if you want to support the status quo and you 
think that is getting the job done, you should oppose this 
bill. If you are not satisfied with status quo and you want a 
new approach, then we are going to try to make that available. 
So if it is all right with everyone--Mr. Ehlers?
    Mr. Ehlers. Thank you, Mr. Chairman, just a brief word on 
this latest argument. I wouldn't hold up the Homeland Security 
Department as a good example for anything, and that is what my 
colleague is doing. He is holding it up as a bad example and it 
is simply because we took collection of a large number of 
different departments all filled with bureaucrats and threw 
them all in one pot and said okay, do your work. It just 
doesn't work well. The difference here is, we are not talking 
about having more bureaucrats. We are hiring scientists and 
turning them loose. I have always said the most effective way 
to get good results is hire the best scientists, give them 
enough money to work with, close the door and walk away and let 
them do their work because you get the most productivity, the 
brightest ideas at that point. So I don't think that the 
analogy of Homeland Security is valid at all. This will be a 
separate agency. It can be destroyed by over-administration. I 
think to a certain extent that has happened to the Department 
of Energy over the years. It has always been a stellar agency 
but it has been mismanaged during the past--well, during the 
decade of the 1990s, let us say. But this gives us an 
opportunity to try a different approach with a separate but 
integrated agency and I think it is certainly an experiment 
worth doing. We will know in a decade whether or not the 
experiment is working and at that time our successors can make 
a judgment as to whether or not it should continue.
    I yield back.
    Chairman Gordon. Thank you, Dr. Ehlers.
    I know to be courteous to Members, there are several 
markups going on and folks have other things to do today so I 
am going to ask unanimous consent that this bill is considered 
as read and open to amendments at any point and that Members 
proceed with the amendments in the order of roster. Without 
objection, so ordered.
    The first amendment on the roster is the manager's 
amendment to the bill. The Clerk will report the amendment.
    The Clerk. Amendment to H.R. 364----
    Chairman Gordon. I ask unanimous consent to dispense with 
the reading. Without objection, so ordered.
    I recognize myself for five minutes to explain the 
amendment. This amendment makes a series of perfecting changes 
in our efforts to move the best bill possible out of the 
Committee. These changes are based upon discussion during the 
Subcommittee markup and discussion that we have had over the 
past two weeks. First, there are several changes to address the 
issues related to hiring authority of the director and the 
selection of the talented individuals to serve as program 
managers and staff. Having the right staff is critical to the 
success of ARPA-E. This is intended to be a lean operation. 
Nothing in the amendment alters that goal. The amendment gives 
the director discretion to hire technical, financial and 
managerial staff in addition to the program managers. The 
amendment also specifies that the Director should look toward 
academia in addition to private industry and former DARPA staff 
in making selections for the initial staff of ARPA-E. 
Furthermore, the amendment recognizes that the Director is not 
expected to know the universe of talented individuals capable 
of functioning as technical staff of ARPA-E and therefore may 
contract with outside firms specializing in recruiting such 
talent. The amendment also provides some technical corrections 
and program clarifications related to the authority of the 
program managers. As I have stated before, ARPA-E is to be a 
lean, responsive organization with the freedom to pursue high-
risk, high-payoff research. The amendment clarifies the program 
manager's role in this process. The amendment also clarifies 
the program manager's authority and responsibility to recommend 
the termination of any project that does not show promise. 
However, only the person authorized to enter into contracts has 
the legal authority to terminate that contract. The amendment 
also changes the name of the fund set up in this bill to 
reflect the evolution of thought since the bill was first 
written in 2005. We are now focused on transforming the energy 
sector for reasons beyond just energy independence. The 
amendment drops the final year of the authorization to change 
the bill from a six-year to a five-year authorization. The bill 
reduces the overall cost of H.R. 364 by $1.4 billion. Finally, 
in response to concerns expressed by a number of committee 
Members, the advice of outside parties and witnesses' testimony 
at the Subcommittee hearing, this amendment drops the 
recruitment section of the bill.
    I think this is a noncontroversial amendment which further 
perfects the bill, and I urge my colleagues to support its 
adoption.
    Mr. Hall. Mr. Chairman, I see the manager's amendment 
strives to make some improvements to the bill. I am still not 
comfortable with the structure of the underlying bill. I still 
agree with the Senate that it does not set up a new agency, as 
you do, and the amendment money-wise, I think you would wind up 
with $4.9 billion and the amendment I will send up is $750 
million. There is quite a difference there, and I think we both 
are trying to pattern as much as we can after the Gathering 
Storm reports that Norm Augustine wrote, and I believe that 
yours is $1.6 billion more than the Gathering Storm report 
requested, substantially more, and for that reason I object to 
it.
    Chairman Gordon. Thank you, Mr. Hall. I think we take care 
of your number figure in this manager's amendment. We reduce 
the authorization by $1.4 billion, and we think there are many 
Members on both sides of the aisle that made recommendations 
that have been incorporated into this manager's amendment.
    Mr. Hall. I will wait right here and watch.
    Chairman Gordon. If there is no further discussion on the 
amendment, the vote is on the amendment. All in favor, say aye. 
Those opposed, say no. The ayes have it. The amendment is 
agreed to.
    The second amendment on the roster is an amendment in the 
nature of a substitute offered by the gentleman from Texas, Mr. 
Hall. Are you ready to proceed with your amendment?
    Mr. Hall. I have an amendment at the desk, Mr. Chairman.
    Chairman Gordon. The Clerk will report the amendment.
    The Clerk. Amendment in the nature of a substitute to H.R. 
364 offered by Mr. Hall of Texas, Mr. Gingrey of Georgia and 
Mrs. Biggert of Illinois.
    Chairman Gordon. I ask unanimous consent to dispense with 
the reading. Without objection, so ordered.
    The gentleman is recognized for five minutes to explain the 
amendment.
    Mr. Hall. Mr. Chairman, there seems to be a consensus that 
the types of projects ARPA-E would engage in would be 
beneficial to addressing our country's ongoing energy supply 
needs but I think we tend to diverge when we look to find out 
how to implement these projects. Chairman Gordon's bill would 
create a new bureaucracy within the Department of Energy that 
would oversee ARPA-E. I don't feel that this is the best way to 
do this rather than jumping right into the idea that it has a 
one-and-one record. In the first place, DARPA, DOD was 
considered a success and the other one ARPA, Homeland Security, 
as suggested by the gentleman from California, was considered a 
failure. So rather than jumping right into an idea that has a 
one-and-one or an even and even record, I feel that we really 
need to approach this with a little more caution and skepticism 
before throwing $4.9 billion into an unknown. Now, some are 
going to argue that we don't have time to wait and study the 
idea but I disagree with that. The DOE is a $23 billion agency 
that is currently conducting research in all areas that H.R. 
364 directs ARPA-E to address; so to take a step back and say 
let us make sure that this is the right thing to do before 
committing billions of taxpayer dollars I think makes some 
sense. The Hall-Gingrey-Biggert substitute amendment recognizes 
while the Department of Energy has the authority to promote 
technology transfer of basic and applied research, there is a 
need to more quickly identify opportunities to accelerate the 
commercial application of new energy technologies to meet our 
national energy needs as well. Also a more fully integrated 
approach to advanced energy research is going to help bridge 
the gap between basic research and applied technology to 
overcome long-term and high-risk barriers to the development of 
advanced energy technologies with an eye toward fiscal 
conservatism. My substitute is conditioned on the section 1821 
study in EPAct. This was the study that required DOE to look at 
``best practices'' management at the Department of Energy 
including DARPA to DOE. I have sent, by the way, the Secretary 
a letter to complete this study, and I had 12 of my colleagues 
here join with us. The substitute amendment does not create a 
new agency but requires the Secretary to use his existing 
authority coupled with the newly established DARPA hiring 
authority to undertake ARPA-type projects. It authorizes $750 
million, not $4.9 billion, over five years for the Secretary to 
carry out the projects and requires the Secretary to report to 
Congress on their status. So it also allows the Secretary to 
coordinate with other agencies on advanced energy projects, 
directs the Secretary to coordinate with the to-be-appointed 
technology transfer coordinator, allows the Secretary to award 
prizes for achievement under an advanced energy research 
project, and establishes cost sharing according to the Energy 
Policy Act of 2005.
    I think this substitute amendment is sensible. I think it 
is a responsible alternative to the underlying bill and I urge 
my colleagues to support it.
    I yield back, sir.
    Chairman Gordon. Mr. Gingrey is recognized.
    Mr. Gingrey. Mr. Chairman, thank you, and I rise to support 
the Hall-Biggert-Gingrey amendment. I think the idea of ARPA-E 
certainly has merit and I can understand how it came forward. 
You know, it is sort of interesting how we come up with 
acronyms and the acronym DARPA sounds good, has a good ring to 
it, but if we followed that line, then this new agency would be 
called EARPA. We decided to name it ARPA-E, which sounds a 
little bit better. The one in the Homeland Security Department, 
I guess we could call that HARPA. That doesn't have a real good 
ring to it and it wasn't very successful.
    But I agree with the Ranking Member, Mr. Hall, in regard to 
creating yet another expensive agency within the Department of 
Energy when, as he pointed out, we are talking about a $23 
billion agency which really right now I think is working. The 
Department of Energy with its Secretary, Sam Bodman, chemical 
engineer by training, someone that is running a good 
department, and the Office of Science within the Department of 
Energy I think is probably the place where this kind of 
activity should be under the existing funding. And there is a 
recent letter, Mr. Chairman, you are familiar with it, from the 
American Chemical Society, of which I am a member as a graduate 
of Georgia Tech with a Bachelor of Science in chemistry, but I 
just believe that the Ranking Member hit the nail right on the 
head in regard to this. It sounds good but it is growing the 
government. It is unnecessary. It is duplication. Instead of 
really being ARPA-E and sounding good, we ought to call it 
EARPA and reject it, so I yield back my time.
    Chairman Gordon. Ms. Biggert is recognized.
    Ms. Biggert. Thank you. Move to strike the last word. Thank 
you, Mr. Chairman. I know how hard you worked on this. And I 
think we all agree that this project is very important. 
Research and development is very important. And I think really 
the only difference that we are really talking about is whether 
to have it in the Department of Energy or have it as a separate 
agency. And I think that over the years you have been on this 
committee, and I have been on this committee, we have really 
worked to improve the Department of Energy. There is--I would 
like to just read a couple words from a hearing that was held 
last year, March of 2006, Dr. David Mowery testified from the 
University of California at Berkeley and talking about 
proposals for expanded R&D in energy, in alternative energy. He 
said, ``We are very positive.'' He served on the National 
Academy of Science panel that assessed the value of DOE 
investments in alternative energy and energy conservation and 
energy efficiency programs, and the consensus was that the 
returns of these investments were positive and the Committee 
felt that the Department of Energy had overall done an 
effective job of managing these. And I think that probably is 
true but I think that they can do better and we can do better. 
And I think to bring it back to the Department, I think we 
worked on improving the Office of Science to be the research 
and development arm as the starting point there. And they have 
always worked with outside groups, and I think to put it in 
there would be a benefit to have improvement. You know, I 
worked on GNEP and was very frustrated with the Department when 
they wouldn't do a systems analysis to really get the nuclear 
program going, and we argued about that. So I think there is a 
lot of room. But I hate to see everybody saying how bad the 
Department of Energy has done and the Office of Science because 
I think if we look back, I remember going to Argonne with the 
Secretary of Energy, Spencer Abraham, and looking at the fuel 
cell that was being developed for the hydrogen cars. And it was 
a big fuel cell and he said how fast can you reduce that so 
that we can put it into a car, and I have since then driven a 
hydrogen car. So I think all the things are there. We just need 
to have the oversight and to have a program like this that they 
can use. You know, we changed the title from the Director of 
Office of Science to the Under Secretary to give that top 
priority, and here I think we are not ignoring the problem. I 
mean, we are not for status quo. It is really imperative that 
all of us, with the global economy and global competition, that 
we move with expeditious means. I just--I think, you know, the 
only difference I see is that to take it out of the Department 
of Energy where they have been moving and we have given them 
more direction and we can proceed expeditiously that way.
    With that, I yield back, but I support the----
    Chairman Gordon. If the gentlelady would yield, I just--
once again, there are not good guys and bad guys here. There 
are just two different opinions. If you are for status quo, 
then you should support Mr. Hall's amendment, and if you are 
not, you should oppose it, and we are not taking it out of the 
Department of Energy. We are taking it out of the Department of 
Energy's bureaucracy. It reports directly to the Secretary of 
Energy. So it is still within the Department of Energy. And if 
I could make one final point, part of the amendment best 
illustrates why we need to have a change. A part of this 
amendment suggests that the Department of Energy should have a 
study to determine whether or not this is a good idea. Well, in 
July of 2005, we passed legislation that required the 
Department of Energy to have a study, return it within 18 
months of whether this should be done. That study was done 
January of 2007 and we still don't have it. I mean, that is the 
best argument for getting it out of the Department of Energy. 
They can't even do a study. So again, there are not good guys 
or bad guys, there are just two views, and I yield back.
    Ms. Biggert. You know, the ``it is time for a change'' 
worked in a broader sense for you on the other side of the 
aisle last year but I do think that we are really--we are not 
ignoring the problem, we are not for the status quo. We all 
want to work to ensure that the Department of Energy moves 
forward and the Senate has said that it could be within the 
Department of Energy so maybe we will come back to discuss this 
again but I would yield to Mr. Bilbray.
    Mr. Bilbray. Yes, Mr. Chairman----
    Chairman Gordon. Just to get us in the right--I think your 
time is--and I have been part of it--is more than expired. Let 
me----
    Ms. Biggert. I yield back.
    Chairman Gordon. Let us recognize Mr. Bilbray to strike the 
last word and be on his on time there.
    Mr. Bilbray. Strike the last word.
    Chairman Gordon. The gentleman is recognized.
    Mr. Bilbray. Mr. Chairman, I just think in all fairness 
that the characterization that anyone who opposes this bill is 
for the status quo, I think it is inappropriate and unfair. I 
think that we have to recognize that there are many different 
approaches to how we move forward with the energy independence 
issue and that just because someone may not agree with the 
Chair's bill here doesn't mean that they do not want to move 
forward and do not want to try new things. I just think it is 
quite unfair to say it is either status quo, the way it is now 
or my way and my way is the only way to change things. And I 
think that is--and I think even the Chair will recognize that 
is an unfair characterization. I think that what we have is a 
proposal here to create a new vehicle, new structure and think 
that it will get on operation and be more effective earlier 
than the science department over there is able to move forward 
with their agenda. And if you think that you can create a new 
agency or new structure and be able to move forward before the 
existing structure can tool up and move forward with a new 
approach, that is the difference we have here. But I just think 
it is unfair to say that it is so cut and dry that there are 
those who want nothing done and those who are on my side.
    I yield back, Mr. Chairman.
    Chairman Gordon. Mr. Hall is recognized.
    Mr. Hall. Mr. Chairman, it is not a status quo. We are 
directing the Department to do ARPA-E projects. I think we go 
really more out of the status quo than you do in that we direct 
them to. I have read your instructions to them. I may be wrong 
but I don't find in yours where you use the word ``shall.'' 
Maybe you do, but we clearly do. You can't say that we are only 
status quo when we have, ``Initial project not later than 270 
days after the date of enactment of this act that the Secretary 
shall designate up to two ARPA-E projects for funding.'' That 
is shall. That is a direction to them. That is not status quo. 
You may have some shalls. I just quickly looked over them but 
your shalls aren't as strong as my shalls. Mine are in capital 
letters and red and ugly. And one of the few things I agree 
with the Senate on is, we don't need a new agency within the 
Department of Energy, and go ask the Department of Energy what 
they think about having this within their department there to 
do battle with. I don't think you will find anybody over there 
for it. That doesn't make it good or bad but those are the 
facts. And we set up as much funds as needed to carry out the 
purpose. We didn't set up--the Senate has that. Well, I am with 
the Senate now and it is unusual for me to be for the Senate. 
This is not status quo. It is just not as much money by a long 
shot that you are suggesting to put into the Department of 
Energy and the Senate is going to knock it off just as quickly 
as it gets over there.
    Chairman Gordon. Thank you, sir. I will just point out, it 
may not have been a big hairy ``shall'' but the Department of 
Energy was told that it shall contract to have a study on 
whether or not there should be something similar to ARPA-E that 
was supposed to have been presented in the ``shall'' sense to 
Congress in January 2007. They have never even contracted it 
out. So, you know, shalls, you have to do more than shalls.
    Mr. Hall. That is the reason we sent the letter to them, 
Mr. Chairman.
    Mr. Rohrabacher. Mr. Chairman?
    Chairman Gordon. Mr. Rohrabacher is recognized for five 
minutes.
    Mr. Rohrabacher. Let me again note that I think that your 
basic concept is correct and that ARPA-E concept is something 
that might be very beneficial as compared to the way the setup 
is now at the Department of Energy. You have made the argument 
that this is still part of the Department of Energy. Let me 
note, however, that your argument about the status quo not 
working and those hesitant about your idea, if your position is 
that the status quo is not working as it should be at the 
Department of Energy in terms of energy development, we should 
be taking the funds from that status quo that is not working 
and using that as the basis for a restructuring rather than 
trying to, you know, just bring in other funds when your 
position is that the current funds being spent in the status 
quo are not working. So while I am supporting your concept, 
again I am very concerned about the redirection of funds when 
you by your very premise are suggesting that the current funds 
are not being put to best use.
    Mr. Hall. Will the gentleman yield?
    Mr. Rohrabacher. I certainly would.
    Mr. Hall. And you are aware of the fact that authorization 
in my amendment, in our amendment here, that we authorize $750 
million over five years for ARPA-E projects at DOE. Theirs is 
$4.9 billion without saying exactly where it is going to come 
from, and the Senate, probably more sensible than either of us, 
has said that they authorized so much funds as needed to carry 
out their purposes and at that time as they are needed they 
have to relegate or designate where those funds are coming 
from. That is what you are asking for and that is what you are 
not getting.
    Mr. Rohrabacher. And again, the idea of having ARPA-E is 
certainly I believe the correct idea but if we are going to 
restructure because the current system is not working, that is 
where we should be getting the funds from, that system that is 
not working.
    Chairman Gordon. If there is no further--oh, excuse me.
    Mr. Akin. Could the gentleman yield for just one additional 
thought, Mr. Rohrabacher?
    Mr. Rohrabacher. Sure.
    Mr. Akin. It seems to me that if we have got an agency that 
is not doing what they ought to do, if we give them a whole lot 
more money, we are kind of rewarding them for doing what we 
don't want them to do and I think what you are saying makes a 
certain amount of sense. Let us take the money out of the 
Department and put it where it is going to do some good. If we 
have already told them they shall do a report and they haven't 
done it, then I say let us take their funding and put it into 
something that will do it, but let us not reward them by 
doubling their funding. Thank you.
    Chairman Gordon. If there is no further discussion on the 
amendment, then all in favor say aye. Aye. Oh, excuse me, no. 
Let me start over, Mr. Hall, so there will be no confusion. All 
in favor of the amendment say aye. Opposed, say no. No. The 
no's seem to have it.
    Ms. Biggert. Mr. Chairman, I would request a recorded vote.
    Chairman Gordon. The Clerk will call the roll.
    The Clerk. Chairman Gordon.
    Chairman Gordon. No.
    The Clerk. Chairman Gordon votes no. Mr. Costello.
    Mr. Costello. No.
    The Clerk. Mr. Costello votes no. Ms. Johnson.
    [No response.]
    The Clerk. Ms. Woolsey.
    Ms. Woolsey. No.
    The Clerk. Ms. Woolsey votes no. Mr. Udall.
    Mr. Udall. No.
    The Clerk. Mr. Udall votes no. Mr. Wu.
    Mr. Wu. No.
    The Clerk. Mr. Wu votes no. Mr. Baird.
    Mr. Baird. No.
    The Clerk. Mr. Baird votes no. Mr. Miller.
    [No response.]
    The Clerk. Mr. Lipinski.
    Mr. Lipinski. No.
    The Clerk. Mr. Lipinski votes no. Mr. Lampson.
    Mr. Lampson. No.
    The Clerk. Mr. Lampson votes no. Ms. Giffords.
    Ms. Giffords. No.
    The Clerk. Ms. Giffords votes no. Mr. McNerney.
    Mr. McNerney. No.
    The Clerk. Mr. McNerney votes no. Mr. Kanjorski.
    [No response.]
    The Clerk. Ms. Hooley.
    Ms. Hooley. No.
    The Clerk. Ms. Hooley votes no. Mr. Rothman.
    Mr. Rothman. No.
    The Clerk. Mr. Rothman votes no. Mr. Honda.
    [No response.]
    The Clerk. Mr. Matheson.
    Mr. Matheson. No.
    The Clerk. Mr. Matheson votes no. Mr. Ross.
    Mr. Ross. No.
    The Clerk. Mr. Ross votes no. Mr. Chandler.
    Mr. Chandler. No.
    The Clerk. Mr. Chandler votes no. Mr. Carnahan.
    Mr. Carnahan. No.
    The Clerk. Mr. Carnahan votes no. Mr. Melancon.
    Mr. Melancon. No.
    The Clerk. Mr. Melancon votes no. Mr. Hill.
    Mr. Hill. No.
    The Clerk. Mr. Hill votes no. Mr. Mitchell.
    Mr. Mitchell. No.
    The Clerk. Mr. Mitchell votes no. Mr. Wilson.
    Mr. Wilson. No.
    The Clerk. Mr. Wilson votes no. Mr. Hall.
    Mr. Hall. Yes.
    The Clerk. Mr. Hall votes aye. Mr. Sensenbrenner.
    [No response.]
    The Clerk. Mr. Lamar Smith.
    [No response.]
    The Clerk. Mr. Rohrabacher.
    Mr. Rohrabacher. Reluctantly, no.
    The Clerk. Mr. Rohrabacher votes no. Mr. Bartlett.
    Mr. Bartlett. No.
    The Clerk. Mr. Bartlett votes no. Mr. Ehlers.
    Mr. Ehlers. Also reluctantly no.
    The Clerk. Mr. Ehlers votes no. Mr. Lucas.
    [No response.]
    The Clerk. Mrs. Biggert.
    Ms. Biggert. Aye.
    The Clerk. Mrs. Biggert votes aye. Mr. Akin.
    Mr. Akin. Aye.
    The Clerk. Mr. Akin votes aye. Mr. Bonner.
    Mr. Bonner. Aye.
    The Clerk. Mr. Bonner votes aye. Mr. Feeney.
    Mr. Feeney. Aye.
    The Clerk. Mr. Feeney votes aye. Mr. Neugebauer.
    Mr. Neugebauer. Aye.
    The Clerk. Mr. Neugebauer votes aye. Mr. Inglis.
    [No response.]
    The Clerk. Mr. Reichert.
    Mr. Reichert. Aye.
    The Clerk. Mr. Reichert votes aye. Mr. McCaul.
    Mr. McCaul. Aye.
    The Clerk. Mr. McCaul votes aye. Mr. Diaz-Balart.
    Mr. Diaz-Balart. Aye.
    The Clerk. Mr. Balart votes aye. Mr. Gingrey.
    Mr. Gingrey. Aye.
    The Clerk. Mr. Gingrey votes aye. Mr. Bilbray.
    Mr. Bilbray. Aye.
    The Clerk. Mr. Bilbray votes aye. Mr. Adrian Smith.
    Mr. Smith. Aye.
    The Clerk. Mr. Adrian Smith votes aye.
    Chairman Gordon. Is there anyone who did not have an 
opportunity to cast a vote? Mr. Inglis.
    Mr. Inglis. No.
    The Clerk. Mr. Inglis votes no.
    Chairman Gordon. The Clerk will report the vote.
    The Clerk. Mr. Chairman, 12 Members vote aye and 24 Members 
vote no.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Gordon. The motion is not agreed to.
    The third amendment on the roster is offered by the 
gentleman from South Carolina, Mr. Inglis. I think he just--oh, 
there he is. Okay. Mr. Inglis, do you need to have yours moved 
further down? Okay. The Clerk will report the amendment.
    The Clerk. Amendment to H.R. 364 offered by Mr. Inglis of 
South Carolina.
    Chairman Gordon. I ask unanimous consent to dispense with 
the reading. Without further objection, so ordered.
    The gentleman is recognized for five minutes to explain his 
amendment.
    Mr. Inglis. Thank you, Mr. Chairman. I am in between two 
markups so hopefully this can work.
    This amendment is designed to do a couple things to 
hopefully improve the bill, and we have had discussions with 
the Chairman's staff about this, and I very much appreciate the 
Chairman's openness to work to address some concerns we have 
had, and the amendment addresses three major concerns. One is 
protecting the existing research in the Office of Science, 
second is protecting ARPA-E from earmarks, and third is finding 
a way to clarify how ARPA-E will overcome the valley of death 
tech transfer issue.
    So that first item, the amendment provides at least one 
year of protection for existing funding levels for the Office 
of Science, basically providing that no funds can be initially 
given for ARPA-E unless authorized funds for the Office of 
Science are at fiscal year 2007 appropriated levels plus the 
inflation rate. So the concept there is ARPA-E can be funded 
but only after the Office of Science is funded at least fiscal 
year 2007 levels plus inflation. So the first year that ARPA-E 
would exist, the test is whether the Office of Science has been 
funded. If it has been funded at fiscal year 2007 plus 
inflationary rate, then ARPA-E can receive funds. So that is 
the first goal, to protect the existing research of the Office 
of Science.
    The second is to protect ARPA-E from earmarks and what we 
have done in this amendment is, it directs the program managers 
of ARPA-E to select projects ``on the basis of merit'' with 
advice from the advisory committee where appropriate. So 
legislatively protecting against earmarks is difficult but this 
review approach has succeeded in keeping the Advanced 
Technology Program, ATP, completely free from earmarks for the 
past ten years and so hopefully it will work in the case of 
ARPA-E.
    The third goal we had here was finding a way to clarify how 
ARPA-E would overcome the valley of death issues and so what we 
provide for is a minimum of two and one-half percent allocation 
for tech transfer and outreach activities and in addition 
applicants for ARPA-E projects must consider future commercial 
applications of the project including how commercial entities 
could be included to help increase market application 
technology.
    So those three changes are what is in the amendment and I 
would urge my colleagues to accept the amendment as an 
improvement of ARPA-E.
    Chairman Gordon. The question is raised, or the gentleman 
raised these questions at the Subcommittee markup. They were 
very constructive. We worked in a way to try to accomplish 
that. Again, you have made a good bill better and I recommend 
passage of this amendment.
    Ms. Biggert. Mr. Chairman?
    Chairman Gordon. The gentlelady is recognized.
    Ms. Biggert. I move to strike the last word.
    Chairman Gordon. The gentlelady is recognized for five 
minutes.
    Ms. Biggert. I thank the Chairman. I am sorry to say that I 
strongly oppose this amendment by my colleague. While it 
purports to protect the DOE Office of Science for at least one 
year, I actually think it does no such thing, and that is 
really why I take issue with this amendment. The amendment says 
we should fund ARPA-E before we fund the DOE Office of 
Science--or that we should fund DOE before ARPA-E. I will give 
my colleague that much but where does it set the bar? It sets 
the bar at the level of the fiscal year 2007 budget for DOE 
Office of Science plus inflation, and inflation is currently 
somewhere between two and three percent, I think. So this sets 
the bar so low that if you are not looking down, you will trip 
over it. I think that as part of his American competitive 
initiative, the President has proposed to double the funding 
for DOE Office of Science over ten years. In his fiscal year 
2007 budget request for the Office of Science, the President 
requested a 14 percent increase. Congress didn't give it to him 
so we are already behind. He requested a 16 percent increase in 
fiscal year 2008. Whether or not Congress will provide that 
increase remains to be seen, and I certainly hope we would, 
especially under the leadership of our colleagues on the other 
side of the aisle, that we would fund it. As part of their 
innovation agenda, they have advocated doubling the budget for 
DOE Office of Science in half the time that the President has 
proposed. So in fiscal year 2007, if Congress provides the DOE 
Office of Science only an inflationary increase and then starts 
funneling money into the new ARPA-E bureaucracy, that is sure 
not likely to fund much research in year one. So I think that 
this Congress would have failed miserably, and we will have 
failed to live up to our commitment to fund the ACI, our 
Democratic colleagues will have failed to live up to their 
innovation agenda and we will have failed to adequately fund 
research in the physical sciences.
    I have been one of the strongest advocates for the DOE 
Office of Science since being elected to Congress in 1998, and 
why? Well, because when I arrived at Congress, I learned very 
quickly how much we underfunded basic research in the physical 
sciences. Between 1994 and 2003, spending on research in the 
physical sciences shrank from 50 percent to less than 40 
percent of the total federal R&D spending as Congress put more 
money into the life sciences. During roughly that same period, 
the DOE Office of Science, the Nation's primary supportive 
research in the physical sciences, funding over 40 percent of 
basic research in the physical sciences, more than any other 
federal agency, had received flat funding. But in constant 
dollars, its budget has been reduced by roughly 13 percent. 
Unfortunately, the research itself had been mostly impacted 
since the cost to maintain existing facilities and their 
associated staffs continued to rise with inflation. Only in 
recent years have we made some progress filling this hole. But 
we won't see real progress until we provide the increases 
outlined in the President's ACI and the Democrats' innovation 
agenda. These are the increases that the Augustine committee 
heartily endorsed and clearly were a greater priority than 
ARPA-E. Increasing the Office of Science budget by the rate of 
inflation just won't cut it and it shouldn't be where we set 
the bar for ARPA-E. I strongly urge my colleagues to oppose the 
amendment.
    I yield back the balance----
    Mr. Hall. Will the gentlelady yield before she yields back?
    Ms. Biggert. I will yield to the Ranking Member.
    Mr. Hall. Is it your position that there is no adequate 
protection for the Office of Science in that they provide for 
only one year in the threshold for funding?
    Ms. Biggert. Are you asking me or Mr. Inglis?
    Mr. Hall. Yes. Is that your position?
    Ms. Biggert. That is my position.
    Mr. Hall. And do you not have an amendment a little bit 
later that addresses this?
    Ms. Biggert. Yes, I do.
    Mr. Hall. Okay. I don't think we ought to--I don't like the 
concept of tying the hands of the Director or the Secretary of 
Energy and I object to the amendment. I ask the Committee to 
vote no.
    Chairman Gordon. If there is no further discussion, the 
vote will be on the amendment. All in favor, say aye. Aye. 
Those opposed, say no. The ayes have it.
    The fourth amendment on the roster--let us see--is from the 
gentlelady, Ms. Biggert. Are you skipping number four and going 
on to a later amendment, Ms. Biggert?
    Ms. Biggert. I am skipping number four and going to number 
five.
    Chairman Gordon. Okay. The Clerk will report the amendment.
    The Clerk. Amendment to H.R. 364 offered by Mrs. Biggert of 
Illinois.
    Chairman Gordon. I ask unanimous consent to dispense with 
the reading. Without objection, so ordered.
    The gentlelady is recognized for five minutes to explain 
her amendment.
    Ms. Biggert. Thank you, Mr. Chairman. Let me make sure I 
have the right one here.
    Okay. My amendment is very straightforward. It simply 
requires that Congress fully fund the Department of Energy's 
Office of Science before spending billions of dollars on a new, 
untested ARPA-E.
    I wish I could say that I came up with this idea, but I 
didn't. Instead, the idea came directly from the Augustine 
Committee, the group responsible for writing the National 
Academy of Science Gathering Storm report on which the bill 
before us today is based, purportedly.
    In testimony before this committee in the 109th Congress, 
the only representative of the Augustine Committee to testify 
before this committee on ARPA-E concepts said, ``In funding 
ARPA-E, it is critical that this funding not jeopardize the 
basic research supported by the Department of Energy's Office 
of Science. The Committee's recommendations are priorities, and 
its top recommendation in the area of research is to increase 
the funding of basic research by 10 percent per year over the 
next seven years. The Augustine Committee applauds the 
Administration's American Competitiveness Initiative, 
particularly the courageous efforts of the Secretary of Energy, 
Samuel Bodman, to make basic research activities a high 
priority in the Department of Energy budget. The Augustine 
report strongly recommends the support of ARPA-E come from new 
funding.'' That was the testimony of Dr. Stephen Chu on behalf 
of the Augustine Committee. I don't think it can get any 
clearer than that.
    Supporting over 40 percent of the total federal funding for 
basic research in the physical sciences, more than any other 
federal agency. The DOE Office of Science is the Nation's 
primary supporter of research in the physical sciences. The 
Office of Science has led the way in creating a unique system 
of large-scale specialized user facilities for scientific 
discovery. The collection of cutting edge one-of-a-kind tools 
makes the Office of Science a unique and critical component of 
the Federal Science Portfolio.
    Other federal science agencies, such as the National 
Institutes of Health and the National Science Foundation, 
greatly depend upon these Office of Science facilities in 
carrying out their own research activities. Under the 
President's fiscal year 2008 budget, 21,500 researchers would 
have access to these DOE facilities. Nearly half of those users 
will be university faculty and students. Many will be from 
other federal agencies, and a significant number will be from 
U.S. industry.
    Recognizing the importance and contributions of the DOE 
Office of Science, President Bush made doubling its budget one 
of the pillars of the ACI. And my democratic colleagues, as I 
said before, made it a similar priority in their innovation 
agenda, proposing to double its funding in half the time that 
President Bush had proposed. But it was this committee that 
recognized the crucial role that the Office of Science played 
in our Federal Research Portfolio, long before it became part 
of any initiative or agenda of either party. This Committee 
unanimously approved the provisions that became Title 9 of the 
Energy Policy Act of 2005, including a provision that became 
Section 971 and authorized significant budget increases for the 
DOE Office of Science. Congress approved these increases with 
broad bipartisan support, and they are now law.
    My amendment simply says that we should live up to the 
current law first; law we made in this committee. We have been 
told by the supporters of this bill that it is consistent with 
the recommendations of the Augustine Committee. We have also 
been told that the funding for ARPA-E will be new funding. We 
have heard this over and over, and in a recent hearing on ARPA-
E, during the Subcommittee markup of this bill, and again 
today.
    Well, if my colleagues who support the bill are being 
honest with those of us who are skeptical that there are 
billions of dollars in new money to create another bureaucracy 
within the DOE, then they should support this amendment. By 
supporting this amendment, we are not saying we shouldn't 
create ARPA-E; rather, by supporting this amendment we are 
voting to reaffirm the priorities established in the Augustine 
report. We are voting to make federal funding for basic 
research a priority over funding for an idea to create a new 
bureaucracy. By supporting this amendment, we are voting to 
ensure that money for this new bureaucracy doesn't come at the 
expense of our basic research programs. It is a simple 
decision, really. What are our priorities?
    So I urge adoption of the amendment and yield back the 
balance of my time.
    Chairman Gordon. Very briefly, the gentlelady's good faith 
amendment would require that the Office of Science have a 20.5 
percent increase next year, 20.5 percent increase before ARPA-E 
can take effect. That is simply not realistic, and is a killer 
amendment for this bill.
    If there is no further discussion, the vote will be on the 
amendment. All in favor, say aye. Those opposed, say no. The 
nos have it.
    Ms. Biggert. Mr. Chairman, I would ask for a role call 
vote.
    Chairman Gordon. The Clerk will call the roll.
    The Clerk. Chairman Gordon.
    Chairman Gordon. No.
    The Clerk. Chairman Gordon votes no. Mr. Costello.
    Mr. Costello. No.
    The Clerk. Mr. Costello votes no. Ms. Johnson.
    Ms. Johnson. No.
    The Clerk. Ms. Johnson votes no. Ms. Woolsey.
    [No response]
    The Clerk. Mr. Udall.
    Mr. Udall. No.
    The Clerk. Mr. Udall votes no. Mr. Wu.
    [No response]
    The Clerk. Mr. Baird.
    Mr. Baird. No.
    The Clerk. Mr. Baird votes no. Mr. Miller.
    [No response]
    The Clerk. Mr. Lipinski.
    Mr. Lipinski. No.
    The Clerk. Mr. Lipinski votes no. Mr. Lampson.
    Mr. Lampson. No.
    The Clerk. Mr. Lampson votes no. Ms. Giffords.
    [No response]
    The Clerk. Mr. McNerney.
    Mr. McNerney. No.
    The Clerk. Mr. McNerney votes no. Mr. Kanjorski.
    [No response]
    The Clerk. Ms. Hooley.
    Ms. Hooley. No.
    The Clerk. Ms. Hooley votes no. Mr. Rothman.
    Mr. Rothman. No.
    The Clerk. Mr. Rothman votes no. Mr. Honda.
    Mr. Honda. No.
    The Clerk. Mr. Honda votes no. Mr. Matheson.
    Mr. Matheson. No.
    The Clerk. Mr. Matheson votes no. Mr. Ross.
    The Clerk. Mr. Chandler.
    Mr. Chandler. No.
    The Clerk. Mr. Chandler votes no. Mr. Carnahan.
    [No response]
    The Clerk. Mr. Melancon.
    [No response]
    The Clerk. Mr. Melancon.
    Mr. Melancon. No.
    The Clerk. Mr. Melancon votes no. Mr. Hill.
    Mr. Hill. No.
    The Clerk. Mr. Hill votes no. Mr. Mitchell.
    Mr. Mitchell. No.
    The Clerk. Mr. Mitchell votes no. Mr. Wilson.
    Mr. Wilson. No.
    The Clerk. Mr. Wilson votes no. Mr. Hall.
    Mr. Hall. Aye.
    The Clerk. Mr. Hall votes aye. Mr. Sensenbrenner.
    [No response]
    The Clerk. Mr. Lamar Smith.
    [No response]
    The Clerk. Mr. Rohrabacher.
    [No response]
    The Clerk. Mr. Bartlett.
    Mr. Bartlett. No.
    The Clerk. Mr. Bartlett votes no. Mr. Ehlers.
    Mr. Ehlers. Yes.
    The Clerk. Mr. Ehlers votes aye. Mr. Lucas.
    [No response]
    The Clerk. Mrs. Biggert.
    Ms. Biggert. Aye.
    The Clerk. Mrs. Biggert votes aye. Mr. Akin.
    Mr. Akin. Yes.
    The Clerk. Mr. Akin votes aye. Mr. Bonner.
    Mr. Bonner. Aye.
    The Clerk. Mr. Bonner votes aye. Mr. Feeney.
    [No response]
    The Clerk. Mr. Neugebauer.
    Mr. Neugebauer. Aye.
    The Clerk. Mr. Neugebauer votes aye. Mr. Inglis.
    Mr. Inglis. No.
    The Clerk. Mr. Inglis votes no. Mr. Reichert.
    Mr. Reichert. Aye.
    The Clerk. Mr. Reichert votes aye. Mr. McCaul.
    [No response]
    The Clerk. Mr. Diaz-Balart.
    Mr. Diaz-Balart. Aye.
    The Clerk. Mr. Diaz-Balart votes aye. Mr. Gingrey.
    Mr. Gingrey. Aye.
    The Clerk. Mr. Gingrey votes aye. Mr. Bilbray.
    Mr. Bilbray. Aye.
    The Clerk. Mr. Bilbray votes aye. Mr. Adrian Smith.
    Mr. Smith of Nebraska. Aye.
    The Clerk. Mr. Adrian Smith votes aye.
    Chairman Gordon. Are there any Members who have not cast a 
vote?
    If not, the Clerk will report.
    The Clerk. Mr. Chairman, 11 Members vote aye, and 19 
Members vote no.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Gordon. The amendment is not agreed to. The fifth 
amendment on the roster is offered by the gentlelady from 
Illinois, Ms. Biggert. Are you ready to proceed with your 
amendment?
    Ms. Biggert. I am, Mr. Chairman. I move to strike the last 
word.
    Chairman Gordon. The Clerk will report the amendment.
    The Clerk. Amendment to H.R. 364 authored by Mrs. Biggert 
of Illinois.
    Chairman Gordon. I ask unanimous consent to dispense with 
the reading. Without objection so ordered. The gentlelady is 
recognized for five minutes to explain her amendment.
    Ms. Biggert. Thank you, Mr. Chairman. I will try again.
    This is another straightforward amendment. It strikes the 
provision added during Subcommittee markup that limits to eight 
percent the amount of ARPA-E Project funds that can be 
allocated to Federally-Funded Research and Development Centers 
or FFRDCs.
    This eight percent cap I think is absolutely arbitrary. The 
Gathering Storm report said nothing about an eight percent cap. 
Instead it included language to the contrary, and I quote. 
``Solutions will require coordinated efforts among industrial, 
academic, and government laboratories.'' And one of ARPA-E's 
purported benefits will be to, and I quote, ``foster consortia 
of companies, colleges, and universities, and laboratories to 
work on critical research problems.''
    Nor do I recall a single witness who testified before this 
committee, either in the 109th Congress or more recently before 
the Energy and Environment Subcommittee ever suggesting, much 
less advocating, that we should tie the hands of program 
managers by limiting to eight percent the amount of ARPA-E 
funds available to FFRDCs. Correct me if I am wrong but I don't 
recall a single one.
    Dr. Stephen Chu, the only member of the Augustine Committee 
to actually testify before this committee about ARPA-E, 
recommended neither an eight percent cap nor tying the hands of 
the program managers in this way. And he also, as a matter of 
fact, said quite the opposite. ``This agency would itself 
perform no research that would fund work conducted by 
university start-ups, established firms and National 
laboratories.'' And he then went on to say anyone could compete 
for funding from ARPA-E, including universities, industry, 
businesses, and National laboratories, or ideally a consortium 
of these agencies.
    So while the member, a member of the Augustine Committee 
gave this committee clear guidance, the bill before us does 
exactly the opposite of what was advised. Instead of empowering 
program managers to be independent, the bill ties the hands of 
program managers before the agency even exists by telling them 
how and where they can spend ARPA-E funds. Instead of favoring 
one group over another, the bill contains an arbitrary 
limitation that places one group at a disadvantage compared to 
the others.
    And if you think this arbitrary funding limitation only 
applies to DOE National laboratories, you would be mistaken. 
The list of FFRDCs is actually maintained by the National 
Science Foundation, and by the latest count there are actually 
37 different FFRDCs spread across the nine different 
departments, including the Department of Defense, the 
Department of Energy, and NASA. All are eligible for ARPA-E 
funding but only eight percent of it according to the bill as 
reported by the Subcommittee.
    I would ask these questions of my colleagues from Arizona, 
California, Colorado, Pennsylvania, South Carolina, Illinois, 
New Jersey, Tennessee, and Washington, all of which are home to 
FFRDCs, and are you sure that none of the scientists or 
engineers at the FFRDCs in your state have an idea for solving 
our nation's national energy challenges? Are you sure that an 
eight percent cap isn't going to prevent them from getting 
funding from ARPA-E for this? For that great idea? And are you 
willing to risk tying the hands of ARPA-E program managers in 
such a way as to preclude them from funding that great idea?
    If you are not, you should support this amendment, 
eliminate the cap and the funding available to the FFRDCs. Make 
the ARPA-E program managers truly independent. Leave the 
funding decisions to them and in doing so you will insure that 
this bill remains true to the National Academy's recommendation 
that ARPA-E be designed as a lean, effective, and agile, but 
largely independent organization.
    I would urge my colleagues to support this amendment, and 
yield back the balance of my time.
    Chairman Gordon. Mr. Hall is recognized.
    Mr. Hall. Mr. Chairman, just very briefly. She describes an 
eight percent limitation. That is not in line with the 
Gathering Storm recommendations. It is not fair to the labs. 
They ought to be able to fight for funds the same as 
universities or private companies do. I urge the approval of 
the amendment.
    Yield back.
    Chairman Gordon. Will all due respect this another killer 
amendment, and if there is no further discussion, the vote 
occurs on the amendment.
    All those in favor of the amendment, say aye. Those 
opposed, no. The no's have it and----
    Ms. Biggert. Mr. Chairman, I would request a recorded vote.
    Chairman Gordon. The Clerk will call the roll.
    The Clerk. Chairman Gordon.
    Chairman Gordon. No.
    The Clerk. Chairman Gordon votes no. Mr. Costello.
    [No response]
    The Clerk. Ms. Johnson.
    Ms. Johnson. No.
    The Clerk. Ms. Johnson votes no. Ms. Woolsey.
    [No response]
    The Clerk. Mr. Udall.
    Mr. Udall. No.
    The Clerk. Mr. Udall votes no. Mr. Wu.
    [No response]
    The Clerk. Mr. Baird.
    Mr. Baird. No.
    The Clerk. Mr. Baird votes no. Mr. Miller.
    [No response]
    The Clerk. Mr. Lipinski.
    Mr. Lipinski. No.
    The Clerk. Mr. Lipinski votes no. Mr. Lampson.
    Mr. Lampson. No.
    The Clerk. Mr. Lampson votes no. Ms. Giffords.
    [No response]
    The Clerk. Mr. McNerney.
    Mr. McNerney. No.
    The Clerk. Mr. McNerney votes no. Mr. Kanjorski.
    [No response]
    The Clerk. Ms. Hooley.
    Ms. Hooley. No.
    The Clerk. Ms. Hooley votes no. Mr. Rothman.
    Mr. Rothman. No.
    The Clerk. Mr. Rothman votes no. Mr. Honda.
    Mr. Honda. No.
    The Clerk. Mr. Honda votes no. Mr. Matheson.
    Mr. Matheson. No.
    The Clerk. Mr. Matheson votes no. Mr. Ross.
    Mr. Ross. No.
    The Clerk. Mr. Ross votes no. Mr. Chandler.
    Mr. Chandler. No.
    The Clerk. Mr. Chandler votes no. Mr. Carnahan.
    [No response]
    The Clerk. Mr. Melancon.
    [No response]
    The Clerk. Melancon.
    Mr. Melancon. No.
    The Clerk. Mr. Melancon votes no. Mr. Hill.
    Mr. Hill. No.
    The Clerk. Mr. Hill votes no. Mr. Mitchell.
    Mr. Mitchell. No.
    The Clerk. Mr. Mitchell votes no. Mr. Wilson.
    Mr. Wilson. No.
    The Clerk. Mr. Wilson votes no. Mr. Hall.
    Mr. Hall. Aye.
    The Clerk. Mr. Hall votes aye. Mr. Sensenbrenner.
    [No response]
    The Clerk. Mr. Lamar Smith.
    [No response]
    The Clerk. Mr. Rohrabacher.
    [No response]
    The Clerk. Mr. Bartlett.
    Mr. Bartlett. No.
    The Clerk. Mr. Bartlett votes no. Mr. Ehlers.
    Mr. Ehlers. No.
    The Clerk. Mr. Ehlers votes no. Mr. Lucas.
    [No response]
    The Clerk. Mrs. Biggert.
    Ms. Biggert. Aye.
    The Clerk. Mrs. Biggert votes aye. Mr. Akin.
    Mr. Akin. Aye.
    The Clerk. Mr. Akin votes aye. Mr. Bonner.
    [No response]
    The Clerk. Mr. Feeney.
    [No response]
    The Clerk. Mr. Neugebauer.
    [No response]
    The Clerk. Mr. Inglis.
    [No response]
    The Clerk. Mr. Reichert.
    Mr. Reichert. Aye.
    The Clerk. Mr. Reichert votes aye. Mr. McCaul.
    [No response]
    The Clerk. Mr. Diaz-Balart.
    Mr. Diaz-Balart. Aye.
    The Clerk. Mr. Diaz-Balart votes aye. Mr. Gingrey.
    Mr. Gingrey. Aye.
    The Clerk. Mr. Gingrey votes aye. Mr. Bilbray.
    Mr. Bilbray. Aye.
    The Clerk. Mr. Bilbray votes aye. Mr. Adrian Smith.
    Mr. Smith of Nebraska. Aye.
    The Clerk. Mr. Adrian Smith votes aye.
    Chairman Gordon. Are there any Members who have not been 
recorded?
    Mr. Ehlers. Mr. Chairman.
    The Clerk. Mr. Costello has not voted.
    Mr. Costello. No.
    The Clerk. Mr. Costello votes no.
    Chairman Gordon. Let us go to that side now.
    The Clerk. Mr. Bonner has not voted.
    Mr. Bonner. Aye.
    The Clerk. Mr. Bonner votes aye. Ms. Giffords is not 
recorded.
    Ms. Giffords. No.
    The Clerk. Ms. Giffords votes no.
    Chairman Gordon. Mr. Wu.
    The Clerk. Mr. Wu is not recorded.
    Mr. Wu. No.
    The Clerk. Mr. Wu votes no.
    Chairman Gordon. Mr. Inglis.
    The Clerk. Mr. Inglis is not recorded.
    Mr. Inglis. Aye.
    The Clerk. Mr. Inglis votes aye.
    Chairman Gordon. Mr. Carnahan.
    The Clerk. Mr. Carnahan is not recorded.
    Mr. Carnahan. No.
    The Clerk. Mr. Carnahan votes no.
    Chairman Gordon. Mr. McCaul.
    Mr. McCaul. Aye.
    The Clerk. Mr. McCaul is not recorded.
    Mr. McCaul. Aye.
    The Clerk. Mr. McCaul votes aye.
    Chairman Gordon. Mr. Neugebauer.
    The Clerk. Mr. Neugebauer is not recorded.
    Mr. Neugebauer. Aye.
    The Clerk. Mr. Neugebauer votes aye.
    Chairman Gordon. Rohrabacher.
    The Clerk. Mr. Rohrabacher votes aye.
    Chairman Gordon. Okay. Report the vote.
    The Clerk. Mr. Chairman, 13 Members vote aye, 23 vote no.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Gordon. The amendment fails. The sixth amendment 
on the roster is offered by the gentlelady from Illinois, Ms. 
Biggert. Are you ready to proceed with your amendment?
    Let me ask the gentlelady does she have any more 
amendments, and if so, please tell us which one.
    Ms. Biggert. No, Mr. Chairman. Two is enough.
    Chairman Gordon. Okay. Mr. Ehlers.
    Ms. Biggert. Mr. Chairman, if I might just at some point I 
would like to know why these are killer amendments, but we can 
discuss that later.
    Chairman Gordon. I would be happy to tell you.
    Mr. Ehlers. Mr. Chairman.
    Chairman Gordon. Mr. Ehlers is recognized.
    Mr. Ehlers. I have an amendment at the desk.
    Chairman Gordon. The Clerk will report the amendment.
    The Clerk. Amendment to H.R. 364 authored by Mr. Ehlers of 
Michigan.
    Chairman Gordon. I ask unanimous consent to dispense with 
the reading. Without objection, so ordered. The gentleman is 
recognized for five minutes to explain his amendment.
    Mr. Ehlers. Thank you, Mr. Chairman.
    When the Gathering Storm report initially suggested 
creating ARPA-E, I was very, very skeptical about it. I wasn't 
sure that it would work, and I thought the current Office of 
Science could take on that responsibility.
    What has changed my mind, and I now support it, is just 
thinking back historically through the history of the 
Department of Energy. It has been plagued at various times by 
Secretaries of Energy who were purely political appointees who 
knew very little about science or about the operation of the 
Department. And as a result of preserving that historical 
record, I decided it is very important that we return back to 
what the Gathering Storm report originally recommended, and 
that is that ARPA-E report to the Under Secretary for Science 
rather than to the Secretary.
    I believe it is very important that the agency report to 
someone who is a scientist and has a scientific background and 
can properly defend their requests to the Department of 
Management and Budget and that, or the Office of Management and 
Budget and to the President.
    And so I am offering an amendment to return the reporting 
line to what was recommended in the Gathering Storm report, 
largely on the historical basis of how the Department has been 
run and how it has had hills and valleys over the years. As I 
mentioned earlier, just pointing back to the decade of the 
'90s, there was a series of Secretaries who had very little if 
any knowledge of science and certainly did not do a very good 
job of operating the Department or setting priorities.
    Now that the Energy Policy Act of 2005 elevated the 
position of the Director of the Office of Science to the Under 
Secretary level, providing the Under Secretary the necessary 
authority to promote the role of science and technology 
research and development at the Department, I am convinced that 
it would be better for the ARPA-E agency to report to the Under 
Secretary for Science rather than to the Secretary. And I feel 
very strongly about that.
    In addition, my argument is strengthened by the fact that 
Mr. Augustine and the Gathering Storm report recommended the 
same thing. I believe that creating a new agency focused 
expressly in the development of innovative energy technologies 
and putting it outside the science missions of the Department 
underlines the authority of the Under Secretary for Science. In 
fact, the authors of the Gathering Storm included in their 
recommendation that the Director of ARPA-E report to the Under 
Secretary, definitely not to the Secretary of Energy.
    So I strongly urge the adoption of this. I think it will 
improve the bill and will make it a more workable agency as a 
result. We have said a lot here this morning about bureaucrats, 
getting bureaucrats out of the way. I think in view of the fact 
that we want to avoid bureaucracy, it is best to have them 
reporting directly to the scientists rather than to a 
Secretary, who is frequently not a scientist.
    I want to make clear that my comments here do not refer to 
the current Secretary of Energy, who I think is one of the best 
we have had in a long time, and I certainly appreciate 
Secretary Bodman's work. But we have an outstanding Under 
Secretary of Science in Dr. Raymond Orbach, who has a proven 
record as both a scientist and as an administrator.
    And so at this point especially this would be good, but I 
think if you look at the historical record, you will also agree 
it is best to have the agency report to the Under Secretary of 
Science.
    I yield back the balance of my time.
    Chairman Gordon. The gentleman yield?
    Mr. Ehlers. Yes. I would be happy to yield.
    Chairman Gordon. Let me say to the gentleman, there is no 
question this is a good-faith amendment, and we did not receive 
it until this afternoon or yesterday. Was it yesterday? Well, 
we recently received it. The original purpose of going to or 
reporting to the Secretary was to try to get away from 
bureaucracy, to go to the head of the stream so you wouldn't 
get into any of that. I still think that is probably a good 
idea.
    I am going to oppose this amendment today, but I want to 
continue to talk with the gentleman before we, as we go through 
this process. I may be wrong, you know, and but on short notice 
I think it does streamline it, and I think it is better to go 
directly to it, but I will oppose it, but as I say, I think 
this is a discussion that we need to continue to have. And so 
as has been earlier said I reluctantly oppose what I know is a 
good-faith amendment.
    Mr. Ehlers. Reclaiming my time, I appreciate those 
comments. I would point out that it was, the amendment was 
submitted at nine o'clock, 9:00 a.m. on Tuesday. We thought 
that would be adequate time, and I think it is not only a good-
faith amendment, but it is a good amendment, and so I would 
appreciate everyone's vote on this particular amendment.
    Chairman Gordon. Is there further discussion on the 
amendment?
    Mr. Rohrabacher.
    Mr. Rohrabacher. I would just note that Mr., Dr. Ehlers is 
highly respected in terms of his understanding of science and 
how science works and how it works in this system, and I will 
be supporting him in that. And when we are talking, his whole 
theory is let us get the, make sure that a scientist is someone 
who is being reported to, and of course, we have a disagreement 
between the scientists, and Mr. Chairman, I don't believe that 
you are a scientist, so I will be siding with the scientist.
    Chairman Gordon. Well, if the gentleman would yield, I do 
know that if there is a disagreement between the Under 
Secretary scientist and the Secretary, I know who is going to 
win that one.
    So with no further discussion--oh, yes, there is further 
discussion. Ms. Biggert is recognized.
    Ms. Biggert. I move to strike the last word.
    Chairman Gordon. The lady is recognized for five minutes.
    Ms. Biggert. I thank the gentleman. I couldn't agree more 
with my colleague, Dr. Ehlers. In conjunction with Senator 
Domenici and Senator Bingaman and Secretary Bodman I worked 
very hard during that conference on the Energy Policy Act of 
2005, to create the position of Under Secretary of Science at 
the Department of Energy, and I think that this organizational 
structure is working to bridge the gap between fundamental 
discoveries and their applied use. Dr. Ray Orbach, a former 
Director of the Office of Science and the first to fill this 
position, made a point to get quickly up to speed on applied 
energy technology programs as soon as he assumed the position 
of Under Secretary. And why? And that was to make sure that the 
Department's basic research programs were helping the Applied 
Energy Programs overcome fundamental technical obstacles to the 
development and deployment of advanced energy technologies.
    I think the Augustine Committee recognized how important 
this organizational change was at DOE, and that is why they 
were explicit that the Director of ARPA-E should report to the 
Under Secretary of Science. And in my opinion the Gathering 
Storm report wasn't clear about a lot of things, but the 
witnesses at our Subcommittee hearing last month generally 
agreed the ARPA-E recommendation was more vague, but this is 
one of the things that was quite clear in the report. It is 
even in the very first sentence, the action item at the 
beginning of the recommendation. So this bill essentially 
creates, you know, without it, another stovepipe within the DOE 
by keeping ARPA-E totally autonomous from the Department's 
basic and applied research programs, creating an unnecessary 
bureaucracy.
    So one way to avoid this stovepipe effect is for the 
Director to report to the Under Secretary of Science, and I 
would urge you, you know, to work with Dr. Ehlers, and I would 
yield to Dr. Ehlers.
    Mr. Ehlers. I thank the gentlelady for yielding. I 
apologize to the Chairman if you did not see the amendment in 
time to give it adequate consideration. I don't, my goal is not 
to embarrass you by defeating you here, and I don't even know 
if I could, but if you sincerely believe it would be better to 
offer it as a manager's amendment on the Floor or some other 
assurance that this will receive the consideration there or in 
Rules Committee, that is certainly an option. But lacking any 
assurances of that, then I would like to proceed to a vote 
here.
    So I would appreciate your reaction to that. I certainly am 
not trying to stir the pot or upset your game. I just want fair 
consideration.
    Chairman Gordon. If the gentleman will yield, clearly you 
have nothing but the best intentions, and I am sure if the 
amendment was filed by you, it is an error on our part by not 
getting it early.
    I cannot promise to you that we will make this change, only 
that we will consider it as we go forward. Again, my feeling is 
that to help reduce the bureaucracy by reporting directly to 
the Secretary, you are going to have less bureaucracy, and as a 
practical matter, the Secretary is going to overrule any Under 
Secretary if they are not happy with it.
    I think we'll discuss it more. I don't want to mislead you 
into thinking that this is automatically going to be a part of 
a manager's amendment. I would suggest if you want to vote 
today, you should have a vote, because I can't make that 
promise.
    Mr. Ehlers. Well, Mr. Chairman, I recognize you can't make 
that promise, but I don't want to take the time for a roll call 
vote if, in fact, we are going to continue our discussions on 
this.
    Mr. Hall. Will the gentleman yield?
    Mr. Ehlers. Yes. I would be happy to yield.
    Mr. Hall. Do you think this is more of a killer amendment 
than Ms. Biggert's are?
    Chairman Gordon. No, it is not.
    Mr. Hall. Then I recommend passage of the amendment.
    Chairman Gordon. Is there further discussion? If there is 
no further discussion, then the vote is on Mr. Ehlers' 
amendment. All in favor of the amendment say aye. Those opposed 
say no. It appears the no's have it, but would you like to have 
a show of hands? What would you like to do?
    Mr. Ehlers. A show of hands is adequate, I believe.
    Chairman Gordon. Okay.
    Mr. Ehlers. As long as we can each count.
    Chairman Gordon. All right. That is a big assumption here, 
but those in favor please raise your hand. I get 15. All 
opposed, raise your hand. And I believe there is 21. If there 
is no disagreement, then the amendment failed.
    The eighth amendment on the roster is offered by the 
gentleman from California, Mr. Bilbray. Are you ready to 
proceed?
    The Clerk will report the amendment.
    The Clerk. Amendment to H.R. 36----
    Mr. Bilbray. Mr. Chairman, I move that the amendment be 
accepted as read.
    Chairman Gordon. The gentleman is recognized for five 
minutes to explain his amendment.
    Mr. Bilbray. Mr. Chairman, it is quite clear that the 
intent here is to create a $14 million or I mean, $14 billion 
new vehicle. All my bill does is strike that money, basically 
places this in a position of making some priority decisions 
here. Do we want to create this new vehicle? Do we want to have 
it separate and isolated? And it basically says that there are 
some priority decisions to be made, and those priority 
decisions I think up front ought to be that DOE, the Office of 
Science, is going to be impacted one way or the other, the 
people that just developed the new lithium battery that is not 
toxic, can handle high energy without creating hazardous 
problems in the future, that we need to make some priority 
decisions. And this bill just basically strikes the funding for 
the new agency and the new group and basically says that in the 
tradition of the 1990s when we required that if you wanted to 
create something new and add something new, you had to find the 
money within the existing structure. My motion basically does 
that, Mr. Chairman, and I yield back.
    Chairman Gordon. Thank you, Mr. Bilbray. I would just 
quickly say that the Bilbray amendment would eliminate funding 
for ARPA-E, effectively killing the program, and if there is no 
further discussion----
    Mr. Rohrabacher. Mr. Chairman.
    Chairman Gordon. Yes. Mr. Rohrabacher is recognized.
    Mr. Rohrabacher. I would suggest that if Mr. Bilbray's 
amendment is adopted, that it will not kill the idea, that 
instead it will force us to set the priorities that we are 
supposed to set. If the argument in favor of ARPA-E is that the 
status quo currently going on is not an efficient use of 
resources and thus, a restructuring is necessary, we should 
have the courage enough to say what programs are not an 
efficient use of the money and what in the status quo isn't 
worthy of financing and use that money to finance ARPA-E. 
Should Mr. Bilbray's amendment not be accepted, I would, of 
course, be planning to move forward on the Floor with an 
amendment that will accomplish just that.
    If we do believe that this is a necessary restructuring, we 
should have the courage to say why it is necessary by 
eliminating those things that are costing money that aren't 
cost effective, that are currently being spent on. And this 
idea of just shoving it off to the oil companies, which, I, 
again, voted against that particular subsidy, tax-incentive 
subsidy, but that is just a way of getting around trying to set 
priorities and doing the tough job that we are supposed to do 
here.
    So I would suggest Mr. Bilbray's amendment is going in the 
right direction and forcing us to try to make set priorities 
and get rid of failing programs, if, indeed, the status quo 
isn't working, which is the premise of this whole argument, and 
I support that, by the way. I support that concept. Let us have 
courage enough to defund those projects that aren't working.
    Chairman Gordon. Thank you, Mr. Bilbray. I mean, Mr. 
Rohrabacher. I am afraid there won't be a majority courage to 
get that done, and so if there is no further discussion, all in 
favor of the amendment say aye. All opposed say no. The no's 
have it.
    The 9th amendment on the roster is offered by the gentleman 
from Nebraska, Mr. Smith. Are you ready to proceed with your 
amendment?
    Mr. Smith of Nebraska. Yes, Mr. Chairman. Thank you.
    Chairman Gordon. The Clerk will report the amendment.
    The Clerk. Amendment to H.R. 364 offered by Mr. Smith of 
Nebraska.
    Chairman Gordon. I ask unanimous consent to dispense with 
the reading. Without objection, so ordered.
    The gentleman is recognized for five minutes to explain the 
amendment.
    Mr. Smith of Nebraska. Thank you, Mr. Chairman and Members. 
My amendment would transfer all of the funds, the relevant 
funds and projects to the appropriate programs at DOE. If a 
study required under Section 1821 of the Energy Policy Act of 
2005, concludes that ARPA-E should not be established, the 
study mandated under Section 1821 of EPA would look at the 
applicability of the management practices used by the 
Department of Defense, Advanced Research Projects Agency, 
DARPA, to research programs at the Department of Energy and the 
advisability of creating an agency within DOE modeled after 
DARPA. A National Academy of Public Administration, an 
independent and non-partisan organization. I would emphasize an 
independent and non-partisan organization is charged with 
carrying out this study.
    Mr. Chairman, I am extremely concerned about the creation 
of a new bureaucracy and possible waste of taxpayer dollars 
should ARPA-E be established without fully addressing whether 
this new agency is the most effective tool for delivering new 
technologies to the marketplace.
    Therefore, I believe it would be beneficial to have the 
Academy of Public Administration's recommendation on whether it 
is even advisable to create a new agency. Should the Academy's 
findings reflect negatively on the establishment of ARPA-E, the 
agency would be terminated, and all funds would be directed to 
the appropriate programs within the Department of Energy. We 
have heard several times this morning that various amendments 
may be killer amendments. Certainly this one is not a killer 
amendment. It simply defers to an independent, non-partisan 
organization for their recommendations.
    Also, I would suggest that the approach of a new agency, 
perhaps taking dollars from other projects, is indeed a 
continuation of the status quo. I hope that this inclusion of 
an independent organization's opinion would lead to favorable 
public policy and wise use of taxpayer dollars.
    I yield back.
    Chairman Gordon. With all due respect let me repeat what I 
said earlier. Again, this is a killer amendment, and the reason 
it is a killer amendment, this same amendment was passed by the 
Congress, signed by the President, requiring the Department of 
Energy to do this study and send it to Congress by January of 
2007. The Department of Energy has yet to even put it out for 
study, you know, so if you are going to, and this was one of 
Mr. Hall's big ``shalls.'' The Department shall do that, but 
they did not do it. They didn't do it then, there is no reason 
that says they are going to do it again, and so this is a 
killer amendment.
    And, again, it is a demonstration of ineptitude, I think, 
within the Department of Energy when they are flaunting 
themselves and not doing the will of the Congress.
    Mr. Bilbray.
    Mr. Bilbray. Mr. Chairman, pardon me if I am wrong, but the 
gentleman from Nebraska has given you, you know, you say let us 
jump, let us move now, and he is creating a parachute for you 
that says only if it is a long haul, only if the report comes 
out and says there is a problem, you know, the fact is that you 
are saying the study doesn't come out, doesn't say it is a 
problem, it is going to kill the bill. He is giving you a 
safety valve where the fact is if the experts in the field come 
back after we have moved ahead and says, you have got major 
problems, that gives you a fallback to say, okay, let us do a 
rethink, but only if they come out and say that. Not 
beforehand.
    So in all fairness I think the gentleman from Nebraska is 
trying to be more than accommodating to your original 
legislation that creates a safety escape hatch in case the 
people on the front line say this could be a major disaster. 
And so it actually could reinforce your argument for moving 
forward now because you do have that parachute in the back. So 
the gentleman from Nebraska seems like he is trying to 
accommodate your intention of moving forward while still 
guaranteeing some protection for the taxpayers and for the 
consumer that needs this technology moving forward.
    And I yield back, Mr. Chairman.
    Mr. Hall. Will the gentleman yield?
    Mr. Bilbray. I yield.
    Mr. Hall. You are saying it is not a killer, just allows 
the program to move forward, aren't you?
    Mr. Rothman. Mr. Chairman.
    Chairman Gordon. Yes, Mr. Rothman.
    Mr. Rothman. Thank you, Mr. Chairman. To just respond to my 
distinguished colleague's remarks from the other side, 
sometimes as we all know people of goodwill and positions of 
power use their positions to thwart opposing ideologies or 
opposing approaches to problems simply by, well, by various 
means including delay, passive aggression, whatever you want to 
call it. And I think what our Chairman has indicated is that 
the Department of Energy has used its power to thwart reforms 
in the past, even those directed by the Congress through delay.
    And so while one may view the gentleman's amendment as 
simply an opportunity to provide for what he describes as a 
parachute, or it has been described as a parachute, in the eyes 
of others would simply be enabling an agency of this 
Administration that has resisted the will and thwarted the will 
of the Congress to deny them an opportunity to do so again.
    So I would respectfully oppose this amendment.
    Chairman Gordon. If there is no--Mr. Smith is recognized.
    Mr. Smith of Nebraska. Move to strike the last word. I 
would point out that if there is a delay of the study, this 
agency continues. I mean, I think I heard the Chairman say that 
the Department has delayed various studies and so forth. If 
that takes place, this new agency continues, and it is only if 
the study takes place and finds very objectively that the 
agency is unnecessary and that taxpayer dollars could be better 
spent elsewhere, then the dollars could be spent elsewhere in 
accordance with the study.
    Mr. Rothman. If the gentleman would yield.
    Mr. Smith of Nebraska. Yes.
    Mr. Rothman. I thank the gentleman. Is it the usual 
occurrence when a new project is suggested to begin that at the 
same time funds are authorized to then study whether the 
project is worthwhile?
    Mr. Smith of Nebraska. Oftentimes projects have sunset 
clauses. Mine is basically only a sunset if the study concludes 
that it should sunset. Otherwise it continues indefinitely.
    Mr. Rothman. If the gentleman would continue to yield. I 
think that, you know, one might argue that in which branch of 
government the decision about whether to continue a program 
should continue and to leave it in the hands of this 
administration to decide that a Congressionally-authorized and 
approved program must end I think would be the wrong approach. 
I think certainly if the Administration, for whatever reason, 
presented evidence to the Congress that something we were doing 
here in the Congress was wasteful or wrong, the majority of us 
on each side of the aisle would respond appropriately.
    I thank the gentleman for yielding.
    Mr. Smith of Nebraska. I appreciate your concern. I would 
say from my experience in public policy that a lot of new 
programs are started with the best of intentions and are 
continued with more and more dollars with newly-developed 
constituencies perhaps hijacking various programs. I am not 
accusing this project immediately of such violations.
    I would say, however, deferring to the independent 
organization such as the Public Administration, Academy of 
Public Administration, a very well-respected organization that 
does a very nice job of staying above the political fray, 
especially in a nonpartisan manner, that getting their input on 
this is wise and I think very appropriate.
    I yield back.
    Chairman Gordon. If there is no further discussion the vote 
is on the gentleman from Nebraska's amendment. All in favor say 
aye. Opposed, no. The no's----
    Mr. Smith of Nebraska. Mr. Chairman, I would ask for a 
recorded vote, please.
    Chairman Gordon. The Clerk will call the roll.
    The Clerk. Mr. Gordon.
    Chairman Gordon. No.
    The Clerk. Chairman Gordon votes no. Mr. Costello.
    Mr. Costello. No.
    The Clerk. Mr. Costello votes no. Ms. Johnson.
    Ms. Johnson. No.
    The Clerk. Ms. Johnson votes no. Ms. Woolsey.
    Ms. Woolsey. No.
    The Clerk. Ms. Woolsey votes no. Mr. Udall.
    [No response]
    The Clerk. Mr. Wu.
    Mr. Wu. No.
    The Clerk. Mr. Wu votes no. Mr. Baird.
    Mr. Baird. No.
    The Clerk. Mr. Baird votes no. Mr. Miller.
    Mr. Miller. No.
    The Clerk. Mr. Miller votes no. Mr. Lipinski.
    Mr. Lipinski. No.
    The Clerk. Mr. Lipinski votes no. Mr. Lampson.
    Mr. Lampson. No.
    The Clerk. Mr. Lampson votes no. Ms. Giffords.
    Ms. Giffords. No.
    The Clerk. Ms. Giffords votes no. Mr. McNerney.
    Mr. McNerney. No.
    The Clerk. Mr. McNerney votes no. Mr. Kanjorski.
    [No response]
    The Clerk. Ms. Hooley.
    Ms. Hooley. No.
    The Clerk. Ms. Hooley votes no. Mr. Rothman.
    Mr. Rothman. No.
    The Clerk. Mr. Rothman votes no. Mr. Honda.
    [No response]
    The Clerk. Mr. Matheson.
    Mr. Matheson. No.
    The Clerk. Mr. Matheson votes no. Mr. Ross.
    Mr. Ross. No.
    The Clerk. Mr. Ross votes no. Mr. Chandler.
    Mr. Chandler. No.
    The Clerk. Mr. Chandler votes no. Mr. Carnahan.
    Mr. Carnahan. No.
    The Clerk. Mr. Carnahan votes no. Mr. Melancon.
    Mr. Melancon. No.
    The Clerk. Mr. Melancon votes no. Mr. Hill.
    Mr. Hill. No.
    The Clerk. Mr. Hill votes no. Mr. Mitchell.
    Mr. Mitchell. No.
    The Clerk. Mr. Mitchell votes no. Mr. Wilson.
    Mr. Wilson. No.
    The Clerk. Mr. Wilson votes no. Mr. Hall.
    Mr. Hall. Aye.
    The Clerk. Mr. Hall votes aye. Mr. Sensenbrenner.
    [No response]
    The Clerk. Mr. Lamar Smith.
    [No response]
    The Clerk. Mr. Rohrabacher.
    Mr. Rohrabacher. No.
    The Clerk. Mr. Rohrabacher votes no. Mr. Bartlett.
    Mr. Bartlett. No.
    The Clerk. Mr. Bartlett votes no. Mr. Ehlers.
    Mr. Ehlers. No.
    The Clerk. Mr. Ehlers votes no. Mr. Lucas.
    Mr. Lucas. Aye.
    The Clerk. Mr. Lucas votes aye. Mrs. Biggert.
    Ms. Biggert. Aye.
    The Clerk. Mrs. Biggert votes aye. Mr. Akin.
    Mr. Akin. Aye.
    The Clerk. Mr. Akin votes aye. Mr. Bonner.
    Mr. Bonner. Aye.
    The Clerk. Mr. Bonner votes aye. Mr. Feeney.
    Mr. Feeney. Aye.
    The Clerk. Mr. Feeney votes aye. Mr. Neugebauer.
    Mr. Neugebauer. Aye.
    The Clerk. Mr. Neugebauer votes aye. Mr. Inglis.
    Mr. Inglis. No.
    The Clerk. Mr. Inglis votes no. Mr. Reichert.
    Mr. Reichert. Aye.
    The Clerk. Mr. Reichert votes aye. Mr. McCaul.
    Mr. McCaul. Aye.
    The Clerk. Mr. McCaul votes aye. Mr. Diaz-Balart.
    Mr. Diaz-Balart. Aye.
    The Clerk. Mr. Diaz-Balart votes aye. Mr. Gingrey.
    Mr. Gingrey. Aye.
    The Clerk. Mr. Gingrey votes aye. Mr. Bilbray.
    Mr. Bilbray. Aye.
    The Clerk. Mr. Bilbray votes aye. Mr. Adrian Smith.
    Mr. Smith of Nebraska. Aye.
    The Clerk. Mr. Adrian Smith votes aye.
    Chairman Gordon. Are there any Members not recorded? The 
Clerk will report the vote.
    The Clerk. Mr. Chairman, 13 Members vote aye, 25 vote no.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Gordon. The amendment is not carried.
    The tenth amendment on the roster is offered by the 
gentleman from Georgia, Mr. Gingrey. Are you ready to proceed 
with your amendment?
    Mr. Gingrey. I am, Mr. Chairman. I have an amendment at the 
desk.
    Chairman Gordon. The Clerk will report the amendment.
    The Clerk. Amendment to H.R. 364 offered by Mr. Gingrey of 
Georgia.
    Chairman Gordon. I ask unanimous consent to dispense with 
the reading. Without objection so ordered. The gentleman is 
recognized for five minutes to explain his amendment.
    Mr. Gingrey. Mr. Chairman, thank you. If you didn't like 
the amendment submitted by the gentleman from Nebraska, Mr. 
Smith, you are really going to hate this one, Mr. Chairman.
    But I think it is an amendment that maybe is more logical 
to all the Members on both sides of the aisle. Basically EPAct 
2005, Energy Policy Act 2005, in Section 1821, that is why it 
is some similar to Mr. Smith's amendment, call for the study to 
say, to ask the question would ARPA-E, we were playing with 
those acronyms a little earlier, but the Advanced Project 
Research Act, under the Department of Energy, would it fit, 
would it be as successful as the DARPA Program under the 
Department of Defense, which, of course, has existed for 50 
years or more and has a fantastic track record.
    I submit, Mr. Chairman, that maybe it is not analogous to 
that program in that under DARPA there is a ready-made 
customer, and of course, that is our military. And many of the 
studies that are done by DARPA, there is this opportunity to 
immediately apply technology to the field, if you will. But 
that is not actually the way it would occur with a similar 
program under the Department of Energy. There may be no market, 
and I suggest that for that reason that a study before we 
authorize $5 billion over five years for a new program, that 
this study under Section 1821 of the Energy Policy Act of 2005 
is supposed to be done, in fact, five months ago, January of 
'07. And that this is the right way to do things. This is the 
right way to spend the people's money to make sure that just a 
few pages out of a very thick volume, the rise of the Gathering 
Storm report, which doesn't really get very specific.
    So I think it is very appropriate in EPAct 2005, that this 
study be done before we go ahead and spend the money. That is 
how my amendment, Mr. Chairman, is different from the Smith 
amendment. His amendment says, well, you know, you go ahead and 
start the program, you start the funding, and if and when the 
study finally gets done and it shows that it is not a 
worthwhile project, then you stop the funding.
    My amendment simply says you don't start the funding until 
you do the study. If you go ahead and start the program without 
the study, it is like scheduling a wedding before you pick the 
bride and groom. So I think it is just a very logical 
amendment, and it is a commonsense, fiscally responsible 
amendment.
    I don't mind seeing government grow if there is a good 
reason for it, but I think that the study should be done before 
we start spending the money, and I will yield back my time.
    Mr. Hall. Will the gentleman yield.
    Chairman Gordon. Mr. Hall is recognized.
    Mr. Hall. Actually, you just conditioned the establishment 
of ARPA-E on a positive recommendation which was made in the 
Energy Policy Act. Right?
    Mr. Gingrey. That is correct, Mr. Hall.
    Mr. Hall. I urge the adoption of the amendment.
    Chairman Gordon. I will be very brief and say that the 
gentleman, my friend from Georgia correctly described my view 
of this amendment. I mean, you know, it is, we talk about this 
a lot, so I am starting to be repetitious on this. But keep in 
mind the Department of Energy by law passed by Congress, signed 
by the President was required with a big shall, was required to 
do this study and present it to Congress. I have written them 
myself asking for it. They have not even commissioned it. I 
mean, you know, if that is, you know, it is just not a credible 
approach, and so if there is no further discussion, we will 
have a vote on the amendment.
    All in favor of Mr. Gingrey's amendment say aye. Opposed, 
nay.
    Mr. Gingrey. Mr. Chairman, I would like a recorded vote. 
Thank you.
    Chairman Gordon. The Clerk will call the roll.
    The Clerk. Chairman Gordon.
    Chairman Gordon. No.
    The Clerk. Chairman Gordon votes no. Mr. Costello.
    Mr. Costello. No.
    The Clerk. Mr. Costello votes no. Ms. Johnson.
    Ms. Johnson. No.
    The Clerk. Ms. Johnson votes no. Ms. Woolsey.
    Ms. Woolsey. No.
    The Clerk. Ms. Woolsey votes no. Mr. Udall.
    [No response]
    The Clerk. Mr. Wu.
    Mr. Wu. No.
    The Clerk. Mr. Wu votes no. Mr. Baird.
    Mr. Baird. No.
    The Clerk. Mr. Baird votes no. Mr. Miller.
    Mr. Miller. No.
    The Clerk. Mr. Miller votes no. Mr. Lipinski.
    Mr. Lipinski. No.
    The Clerk. Mr. Lipinski votes no. Mr. Lampson.
    Mr. Lampson. No.
    The Clerk. Mr. Lampson votes no. Ms. Giffords.
    Ms. Giffords. No.
    The Clerk. Ms. Giffords votes no. Mr. McNerney.
    Mr. McNerney. No.
    The Clerk. Mr. McNerney votes no. Mr. Kanjorski.
    [No response]
    The Clerk. Ms. Hooley.
    [No response]
    The Clerk. Mr. Rothman.
    Mr. Rothman. No.
    The Clerk. Mr. Rothman votes no. Mr. Honda.
    [No response]
    The Clerk. Mr. Matheson.
    Mr. Matheson. No.
    The Clerk. Mr. Matheson votes no. Mr. Ross.
    Mr. Ross. No.
    The Clerk. Mr. Ross votes no. Mr. Chandler.
    Mr. Chandler. No.
    The Clerk. Mr. Chandler votes no. Mr. Carnahan.
    Mr. Carnahan. No.
    The Clerk. Mr. Carnahan votes no. Mr. Melancon.
    Mr. Melancon. No.
    The Clerk. Mr. Melancon votes no. Mr. Hill.
    Mr. Hill. No.
    The Clerk. Mr. Hill votes no. Mr. Mitchell.
    Mr. Mitchell. No.
    The Clerk. Mr. Mitchell votes no. Mr. Wilson.
    Mr. Wilson. No.
    The Clerk. Mr. Wilson votes no. Mr. Hall.
    Mr. Hall. Aye.
    The Clerk. Mr. Hall votes aye. Mr. Sensenbrenner.
    [No response]
    The Clerk. Mr. Lamar Smith.
    [No response]
    The Clerk. Mr. Rohrabacher.
    Mr. Rohrabacher. No.
    The Clerk. Mr. Rohrabacher votes no. Mr. Bartlett.
    Mr. Bartlett. No.
    The Clerk. Mr. Bartlett votes no. Mr. Ehlers.
    [No response]
    The Clerk. Mr. Lucas.
    Mr. Lucas. Aye.
    The Clerk. Mr. Lucas votes ayes. Mrs. Biggert.
    Ms. Biggert. Aye.
    The Clerk. Mrs. Biggert votes aye. Mr. Akin.
    Mr. Akin. Yes.
    The Clerk. Mr. Akin votes aye. Mr. Bonner.
    Mr. Bonner. Aye.
    The Clerk. Mr. Bonner votes aye. Mr. Feeney.
    Mr. Feeney. Aye.
    The Clerk. Mr. Feeney votes aye. Mr. Neugebauer.
    Mr. Neugebauer. Aye.
    The Clerk. Mr. Neugebauer votes aye. Mr. Inglis.
    Mr. Inglis. No.
    The Clerk. Mr. Inglis votes no. Mr. Reichert.
    Mr. Reichert. Aye.
    The Clerk. Mr. Reichert votes aye. Mr. McCaul.
    Mr. McCaul. Aye.
    The Clerk. Mr. McCaul votes aye. Mr. Diaz-Balart.
    Mr. Diaz-Balart. Aye.
    The Clerk. Mr. Diaz-Balart votes aye. Mr. Gingrey.
    Mr. Gingrey. Aye.
    The Clerk. Mr. Gingrey votes aye. Mr. Bilbray.
    Mr. Bilbray. Aye.
    The Clerk. Mr. Bilbray votes aye. Mr. Adrian Smith.
    Mr. Smith of Nebraska. Aye.
    The Clerk. Mr. Adrian Smith votes aye.
    Chairman Gordon. Any Members not recorded? Dr. Ehlers.
    The Clerk. Mr. Ehlers is not recorded.
    Mr. Ehlers. No.
    The Clerk. Mr. Ehlers votes no.
    Chairman Gordon. Any other Members here? The Clerk will 
report the vote.
    With no objections since the vote has not been recorded 
yet, we will allow the gentlelady from Oregon to vote.
    Ms. Hooley. No.
    The Clerk. Ms. Hooley votes no.
    Chairman Gordon. Once again, is there any other--the Clerk 
will report.
    The Clerk. Mr. Chairman, 13 Members vote aye, 25 Members 
vote no.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Gordon. The amendment fails.
    The eleventh amendment on the roster is offered by the 
gentleman from Missouri, Mr. Akin. Are you ready to proceed 
with your amendment?
    Mr. Akin. I am, Mr. Chairman, and I have to say to start 
out the whole idea of ARPA-E's----
    Chairman Gordon. If I could, my mistake. The Clerk will 
report the amendment.
    The Clerk. Amendment to H.R. 364 offered by Mr. Akin of 
Missouri.
    Chairman Gordon. I ask unanimous consent to dispense with 
the reading. Without objection, so ordered. The gentleman is 
recognized for five minutes to explain his amendment.
    Mr. Akin. Mr. Chairman, I was inclined to really like your 
bill, because I like Arby's. They have roast beef sandwiches 
and milkshakes there, and I thought it was going to be a pretty 
good thing, but now I understand we got a $4.9 billion program 
going to run for five years. Mr. Chairman, my amendment simply 
says at the end of five years, we are going to sunset. In other 
words, we are going to take a look, and if the program did what 
you wanted it to do, then we can proceed. If it suggests that 
maybe it should be folded into a different agency or bureau or 
something like that, we could make those changes. But we just 
take a good look at it.
    My impression, Mr. Chairman, is that five years or four 
years or three years, even one year from this day there is no 
one in this committee that will remember we did this other than 
perhaps you as the Chairman. And so five years out I think 
maybe this thing could take a review. We would then assess 
whether it has really worked or not.
    So, Mr. Chairman, it just seems to me to make sense why not 
subject it to a review five years out. I just wanted to know, I 
would yield to you, what you think about that idea.
    Chairman Gordon. Thank you. I hope our kids will remember 
this, and I hope they remember it gratefully and fondly.
    Let me respond by saying the current bill already states 
that after 54 months, not 60, but after 54 months the 
President's Committee on Science and Technology will evaluate 
ARPA-E and include a recommendation on whether it should be 
continued or terminated. Congress then can act on those 
recommendations, on that recommendation.
    Mr. Akin. So you are assuming it is going to be continued 
unless it is terminated.
    Chairman Gordon. No, no, no. We are saying that, well----
    Mr. Akin. If we didn't take any action on their 
recommendation, then it would continue. Correct?
    Chairman Gordon. Yes. It leaves, again, it is stated 
clearly after 54 months the President's Committee on Science 
and Technology will evaluate ARPA-E and include a 
recommendation on whether it should be continued or terminated. 
Congress can then act on the recommendation.
    Mr. Akin. But my amendment would have been the converse. We 
would stop it unless we thought it was good. Now, I assume that 
you would really like that idea more than this other approach. 
Is that correct, Mr. Chairman?
    Chairman Gordon. I think the appropriate approach is, 
again, after 54 months, having a thorough review by a qualified 
operation.
    Mr. Akin. Mr. Chairman, if I could interrupt. Am I reading 
between the lines that you probably wouldn't support my 
amendment?
    Chairman Gordon. You are very insightful.
    Mr. Akin. And being a person of some statistical savvy and 
seeing how the previous votes have gone, would it be alright if 
I don't ask for a roll call vote?
    Chairman Gordon. I would add to those accolades courteous, 
too.
    Mr. Akin. Then, Mr. Chairman, I would, unless there is 
further discussion, proceed to a voice vote and move on with 
the day.
    Chairman Gordon. All in favor of the----
    Mr. Rohrabacher. Mr. Chairman.
    Chairman Gordon. Mr. Rohrabacher is recognized.
    Mr. Rohrabacher. I just want to make sure I am on the 
record in supporting Mr. Akin's amendment, because even though 
I am very supportive of this concept, ARPA-E, I think that it 
is incumbent upon us to say that we will have to reaffirm that 
this program is working after a given time period. 60 months 
being a good time period, suggests five years, that we should 
have to make a positive act to reaffirm that this deserves the 
taxpayers' money and is an effective restructuring that is 
taking place.
    So I would think Mr. Akin's suggestion is a very, very 
positive one, and if we really believe in what we are doing, 
this is exactly the type of measure that we should have in all 
of the changes that we make, that we have to reaffirm that they 
have been positive changes or that they go out of existence.
    Thank you very much.
    Chairman Gordon. If the gentleman would yield very quickly, 
this really, we are trying to accomplish the same thing in that 
there should be a review. I think we are looking at it in a 
real political sense. Right now as you very well know we could 
have a majority of the Congress that thinks this is a good 
program, but if one person in the Senate decides to put a hold, 
and we have to make an affirmative vote, that vote may never 
come up. Even if it is not with a hold, you know, less than a 
majority can stop something from coming up there.
    So it is just, again, we are trying to accomplish the same 
thing in that clearly if it is not a good bill and a good 
program, it should stop, just like the managers have the 
authority if there is a specific research program that is going 
on, to terminate it. But I think the political reality is that 
a majority of the Congress can support this program yet the 
will of that majority might not be heard.
    So if there is no further discussion, all in favor of the 
gentleman's amendment say aye. Opposed nay. The amendment 
fails.
    The twelfth amendment on the roster is offered by the 
gentleman from Florida, Mr. Diaz-Balart. Are you ready to 
proceed with your amendment?
    Mr. McCaul. I am Mr. Chairman, and thank you for extending 
the courtesy of allowing me to speak for the gentleman from 
Florida.
    The amendment simply----
    Chairman Gordon. The Clerk will report the amendment.
    The Clerk. Amendment to H.R. 364 offered by Mr. McCaul for 
Mr. Diaz-Balart.
    Chairman Gordon. I ask unanimous consent to dispense with 
the reading. Without objection so ordered. The gentleman is 
recognized for five minutes to explain his amendment.
    Mr. McCaul. Thank you, Mr. Chairman. This amendment simply 
sunsets ARPA-E after five years if importation of foreign 
energy sources is not reduced by at least five percent. A 
reduction of five percent is a modest and very achievable goal. 
If the goal is not reached, or, I am sorry, if the goal is 
reached, then ARPA-E would be sunseted after 10 years if 
importation of foreign energy sources is not reduced by at 
least 20 percent.
    Mr. Chairman, this amendment just reinstates the goals of 
the original bill before that language was removed at the 
Subcommittee markup two weeks ago. This reduction would be 
certified by the Under Secretary of Energy and Science in 
coordination with the Energy Information Administration.
    I am concerned that we are creating a brand new, billion 
dollar agency without any form of accountability. This 
amendment simply gives this new agency clear and measurable 
goals. It establishes benchmarks that are consistent with one 
of the main goals of the program; to reduce America's 
dependence on foreign sources of energy. It holds the program 
accountable for tangible results and protects the taxpayers 
from unnecessary and wasteful spending.
    And with that I yield back.
    Chairman Gordon. Is there further discussion on the 
amendment?
    If not, all of those in favor of the amendment say aye. All 
opposed, no. The no's have it.
    Mr. McCaul. Mr. Chairman, I ask for a recorded vote.
    Chairman Gordon. The Clerk will call the roll.
    The Clerk. Chairman Gordon.
    Chairman Gordon. No.
    The Clerk. Chairman Gordon votes no. Mr. Costello.
    Mr. Costello. No.
    The Clerk. Mr. Costello votes no. Ms. Johnson.
    Ms. Johnson. No.
    The Clerk. Ms. Johnson votes no. Ms. Woolsey.
    Ms. Woolsey. No.
    The Clerk. Ms. Woolsey votes no. Mr. Udall.
    [No response]
    The Clerk. Mr. Wu.
    Mr. Wu. No.
    The Clerk. Mr. Wu votes no. Mr. Baird.
    Mr. Baird. No.
    The Clerk. Mr. Baird votes no. Mr. Miller.
    Mr. Miller. No.
    The Clerk. Mr. Miller votes no. Mr. Lipinski.
    Mr. Lipinski. No.
    The Clerk. Mr. Lipinski votes no. Mr. Lampson.
    Mr. Lampson. No.
    The Clerk. Mr. Lampson votes no. Ms. Giffords.
    [No response]
    The Clerk. Mr. McNerney.
    Mr. McNerney. No.
    The Clerk. Mr. McNerney votes no. Mr. Kanjorski.
    [No response]
    The Clerk. Ms. Hooley.
    Ms. Hooley. No.
    The Clerk. Ms. Hooley votes no. Mr. Rothman.
    Mr. Rothman. No.
    The Clerk. Mr. Rothman votes no. Mr. Honda.
    [No response]
    The Clerk. Mr. Matheson.
    Mr. Matheson. No.
    The Clerk. Mr. Matheson votes no. Mr. Ross.
    Mr. Ross. No.
    The Clerk. Mr. Ross votes no. Mr. Chandler.
    Mr. Chandler. No.
    The Clerk. Mr. Chandler votes no. Mr. Carnahan.
    Mr. Carnahan. No.
    The Clerk. Mr. Carnahan votes no. Mr. Melancon.
    Mr. Melancon. No.
    The Clerk. Mr. Melancon votes no. Mr. Hill.
    Mr. Hill. Yes.
    The Clerk. Mr. Hill votes aye. Mr. Mitchell.
    Mr. Mitchell. No.
    The Clerk. Mr. Mitchell votes no. Mr. Wilson.
    Mr. Wilson. No.
    The Clerk. Mr. Wilson votes no. Mr. Hall.
    Mr. Hall. Aye.
    The Clerk. Mr. Hall votes aye. Mr. Sensenbrenner.
    [No response]
    The Clerk. Mr. Lamar Smith.
    [No response]
    The Clerk. Mr. Rohrabacher.
    Mr. Rohrabacher. Yes.
    The Clerk. Mr. Rohrabacher votes aye. Mr. Bartlett.
    Mr. Bartlett. No.
    The Clerk. Mr. Bartlett votes no. Mr. Ehlers.
    Mr. Ehlers. No.
    The Clerk. Mr. Ehlers votes no. Mr. Lucas.
    Mr. Lucas. Aye.
    The Clerk. Mr. Lucas votes aye. Mrs. Biggert.
    [No response]
    The Clerk. Mr. Akin.
    Mr. Akin. Yes.
    The Clerk. Mr. Akin votes aye. Mr. Bonner.
    Mr. Bonner. Aye.
    The Clerk. Mr. Bonner votes aye. Mr. Feeney.
    Mr. Feeney. Aye.
    The Clerk. Mr. Feeney votes aye. Mr. Neugebauer.
    [No response]
    The Clerk. Mr. Inglis.
    Mr. Inglis. No.
    The Clerk. Mr. Inglis votes no. Mr. Reichert.
    Mr. Reichert. Aye.
    The Clerk. Mr. Reichert votes aye. Mr. McCaul.
    Mr. McCaul. Aye.
    The Clerk. Mr. McCaul votes aye. Mr. Diaz-Balart.
    Mr. Diaz-Balart. Aye.
    The Clerk. Mr. Diaz-Balart votes aye. Mr. Gingrey.
    Mr. Gingrey. Aye.
    The Clerk. Mr. Gingrey votes aye. Mr. Bilbray.
    [No response]
    The Clerk. Mr. Adrian Smith.
    Mr. Smith of Nebraska. Aye.
    The Clerk. Mr. Adrian Smith votes aye.
    Chairman Gordon. How is the gentlelady from Arizona, Ms. 
Giffords recorded?
    The Clerk. Ms. Giffords is not recorded.
    Ms. Giffords. No.
    The Clerk. Ms. Giffords votes no.
    Chairman Gordon. And the Clerk will report the vote.
    The Clerk. Mr. Chairman, 12 Members vote aye, 23 vote no.

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Gordon. The amendment fails.
    The thirteenth amendment on the roster is offered by the 
gentleman from Georgia, Mr. Gingrey.
    Mr. Gingrey. Mr. Chairman, thank you. I have an amendment 
at the desk.
    Chairman Gordon. The Clerk will report the amendment.
    The Clerk. Amendment to H.R. 364 offered by Mr. Gingrey of 
Georgia.
    Chairman Gordon. I ask unanimous consent to dispense with 
the reading. Without objection so ordered. The gentleman is 
recognized for five minutes.
    Mr. Gingrey. Mr. Chairman, thank you, and I won't take five 
minutes.
    This is a friendly amendment. I hope the Chairman and the 
Majority Members, as well as the Minority will like this 
amendment. It is a little misleading. It says it inserts a 
savings clause. Typically when you talk about savings, you are 
talking about cutting something. In this instance, of course, 
Mr. Chairman, it basically says that the authorities granted by 
this Act are in addition to the existing authorities granted to 
the Secretary of Energy and not intended to supersede or modify 
any existing authorities.
    In other words, I want to make sure that the program is a 
good program within the Department of Energy, the Office of 
Science. We all agree, I think, that Secretary Bodman is doing 
an outstanding job. We don't want to cut into the muscle of 
programs that are already working well and make sure that the 
language is clear that this is an additional program and not to 
take away from existing programs.
    Chairman Gordon. Mr. Gingrey, I think this is lucky 13, and 
it is appropriate that we conclude our amendments today with 
what I hope will be a unanimous vote for your amendment.
    And let me point out that I know that the Minority was not 
successful on a variety of amendments today, but they were also 
successful on some earlier. There were lots of discussions, 
lots of the suggestions were put into this bill, so do not 
think this is not, I mean, this bill has lots of mothers and 
fathers.
    And so with that I will call a vote.
    Mr. Rohrabacher. Mr. Chairman.
    Chairman Gordon. Yes, Mr. Rohrabacher.
    Mr. Rohrabacher. I hate to be the skunk at the lawn party 
here, but----
    Chairman Gordon. Well, you have before so go ahead.
    Mr. Rohrabacher.--it isn't unanimous. This is exactly the 
wrong way to go. This is exactly the wrong way to go. If we are 
saying that the current structure does not work, we should not 
be saying that the current structure will not be touched, and 
this is just an addition. So we are just adding more spending 
onto something that has failed. If it has failed, we need 
something else, we need restructuring. Let us take it from 
where it has failed, and again, I will have to say that I agree 
with the concept of restructuring, creating ARPA-E, because I 
don't believe the current system is working, and it is overly 
bureaucratic. It is overtly an old boy network spread 
throughout the scientific community on energy research. We need 
to break through that and to have some real reform here. Just 
suggesting that we are not going to touch the system----
    Mr. Gingrey. If the gentleman would yield.
    Mr. Rohrabacher.--this is counter to what we are trying to 
do here. So I oppose this.
    Mr. Gingrey. If the gentleman would yield to me, Mr. 
Rohrabacher, and I thank the gentleman for yielding. And let me 
just say that, you know, the final vote here in Committee has 
not been taken on this bill, and I at the outset suggested that 
maybe this program was not needed. And I still feel that way, 
and that will become obvious when the final vote is taken, 
although I have great respect, great respect for our Chairman 
and most of the time I am going to be supportive of much of his 
legislation as I have been so far in the 110th.
    But what this amendment basically says is if this bill does 
pass, which I think those of us on this side of the aisle can 
count, it very likely will pass, but in that event I certainly 
don't want to have this funding to cut into the meat of the 
overall Department of Energy budget. That is the reason.
    Mr. Rohrabacher. Well, that is clearly your intent, and 
that is clearly the wrong direction to go, and I am sorry. If 
you have got a reason to create restructuring within Department 
of Energy, we should be restructuring it by defunding those 
things that aren't working well and not just adding more 
spending onto programs that have failed.
    So I would----
    Chairman Gordon. Would the gentleman yield?
    Mr. Rohrabacher.--I just want to be on the record.
    Chairman Gordon. If the gentleman from California would 
yield, let me suggest that you don't smell quite as bad as you 
point out, in that we are not doing our job. I think there are 
probably some things at the Department of Energy that aren't as 
good as they should be.
    Mr. Rohrabacher. Right.
    Chairman Gordon. We are not doing our job here in oversight 
if we don't look into that, and I think that as this committee, 
I don't want to acquiesce that. We should look at it. If there 
are some things that aren't being good, it is our job to point 
it out and do something about it. And I hope that we will do 
that.
    Mr. Gingrey. Thank you.
    Chairman Gordon. And so all in favor say aye. Opposed. The 
ayes have it.
    Are there other amendments? If not then the vote is on the 
bill, H.R. 364 as amended. All in favor will say aye. All 
opposed no. In the opinion of the Chair the ayes have it.
    Mr. Hall. Mr. Chairman. I would ask for a recorded vote.
    Chairman Gordon. The gentleman from Texas asks for a 
recorded vote.
    Chairman Gordon. The Clerk will read the vote, read the 
roll.
    The Clerk. Chairman Gordon.
    Chairman Gordon. Aye.
    The Clerk. Chairman Gordon votes aye. Mr. Costello.
    Mr. Costello. Aye.
    The Clerk. Mr. Costello votes aye. Ms. Johnson.
    Ms. Johnson. Aye.
    The Clerk. Ms. Johnson votes aye. Ms. Woolsey.
    Ms. Woolsey. Aye.
    The Clerk. Ms. Woolsey votes ayes. Mr. Udall.
    [No response]
    The Clerk. Mr. Wu.
    Mr. Wu. Aye.
    The Clerk. Mr. Wu votes aye. Mr. Baird.
    Mr. Baird. Aye.
    The Clerk. Mr. Baird votes aye. Mr. Miller.
    Mr. Miller. Aye.
    The Clerk. Mr. Miller votes aye. Mr. Lipinski.
    Mr. Lipinski. Aye.
    The Clerk. Mr. Lipinski votes aye. Mr. Lampson.
    Mr. Lampson. Aye.
    The Clerk. Mr. Lampson votes aye. Ms. Giffords.
    Ms. Giffords. Aye.
    The Clerk. Ms. Giffords votes aye. Mr. McNerney.
    Mr. McNerney. Aye.
    The Clerk. Mr. McNerney votes aye. Mr. Kanjorski.
    [No response]
    The Clerk. Ms. Hooley.
    Ms. Hooley. Aye.
    The Clerk. Ms. Hooley votes aye. Mr. Rothman.
    Mr. Rothman. Aye.
    The Clerk. Mr. Rothman votes aye. Mr. Honda.
    [No response]
    The Clerk. Mr. Matheson.
    Mr. Matheson. Aye.
    The Clerk. Mr. Matheson votes aye. Mr. Ross.
    Mr. Ross. Aye.
    The Clerk. Mr. Ross votes aye. Mr. Chandler.
    Mr. Chandler. Aye.
    The Clerk. Mr. Chandler votes aye. Mr. Carnahan.
    Mr. Carnahan. Aye.
    The Clerk. Mr. Carnahan votes aye. Mr. Melancon.
    Mr. Melancon. Aye.
    The Clerk. Mr. Melancon votes aye. Mr. Hill.
    Mr. Hill. Aye.
    The Clerk. Mr. Hill votes aye. Mr. Mitchell.
    Mr. Mitchell. Aye.
    The Clerk. Mr. Mitchell votes aye. Mr. Wilson.
    Mr. Wilson. Aye.
    The Clerk. Mr. Wilson votes aye. Mr. Hall.
    Mr. Hall. No.
    The Clerk. Mr. Hall votes no. Mr. Sensenbrenner.
    [No response]
    The Clerk. Mr. Lamar Smith.
    [No response]
    The Clerk. Mr. Rohrabacher.
    Mr. Rohrabacher. Aye.
    The Clerk. Mr. Rohrabacher votes aye. Mr. Bartlett.
    Mr. Bartlett. Aye.
    The Clerk. Mr. Bartlett votes aye. Mr. Ehlers.
    Mr. Ehlers. Aye.
    The Clerk. Mr. Ehlers votes aye. Mr. Lucas.
    Mr. Lucas. No.
    The Clerk. Mr. Lucas votes no. Mrs. Biggert.
    Ms. Biggert. No.
    The Clerk. Mrs. Biggert votes no. Mr. Akin.
    Mr. Akin. No.
    The Clerk. Mr. Akin votes no. Mr. Bonner.
    Mr. Bonner. No.
    The Clerk. Mr. Bonner votes no. Mr. Feeney.
    Mr. Feeney. No.
    The Clerk. Mr. Feeney votes no. Mr. Neugebauer.
    Mr. Neugebauer. No.
    The Clerk. Mr. Neugebauer votes no. Mr. Inglis.
    Mr. Inglis. Aye.
    The Clerk. Mr. Inglis votes aye. Mr. Reichert.
    Mr. Reichert. No.
    The Clerk. Mr. Reichert votes no. Mr. McCaul.
    Mr. McCaul. No.
    The Clerk. Mr. McCaul votes no. Mr. Diaz-Balart.
    Mr. Diaz-Balart. No.
    The Clerk. Mr. Diaz-Balart votes no. Mr. Gingrey.
    Mr. Gingrey. No.
    The Clerk. Mr. Gingrey votes no. Mr. Bilbray.
    [No response]
    The Clerk. Mr. Adrian Smith.
    Mr. Smith of Nebraska. No.
    The Clerk. Mr. Adrian Smith votes no.
    Chairman Gordon. Are there others Members that were not 
recorded?
    If not, the Clerk will report the vote.
    The Clerk. Mr. Chairman, 25 Members vote aye, and 12 
Members vote no.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Gordon. The bill passes. Mr. Hall is recognized.
    Mr. Hall. Mr. Chairman, I want to thank you for the way you 
have conducted this. As the gentleman, Dr. Gingrey said, we can 
count, and we can count each of these times, and actually about 
the only excitement we have had here today is when Ms. Deborah 
would call for the gentleman from Louisiana to vote.
    But we like the direction we are going. We don't like the 
fact that you have another agency, the money spending, but we 
thank you for your courtesy and your generosity in the way you 
handle the gavel.
    Yield back.
    Chairman Gordon. Thank you, Mr. Hall. I wish this could 
have been a unanimous vote, but it was a unanimous work in that 
both at the Subcommittee level, working together all through. I 
think that we have a better bill, and I am glad it is a 
bipartisan bill, and I want Dr. Ehlers and anyone else to know 
that we will continue our conversation to have the very best 
bill we can through going to the Floor and going through 
conference.
    I now recognize Mr. Lampson to offer a motion.
    Mr. Lampson. Mr. Chairman, I move that the Committee 
favorably report H.R. 364 as amended to the House with the 
recommendation that the bill do pass.
    Furthermore, I move that the staff be instructed to prepare 
the legislative report and make the necessary technical and 
conforming changes and that the Chairman take all necessary 
steps to bring the bill before the House for consideration.
    Chairman Gordon. The question is on the motion to report 
the bill favorably. Those in favor of the motion will signify 
by saying aye. Opposed no. The ayes have it, and the bill is 
favorably reported.
    Without objection the motion to reconsider is laid upon the 
table. I move that Members have two subsequent calendar days in 
which to submit supplemental, minority, or additional views on 
the measure.
    I move pursuant to Clause 1 of Rule 22 of the Rules of the 
House of Representatives that the Committee authorize the 
Chairman to offer such motions as may be necessary in the House 
to adopt and pass H.R. 364, To provide for the establishment of 
Advanced Research Projects Agency-Energy, as amended.
    Without objection, so ordered. And once again, I want to 
thank the Members for your patience. I know there are lots of 
markups going on. We have three more bills which I hope will be 
unanimous, and we will now proceed to those.
    Many thanks to everyone, and I want to conclude this 
markup.
    [Whereupon, at 1:00 p.m., the Committee was adjourned.]


                               Appendix:

                              ----------                              


 Subcommittee Markup Report, H.R. 364, as reported by the Subcommittee 
              on Energy and Environment, Amendment Roster



                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                 SUBCOMMITTEE ON ENERGY AND ENVIRONMENT
                    REPORT FROM SUBCOMMITTEE MARKUP
                              MAY 10, 2007

  H.R. 364, To provide for the establishment of the Advanced Research 
                         Projects Agency-Energy

I. Purpose

    The purpose of the bill is to establish within the Department of 
Energy, the Advanced Research Projects Agency-Energy (ARPA-E), and set 
up an Energy Independence Acceleration Fund to conduct activities under 
the Act.

II. Background and Need for Legislation

    H.R. 364 follows on the recommendation of the National Academies 
2005 report, Rising Above the Gathering Storm, also known as the 
``Augustine Report'' for its Chair, retired Lockheed Martin CEO Norman 
Augustine. This report called on the Federal Government to create a new 
energy research agency within Department of Energy patterned loosely on 
the successful Defense Advanced Research Projects Agency (DARPA) within 
the Department of Defense. According to the Gathering Storm report, 
ARPA-E should be structured to ``sponsor creative, out-of-the-box, 
transformational, generic energy research in those areas where industry 
itself cannot or will not undertake such sponsorships, where risks and 
potential payoffs are high, and where success could provide dramatic 
benefits for the Nation. ARPA-E would accelerate the process by which 
research is transformed to address economic, environmental, and 
security issues. It would be designed as a lean, effective, and agile--
but largely independent--organization that can start and stop targeted 
programs based on performance and ultimate relevance.''
    The primary motivations for establishing an ARPA-E are the need for 
the U.S. to obtain more energy from domestic sources, become more 
energy efficient, and become less reliant on energy sources and 
technologies that have an adverse effect on the environment. The push 
for new technologies is especially urgent given the geo-political 
forces that threaten global energy supplies and economic stability, the 
looming threat of global climate change, and probable regulation of 
carbon dioxide emissions. In addition to addressing the Nation's energy 
challenges, the Gathering Storm report also concluded that ARPA-E will 
contribute to U.S. competitiveness by playing an important role in 
``advancing research in engineering, the physical sciences, and 
mathematics; and in developing the next generation of researchers.'' 
While isolated elements in the national labs, industry, and academia 
have collaborated with varying degrees of success, there is currently 
no federal program charged with bringing these elements together and 
seeding a strong and cohesive domestic community of researchers and 
technology developers focused on pushing transformational energy 
solutions into the marketplace. ARPA-E is intended to play this 
critical role.
    To pursue truly transformational research ARPA-E will utilize an 
organizational structure that is fundamentally different from that of 
the traditional energy research enterprise. Critics of the Department 
of Energy's management of research programs contend that the stove-
piped and bureaucratic structure of DOE is not conducive to the quick 
development of cross-cutting energy solutions, or translating energy 
research results into commercial technologies. ARPA-E will instead have 
a relatively flat and nimble organization, similar to the small, 
flexible, non-hierarchical reporting structure at DARPA that fostered a 
successful culture of innovation. Because the director of ARPA-E 
reports directly to the Secretary of Energy, it is not beholden to any 
one particular technology area or research program within DOE. 
Furthermore, changes were made in Subcommittee to ensure that no other 
programs within DOE report to ARPA-E. These two factors ensure that 
ARPA-E has a unique independence within DOE, and does not add another 
``layer'' to the DOE bureaucracy, especially since bureaucratic 
impediments are the main thing it seeks to avoid.
    ARPA-E's unique function is best described as that of a ``marriage 
broker'' that can identify people and capabilities within industry, 
universities, and the national labs, and assemble hybrid research teams 
to quickly develop novel solutions to pressing energy problems. Key to 
this function is the Program Manager. As with DARPA, these individuals 
would ostensibly be very talented, knowledgeable, experienced in 
industry or academia, and passionate in pursuit of their mission. 
Because of the flexible hiring authority that is written into Section 2 
of the bill, talented Program Managers can be recruited from a variety 
of fields, hired for a term of approximately three years, and paid a 
salary commensurate with what they would make in the private sector. 
The initial start-up staff of ARPA-E will be crucial in making it both 
successful and distinct from the traditional federal R&D enterprise, 
and the Subcommittee added language to further specify their 
qualifications. To allow ARPA-E to pursue truly novel technology areas, 
projects will not undergo the traditional peer-review process which has 
been criticized as promoting incremental changes to existing systems. 
Instead, Program Managers and their superiors are given extraordinary 
autonomy and resources to quickly pursue unique technology pathways, 
and just as quickly change course or stop research if it does not look 
fruitful. This is different from the current DOE model which is 
criticized for requiring inordinate amounts of time to start up 
research projects, and then sustaining support for projects and people 
beyond a timeframe where meaningful results are likely.
    Language was added in subcommittee to further clarify that ARPA-E 
is expected to pursue a ``whatever it takes'' approach to moving a 
potentially transformational technologies from the labs to the 
marketplace. If adequately funded and directed the mission-driven ARPA-
E will leverage its resources and institutional capabilities to 
aggressively engage in basic research into fundamental concepts with 
possible technology applications, and later-stage technology 
prototyping and large-scale demonstrations.
    Despite the recent attention to energy challenges, R&D investment 
in energy remains far below the historically high levels of the 1970's. 
A recent GAO report commissioned by Chairman Gordon and Congressman 
Honda noted that ``DOE's total budget authority for energy R&D dropped 
by over 85 percent (in real terms) from 1978 to 2005, peaking in the 
late 1970's but falling sharply when oil prices returned to lower 
levels in the mid-1980's.'' (GAO-07-106) Witnesses at the April 26 
Subcommittee hearing all agreed that, for ARPA-E to be successful, the 
program must be funded at levels to match the magnitude and complexity 
of energy challenges, and the high costs of energy research and 
technology demonstration. According to venture capitalist John 
Denniston: ``. . .federal spending on renewable energy research amounts 
to little more than $1 billion per year. Frankly, this is inadequate 
relative to the scope of our problems, and the sheer size of the energy 
and transportation industries which amount to over $1.8 trillion 
annually. We are way off scale.'' It was suggested in the hearing that 
no other technology-based industry invests such a small proportion of 
revenues in research. By comparison, Mr. Denniston pointed out that the 
National Institute of Health receives $28 billion for research 
annually, and DARPA itself was initially budgeted for the equivalent of 
$3.5 billion, and remains at roughly the same level today.
    Investment in ARPA-E should be seen in the context of increasing 
overall energy R&D expenditures enough to truly address the challenge. 
Furthermore, it is not intended for ARPA-E to come from other research 
accounts within DOE. The Gathering Storm report calls for ARPA-E to be 
authorized at $300 million in the first year, and quickly escalate to 
$1 billion within five years. The Subcommittee changed the 
authorization levels to reflect concern on the part of the witnesses 
and other outside testimony that the previous authorizations levels 
were inadequate for the scale of the challenge. The authorizations now 
ramp up more quickly to $1 billion in the second year to allow ARPA-E 
to be fully operational quickly. Hearing witnesses and others have 
suggested that the only way a high-cost, risk-tolerant program like 
ARPA-E would survive is if it has dedicated stream of funding, and 
therefore would not be subject to annual political/financial pressures 
and resource fluctuations that stifle innovation.

III. Subcommittee Actions

    H.R. 364 was introduced by Chairman Gordon on January 10, 2007, and 
referred to the House Committee on Science and Technology, Subcommittee 
on Energy and Environment. This bill was first introduced as H.R. 4435 
in the 109th Congress. In the 109th Congress the House Committee on 
Science held a hearing on March 9, 2006 examining the concept of an 
ARPA-E (HOUSE REPT. 109-39). Several similar bills calling for an ARPA-
E were introduced in the 109th and 110th, in both the House and Senate 
(including S. 696 and S. 761, the Senate COMPETES Act).
    The Subcommittee on Energy and Environment held a hearing on April 
26, 2007 to hear testimony on H.R. 364 from the following witnesses:

        <bullet>  Mr. John Denniston--partner in the venture capital 
        firm of Kleiner Perkins Caufield and Byers, and energy 
        technology investor.

        <bullet>  Mr. William Bonvillian--Director of the Washington 
        Office of the Massachusetts Institute of Technology and former 
        Senate staff on legislation establishing HS-ARPA at the 
        Department of Homeland Security.

        <bullet>  Dr. Stephen Forrest--Vice President for Research at 
        the University of Michigan, which recently established the 
        Michigan Memorial Phoenix Energy Institute.

        <bullet>  Dr. Richard Van Atta--senior researcher at the 
        Science & Technology Policy Institute of the Institute for 
        Defense Analysis, and one of the leading experts on DARPA 
        history.

    The Subcommittee on Energy and Environment met to consider H.R. 364 
on May 10, 2007 and consider the following amendments to the bill:

        1.  On behalf of Mr. Lampson, Ms. Giffords, and Mr. Bartlett 
        which adds additional goals for greenhouse gas emissions, 
        efficiency, and economic competitiveness; clarifies reporting 
        structure, personnel responsibilities, activities, and 
        participants; specifies desired experience of some personnel 
        and limits terms to three years; specifies coordination and 
        non-duplication with DOE and other agencies; increases 
        authorization levels; sets guidelines and limits for funding 
        allocations for demonstration and commercial application, 
        federally funded R&D Centers, overhead expenses, and new 
        construction. The amendment was agreed to by voice vote.

        2.  On behalf of Ms. Biggert, Replaces text with directions to 
        DOE and NAS to study ARPA-E concept and make recommendations on 
        implementation. The amendment was defeated by voice vote.

    Ms. Giffords moved that the Subcommittee favorably report the bill 
H.R. 364, as amended, to the Full Committee. The motion was agreed to 
by voice vote.

IV. Summary of Major Provisions of the Bill

    H.R. 364 authorizes $6.3 billion for ARPA-E for the fiscal years 
2008-2013. The bill also outlines the organizational structure, hiring 
practices, goals, and activities of ARPA-E. The bill specifies that, to 
the extent practicable, ARPA-E will not duplicate the specific efforts 
of other research programs, will coordinate with those programs 
wherever possible, and seek opportunities to demonstrate technologies 
within the Federal Government. Specific guidelines are set for the 
proportion of funds that may be used for overhead expenses, late-stage 
demonstration and commercial applications, federally funded research 
and development centers, and new construction. After roughly five years 
of operations ARPA-E will be evaluated by the President's Committee on 
Science and Technology.

V. Section by Section Analysis of the Bill, as reported by the 
                    Subcommittee

Section 1.

    Findings--The U.S. can meet long-term energy challenges through 
sustained investment in energy research programs at DOE augmented by an 
innovative and aggressive new energy technology development effort 
based on the same operating principles that make DARPA successful.

Section 2.

    Advanced Research Projects Agency-Energy--Establishes the Advanced 
Research Projects Agency-Energy (ARPA-E) within the Department of 
Energy. Similar to the Department of Defense's Advanced Research 
Projects Agency (DARPA), this new organizational structure will support 
revolutionary and transformational energy research where risk and 
payoffs are high.
    The stated goal of ARPA-E is to develop technologies to reduce the 
dependence of the U.S. on foreign energy sources, improve energy 
efficiency of the U.S. economy, reduce the impact of the energy sector 
on the environment, and provide for the U.S. leadership in developing 
energy technologies. To achieve this ARPA-E will support targeted high-
risk, high pay-off research to accelerate the innovation cycle for both 
traditional and alternative energy sources and energy efficiency. ARPA-
E shall be headed by a Director, appointed by the Secretary, who will 
administer competitive grants, cooperative agreements, or contracts to 
universities, industry and consortia which may include federal labs.
    Organization of ARPA-E will be flat and nimble to avoid 
bureaucratic impediments that stifle innovation today. The Director 
shall designate program managers who will have flexibility in 
establishing R&D goals for the program, publicizing goals, issuing 
solicitations and selecting projects, monitoring their progress, and 
changing or eliminating projects as needed. Projects will be chosen 
based on factors such as novelty, scientific and technical merit, 
applicant's capabilities and other criteria as the Director determines. 
ARPA-E will have authority to hire specialized science and engineering 
personnel to be program managers. (This is similar to DARPA and HS-
ARPA.)
    In addition, the Director shall ensure that ARPA-E's activities do 
not duplicate and are coordinated with other federal research programs, 
and shall seek opportunities to demonstrate technologies through 
procurement in the Federal Government.

Section. 3.

    Energy Independence Acceleration Fund--Establishes the Energy 
Independence Acceleration Fund administered by the Director of ARPA-E. 
$6.3 billion is authorized for FY 2008 through 2013, to remain 
available until expended.

Section 4.

    Recoupment--The provision allows the Secretary complete flexibility 
in developing recoupment agreements, and the ability to waive it 
entirely if necessary for the commercial viability of a project. All 
recouped funds will be returned to the Energy Independence Acceleration 
Fund.

Section 5.

    Advisory Committee--The ARPA-E Advisory Committee may seek advice 
either from an existing DOE advisory committee or may establish a new 
advisory committee. If the Director of ARPA-E requires industry advice, 
a panel to advise on a specific technology area, or to hire an outside 
consultant, this provision provides the appropriate authorities.

Section 6.

    ARPA-E Evaluation--At the end of five and one-half years, the 
President's Committee on Science and Technology (PCAST) shall evaluate 
how well ARPA-E has performed in achieving its goals and mission. The 
Committee is required to recommend whether ARPA-E should be continued 
or terminated as well as lessons learned from its operation.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



PROCEEDINGS OF THE FULL COMMITTEE MARKUP ON H.RES. 487, RECOGNIZING THE 
 CONTRIBUTION OF REMODELING AND SIMULATION TECHNOLOGY TO THE SECURITY 
   AND PROSPERITY OF THE UNITED STATES, AND RECOGNIZING MODELING AND 
              SIMULATION AS A NATIONAL CRITICAL TECHNOLOGY

                              ----------                              


                         FRIDAY, JUNE 22, 2007

                  House of Representatives,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:50 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Bart Gordon 
[Chairman of the Committee] presiding.
    Chairman Gordon. The Committee will come to order. Pursuant 
to notice, the Committee on Science and Technology meets to 
consider the following measures: H.R. 2698, the Federal 
Aviation Research and Development Reauthorization Act of 2007; 
and H.Res. 487, Recognizing the contribution of modeling and 
simulation technology to the security and prosperity of the 
United States and recognizing modeling and simulation as a 
national critical technology, and let me thank the Members for 
coming here this morning. We have lots going on. There will be 
a vote in about an hour but I think we can take care of our 
business with that period. So again, thank you.
    We will now proceed with the markup. Today the Committee is 
meeting to mark up two good bipartisan pieces of legislation.
    The first bill we will consider today is H.R. 2698, the 
Federal Aviation Research and Development Reauthorization Act 
of 2007, and H.R. 2698 was introduced by Chairman Udall. The 
Space and Aeronautics Subcommittee met last Thursday to 
consider H.R. 2698 and favorably reported the bill by voice 
vote without amendment. I want to thank and congratulate the 
Members of the Subcommittee for their hard work and bipartisan 
cooperation on this bill. There are two central features of 
this legislation before us. The first is a set of provisions 
intended to strengthen both the national authority and the 
accountability of the Next Generation Air Transportation System 
Joint Planning and Development Office, JPDO, because its 
success or failure is going to determine in large measure 
whether or not the Nation will have a safe and efficient air 
traffic management system in the future, and let me just say, 
this is a big deal, bigger than we are making it today. It is 
imperative that for both the aviation industry as well as our 
nation at large that we have this Next Generation air traffic 
control system and by and large it is going to be developed by 
virtue of the R&D we are going to provide here in the FAA bill 
as well as in the NASA bill, so we are going to play a major 
role, and this is important to the country.
    The second feature is a four-year authorization of FAA's 
research and development activities including the establishment 
of important new research initiatives on the impact of space 
weather on aviation, the impact of aviation on the climate 
research, runway materials and engineering materials, 
restraining systems, among others. This FAA authorization 
expires this year. That is why it is important for us to move 
forward, and the reason it is important is that we have the 
option of going to the conference with Transportation either 
without a bill or with a bill, and I think by us putting a mark 
in the sand today, it is going to make us more relevant in 
being able to do that. Our friend and colleague, Mr. Costello, 
isn't here but I was hoping he would come so we could give him 
a lesson on legislating so that he could get it out of his 
committee also. I am sure he will finally get here at which 
time we will give him some pointers. But again, this is 
important. This bill will expire and we have the option of 
either participating or not participating, and I think we are 
doing the right thing, and I thank you for that. So I urge my 
colleagues to support this very good bipartisan bill.
    Today we will also take up H.Res. 487, Recognizing the 
contribution of modeling and simulation technology to the 
security and prosperity of the United States and recognizing 
modeling and simulation as a national critical technology, as 
well as the thousands of Americans who work to develop this 
project. This is an under-appreciated but fundamentally 
important area of research to our country and I urge my 
colleagues to support this measure.
    [The prepared statement of Chairman Gordon follows:]

               Prepared Statement of Chairman Bart Gordon

    Good morning. Today the Committee is meeting to mark up two good 
pieces of legislation that have bipartisan support.
    The first bill that we will consider today is H.R. 2698, the 
Federal Aviation Research and Development Reauthorization Act of 2007.
    H.R. 2698 was introduced by Chairman Udall, and I was pleased to be 
an original co-sponsor of the legislation.
    The Space and Aeronautics Subcommittee met last Thursday to 
consider H.R. 2698 and favorably reported the bill by voice vote 
without amendment.
    I want to thank and congratulate Members of the Subcommittee for 
their hard work and bipartisan cooperation on this bill.
    There are two central features to the legislation before us today.
    The first is a set of provisions intended to strengthen both the 
authority and the accountability of the Next Generation Air 
Transportation System's Joint Planning and Development Office-JPDO--
because its success or failure is going to determine in large measure 
whether or not the Nation will have a safe and efficient air traffic 
management system in the future.
    The second feature is a four-year authorization of FAA's research 
and development activities, including the establishment of important 
new research initiatives on the impact of space weather on aviation, 
the impact of aviation on the climate, research on runway materials and 
engineered materials restraining systems, among others.
    I believe each of those new initiatives will better position the 
FAA to respond to emerging research challenges.
    As I have noted, the focus of today's markup is FAA's R&D program 
and the Next Generation Air Transportation System initiative.
    However, it is clear that FAA cannot ensure the successful 
development of the Nation's future air transportation system on its 
own.
    As the establishment of the interagency JPDO by Congress four years 
ago indicates, it is going to take the combined efforts of multiple 
federal agencies, working in partnership with industry and the academic 
community, to make the NextGen initiative a success.
    NASA, in particular, has an important R&D role to play, and we will 
need to ensure that NASA is given the necessary resources to play that 
role, and--in turn--that NASA steps up to its responsibilities for 
conducting needed R&D.
    That is something that the Committee will devote more attention to 
as we start work on reauthorizing NASA later in this Congress.
    For now, however, our focus is on the FAA, and I think that H.R. 
2698 is a good bill that will help ensure that America's aviation 
system remains safe and preeminent in the world.
    I urge my colleagues to support it.
    Today, we will also take up H.Res. 487, Recognizing the 
contribution of modeling and simulation technology to the security and 
prosperity of the United States, and recognizing modeling and 
simulation as a National Critical Technology.

    Chairman Gordon. I now recognize Mr. Hall to present his 
opening statement.
    Mr. Hall. I thank you, Chairman Gordon, for the chance to 
make some opening remarks about today's markup on H.R. 2698, 
the Federal Aviation Research and Development Reauthorization 
Act of 2007, and H.Res. 487, recognizing the contribution of 
modeling and simulation technology to the security and the 
prosperity of our country. These are two very important pieces 
of legislation, as you pointed out, that have been worked out 
in a bipartisan fashion. I believe the FAA legislation will do 
a great deal to improve research and development in aviation 
and I am proud that this committee is advancing this 
legislation.
    I am also very supportive of the resolution co-sponsored by 
my good friend, Mr. Feeney, which praises the good work of 
modeling and simulation technology.
    Mr. Chairman, as always, I look forward to discussing these 
bills further we move through the markup today, and I yield 
back the balance of my time.
    Chairman Gordon. Without objection, Members may now place 
statements in the record at this point.
    We will now consider H.Res. 487, Recognizing the 
contribution of the modeling and simulating technology to the 
security and prosperity of the United States, and recognizing 
modeling and simulation as a national critical technology. Just 
for your information, this is a bill that Mr. Forbes, the 
parliamentarian, sent it to our committee. We feel that it is a 
good bill but we thought it would be best to have someone on 
the Committee that would bring it forth, so Mr. Feeney has 
agreed to do that, so we are glad you could help Mr. Forbes. I 
now yield five minutes to the gentleman from Florida to explain 
the bill.
    Mr. Feeney. Thank you, Mr. Chairman. Does the resolution 
need to be read formally before I explain it or should I weigh 
in?
    Chairman Gordon. I think you can cut loose.
    Mr. Feeney. Okay. Great. Well, this morning's markup of 
H.Res. 487 recognizes that modeling and simulation technology 
is a national critical technology essential for American's 
long-term national security and economic prosperity. 
Congressman Randy Forbes, as Chairman Gordon mentioned, a 
former Member of this committee and current Chairman of the 
Modeling and Simulation Caucus, introduced this legislation. I, 
as a member of that caucus and representing one of the larger 
modeling and simulation clusters in the United States, am 
honored to urge this committee to pass this legislation.
    Your child's or grandchild's video game represents one 
product of the modeling and simulation industry. Aircraft 
training simulators provide another well-known example. I don't 
know if Ranking Member Ralph Hall used the link trainer as he 
prepared for World War II service but that rather rudimentary 
flight simulator helped train a generation of military pilots 
and laid the foundation for this important technology. 
Simulation uses combinations of sound, sight and motion to make 
you feel that you are experiencing an actual event. Modeling 
involves the complex computer models used to create these 
artificial environments. For training purposes, modeling and 
simulation places people in an artificial but seemingly real 
environment and puts them through their paces. But unlike live 
training, if you make a mistake, you get to live another day 
and learn valuable lessons. An inestimable number of lives have 
been saved that otherwise might have been lost in training 
accidents while improving the overall quality of training. In 
the latter part of the 20th century, the U.S. military 
revolutionalized war fighting by emphasizing high-fidelity 
training that simulates the stress and decision-making of 
actual combat. Servicemen and women gain experience and 
judgment previously only earned on the actual battlefield. 
Substantial amounts of that simulation and training come from 
my Congressional district where representatives of all service 
branches collaborate. By the way, it is the oldest joint 
military facility in the country with the University of Central 
Florida and private contractors of all sizes producing these 
training systems.
    Other clusters of modeling and simulation excellence exist 
throughout the United States but such training expands far 
beyond military uses. Medical simulation is an especially 
promising field. By creating artificial but seemingly real 
environments, doctors and nurses can hone their skills in using 
sophisticated and invasive medical technology or in treating 
severely injured patients.
    Beyond training, modeling and simulation replicates complex 
environments, allowing planners and designers to ask various 
``what if'' questions. Transportation planners simulate highway 
networks to determine how to best alleviate congestion. The 
Illinois State Toll Highway Authority uses simulation to 
determine how to improve highway signage and reduce crashes 
near toll plazas. Emergency management experts simulate large-
scale natural or manmade disasters to better improve 
coordinated emergency responses. Hurricane Katrina highlighted 
the need to better utilize modeling and simulation in order to 
protect life and property. Because of these growing numbers of 
uses, the modeling and simulation industry is a rapidly growing 
industry that demands the best students with extensive math and 
science backgrounds including psychology, medicine, computer 
science, mathematics, engineering and physics.
    In these brief remarks, I have used examples of modeling 
and simulation technology to illustrate its value in our 
complex and dynamic world. I urge all my colleagues to support 
this resolution that recognizes the national critical 
technology and urges government action in the areas of industry 
classification codes and intellectual property to strengthen 
America's lead in this technology.
    I want to thank the Chairman and the Ranking Member and 
would yield back the balance of my time.
    [The prepared statement of Mr. Feeney follows:]

            Prepared Statement of Representative Tom Feeney

    This morning's markup of H.Res. 487 recognizes that modeling and 
simulation technology is a National Critical Technology essential for 
America's long-term national security and economic prosperity.
    Congressman Randy Forbes--a former Member of this committee and 
current Chairman of the Modeling and Simulation Caucus--introduced this 
legislation. I--as a member of that caucus and representing one of the 
larger modeling and simulation clusters in the United States--am 
honored to urge that this committee pass this legislation.
    Your child's or grandchild's video game represents one product of 
the modeling and simulation industry. Aircraft training simulators 
provide another well-known example.
    I don't know if Ranking Member Ralph Hall used the Link Trainer as 
he prepared for World War II service, but that rather rudimentary 
flight simulator helped train a generation of military pilots and laid 
the foundation for this technology.
    Simulation uses combinations of sound, sight, and motion to make 
you feel that you are experiencing an actual event. Modeling involves 
the complex computer models used to create these artificial 
environments.
    For training purposes, modeling and simulation places people in an 
artificial--but seemingly real--environment and puts them through their 
paces. But unlike ``live'' training, if you make a mistake, you get to 
live another day and learn valuable lessons. An inestimable number of 
lives have been saved that otherwise might have been lost in training 
accidents while improving the overall quality of training.
    In the later part of the 20th Century, the U.S. military 
revolutionized war-fighting by emphasizing high-fidelity training that 
simulates the stress and decision-making of actual combat. Servicemen 
and women gain experience and judgment previously only earned on the 
actual battlefield.
    Substantial amounts of that simulation and training came from my 
Congressional District where representatives of all service branches 
collaborate with the University of Central Florida and private 
contractors of all sizes to produce these training systems. Other 
clusters of modeling and simulation excellence exist throughout the 
United States.
    But such training expands far beyond military uses. Medical 
simulation is an especially promising field. By creating artificial but 
seemingly real environments, doctors and nurses can hone their skills 
in using sophisticated and invasive medical technology or in treating 
severely injured patients.
    Beyond training, modeling and simulation replicates complex 
environments--allowing planners and designers to ask various ``what 
if'' questions. Transportation planners simulate highway networks to 
determine how to best alleviate congestion. The Illinois State Toll 
Highway Authority uses simulation to determine how to improve highway 
signage and reduce crashes near toll plazas.
    Emergency management experts simulate large scale natural or man-
made disasters to better improve coordinated emergency responses. 
Hurricane Katrina highlighted the need to better utilize modeling and 
simulation in order to protect life and property.
    Because of these growing number of uses, the modeling and 
simulation industry is rapidly growing and demands the best of students 
with extensive math and science backgrounds including psychology, 
medicine, computer science, mathematics, engineering and physics.
    In these brief remarks, I've used examples of modeling and 
simulation technology to illustrate its value in our complex and 
dynamic world. So I urge you to support this resolution that recognizes 
this National Critical Technology and urges governmental action in the 
areas of industry classification codes and intellectual property to 
strengthen America's lead in this technology.

    Chairman Gordon. Thank you, Mr. Feeney, for that good 
explanation.
    Mr. Hall, did you have anything you would like to add?
    Mr. Hall. I think it is very good legislation and I 
appreciate the gentleman's time and your cooperation. I yield 
back.
    Chairman Gordon. Does anyone else wish to be recognized?
    Mr. McNerney.
    Mr. McNerney. Mr. Chairman, I would like to strike the last 
word.
    Chairman Gordon. The gentleman is recognized for five 
minutes.
    Mr. McNerney. Mr. Chairman, I spent most of my professional 
career in modeling and simulation and I can tell you that it is 
a great activity. It is exciting and it allows scientists to 
reach in and see what is going on in very remote processes. It 
allows developers to understand what is going on with their 
products. It allows industry a lot of leeway in terms of 
expenditures. It is a great tool and the Americans are in the 
lead in this tool. We need to acknowledge that lead. We need to 
nurture and stimulate, shall I say, growth of that industry in 
our country. It also allows our military to understand the 
impacts of their weapons and it is a terrific tool that will 
allow us to maintain our lead in the world in many, many 
fields. So I encourage my colleagues to support this 
legislation.
    I yield back the balance of my time.
    Chairman Gordon. Thank you, Mr. McNerney.
    Any other comments? If not, let me just--in conclusion, let 
me say I think this really is a good example of what I hope 
this committee will be known for, and that is a committee of 
good ideas and consensus. This bill didn't originate from any 
Member of this committee and so let the word go out if we have 
colleagues, Democrats, Republicans that have good ideas and the 
jurisdiction is here that we want them to bring them forth and 
they will be treated fairly.
    So now I ask unanimous consent that the resolution is 
considered as read and open at any point and that the Members 
proceed with amendments in the order of the roster. Without 
objection, so ordered.
    I assume there are no amendments. Without any amendments 
then, the vote is on H. Resolution 487. All those in favor say 
aye. Opposed, no. The ayes have it. I recognize Mr. Hall to 
offer a motion.
    Mr. Hall. Mr. Chairman, I move that the Committee favorably 
report House Resolution 487 to the House with the 
recommendation that the bill do pass. Furthermore, I move that 
the staff be instructed to make necessary technical and 
conforming changes and that the Chairman take all necessary 
steps to bring the resolution before the House for 
consideration, and I yield back my time.
    Chairman Gordon. The question is on the motion to report 
the resolution favorably. Those in favor of the motion will 
signify by saying aye. Opposed, no. The ayes have it and the 
resolution is favorably reported.
    Without objection the motion to reconsider is laid upon the 
table. I move pursuant to clause 1 of Rule 22 of the Rules of 
the House of Representatives that the Committee authorize the 
Chairman to offer such motions as may be necessary in the House 
to adopt and pass H.Res. 487, Recognizing the contribution of 
modeling and simulation technology to the security and 
prosperity of the United States, and recognizing modeling and 
simulation as a national critical technology. Without 
objection, so ordered.
    And now let me thank the Members for one more constructive 
markup, and the Committee is adjourned.
    [Whereupon, at 11:35 a.m., the Committee was adjourned.]


                               Appendix:

                              ----------                              


                               H.Res. 487


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          
          
          

          GREEN CHEMISTRY RESEARCH AND DEVELOPMENT ACT OF 2007

                              ------------

    Mr. Gordon of Tennessee, from the Committee on Science and 
Technology, submitted the following:

                              R E P O R T

    [To accompany H.R. 2850]

    [Including cost estimate of the Congressional Budget 
Office]

    The Committee on Science and Technology, to whom was 
referred the bill (H.R. 2850) to provide for the implementation 
of a Green Chemistry Research and Development Program, and for 
other purposes, having considered the same, reports favorably 
thereon with an amendment and recommends that the bill as 
amended do pass.

                                                                                                                CONTENTS

                                                                                                                                                                                                                                    Page

I.                                                                                                                                                                                                                      Amendment   248
II.                                                                                                                                                                                                           Purpose of the Bill   251
III.                                                                                                                                                                                                 Background and Need for the Leg251ation
IV.                                                                                                                                                                                                             Committee Actions   254
V.                                                                                                                                                                           Summary of Major Provisions of the Bill, as Reported   254
VI.                                                                                                                                                               Section-by-Section Analysis (by Title and Section), as Reported   255
VII.                                                                                                                                                                                                               Committee View   256
VIII.                                                                                                                                                                                                               Cost Estimate   258
IX.                                                                                                                                                                                     Congressional Budget Office Cost Estimate   258
X.                                                                                                                                                                                                        Compliance with Public Law2604-4
XI.                                                                                                                                                                              Committee Oversight Findings and Recommendations   260
XII.                                                                                                                                                                        Statement on General Performance Goals and Objectives   260
XIII.                                                                                                                                                                                          Constitutional Authority Statement   261
XIV.                                                                                                                                                                                         Federal Advisory Committee Statement   261
XV.                                                                                                                                                                                              Congressional Accountability Act   261
XVI.                                                                                                                                                                                                       Earmark Identification   261
XVII.                                                                                                                                                                                          Statement on Preemption of State, Loc261
XVIII.                                                                                                                                                                                                       Changes in Existing Law261de by the Bill, as Reported
XIX.                                                                                                                                                                                                    Committee Recommendations   262
XX.                                                                                                                                                                                      Proceedings of the Full Committee Markup   263


                          I. Amendment

    The amendment is as follows:
    Strike all after the enacting clause and insert the 
following:

SECTION 1. SHORT TITLE.

    This Act may be cited as the ``Green Chemistry Research and 
Development Act of 2007''.

SEC. 2. DEFINITIONS.

         In this Act--
             (1) the term ``green chemistry'' means chemistry and 
        chemical engineering to design chemical products and processes 
        that reduce or eliminate the use or generation of hazardous 
        substances while producing high quality products through safe 
        and efficient manufacturing processes;
             (2) the term ``Interagency Working Group'' means the 
        interagency working group established under section 3(c); and
             (3) the term ``Program'' means the Green Chemistry 
        Research and Development Program described in section 3.

SEC. 3. GREEN CHEMISTRY RESEARCH AND DEVELOPMENT PROGRAM.

    (a) In General.--The President shall establish a Green Chemistry 
Research and Development Program to promote and coordinate federal 
green chemistry research, development, demonstration, education, and 
technology transfer activities.
    (b) Program Activities.--The activities of the Program shall be 
designed to--
             (1) provide sustained support for green chemistry 
        research, development,demonstration, education, and technology 
        transfer through--
                     (A) merit-reviewed competitive grants to 
                individual investigators and teams of investigators, 
                including, to the extent practicable, young 
                investigators, for research and development;
                     (B) grants to fund collaborative research and 
                development partnerships among universities, industry, 
                and nonprofit organizations;
                     (C) green chemistry research, development, 
                demonstration, and technology transfer conducted at 
                federal laboratories; and
                     (D) to the extent practicable, encouragement of 
                consideration of green chemistry in--
                             (i) the conduct of federal chemical 
                        science and engineering research and 
                        development; and
                             (ii) the solicitation and evaluation of 
                        all proposals for chemical science and 
                        engineering research and development;
             (2) examine methods by which the Federal Government can 
        create incentives for consideration and use of green chemistry 
        processes and products;
             (3) facilitate the adoption of green chemistry 
        innovations;
             (4) expand education and training of undergraduate and 
        graduate students, and professional chemists and chemical 
        engineers, including through partnerships with industry, in 
        green chemistry science and engineering;
             (5) collect and disseminate information on green chemistry 
        research, development, and technology transfer, including 
        information on--
                     (A) incentives and impediments to development and 
                commercialization;
                     (B) accomplishments;
                     (C) best practices; and
                     (D) costs and benefits;
             (6) provide venues for outreach and dissemination of green 
        chemistry advances such as symposia, forums, conferences, and 
        written materials in collaboration with, as appropriate, 
        industry, academia, scientific and professional societies, and 
        other relevant groups;
             (7) support economic, legal, and other appropriate social 
        science research to identify barriers to commercialization and 
        methods to advance commercialization of green chemistry; and
             (8) provide for public input and outreach to be integrated 
        into the Program by the convening of public discussions, 
        through mechanisms such as citizen panels, consensus 
        conferences, and educational events, as appropriate.
    (c) Interagency Working Group.--The President shall establish an 
Interagency Working Group, which shall include representatives from the 
National Science Foundation, the National Institute of Standards and 
Technology, the Department of Energy, the Environmental Protection 
Agency, and any other agency that the President may designate. The 
Director of the National Science Foundation and the Assistant 
Administrator for Research and Development of the Environmental 
Protection Agency shall serve as co-chairs of the Interagency Working 
Group. The Interagency Working Group shall oversee the planning, 
management, and coordination of the Program. The Interagency Working 
Group shall--
             (1) establish goals and priorities for the Program, to the 
        extent practicable in consultation with green chemistry 
        researchers and potential end-users of green chemistry products 
        and processes; and
             (2) provide for interagency coordination, including budget 
        coordination, of activities under the Program.
    (d) Agency Budget Requests.--Each federal agency and department 
participating in the Program shall, as part of its annual request for 
appropriations to the Office of Management and Budget, submit a report 
to the Office of Management and Budget which identifies its activities 
that contribute directly to the Program and states the portion of its 
request for appropriations that is allocated to those activities. The 
President shall include in his annual budget request to Congress a 
statement of the portion of each agency's or department's annual budget 
request allocated to its activities undertaken pursuant to the Program.
    (e) Report to Congress.--Not later than two years after the date of 
enactment of this Act, the Interagency Working Group shall transmit a 
report to the Committee on Science and Technology of the House of 
Representatives and the Committee on Commerce, Science, and 
Transportation of the Senate. This report shall include--
             (1) a summary of federally funded green chemistry 
        research, development, demonstration, education, and technology 
        transfer activities, including the green chemistry budget for 
        each of these activities; and
             (2) an analysis of the progress made toward achieving the 
        goals and priorities for the Program, and recommendations for 
        future program activities.

SEC. 4. MANUFACTURING EXTENSION CENTER GREEN SUPPLIERS NETWORK GRANT 
                    PROGRAM.

    Section 25(a) of the National Institute of Standards and Technology 
Act (15 U.S.C. 278k(a) ) is amended--
             (1) by striking ``and'' at the end of paragraph (4);
             (2) by striking the period at the end of paragraph (5) and 
        inserting ``; and''; and
             (3) by adding at the end the following:
             ``(6) the enabling of supply chain manufacturers to 
        continuously improve products and processes, increase energy 
        efficiency, increase recycling, identify cost-saving 
        opportunities, and optimize resources and technologies with the 
        aim of reducing or eliminating the use or generation of 
        hazardous substances.''

SEC. 5. UNDERGRADUATE EDUCATION IN CHEMISTRY AND CHEMICAL ENGINEERING.

    (a) Program Authorized.--(1) As part of the Program activities 
under section 3(b)(4), the Director of the National Science Foundation 
shall carry out a program to award grants to institutions of higher 
education to support efforts by such institutions to revise their 
undergraduate curriculum in chemistry and chemical engineering to 
incorporate green chemistry concepts and strategies.
    (1) Grants shall be awarded under this section on a competitive, 
merit-reviewed basis and shall require cost sharing in cash from non-
federal sources, to match the federal funding.
    (b) Selection Process.--(1) An institution of higher education 
seeking funding under this section shall submit an application to the 
Director at such time, in such manner, and containing such information 
as the Director may require. Minority Serving Institutions shall 
receive due consideration for such funding. The application shall 
include at a minimum--
             (A) a description of the content and schedule for adoption 
        of the proposed curricular revisions to the courses of study 
        offered by the applicant in chemistry and chemical engineering; 
        and
             (B) a description of the source and amount of cost sharing 
        to be provided.
    (2) In evaluating the applications submitted under paragraph (1), 
the Director shall consider, at a minimum--
             (A) the level of commitment demonstrated by the applicant 
        in carrying out and sustaining lasting curriculum changes in 
        accordance with subsection (a)(1); and
             (B) the amount of cost sharing to be provided.
    (c) Authorization of Appropriations.--In addition to amounts 
authorized under section 8, from sums otherwise authorized to be 
appropriated by the National Science Foundation Authorization Act of 
2002, there are authorized to be appropriated to the National Science 
Foundation for carrying out this section $7,000,000 for fiscal year 
2008, $7,500,000 for fiscal year 2009, and $8,000,000 for fiscal year 
2010.

SEC. 6. STUDY ON COMMERCIALIZATION OF GREEN CHEMISTRY.

    (a) Study.--The Director of the National Science Foundation shall 
enter into an arrangement with the National Research Council to conduct 
a study of the factors that constitute barriers to the successful 
commercial application of promising results from green chemistry 
research and development.
    (b) Contents.--The study shall--
             (1) examine successful and unsuccessful attempts at 
        commercialization of green chemistry in the United States and 
        abroad; and
             (2) recommend research areas and priorities and public 
        policy options that would help to overcome identified barriers 
        to commercialization.
    (c) Report.--The Director shall submit a report to the Committee on 
Science and Technology of the House of Representatives and the 
Committee on Commerce, Science, and Transportation of the Senate on the 
findings and recommendations of the study within 18 months after the 
date of enactment of this Act.

SEC. 7. PARTNERSHIPS IN GREEN CHEMISTRY.

    (a) Program Authorized.--(1) The agencies participating in the 
Program shall carry out a joint, coordinated program to award grants to 
institutions of higher education to establish partnerships with 
companies in the chemical industry to retrain chemists and chemical 
engineers in the use of green chemistry concepts and strategies.
    (2) Grants shall be awarded under this section on a competitive, 
merit-reviewed basis and shall require cost sharing from non-federal 
sources by members of the partnerships.
    (3) In order to be eligible to receive a grant under this section, 
an institution of higher education shall enter into a partnership with 
two or more companies in the chemical industry. Such partnerships may 
also include other institutions of higher education and professional 
associations.
    (4) Grants awarded under this section shall be used for activities 
to provide retraining for chemists or chemical engineers in green 
chemistry, including--
             (A) the development of curricular materials and the 
        designing of undergraduate and graduate level courses; and
             (B) publicizing the availability of professional 
        development courses of study in green chemistry and recruiting 
        graduate scientists and engineers to pursue such courses.
Grants may provide stipends for individuals enrolled in courses 
developed by the partnership.
    (b) Selection Process.--(1) An institution of higher education 
seeking funding under this section shall submit an application at such 
time, in such manner, and containing such information as shall be 
specified by the Interagency Working Group and published in a proposal 
solicitation for the Program. The application shall include at a 
minimum--
             (A) a description of the partnership and the role each 
        member will play in implementing the proposal;
             (B) a description of the courses of study that will be 
        provided;
             (C) a description of the number and size of stipends, if 
        offered;
             (D) a description of the source and amount of cost sharing 
        to be provided; and
             (E) a description of the manner in which the partnership 
        will be continued after assistance under this section ends.
    (2) The evaluation of the applications submitted under paragraph 
(1) shall be carried out in accordance with procedures developed by the 
Interagency Working Group and shall consider, at a minimum--
             (A) the ability of the partnership to carry out 
        effectively the proposed activities;
             (B) the degree to which such activities are likely to 
        prepare chemists and chemical engineers sufficiently to be 
        competent to apply green chemistry concepts and strategies in 
        their work; and
             (C) the amount of cost sharing to be provided.

SEC. 8. AUTHORIZATION OF APPROPRIATIONS.

    (a) National Science Foundation.--There are authorized to be 
appropriated to the National Science Foundation for carrying out this 
Act--
             (1) $20,000,000 for fiscal year 2008;
             (2) $21,000,000 for fiscal year 2009; and
             (3) $22,000,000 for fiscal year 2010.
    (b) National Institute of Standards and Technology.--There are 
authorized to be appropriated to the National Institute of Standards 
and Technology for carrying out this Act--
             (1) $8,000,000 for fiscal year 2008;
             (2) $9,000,000 for fiscal year 2009; and
             (3) $10,000,000 for fiscal year 2010.
    (c) Department of Energy.--There are authorized to be appropriated 
to the Department of Energy for carrying out this Act--
             (1) $13,000,000 for fiscal year 2008;
             (2) $14,000,000 for fiscal year 2009; and
             (3) $15,000,000 for fiscal year 2010.
    (d) Environmental Protection Agency.--There are authorized to be 
appropriated to the Environmental Protection Agency for carrying out 
this Act--
             (1) $10,000,000 for fiscal year 2008;
             (2) $11,000,000 for fiscal year 2009; and
             (3) $12,000,000 for fiscal year 2010.

                    II. Purpose of the Bill

    The purpose of the H.R. 2850 is to provide for the 
implementation of a Green Chemistry Research and Development 
Program.

          III. Background and Need for the Legislation

    Chemical manufacturing, although a necessary part of our 
economy, can result in harm to human health and the environment 
due to the usage of hazardous materials and the generation of 
hazardous byproducts. Green chemistry seeks to mitigate such 
harmful outcomes. In short, the goal of green chemistry is to 
minimize or, ideally, to eliminate this harm by using safer 
materials and manufacturing processes.
    By considering chemical hazards in the design of products 
and processes, chemists can design chemicals to be safe, just 
as they can design them to have other properties. One example 
of green chemistry was the development of pesticide 
alternatives that are effective at killing target organisms, 
but are benign to non-target organisms and do not persist in 
the environment. Another example of successful green chemistry 
is the use of a benign solvent, super-critical carbon dioxide, 
in dry cleaning processes instead of toxic perchloroethylene 
(PERC).
    Besides protecting human health and the environment, green 
chemistry can offer economic advantages and improvements to 
worker safety, public safety, and national security. However, 
significant impediments exist that discourage businesses from 
pursuing such alternatives, such as a workforce unfamiliar with 
green chemistry, lack of existing green chemistry alternatives, 
lack of demonstrated green chemistry alternatives, costs of up-
front capital investment, lack of regulatory drivers, and 
inertia.

           CURRENT PRIVATE SECTOR EFFORTS IN GREEN CHEMISTRY

    A number of companies have undertaken green chemistry 
projects on their own. The Federal Government has highlighted 
some of these efforts through programs such as EPA's 
Presidential Green Chemistry Challenge Awards Program. A number 
of companies are also acting to increase their usage of more 
environmentally friendly ingredients to avoid costs associated 
with handling or treating more hazardous substances and in 
response to consumer demand for more environmentally friendly 
products. For example in 2001, U.S.-based global consumer 
products manufacturer and marketer S.C. Johnson & Son, Inc. 
developed a process called Greenlist to formalize the 
classification of raw materials used in its products according 
to the impact they have on the environment and human health. 
Greenlist provides ratings for more than 95 percent of raw 
materials used by the company, including surfactants, solvents, 
propellants, insecticides, and packaging.
    Through the Greenlist process, each raw material ingredient 
receives a rating from 3 to 0. An ingredient with a 3 rating is 
considered ``Best,'' 2 is ``Better,'' and 1 is ``Acceptable.'' 
0-rated materials may be used only when an acceptable 
alternative is not available and requires approval by senior 
management. When S.C. Johnson scientists create a new product 
or reformulate existing products, they work to select raw 
materials rated ``Better'' or ``Best.'' Thus, Greenlist is a 
continual improvement process that increases the company's use 
of environmentally preferred raw materials in its products.

     CURRENT FEDERAL GOVERNMENT GREEN CHEMISTRY RELATED ACTIVITIES

    The Federal Government supports activities related to green 
chemistry through agencies including the National Science 
Foundation (NSF), the Environmental Protection Agency (EPA), 
the Department of Energy (DOE) and the National Institute of 
Standards and Technology (NIST). Some agencies, such as EPA, 
run programs that are focused directly on green chemistry. 
Other agencies, such as DOE, fund green chemistry as byproducts 
of efforts to achieve other goals, such as improving energy 
efficiency. Because some green chemistry investments are direct 
and some are indirect, and because green chemistry is not 
broken out in agency budgets, it is difficult to determine the 
precise level of federal investment in green chemistry.
    It is clear, however, that the investment in green 
chemistry and chemical engineering is small compared to the 
investment in chemistry and chemical engineering as a whole. In 
2000, the four agencies mentioned above spent approximately 
$540 million on chemistry and chemical engineering research and 
development (R&D); investment in green chemistry R&D was 
probably close to $40 million. In addition, green chemistry 
activities are not fully coordinated among the federal 
agencies.
    EPA supports both green chemistry R&D and outreach efforts 
to promote green chemistry. The R&D is funded through the 
Office of Research and Development; the outreach and promotion 
through the Office of Pollution Prevention and Toxic Substances 
(OPPTS).
    In fiscal year 2004 (FY04), EPA spent approximately $5 
million directly on green chemistry and chemical engineering 
R&D and approximately $2 million on other green chemistry 
activities. The R&D funding was split between internal R&D, 
conducted at EPA's lab in Cincinnati and external R&D through 
the Science to Achieve Results (STAR) program. As part of the 
STAR program, EPA and NSF developed a partnership, the 
Technologies for a Sustainable Environment (TSE) program, which 
primarily funded green chemistry and chemical engineering R&D. 
The other $2 million in funding for green chemistry activities 
supported green chemistry outreach programs such as the 
Presidential Green Chemistry Challenge Award Program.
    The TSE program was the external R&D program most focused 
on green chemistry in the Federal Government. EPA and NSF put 
out a joint request for proposals, and then each agency awarded 
grants based on its own mission. NSF funded more basic green 
chemistry R&D, while EPA funded more applied R&D. TSE was 
initiated in 1995, and the last TSE solicitation was issued in 
2003. Through 2003, EPA and NSF awarded over $57 million for 
205 research projects under the TSE program.
    However, the Administration has eliminated EPA funding for 
TSE. The result has been a large decrease in the amount of 
funding EPA spends on green chemistry activities. Because EPA 
discontinued funding for the TSE program, NSF has also 
virtually eliminated specific funding for the TSE program which 
was NSF's only explicit green chemistry funding opportunity. 
While NSF does not put out specific solicitations for green 
chemistry R&D, NSF funds a wide range of research in green 
chemistry R&D.
    DOE does not track spending on green chemistry activities, 
and does not conduct activities that it specifically identifies 
as green chemistry. However, DOE conducts R&D that has many 
green chemistry applications. DOE's fundamental research 
efforts in chemistry are focused on attaining an atomic and 
molecular level understanding of processes involved in the 
generation, storage, and use of energy.
    NIST has no programs specifically focused on green 
chemistry but conducts R&D with implications for, and 
application to, green chemistry. For example, the Chemical 
Science and Technology Laboratory produces more accurate 
measurement methods and standards to enable the development and 
implementation of green technologies and assess their impact.

                               H.R. 2850

    H.R. 2850 is designed to focus and integrate the Federal 
Government's green chemistry R&D activities, and to make them a 
higher priority. The legislation is also designed to increase 
education and training in green chemistry.
    One impediment to the application of green chemistry is the 
lack of a chemistry workforce that is skilled in green 
chemistry techniques. H.R. 2850 would support undergraduate and 
graduate education in green chemistry. This should help create 
a new generation of chemists and chemical engineers who are 
familiar with green chemistry and its advantages, and can bring 
those skills to bear in the workplace. The Act would also 
support continuing education for professional chemists and 
chemical engineers so that the large existing workforce can be 
trained in green chemistry techniques.
    The coordinated R&D program would also support R&D and 
demonstration projects at universities, industry and federal 
labs. This includes industry-university partnerships to 
facilitate the transfer of new ideas to industry. In addition, 
H.R. 2850 makes information about green chemistry activities 
readily available through a green chemistry database of 
accomplishments and best practices. This should aid interested 
companies in learning about, overcoming barriers to, and 
implementing green chemistry alternatives.

                     IV. Committee Actions

    110th CONGRESS
    On June 10, 2007, Mr. Gingrey introduced H.R. 2850, the 
Green Chemistry Research and Development Act of 2007, along 
with Mr. Mario Diaz-Balart, Mr. Wu, Mr. Ehlers, and Mr. Welch. 
H.R. 2850, as introduced, was substantially the same as the 
bills introduced and passed by the Committee in the previous 
two Congresses: H.R. 1215 (Report 109-82) in the 109th Congress 
and H.R. 3970 (Report 108-462) in the 108th Congress. The major 
change to the legislation is an increase in funding levels for 
the agencies responsible for carrying out the legislation.
    On July 11, 2007, the Committee on Science and Technology 
met to consider H.R. 2850. The Committee considered the 
following amendments to the bill:

        1. LMr. Lipinski offered an amendment to expand the 
        activities in the Manufacturing Extension Program with 
        the aim of reducing the use or generation of hazardous 
        substances to include recycling. The amendment was 
        agreed to by voice vote.

        2. LMs. Johnson offered an amendment to ensure that 
        Minority Serving Institutions receive consideration for 
        funds available under the act for green chemistry 
        instruction. The amendment was agreed to by voice vote.

    The legislation was agreed to by a voice vote. Mr. Hall 
moved that the Committee favorably report the bill, H.R. 2850, 
as amended, to the House with the recommendation that the bill, 
as amended, do pass, and that the staff be instructed to make 
technical and conforming changes to the bill, as amended, and 
prepare the legislative report, and that the Chairman take all 
necessary steps to bring the bill before the House for 
consideration. The motion was agreed to by a voice vote.

    V. Summary of Major Provisions of the Bill, as Reported

    The major provisions of the legislation are:

    Establishes an interagency research and development (R&D) 
program to promote and coordinate federal green chemistry 
research, development, demonstration, education, and technology 
transfer activities.

    Establishes an interagency working group composed of 
representatives from the National Science Foundation (NSF), the 
National Institute for Standards and Technology (NIST), the 
Department of Energy (DOE), the Environmental Protection Agency 
(EPA), and any other agency that the President may designate, 
to oversee the planning, management, and coordination of all 
federal green chemistry R&D activities. Designates the Director 
of NSF and the Assistant Administrator for Research and 
Development at EPA as co-chairs.

    Requires the interagency working group to report to 
Congress within two years of enactment, summarizing federally-
funded green chemistry research and development activities and 
progress made toward the goals and priorities of the program, 
as established by the working group.

    Amends the National Institute of Standards and Technology 
Act to make eligible as a Manufacturing Extension Program 
activity the enabling of supply chain manufacturers to conduct 
activities with the aim of reducing or eliminating the use or 
generation of hazardous substances.

    Authorizes a program at NSF to award grants to institutions 
of higher education to support efforts to revise their 
undergraduate curriculum in chemistry and chemical engineering 
to incorporate green chemistry concepts and strategies. This 
program is authorized at $22.5 million total over three years, 
FY08 through FY10.

    Requires the Director of NSF to enter into a contract with 
the National Research Council to conduct a study of the factors 
that constitute barriers to the successful commercial 
application of green chemistry R&D.

    Authorizes a program to award grants to institutions of 
higher education to establish partnerships with companies in 
the chemical industry to retrain chemists and chemical 
engineers in the use of green chemistry concepts and 
strategies.

    Authorizes appropriations from sums otherwise authorized to 
be appropriated for NSF, NIST, DOE and EPA. Total 
authorizations are $51 million in FY08, $55 million in FY09, 
and $59 million in FY10.

                VI. Section-by-Section Analysis

Section 1: Short Title

    ``Green Chemistry Research and Development Act of 2007''

Section 2: Definitions

    Defines terms used in the text including green chemistry, 
interagency working group, and program.

Section 3: Green Chemistry Research and Development Program

    This section directs the President to establish an interagency 
research and development (R&D) program to promote and coordinate 
federal green chemistry research, development, demonstration, 
education, and technology transfer activities. The program will provide 
sustained support for green chemistry R&D through merit-reviewed 
competitive grants, R&D partnerships of universities, industry, and 
non-profit organizations, and through R&D conducted at federal 
laboratories.
    The program will provide support for, and encouragement of, the 
application of green chemistry through encouragement of, the 
application of green chemistry in all federally funded chemical science 
and engineering R&D; examination of methods to create incentives for 
the use of green chemistry; promotion of the education and training of 
undergraduate and graduate students and professional chemists and 
chemical engineers in green chemistry; collection and dissemination of 
information on green chemistry R&D and technology transfer; and 
provision of venues of outreach and dissemination of green chemistry 
advances such as symposia, forums, conferences, and written materials.
    Establishes an interagency working group composed of 
representatives from the National Science Foundation, the National 
Institute for Standards and Technology, the Department of Energy, the 
Environmental Protection Agency, and any other agency that the 
President may designate, to oversee the planning, management, and 
coordination of all federal green chemistry R&D activities.
    Names the Director of the National Science Foundation and the 
Assistant Administrator for R&D at the Environmental Protection Agency 
as co-chairs and requires the group to establish goals and priorities 
for the program and provide for interagency coordination, including 
budget coordination. Requires the group to submit a report to the 
Committee on Science and Technology of the House of Representatives and 
the Committee on Commerce, Science, and Transportation of the Senate 
within two years of the enactment of this legislation that includes a 
summary of the progress made towards the goals and priorities 
established for the program, including recommendations for future 
program activities.

Section 4: Manufacturing Extension Center Green Suppliers Network Grant 
                    Program

    Amends the National Institute of Standards and Technology Act to 
make eligible as a Manufacturing Extension Program activity with the 
enabling of supply chain manufactures to conduct activities with the 
aim of reducing or eliminating the use or generation of hazardous 
substances.

Section 5: Undergraduate Education in Chemistry and Chemical 
                    Engineering

    This section enables the Director of the National Science 
Foundation to award grants to institutions of higher learning, 
including Minority Serving Institutions, to revise undergraduate 
curriculum in chemistry and chemical engineering to incorporate green 
chemistry concepts and strategies.

Section 6: Study on the Commercialization of Green Chemistry

    This section calls for the Director of the National Science 
Foundation to conduct a study with the National Research Council to 
examine the barriers to the successful commercial application of 
promising results from green chemistry research and development.

Section 7: Partnerships in Green Chemistry

    This section establishes a program to award grants to institutions 
of higher education to create partnerships with companies in the 
chemical industry to retrain chemists and chemical engineers in the use 
of green chemistry concepts and strategies.

Section 8: Authorization of Appropriations

    Authorizes appropriations for green chemistry R&D programs from 
sums already authorized to be appropriated, for the National Science 
Foundation, the National Institute of Standards and Technology, the 
Department of Energy, and the Environmental Protection Agency.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                      VII. Committee View

    The Committee expects NSF, EPA, DOE and NIST to give more 
focused attention to green chemistry. That means running 
programs that are specifically targeted at funding green 
chemistry R&D, education, and technology transfer, not just 
funding such work as an afterthought or as a byproduct of other 
efforts, or if proposals related to green chemistry happen to 
be submitted by researchers. The Committee is disappointed that 
the Administration terminated the EPA-NSF Technologies for a 
Sustainable Environment (TSE) program in 2004. This was the 
only explicit green chemistry R&D program. The program should 
be reconstituted.
    The Committee also expects the agencies to do a better job 
of coordinating their efforts in green chemistry so that the 
Federal Government has a comprehensive effort in green 
chemistry that can meet industry's needs while drawing on the 
unique strengths and expertise of each agency.
    The Committee expects the Interagency Working Group to 
track Federal expenditures on green chemistry. The legislation 
requires agencies and OMB to explicitly state the portion of 
their request that will contribute to the activities authorized 
by this legislation. The Committee expects this report to 
reflect an effort to think through what is specifically needed 
for green chemistry; it should not be a mere cobbling together 
of disparate budgets submitted by each agency.
    The Committee expects that, as part of its coordination 
efforts, the Interagency Working Group will identify areas in 
which green chemistry could help achieve federal, as well as 
industry needs. Obvious areas include improving homeland 
security and the development of non-toxic chemicals to combat 
invasive species. Clear industry needs include the development 
of benign solvents or solvent-less processes for a range of 
chemical processes, and new materials for buildings, such as 
paints and carpets that have lower toxicity.
    One way green chemistry R&D programs can help assure both 
relevance to, and adoption by, industry is to fund university-
industry partnerships, which may also include national 
laboratories and other non-profit institutions. Not all green 
chemistry R&D should be funded this way, but it should be an 
emphasis in the R&D programs. The Committee intends that all 
R&D grants awarded under this legislation be competitively 
awarded and merit reviewed.
    Beyond operating more specific programs to fund green 
chemistry activities, the federal agencies should integrate 
green chemistry techniques in all of their chemistry and 
chemical engineering R&D activities. The Committee believes 
that, when soliciting and evaluating all chemistry and chemical 
engineering R&D grant proposals, the agencies should consider 
whether the application addresses the toxicity of the proposed 
chemical process and product.
    The Committee considers education and outreach activities 
as essential parts of a comprehensive green chemistry effort. 
For this reason, the legislation authorizes two specific 
education programs--one to update undergraduate chemistry 
curricula to incorporate green chemistry concepts and 
strategies and a second to authorize grants for universities 
that partner with chemical companies to retrain professional 
chemists and chemical engineers in the use of green chemistry 
concepts and strategies. The Interagency Working Group should 
make sure that participating agencies are engaging in these 
activities, consistent with their overall missions.
    Outreach activities should include the creation of an 
easily accessible one-stop-shop for green chemistry 
information. Specifically, the Interagency Working Group may 
want to consider whether it would be useful to maintain a list 
of chemical products and processes that are benign so that a 
company looking for a green chemistry solution could have easy 
access to available green chemistry alternatives.
    The Committee believes that there are many barriers to the 
successful commercialization of green chemistry. For this 
reason, the Committee believes that the Interagency Working 
Group should fund research to determine economic, legal and 
other barriers. This is also why the Committee authorizes a 
National Research Council study into the barriers to successful 
commercialization of green chemistry.
    In carrying out its responsibilities, the Interagency 
Working Group should consult regularly with a wide range of 
researchers and end-users, especially private companies. The 
Committee also expects the Interagency Working Group to be able 
to provide Congress with a clear explanation of the goals and 
priorities of the green chemistry program, how each agency's 
activities are contributing to those goals, and how achievement 
of those goals is being evaluated. An important metric for the 
program should be whether new green chemistry products and 
processes are being developed and whether they are being 
adopted by industry.

                      VIII. Cost Estimate

    A cost estimate and comparison prepared by the Director of 
the Congressional Budget Office under section 402 of the 
Congressional Budget Act of 1974 has been timely submitted to 
the Committee on Science and Technology prior to the filing of 
this report and is included in Section X of this report 
pursuant to House Rule XIII, clause 3(c)(3).
    H.R. 2850 does not contain new budget authority, credit 
authority, or changes in revenues or tax expenditures. Assuming 
that the sums authorized under the bill are appropriated, H.R. 
2850 does authorize additional discretionary spending, as 
described in the Congressional Budget Office report on the 
bill, which is contained in Section X of this report.

         IX. Congressional Budget Office Cost Estimate

SUMMARY

    H.R. 2850 would authorize appropriations to promote the 
development of green chemistry technologies. Green chemistry 
encourages the design of products and processes that reduce or 
eliminate the use or generation of hazardous substances. 
Activities under the bill would include the establishment of a 
Green Chemistry Research and Development Program and the 
creation of collaborative, multi-agency grant programs. 
Assuming appropriation of the authorized and necessary amounts, 
CBO estimates that implementing H.R. 2850 would cost $18 
million in 2008 and $181 million over the 2008-2012 period. 
Enacting H.R. 2850 would not affect direct spending or 
revenues.
    H.R. 2850 contains no intergovernmental or private-sector 
mandates as defined in the Unfunded Mandates Reform Act (UMRA) 
and would benefit State and local governments.

ESTIMATED COST TO THE FEDERAL GOVERNMENT

    The estimated budgetary impact of H.R. 2850 is shown in the 
following table. The costs of this legislation fall within 
budget functions 250 (science, space, and technology) and 800 
(general government).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


BASIS OF ESTIMATE

    For this estimate, CBO assumes that H.R. 2850 will be 
enacted near the end of fiscal year 2007 and that the entire 
amounts authorized and estimated to be necessary will be 
appropriated for each fiscal year. Estimated outlays are based 
on historical spending patterns for similar programs.

Green Chemistry Research and Grant Programs

    H.R. 2850 would authorize the appropriation of $58 million 
in 2008 and about $188 million over the 2008-2010 period to 
create multi-agency grant programs for the study of green 
chemistry. (Green chemistry encourages the design of products 
and processes that reduce or eliminate the use or generation of 
hazardous substances.) Under the bill, grants would be awarded 
to investigators for general research and development, and to 
universities for establishing partnerships with the chemical 
industry to retrain chemists and engineers in the field of 
green chemistry. The bill would authorize several agency 
appropriations for those grant and research activities.
    For NSF, H.R. 2850 would authorize the appropriation of 
between $27 million and $30 million a year over the 2008-2010 
period. NSF also would be required to conduct a study on the 
barriers to commercial application of green chemistry 
technologies.
    For the other specified agencies, the following amounts 
would be authorized to be appropriated over the 2008-2010 
period: $27 million for the National Institute of Standards and 
Technology, $42 million for the Department of Energy, and $33 
million for the Environmental Protection Agency to carry out 
the coordinated grant programs. Assuming appropriation of the 
authorized amounts for all agencies, CBO estimates that 
implementing those provisions would result in discretionary 
spending of $18 million in fiscal year 2008 and $181 million 
over the 2008-2012 period.

Interagency Working Group

    H.R. 2850 would establish a Green Chemistry Research and 
Development Program within the Executive Office of the 
President and create an interagency working group to promote 
and coordinate federal green chemistry research and 
development. Agencies participating in the program would report 
annually on their activities, and the interagency working group 
would report within two years to the Congress on the status of 
green chemistry research. Based on information from the Office 
of Management and Budget and the cost of similar programs, CBO 
estimates that implementing those provisions would cost $1 
million over the 2008-2010 period.

INTERGOVERNMENTAL AND PRIVATE-SECTOR IMPACT

    H.R. 2850 contains no intergovernmental or private-sector 
mandates as defined in UMRA and would create several grant 
programs benefiting institutions of higher education. Any costs 
State, local, or tribal governments might incur, including 
matching funds, would be incurred voluntarily.

ESTIMATE PREPARED BY:

    Federal Costs: Science Space and Technology: Leigh Angres; 
EPA: Susanne Mehlman; Public Buildings: Matthew Pickford; NIST: 
Susan Willie; Impact on State, Local, and Tribal Governments: 
Neil Hood; Impact on the Private Sector: Amy Petz.

ESTIMATE APPROVED BY:

    Peter H. Fontaine, Deputy Assistant Director for Budget 
Analysis

              X. Compliance With Public Law 104-4

    H.R. 2850 contains no unfunded mandates.

      XI. Committee Oversight Findings and Recommendations

    The oversight findings and recommendations of the Committee 
on Science and Technology are reflected in the body of this 
report.

   XII. Statement on General Performance Goals and Objectives

    Pursuant to clause (3)(c) of House Rule XIII, the goal of 
H.R. 2850 is to advance green chemistry by establishing a green 
chemistry research and development program and a manufacturing 
extension center green suppliers network grant program, and by 
supporting undergraduate education in chemistry and chemical 
engineering.

            XIII. Constitutional Authority Statement

    Article I, section 8 of the Constitution of the United 
States grants Congress the authority to enact H.R. 2850.

           XIV. Federal Advisory Committee Statement

    H.R. 2850 does not establish nor authorize the 
establishment of any advisory committee.

              XV. Congressional Accountability Act

    The Committee finds that H.R. 2850 does not relate to the 
terms and conditions of employment or access to public services 
or accommodations within the meaning of section 102(b)(3) of 
the Congressional Accountability Act (Public Law 104-1).

                  XVI. Earmark Identification

    H.R. 2850 does not contain any congressional earmarks, 
limited tax benefits, or limited tariff benefits as defined in 
clause 9(d), 9(e), or 9(f) of Rule XXI.

  XVII. Statement on Preemption of State, Local, or Tribal Law

    This bill is not intended to preempt any State, local, or 
tribal law.

  XVIII. Changes in Existing Law Made by the Bill, as Reported

    In compliance with clause 3(e) of rule XIII of the Rules of 
the House of Representatives, changes in existing law made by 
the bill, as reported are shown as follows (existing law 
proposed to be omitted is enclosed in black brackets, new 
matter is printed in italic, existing law in which no change is 
proposed is shown in roman):

           NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY ACT

                             * * * * * * *

     REGIONAL CENTERS FOR THE TRANSFER OF MANUFACTURING TECHNOLOGY

    SEC. 25. (a) The Secretary, through the Director and, if 
appropriate, through other officials, shall provide assistance 
for the creation and support of Regional Centers for the 
Transfer of Manufacturing Technology (hereafter in this Act 
referred to as the ``Centers''). Such centers shall be 
affiliated with any United States-based nonprofit institution 
or organization, or group thereof, that applies for and is 
awarded financial assistance under this section in accordance 
with the description published by the Secretary in the Federal 
Register under subsection (c)(2). Individual awards shall be 
decided on the basis of merit review. The objective of the 
Centers is to enhance productivity and technological 
performance in United States manufacturing through--

        L(1) * * *

        L*  *  *  *  *  *  *

        L(4) the active dissemination of scientific, 
        engineering, technical, and management information 
        about manufacturing to industrial firms, including 
        small- and medium-sized manufacturing companies; [and]

        L(5) the utilization, when appropriate, of the 
        expertise and capability that exists in federal 
        laboratories other than the Institute[.]; and

        L(6) the enabling of supply chain manufacturers to 
        continuously improve products and processes, increase 
        energy efficiency, increase recycling, identify cost-
        saving opportunities, and optimize resources and 
        technologies with the aim of reducing or eliminating 
        the use or generation of hazardous substances.

        L*  *  *  *  *  *  *

                 XIX. Committee Recommendations

    On July 11, 2007, the Committee on Science and Technology 
favorably reported H.R. 2850, as amended, by a voice vote and 
recommended its enactment.



 XX: PROCEEDINGS OF THE FULL COMMITTEE MARKUP ON H.R. 2850, THE GREEN 
             CHEMISTRY RESEARCH AND DEVELOPMENT ACT OF 2007

                              ----------                              


                        WEDNESDAY, JULY 11, 2007

                  House of Representatives,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:17 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Bart Gordon 
[Chairman of the Committee] presiding.
    Chairman Gordon. The Committee will come to order. Pursuant 
to notice, the Committee on Science and Technology meets to 
consider the following measures: H.R. 2850, the Green Chemistry 
Research and Development Act of 2007; and H.R. 2337, the Energy 
Policy Reform and Revitalization Act of 2007.
    And I would like to briefly talk about H.R. 2337. H.R. 2337 
was referred to the Committee on Natural Resources, the 
Committee on Agriculture, and also, the Committee on Science 
and Technology. The Natural Resources Committee held hearings 
on the bill in May, and marked up the bill last month. The 
Agriculture Committee has not yet acted on the bill.
    The Committee staff, on a bipartisan basis, have been in 
discussions over the last week or so with the Natural Resources 
Committee about provisions in H.R. 2337 where there are policy 
differences within the Science and Technology jurisdiction. 
Following consideration of H.R. 2850, I plan to recess the 
Committee, and postpone consideration of H.R. 2337 until 
Thursday or Friday, so that our staff may continue with these 
bipartisan, good faith negotiations.
    And let me say that I think we all, Democrats and 
Republicans, are concerned about maintaining the, certainly the 
prerogative of this committee, jurisdiction of this committee, 
and we also want to get a good product. I think we can do this 
without being a jerk. The fact of the matter is, as we go 
through the energy bills, there is going to be a lot of joint 
jurisdiction, sometimes two, sometimes three committees at 
once. Jim Matheson and I, on another committee, that we are 
working on some joint things, and so, my hope is, again, that 
we can work these things out without getting into a lot of 
problems between committees. The fact of the matter is 
Democrats and Republicans on this committee are going to work 
together for a while, our brothers and sisters on Resources, 
Energy and Commerce, and Agriculture, we are going to be 
working together for a while. I think we want to deal with 
everybody honorably, and that is the way we are going to try to 
proceed.
    We now proceed with the markup. The bill we consider today 
is H.R. 2850, the Green Chemistry Research and Development Act 
of 2007. When I became Chairman of this committee, I made a 
promise that this would be a committee of good ideas and 
consensus. We are here to solve the problems, and solutions are 
welcome from both sides of the aisle. Today, the Committee is 
meeting to consider legislation introduced by Congressman 
Gingrey that addresses an issue that he has particular 
expertise with, and that is green chemistry. With an 
undergraduate degree in chemistry, followed by a medical 
degree, Dr. Gingrey has long been an advocate for increasing 
government research into the green chemistry.
    Chemical manufacturing can result in harm to human health 
and the environment, due to the use of hazardous materials and 
the generation of hazardous byproducts. Green chemistry seeks 
to mitigate such harmful outcomes. In short, the goal of green 
chemistry is to minimize or to eliminate this harm, by using 
safer materials and manufacturing processes. Besides protecting 
human health and the environment, green chemistry can offer 
economic advantages, improvements to work safety, public 
safety, and our national security.
    H.R. 2850 establishes an interagency program to enhance 
green chemistry R&D at the National Science Foundation, EPA, 
DOE, and NIST. This legislation will provide grants to 
individual researchers, spur university-industry partnerships, 
fund research at federal laboratories, and train students in 
green chemistry science.
    H.R. 2850 is the third iteration of a bill that Congressman 
Gingrey has introduced addressing this issue. Democratic 
amendments were agreed to, and now make up sections of H.R. 
2850. This bill is a product of good bipartisan cooperation.
    However, there has, and there remains, apprehension among 
some Democratic Members that this Act simply does not go far 
enough to promote the adoption of green chemistry, but H.R. 
2850 is a good first step, and I urge my colleagues on the 
Committee to support this legislation, and I am sure Dr. 
Gingrey will be glad for us all to take credit for it at home 
when we get this passed.
    I want to thank all the Members for their cooperation and 
participation during this first half of the year. I look 
forward to working with all of you as we move into August.
    And let me particularly say thank you to the staff, both 
Democrats and the Majority. I know we have asked you to do a 
lot. You have done a lot. The fact of the matter is that we are 
going to be a major participant in the Energy Bill that is 
going to come down here very soon. We could have decided no, we 
are not going to do it, but we didn't. We decided we were going 
to work hard, get things done, and I think it is going to be 
pay off, because we are going to have a lot of provisions in 
this bill. We are also going to be major players in the 
conference, and so, there will be many of us on that 
conference, so we can have more input.
    Also, I went over to the Senate yesterday to talk with 
Lamar Alexander. The conference, well, not the conference, but 
the pre-conference is coming along on our Competitiveness 
Agenda. He is very anxious to move this forward. He is doing 
really a very good job over in the Senate. Chuck Atkins, who I 
don't think is here now, but has been a great taskmaster, in 
setting forth an agenda for all of these, and we have no 
telling how many committees of jurisdiction in the Senate, that 
are all working together, again, on a bipartisan, bicameral 
basis.
    I think we are going to be able to get this thing done by 
the end of this session. If we can get it done and passed--and 
I remind you that it passed unanimously out of this committee, 
we only had 21 negative votes on the House Floor--I think this 
Competitiveness Agenda will be the major legislative 
accomplishment of this first six months, and again, we will all 
be a part of that, and I thank you all for working and helping 
us.
    Let me also say that for those of you that are going on the 
CODEL to Greenland this following weekend, Jerry McNerney just 
made me aware that you need to get your hepatitis and typhoid 
shots. If they are not up to speed, you can check with the 
doctor's office. They will know. I don't think Greenland is a 
very hazardous area, but there are those shots that we need to 
take, and we will get ready for that.
    So I now recognize Mr. Hall, to present his opening 
remarks.
    [The prepared statement of Chairman Gordon follows:]
               Prepared Statement of Chairman Bart Gordon
    Good Morning. The Committee will come to order. Pursuant to notice, 
the Committee on Science and Technology meets to consider the following 
measures:

        <bullet>  H.R. 2850, the Green Chemistry Research and 
        Development Act of 2007.

        <bullet>  H.R. 2337, the Energy Policy Reform and 
        Revitalization Act of 2007.

    I would like to briefly talk about H.R. 2337. This bill was 
referred to the Committee on Natural Resources, the Committee on 
Agriculture, and also to the Committee on Science and Technology. The 
Natural Resources Committee held hearings on the bill in May and marked 
up the bill last month. The Agriculture Committee has not yet acted on 
the bill.
    Committee staff has been in discussions over the last week or so 
with the Natural Resources Committee about provisions in H.R. 2337 
where there are policy differences within the Science and Technology 
jurisdiction. Following consideration of H.R. 2850, I plan to recess 
the Committee and postpone consideration of H.R. 2337 until Thursday or 
Friday so that we may continue negotiations.
    We will now proceed with the markup. The bill we will consider 
today is H.R. 2850, the Green Chemistry Research and Development Act of 
2007.
    When I took the reigns of this committee, I made a promise that 
this would be a committee of ``Good Ideas'' and ``Consensus.'' We are 
here to solve problems, and solutions are welcome from both sides of 
the aisle.
    Today, the Committee is meeting to consider legislation introduced 
by Congressman Gingrey that addresses an issue that he has particular 
expertise with--green chemistry. With an undergraduate degree in 
chemistry followed by a medical degree, Dr. Gingrey has long been an 
advocate for increasing government research into green chemistry.
    Chemical manufacturing can result in harm to human health and the 
environment due to the use of hazardous materials and the generation of 
hazardous by-products. Green chemistry seeks to mitigate such harmful 
outcomes. In short, the goal of green chemistry is to minimize or to 
eliminate this harm by using safer materials and manufacturing 
processes. Besides protecting human health and the environment, green 
chemistry can offer economic advantages and improvements to worker 
safety, public safety, and our national security.
    H.R. 2850, the Green Chemistry Research and Development Act, 
establishes an interagency program to enhance green chemistry R&D at 
NSF, EPA, DOE, and NIST.
    This legislation will provide grants to individual researchers, 
spur university/industry partnerships, fund research at federal 
laboratories, and train students in green chemistry science.
    H.R. 2850 is the third iteration of a bill that Congressman Gingrey 
has introduced addressing this issue. Under Chairman Boehlert's 
leadership in the 108th and 109th Congresses, Democratic amendments 
were agreed to and now make up sections of H.R. 2850. This bill is the 
product of good bipartisan cooperation.
    However, there was, and remains, apprehension among Democratic 
Members that this Act simply does not go far enough to promote the 
adoption of green chemistry. But H.R. 2850 is a good first step, and I 
urge my colleagues on the Committee to support this legislation.
    I want to thank all the Members for their cooperation and 
participation during the first half of this year. I look forward to 
working with all of you as we move toward the August recess.

    Mr. Hall. Mr. Chairman, I thank you, and I have listened 
carefully to what you have said, and it is obvious that we want 
to get along. We want to work together. We have from here back. 
We hope we can from here forward. And we thank you for holding 
this markup today, and I am very pleased that we are marking up 
Dr. Gingrey's Green Chemistry Research and Development Bill 
today. It is a good bill. It has passed the House of 
Representatives twice already, and hopefully, this time, the 
other body is going to recognize its merits. But it seemed like 
I am more inclined to want to have some questions, some 
parliamentary inquiries, but let me go on with my statement and 
see where we are going.
    It is my understanding that we will be recessing the 
Committee following consideration of Dr. Gingrey's bill, H.R. 
2850, I think that is what I gleaned from what you said. I am 
disappointed to hear that the Committee may not mark up H.R. 
2337, the Energy Policy Reform and Revitalization Act of 2007, 
and may instead have an exchange of letters with the Resources 
Committee pending agreement on a couple of provisions. A number 
of Members on our side of the aisle have expressed concern 
about other provisions in the bill that are within the 
Committee's jurisdiction.
    For instance, there is concern that a provision of H.R. 
2337 establishes a new procurement program at the National 
Oceanic and Atmospheric Administration, yet our committee has 
not even held a hearing on this provision. I had hoped that we 
could have a full and open debate on this legislation. I have a 
number of concerns with legislation. I am primarily concerned 
that it may have a negative effect on American consumers and 
our energy independence, as I have expressed on a number of 
occasions. America is at a crossroads. We are faced with large 
energy challenges, such as an ever-increasing demand for energy 
that will inevitably drive up costs for our taxpayers, threaten 
our national security, and hamper our ability to compete in the 
world marketplace.
    This concern is shared by several organizations that you 
are very familiar with: the Chamber of Commerce, the National 
Association of Manufacturers. I could go on and on--
International Brotherhood of Electrical Workers and on and on. 
We have to meet these challenges, energy challenges head-on, by 
increasing our domestic supply, using all available resources.
    This bill, however, could move our country in the opposite 
direction. It repeals several bipartisan provisions of the 
Energy Policy Act of 2005, and it will result in increased 
dependence on foreign energy, higher prices for American 
consumers, and a loss of American jobs. These are provisions in 
this bill that limit upgrading energy transmission and 
distribution facilities, delay development of oil shale and tar 
sands leasing contracts, add layers of bureaucracy to slow oil 
and gas operations, impose new fees on oil and gas leases, and 
establish new requirements that will make wind energy 
absolutely unaffordable.
    I urge the Chairman to move forward with the markup of this 
legislation, in this committee. The Science and Technology 
Committee has a lot to add to the debate. I would be 
disappointed if we didn't to give our Members that opportunity.
    And Mr. Chairman, I have copies of numerous letters in 
opposition to this bill that I would like to offer into the 
record at this time, and I would like to yield to Mr. Gingrey 
for----
    [The prepared statement of Mr. Hall follows:]
           Prepared Statement of Representative Ralph M. Hall
    Thank you, Mr. Chairman, for holding this markup today. I am 
pleased we are marking up Dr. Gingrey's Green Chemistry Research and 
Development bill today. This is a good bill that has passed the House 
of Representative twice already. Hopefully, this time the other body 
will recognize its merits.
    It is my understanding that we will be recessing the Committee 
following consideration of Dr. Gingrey's bill, H.R. 2850. I am 
disappointed to hear that the committee may not markup H.R. 2337, the 
Energy Policy Reform and Revitalization Act of 2007, and may instead 
have an exchange of letters with the Resources Committee pending 
agreement on a couple of provisions. A number of Members on our side of 
the aisle have expressed concern about other provisions in this bill 
that are within this committee's jurisdiction. For instance, there is 
concern that a provision of H.R. 2337 establishes a new procurement 
program at the National Oceanic and Atmospheric Administration, yet our 
committee has not even held a hearing on this provision. I had hoped 
that we could have a full and open debate on this legislation.
    I have a number of concerns with this legislation. I am primarily 
concerned that it may have a negative effect on American consumers and 
our energy independence. As I have expressed on a number of occasions, 
America is at a crossroads. We are faced with large energy challenges, 
such as an ever increasing demand for energy, that will inevitably 
drive up costs for our taxpayers, threaten our national security, and 
hamper our ability to compete in the world marketplace. This concern is 
shared by several organizations, such as the Chamber of Commerce, the 
National Association of Manufacturers, and the International 
Brotherhood of Electrical Workers.
    We must meet these energy challenges head on by increasing our 
domestic supply using all available resources. This bill, however, 
moves our country in the opposite direction. It repeals several 
bipartisan provisions of the Energy Policy Act of 2005 and it will 
result in increased dependence on foreign energy, higher prices for 
American consumers and a loss of American jobs. There are provisions in 
this bill that limit upgrading energy transmission and distribution 
facilities, delay development of oil shale and tar sands leasing 
contracts, add layers of bureaucracy to slow oil and gas operations, 
impose new fees on oil and gas leases, and establish new requirements 
that will make wind energy unaffordable.
    I urge the Chairman to move forward with the markup of this 
legislation in this committee. The Science and Technology Committee has 
a lot to add to this debate, and I would be disappointed if we did not 
give our Members that opportunity.

    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Gordon. With no objection, the letters are to be 
made a part of the record.
    Mr. Hall. Thank you, sir, and I will yield the balance of 
my time to Dr. Gingrey.
    Chairman Gordon. If you don't mind, is that on the green 
chemistry?
    Mr. Hall. Yes.
    Chairman Gordon. Let me, I think the gentleman raised good 
points. Before you yield, if you would yield to me.
    Mr. Hall. Sure.
    Chairman Gordon. You deserve to be responded to. We are 
waiting for the Parliamentarian. I know there are some concerns 
on the Resources Bill. As I understand it now, we are only, 
have been given joint jurisdiction in two areas, and I think 
most of what you raised are outside that, and I would like to 
ask anybody on my staff, I think the Parliamentarian may still 
be looking into a couple of other areas where we have asked for 
that, and that's one reason that we have asked for this recess, 
to find out. Obviously, we can't be marking up areas, even 
though you may not like those areas, if they're not within our 
jurisdiction. So, you will understand that.
    Also, we are preserving our right to have a markup in those 
areas where we do have that jurisdiction, and we are working in 
a bipartisan, bi-committee effort to accomplish that. So, 
again, you deserve an answer to those concerns, and I want to 
be sure you had that.
    Mr. Hall. Yes. I thank you, and I am glad to hear that you 
like those. You noticed seven, so you must have liked them, and 
thought we had jurisdiction.
    Chairman Gordon. Right. And so far, the Parliamentarian has 
said that we only have two, and so, unless they, you know, we 
are still trying to, we are pushing for all of it, and----
    Mr. Hall. Okay.
    Chairman Gordon. But we can't go where they don't allow us 
to go.
    Mr. Hall. All right. Then the parliamentary inquiry, is 
H.R. 2337 on the markup notice? The answer to that is yes it 
is.
    Chairman Gordon. Yes. Yes, sir.
    Mr. Hall. And why is it on the notice if we are not going 
to mark it up today?
    Chairman Gordon. Well, because right now, the 
Parliamentarian only gives us, has only responded to two of the 
seven areas of jurisdiction. Secondly, we are in bipartisan, 
bicameral negotiations, and I think that we are going to be 
better off if we can work these things out in a bipartisan, 
bicameral, not bicameral, excuse me, bi-committee basis, rather 
than just slam bam, because I think that they would treat us 
the same way with our bills, and again, we are trying to 
establish, with Minority and Majority, and with different 
committees, to treat each other, you know, we want to try to 
have a Golden Rule here. I think we are better off by doing 
that.
    Mr. Hall. What is the exchange of letters about that you 
mentioned.
    Chairman Gordon. We have not had an exchange of letters, I 
don't think, yet, until we reach some type of a bipartisan, and 
again, a bicameral agreement.
    Mr. Hall. Then, I guess, the question is what sections are 
being discussed of the seven?
    Chairman Gordon. They are, I will give you, let us see. If 
someone could, 441 and 473 are the ones where the 
Parliamentarian has said that we have jurisdiction.
    Mr. Hall. And are you working out a deal?
    Chairman Gordon. And 303.
    Mr. Hall. Are you working out a deal on policy on these 
seven sections, on the full seven sections?
    Chairman Gordon. No, sir, because we, the Parliamentarian 
has not said that we have jurisdiction on the other of those 
seven. So, right now, we wrote the Parliamentarian, in 
conjunction with the Minority staff, on those areas where we 
thought that we might have jurisdiction, to preserve our 
jurisdiction. The Parliamentarian, again, as I understand it, 
and please, I do not want to misrepresent this, so if I say 
something that someone has better information, I welcome to be 
corrected. But it is my understanding that they have not 
referred all of those seven, and only a portion of those to us, 
that we are still working with them to get further referral. 
And again, I stand, I welcome, if someone has better 
information.
    Mr. Hall. That is not my understanding, but I will accept 
your explanation at this time. And now, can I--if I have any 
time left, can I give it to Dr. Gingrey?
    Mr. Gingrey. Mr. Chairman, I can move to strike the last 
word, and----
    Chairman Gordon. Okay. And if I could, let me correct one 
more thing. It is a tetanus shot, not a typhoid shot. So, 
pardon me for, I don't want anybody to be, you know, getting 
stuck with the wrong needle there.
    Mr. Feeney. A parliamentary inquiry, Mr. Chairman, if it is 
appropriate.
    Chairman Gordon. Certainly.
    Mr. Feeney. I understood the Chairman to say that the 
Parliamentarian has said we have jurisdiction of the two 
sections that were set out, but has the Parliamentarian said 
that we do not have jurisdiction over the other five or seven 
sections in question?
    Chairman Gordon. Let me check with our Parliamentarian, and 
I will tell you.
    It is my understanding that we went to the Parliamentarian 
on all seven provisions. Resources countered on that, and said 
that we didn't. The Parliamentarian has ruled that we have 
jurisdiction on two of those, and likely, a third, but unlikely 
on four others. And again, this is another reason that we feel 
like that we are recessing now on this issue until we get a 
more definitive issue from the Parliamentarian, and so that we, 
again, can continue our conversations, not again, it is more 
than just protecting jurisdiction. It is trying to get good 
policy, too, and trying, again, to deal with another committee 
in a way that is appropriate.
    What we are finding, and this is just for your information, 
what we are finding is some committees are holding their bills 
to report to the very last moment, so that it is virtually 
impossible to have any kind of input there. I don't think that 
is the way to proceed, and where those committees are working 
in good faith, I think that we need to try to work in good 
faith with them. So, that is where we are, and if anyone else 
has any----
    Mr. Gingrey. Mr. Chairman.
    Chairman Gordon. Mr. Gingrey.
    Mr. Gingrey. Well, I have a parliamentary inquiry as well.
    Chairman Gordon. Okay. Yes.
    Mr. Gingrey. And Mr. Chairman, thank you, and not 
necessarily to beat a dead horse here----
    Chairman Gordon. Are you satisfied?
    Mr. Feeney. Well, if I could----
    Chairman Gordon. Mr. Feeney.
    Mr. Feeney. Thank you, Mr. Chairman. Just a quick follow-
up. Would the--obviously, both the Majority and certainly the 
Chairman and the Minority as well would have an interest in not 
ceding jurisdiction unnecessarily, because this is all of our 
committee. We all have an interest in it.
    Would it be appropriate for the Minority to weigh in with a 
letter to the Parliamentarian, as he makes his decision about 
these last five----
    Chairman Gordon. We would welcome that. I would hope that 
our original letters to them was bipartisan. I mean, I hope 
that it was, but if it wasn't, we would welcome your support in 
that, and best arguments.
    Mr. Feeney. Well, surely, the Parliamentarian would 
appreciate us bringing it to his attention anything that may be 
relevant to his decision.
    Chairman Gordon. Sure.
    Mr. Feeney. And with that, I thank the Chairman for his----
    Chairman Gordon. We wouldn't have asked for referral on 
those seven provisions if we weren't interested in getting 
them.
    Mr. Gingrey. Mr. Chairman, thank you, and I think Mr. 
Feeney and I, obviously, are thinking on the same wavelength 
here this morning, because that was my point as well, and my 
parliamentary inquiry is, since you scheduled the bill, H.R. 
2337, to be marked up this morning, with specific enumeration 
of the sections of which, obviously, we would have 
jurisdiction, 303, 305, 306, 441, 447, 471, 472, and 473.
    Chairman Gordon. I am not sure that we would. That is----
    Mr. Gingrey. Well, I guess my inquiry is, has the 
Parliamentarian changed his mind? And to follow up on what Mr. 
Feeney said, if he has, and the Parliamentarian, of course, by 
definition is a bipartisan figure that represents all of the 
House, then all of us should have an opportunity, both on the 
Minority and the Majority side, both on the Science Committee 
and the Resources Committee, where this bill was debated for 12 
hours, and passed on a 26-22 vote, so certainly not an 
uncontroversial piece of legislation, that is the 
Parliamentarian is going to be changing his mind, then we 
should have input as well in this interim, while we are 
discussing which sections are going to be germane to our 
committee.
    Chairman Gordon. If the gentleman would yield, again, let 
me tell you how I understand the situation to be. We made, we 
asked the Parliamentarian for joint jurisdiction in seven 
areas. The Parliamentarian has said you have jurisdiction in 
two. You probably have jurisdiction in a third. We have not 
made a decision on that yet. And you probably do not have 
jurisdiction in four areas. And so, we welcome your letter, and 
any other thoughtful letters to the Parliamentarian, and 
efforts to, you know, establish those jurisdictional concerns.
    I will point out, well----
    Mr. Gingrey. Well, Mr. Chairman, thank you.
    Chairman Gordon. That is where we are.
    Mr. Gingrey. I understand what you said, I just want very 
quickly----
    Chairman Gordon. Sure.
    Mr. Gingrey. Very briefly, I would say based on the 
information that we received, Members maybe on both sides of 
the aisle, but certainly on this side, including yours truly, 
has a very thoughtful amendment, he thinks, to Section 306, 
which would make the bill a much better bill. So, we are very 
concerned about that, and I appreciate the Chairman's 
indulgence.
    Mr. Hall. Make a parliamentary inquiry, Mr. Chairman.
    Chairman Gordon. The gentleman from Texas is recognized.
    Mr. Hall. Is it our intention to mark up at least two 
sections?
    Chairman Gordon. Well, it is our intention to work on a 
bipartisan basis with the Resources Committee in an effort to 
work those out. If a markup is necessary, we may have a markup, 
but it is not--it has not been determined yet whether that is 
necessary.
    Mr. Hall. You noticed them for seven, and they said two are 
good, and we are here and ready. Why is it we are not going to 
have a markup on the two?
    Chairman Gordon. Well, by the same reasoning----
    Mr. Hall. And we want to work together, and we got sense 
enough.
    Chairman Gordon. Sure. Yeah.
    Mr. Hall. You know my old story about my mathematical 
problem, but I still can count.
    Chairman Gordon. Right. Yes.
    Mr. Hall. And we can get outvoted, and we understand that. 
We don't mind that, as long as we have some input on it.
    Chairman Gordon. Well, it is my understanding that your 
staff has been in on all of the meetings. I think one of those 
two sections was worked out yesterday on a bipartisan basis, 
and I think there was a meeting this afternoon on the second 
one, and it would seem to me as long as we have got bipartisan, 
bi-committee meetings going on, it would be a little bit 
presumptuous to try to have a markup when we are still working 
to work these things out.
    Mr. Hall. Mr. Chairman, I am satisfied, but I am not happy. 
I will yield back my time to you.
    Mr. Ehlers. Mr. Chairman.
    Chairman Gordon. Certainly. The gentleman from Michigan, 
Mr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman. Just to add to this, a 
little bit of history and concern on my part. As we know, this 
committee has been the youngest committee of the Congress for 
many years, until Homeland Security came along, and when it was 
created, it was given pretty much jurisdiction over the space 
program, but most of the other committees were reluctant to 
give up jurisdiction over things that should have been assigned 
to this committee, for example, the nuclear power program still 
is in Energy and Commerce. It clearly belongs under our 
jurisdiction. And I can give many other examples.
    I have also observed, in my years here, that we are often 
victimized by the big, powerful committees who claim 
jurisdiction, and fight very hard to get jurisdiction over 
things that we are working on, and I have had several of my 
bills stymied just for that reason, stymied to the point that 
they were delayed a couple years. So, I would urge you, Mr. 
Chairman, to fight strenuously to maintain as much jurisdiction 
as you can possibly get. Arguing with the parliamentarians, 
arguing with the Resources Committee.
    In fact, one of my bills, which deals with invasive 
species, was basically stopped by the Resources Committee over 
a dispute like this. So, I would urge you to fight hard, 
because this poor little old Science Committee often is 
victimized by this big, powerful committees that have been 
around for a century or more, and I think we have to fight for 
every little bit that we can get. So I encourage you to put up 
a huge battle, and try to get all seven of those things put in 
our jurisdiction. Thank you.
    Chairman Gordon. Mr. Ehlers, let me point out, it is not 
just Resources. It is going to be Energy and Commerce.
    Mr. Ehlers. Yeah.
    Chairman Gordon. It is going to be Agriculture. We are 
going to have a number of areas where there is going to be 
joint jurisdiction. A part of the reason that, again, these 
staff and Members have worked so hard, was to make us relevant, 
and to get us into these battles. You can be well assured that 
we are going to be holding our ground, and again, a part of our 
objective, my objective, so far, is to make this committee more 
relevant. That is why we are going to be, we are getting into 
health care IT, we are getting into financial security, data 
security. I mean, you are going to see this committee cast a 
wider net, using NIST, using a number of areas. So, we are not 
pulling back. We are going forward.
    I will give you a quick little note. I was talking with 
John Dingell a while back, and I was real proud. I was telling 
him, you know, I was explaining the origin of the Science 
Committee and some of the things that, you know, that we are 
doing, and he sort of looked at me gruffly, and said: ``I am 
well aware of the origin of the Science Committee, because most 
of your jurisdiction came from us.''
    So, we will be there.
    Mr. Ehlers. Right. And I just think, since we are the only 
committee that knows how to make nuclear weapons, we should 
have a little more respect around here.
    Mr. Neugebauer. Mr. Chairman.
    Chairman Gordon. Yes, sir.
    Mr. Neugebauer. Along with that, I don't know if this is 
necessarily a parliamentary inquiry, but I guess it is. In 
other words, we have scheduled a Committee markup today for a 
bill that we are not going to mark up. Is that correct?
    Chairman Gordon. We gave notice, and the reason is that we 
are in a bipartisan, bi-committee--let me give you an example. 
Let us just say this. Let us say the Democrats had a bill 
today, and it was marked up, and the Republicans had some 
amendments that were good, but we got them late. Well, we could 
say, you know, to heck with you, we are going to go ahead and 
mark this up, or we could say you made a good faith effort to 
get involved with this bill. Why don't we wait a day or two, 
and try to work these things out?
    It is the same situation, I think, with the Natural 
Resources Committee. Right now, we have bipartisan, bi-
committee negotiations going on, and it would seem to me that 
it would be, the more prudent thing is to let these talks 
proceed, and narrow the issues, and then, we can go forward. We 
are preserving our right, make no mistake about it, we are 
preserving our right to have a markup if that is necessary.
    Mr. Neugebauer. I guess that--the point I was making, Mr. 
Chairman, are we going to mark up this bill?
    Chairman Gordon. If we feel it is necessary.
    Mr. Neugebauer. Who is going to determine if it is 
necessary will?
    Chairman Gordon. The Chairman will.
    Mr. Neugebauer. Well, Mr. Chairman, I mean, is something as 
important as national energy policy in this country, for those 
kinds of decisions to be made in closed door meetings, behind--
--
    Chairman Gordon. They are not going to be made in closed 
door meetings.
    Mr. Neugebauer. Well, they are not in this meeting. This is 
a public forum.
    Chairman Gordon. Well, let me make--what time is the 
meeting this afternoon? Okay, at 4:00 this afternoon, all of 
your staff knows that there is a bipartisan, bi-committee 
meeting, just like all your staff have been involved in the 
other ones. You are welcome, and any Member is welcome to 
attend those.
    Mr. Neugebauer. Well, what about----
    Chairman Gordon. The door is not closed.
    Mr. Neugebauer. What about Members of this committee, on 
our side, and maybe on your side, too, that have amendments, 
that they think would make this bill better, and want an open, 
and as I remember, the Chairman's remarks when he opened up 
this committee for the first time as the new Chairman, said we 
are going to work in a bipartisan, open way. We are going to 
have markups. We are going to discuss. We are going to work on 
this product, and at the end, we are going to vote on it. And 
that is the process that we are going to move forward with, and 
yet, today, what we are told, is well, we are going to put this 
on the agenda, but we are going to work out the details behind 
the door with Committee staff, and when I like it, then it is 
moving forward without any open debate and consideration for 
this committee.
    Chairman Gordon. Well, you know, I guess it is one of those 
two people can see an accident and see it different ways. The 
fact of the matter is, once again, let me, this is how we 
proceed with most bills. We start off with bipartisan 
discussion, on the staff level, representing you--you are 
welcome to attend--so that we can narrow those issues, that we 
can try to, you know, knock down the edges, so that we can have 
informed markups.
    The fact of the matter is, you are more than welcome to 
attend the afternoon--you are already noticed about it. You are 
welcome to attend that meeting. And we would hope that you 
would. Bring your best ideas. Let them be discussed, in a 
bipartisan, again bi-committee way, and that is the way we 
should proceed.
    Mr. Neugebauer. But can we do that, and then bring that, 
whatever everybody thinks is kind of the consensus product, 
then, back to this committee, and let us debate it, and make 
sure that there is a consensus to do that.
    Chairman Gordon. Well, that is the way we are proceeding.
    Mr. Neugebauer. Well, no, you told me that we weren't going 
to mark this bill up.
    Chairman Gordon. No, I did not tell you that.
    Mr. Neugebauer. I asked the question, and you said no.
    Chairman Gordon. No. No. I said that has not been 
determined, whether it is going to be necessary to.
    Mr. Neugebauer. Well, the answer to my question, are we 
going to mark up this bill, you said if it is necessary. Is 
that----
    Mr. Hall. Would the gentleman yield.
    Mr. Neugebauer. You just repeat, so that----
    Chairman Gordon. That is not a no.
    Mr. Neugebauer. But then you told me, and you were going to 
determine if it is necessary.
    Chairman Gordon. Well, ultimately, the Chairman will, in 
consultation with the Minority and the Majority. Certainly.
    Mr. Neugebauer. I yield to the gentleman.
    Mr. Hall. Mr. Chairman, it reminds me of a question I asked 
a company to loan us some money, and they said I will listen to 
your ignorant proposal with an open mind. I don't like the 
position I am in, but once again, I can count. But it seems to 
me, and the Chairman is a man of character and a long time 
friend, but it seemed like having a markup is holding the 
ground. You talked about holding the ground. I think that we 
are holding our ground if you go on and have this markup. What 
is to keep you from doing that?
    Chairman Gordon. Because the issues haven't been fully 
vetted, and it would be, it would seem to me that it would be 
irresponsible to move forward when we have just gotten this, 
you know, right now, the Parliamentarian hasn't even told us 
whether we have jurisdiction in five areas. We are still trying 
to get those five areas of jurisdiction.
    I mean, it is sort of difficult to mark up a bill that you 
don't have jurisdiction on, and we don't know that yet. So, and 
that is the reason that we want to give full notice, and we 
have given notice, so that--and the reason that we are 
recessing is to keep the hammer on the Resource Committee to 
know that we can have this markup. And again, I think most of 
the concern that, and particularly my friends from the oil 
producing area in Texas are having, are in those areas of the 
Resource Bill that we don't have jurisdiction, at least we 
haven't been given it yet.
    So, I mean, I think that is the main concern, isn't it?
    Mr. Neugebauer. My main concern is just that I think every 
other issue that has come before this committee, I have sat in 
here under the Chairman's leadership, and have appreciated the 
very open exchange between ideas brought forward on both sides, 
but yet on what I think may be the most important piece of 
legislation that the 110th Congress will act on, it is being 
approached in a different manner, and quite honestly, I think 
it shortchanges the American people. They, you allude to staff, 
and----
    Chairman Gordon. Would the gentleman yield?
    Mr. Neugebauer. As soon as I finish.
    Chairman Gordon. Okay, sure.
    Mr. Neugebauer. Yeah. The gentleman alludes to staff. We 
have very capable staff, but the American people sent the 
people that are sitting on this side of the room to debate 
these ideas and discussions, and come up with what is, in our 
estimation, the best policy for this country moving forward 
with energy. Because quite honestly, maybe the greatest 
security risk this country faces today is energy, and something 
as important as that, I don't think should be done with letters 
and people's prerogative. I think it ought to be done in an 
open and fair way, so that the American taxpayers can see that 
we did give this full consideration.
    Chairman Gordon. I agree with you, but again, let me again 
point out we can't mark up provisions that we don't have 
jurisdiction on, and I think your concerns are virtually 
exclusively in areas that we have not yet been given 
jurisdiction. So, we cannot mark up, just like we can't mark up 
the dairy subsidies. I am concerned about dairy subsidies. I am 
concerned, you know, about a variety of issues, but we don't 
have jurisdiction. So, you cannot mark up a bill. I guess you 
could, if we want to take, you know, the time to go through 
some kind of faux exercise, but it is simply not, and I guess 
the easy thing would have been not to have even talked about 
it. We wouldn't have had this, but I didn't think that was a 
fair thing either.
    You know, we are putting a notice, so that we can hold a 
hammer over the Resources Committee, to know that we are going 
to preserve our right to mark up bills that we have 
jurisdiction on, and that is the way we are going to proceed. 
And I think Mr. Gingrey deserves now to move forward. I mean, I 
welcome anything else----
    Mr. Baird. Mr. Chairman. On the left side, Mr. Chairman.
    Chairman Gordon. Yes, sir.
    Mr. Baird. I would just make two quick observations. First 
of all, I, as many people know, have been long a champion of an 
open process here in this body, and believe we should have it 
at the Committee level and at the public level, but I think it 
would be unfair to imply that this committee has not had 
hearings on energy. We have had a number of hearings on energy 
since this Congress began, and those hearings have had a good 
give and take about various policies and their effects on our 
economy and our environment and other things.
    So, we have had hearings, and the markup is a place where 
you debate the particular amendments, but to suggest that this 
markup would come up without any hearings on energy, I think, 
is inaccurate. And I, just for the record, I would just point 
out that my dear friends on the other side of the aisle voted 
repeatedly in the last and prior Congresses to that, 
unanimously, or nearly so, for rules that allowed bills such as 
the Medicare bill to come to the Floor of the House with less 
than 24 hours for review, and not a single amendment offered, 
that they locked the Chairman of the Ways and Means Committee 
out of conference committees, and that standard operating 
procedure, standard operating procedure in the prior Congress 
was that the more important the legislation, the less public 
the process, and the less input the minority party had.
    So, I find it admirable that my friends on the other side 
have come to realize that a fair and open process is part of a 
democratic republic, but I would ask them where the heck they 
were, where were they, when those votes were taken on the 
Floor. I don't recall a single Member of that party saying to 
their leadership in public this is wrong. This is wrong. You 
ought to allow the Minority an opportunity for amendments. You 
ought to allow time for deliberation, and you ought not lock 
the Chairman of a committee out of a conference committee.
    I yield back.
    Chairman Gordon. I think we need to move on. Let me just 
say, I think that is an example of what we don't want to do. We 
are trying to do better, and every provision within the 
Resources Bill that we have been given jurisdiction on now is, 
there is bipartisan, bi-committee discussions on that, with an 
open door, and you know, you can't do any more than that
    And so, with no objection, I would like to proceed to Mr. 
Gingrey's bill.
    Mr. Hall. Mr. Chairman, I do object.
    Chairman Gordon. Okay.
    Mr. Hall. I would like to strike the last word for just a 
moment, if I might.
    Chairman Gordon. Certainly. Mr. Hall is recognized.
    Mr. Hall. I stated in my opening statement there is concern 
that a provision in H.R. 2337 establishes a new procurement 
program at the National Oceanic and Atmospheric Administration, 
yet our committee has not even had a hearing on this, and that 
is what I said, and I don't remember having a hearing. If we 
did, correct me, but that is, we have not had a hearing on 
Section 473. It could cost up to $100 million a year, and I 
just think that we talk about government in the sunshine. If 
the Republicans did it, they shouldn't have, and if the 
Democrats are going to do it, I don't think you would be proud 
of it.
    Let us go forward. We will work our way as it goes, and I 
yield back my time.
    Chairman Gordon. Thank you, Mr. Hall. Again, at 4:00 today, 
that will be discussed in an open door manner.
    Dr. Gingrey is recognized.
    Mr. Gingrey. Thank you, Mr. Chairman. I am recognized for 
the Green Chemistry Bill.
    Chairman Gordon. I would hope so.
    Mr. Gingrey. Yeah. I would hope so, too, after that long, 
lengthy discussion. Mr. Chairman, I appreciate your continued 
comity.
    Chairman Gordon. Mr. Gingrey, why don't we, we are still in 
the area, before we take up your bill, I think Mr. Wu had a 
comment that he wanted to make on the bill, and then, we will 
take, we will let other statements be placed in the record.
    Mr. Wu. No, Mr. Chairman. I would like to follow Dr. 
Gingrey in making a very brief statement on the Green Chemistry 
Bill.
    Chairman Gordon. Okay.
    Mr. Wu. But I very much, at this point in time, look 
forward to the markup on the green chemistry bill.
    Chairman Gordon. Okay. All right. So, we will now consider 
H.R. 2850, the Green Chemistry Research and Development Act of 
2007.
    I yield to the gentleman from Georgia five minutes to 
describe his bill.
    Mr. Gingrey. Mr. Chairman, thank you, and I want to thank 
you especially, and of course, I want to thank Ranking Member 
Mr. Hall. I want to thank the original co-sponsors, my 
Subcommittee Chairman, David Wu, Mr. Ehlers, Mr. Mario Diaz-
Balart, and Mr. Welch of Vermont, who is not a Member of this 
committee, but very, very interested in this subject.
    I do appreciate, Chairman Gordon, you working very closely 
with me and with us on this very important, bipartisan piece of 
legislation. In your opening remarks, Mr. Chairman, you 
mentioned some of the history of the Green Chemistry Research 
and Development Act, and it goes back to the 108th Congress. 
And of course, as you pointed out, it passed the 108th with a 
wide bipartisan margin. You talked about the 109th, when you 
were Ranking Member, and again, I think on the Floor it, under 
suspension, it passed by voice vote. And then, right at the end 
of the day, when we approached--Mr. Chairman, you remember I 
had a conversation with you about this bill, and you did 
everything humanly possible to get the other body to get it 
through, and at the very last minute, a Member of my party put 
a closet hold, for whatever reason, I don't know, but I just 
want to, as we get into discussion of the bill, thank you for 
your efforts and your commitment to me, and this is good 
legislation. I am pleased that we could work together to bring 
it through the Committee again, and I hope the third time will 
truly be the charm, that we will see H.R. 2850 quickly passed 
by both chambers and signed by the President.
    In the way of explanation, H.R. 2850, the Green Chemistry 
Research and Development Act, it establishes a program that 
promotes and coordinates federal green chemistry research and 
development activities within several federal agencies, 
specifically the NSF, the National Science Foundation, the 
Environmental Protection Agency, the National Institute of 
Standards and Technology, NIST, and of course, the Department 
of Energy.
    Chemists can design chemicals to be safe, just like they 
can design them to have other properties like color and 
texture. This technique of considering not only the process in 
which products are manufactured, but also, the environment in 
which they are created, is the basic definition of green 
chemistry. That is basically what this bill is all about. It is 
a method of designing chemical products and processes that, at 
the very least, reduce, and at the very best, eliminate the use 
or generation of hazardous material.
    The basic idea is this, preventing pollution and hazardous 
waste from the start of the design process is a lot more 
preferable to cleaning up that mess, pollution, and waste at a 
later date. Additionally, the innovation created by this 
enhanced research will subsequently spur economic growth, as 
developing new products and processes is an integral component 
of many industries, from fabrics to fuel cells. Green chemistry 
doesn't just help protect our environment; it protects our 
workers, too. The conditions under which chemicals are created 
and used present many risks to those who work on their 
production, but if companies utilize green chemistry, the 
materials they use will be as benign as possible, and vastly 
improve employee conditions.
    Unfortunately, despite all the promise of green chemistry, 
the Federal Government invests very little in this area. H.R. 
2850 works to remedy this by promoting greater federal 
investment in and coordination of this important research area.
    And Mr. Chairman, I want to thank, as you pointed out 
earlier, the excellent staff of both the Majority and the 
Minority of the Science Committee, and working with us, and I 
think, indeed, even improving this bill in regard to 
authorizing additional funding, but only in the proportion that 
we have already increased the funding of those particular 
agencies, basically, at the same percentage.
    So, make no mistake, greater federal attention will 
encourage universities and academic institutions around the 
country to train future workers in this exciting technology. 
H.R. 2850 will achieve this by supporting research and 
development grants to partnership between universities, 
industry, and nonprofit organizations. It will also promote 
education through curriculum development and fellowships that 
will collect and disseminate information about green chemistry.
    In past years, many industries, from chemical companies and 
pharmaceutical corporations, to carpet manufacturers and 
biotechnology businesses have endorsed this bill, showing a 
broad range of support for the merits of the legislation. This 
bill, as I say, is nearly identical to the version passed in 
the 108th and 109th, and the companies and corporations that 
have voiced their strong support for this bill realize that the 
advancement of green chemistry is positive, not only for their 
specific business, but also, for the country's environment, our 
economy, and our nation's citizens.
    I urge my colleagues to support H.R. 2850. I know there are 
a couple of amendments, Mr. Chairman, on the Democratic side. I 
know Mr. Lipinski has an amendment, and I want to thank him, 
the gentleman from Illinois, for offering it. I agree with him 
that one of the most basic and underrated steps toward a 
greener environment is to encourage recycling. That saves 
energy, and it decreases solid waste, and I believe adding 
recycling to the Green Chemistry Research and Development Act 
strengthens the bill, and I would be glad to accept the 
amendment from the gentleman, my friend from Illinois.
    And then, there is another amendment from the gentlewoman 
from Texas, Ms. Eddie Bernice Johnson, and her amendment, 
again, is something that I am supportive of, and I am sure she 
will speak to that in just a few minutes.
    So, in closing, Mr. Chairman, I appreciate your indulgence. 
I know I went beyond my five minutes, but I urge my colleagues, 
please support H.R. 2850, and I do yield back at this time.
    [The prepared statement of Mr. Gingrey follows:]

           Prepared Statement of Representative Phil Gingrey

    Thank you, Mr. Hall, for yielding me time to describe my bill.
    First, I want to take this opportunity to thank Chairman Gordon and 
his staff for working with me on this bill. This legislation has passed 
the House of Representatives in both the 108th and 109th Congresses, 
and I am pleased we could work together to bring it through this 
committee again. I hope the third time will truly be the charm and that 
we see H.R. 2850 quickly passed by both chambers and signed by the 
President.
    H.R. 2850, the Green Chemistry Research and Development Act, 
establishes a program that promotes and coordinates federal green 
chemistry research and development activities within several federal 
agencies. Specifically, the National Science Foundation, the 
Environmental Protection Agency, the National Institute of Standards 
and Technology, and the Department of Energy.
    Chemists can design chemicals to be safe, just like they can design 
them to have other properties, like color and texture. This technique 
of considering not only the process in which products are manufactured 
but also the environment in which they are created is the basic 
definition of green chemistry. It is the method of designing chemical 
products and processes that at the very least reduce, and at the very 
best eliminate, the use or generation of hazardous substances.
    The basic idea is this: preventing pollution and hazardous waste 
from the start of a design process is far preferable to cleaning up 
that pollution and waste at a later date. Additionally, the innovation 
created by this enhanced research will subsequently spur economic 
growth, as developing new products and processes is an integral 
component of many industries, from fabrics to fuel cells.
    Green chemistry doesn't just help protect our environment, it helps 
protect our workers, too. The conditions under which chemicals are 
created and used can present many risks to those who work on their 
production. But if companies utilize green chemistry, the materials 
they use will be as benign as possible, vastly improving employee 
conditions.
    Unfortunately, despite all of the promise of green chemistry, the 
Federal Government invests very little in this area. H.R. 2850 works to 
remedy this by promoting greater federal investment in and coordination 
of this important research area.
    Make no mistake: greater federal attention will encourage 
universities and academic institutions around the country to train 
future workers in this exciting technology. H.R. 2850 will achieve this 
by supporting research and development grants to partnerships between 
universities, industry and non-profit organizations. It will also 
promote education through curricula development and fellowships that 
will collect and disseminate information about green chemistry.
    In past years, many industries--from chemical companies and 
pharmaceutical corporations to carpet manufacturers and biotechnology 
businesses--have endorsed H.R. 2850, showing a broad range of support 
for the merits of this legislation. This bill is nearly identical to 
the version passed in the 109th Congress.
    The companies and corporations that have voiced their strong 
support for this bill realize that the advancement of green chemistry 
is positive for not only their businesses, but also our country's 
environment, our economy and our nation's citizens.
    I urge my colleagues to support H.R. 2850 and I yield back the 
balance of my time.

    Chairman Gordon. Thank you, Dr. Gingrey. I know you have 
worked long and hard. I hope we are going to get this done. Let 
me ask to report now to, the Clerk to report the bill.
    Mr. Wu. Mr. Chairman. Mr. Chairman.
    Chairman Gordon. Mr. Wu, if you would, please, we need to 
report the bill.
    The Clerk. H.R. 2850, to provide for the implementation of 
the Green Chemistry Research and Development Program, and for 
other purposes.
    Chairman Gordon. With unanimous consent, the reading of the 
bill is dispensed with, and Mr. Wu is recognized.
    Mr. Wu. Thank you, Mr. Chairman. I wanted to make a brief 
statement to recognize that we have a good bill for us. It is a 
bipartisan bill. I want to recognize the hard work of Dr. 
Gingrey to bring this bill back to the Committee, and again, 
back to the Floor.
    We have passed this bill a couple of times through this 
committee, and we have passed it through the entire House. This 
is a good bill that deserves to become legislation. It is long 
past due, and with that, I yield back the balance of my time.
    [The prepared statement of Mr. Mitchell follows:]

         Prepared Statement of Representative Harry E. Mitchell

    Thank you, Mr. Chairman.
    Our nation has a long history of innovation in chemical 
engineering, but along the way chemical production has become somewhat 
notorious for hurting the environment.
    The Green Chemistry Research and Development Act takes important 
steps toward cleaning up the chemical research and manufacturing 
industry.
    It puts money into our prized research institutions to find ways to 
ensure that the progress we make in chemical engineering does not 
damage the environment.
    Additionally, it encourages governmental agencies, like the 
Environmental Protection Agency and the National Science Foundation, to 
work closely together to establish clean chemistry standards.
    Similar versions of this bill passed the House in both the 108th 
and 109th Congresses with strong bipartisan support.
    I am looking forward to what I hope will be the Committee's 
favorable consideration of it again today.
    I yield back the balance of my time.

    Chairman Gordon. Does anyone else wish to be recognized? If 
not, I ask unanimous consent that the bill is considered as 
read and open to amendment at any point, and that the Members 
proceed with the amendments in the order of the roster. Without 
objection, so ordered.
    The first amendment on the roster is offered by the 
gentleman from Illinois, Mr. Lipinski. Are you ready to proceed 
with your amendment?
    Mr. Lipinski. Thank you, Mr. Chairman.
    Chairman Gordon. The Clerk will report the amendment.
    The Clerk. Amendment to H.R. 2850, offered by Mr. Lipinski 
of Illinois.
    Chairman Gordon. I ask unanimous consent to dispense with 
the reading. Without objection, so ordered.
    The gentleman is recognized for five minutes to explain the 
amendment.
    Mr. Lipinski. Thank you.
    My amendment is a very simple thing, a small, yet important 
addition to the underlying bill. The amendment actually is two 
words, ``increase recycling.''
    The amendment would help supply chain manufacturers to 
increase recycling with the goal of reducing or even 
eliminating the use or generation of hazardous substances. 
Manufacturing extension partnership centers, or MEP centers, 
would assist in these efforts, as they work to enhance the 
productivity and technological performance of U.S. 
manufacturers.
    I firmly believe by incorporating innovative recycling 
practices into their manufacturing processes, American 
industries will better position themselves to compete in the 
increasingly global marketplace. In addition, through the 
increased practice of recycling, our manufacturers will help to 
reduce the production of solid and hazardous waste, and improve 
our environment, and potentially lower greenhouse gas 
emissions, and make our country more secure by lessening our 
need for foreign sources of energy.
    The MEP centers do a great job. I have a lot of 
manufacturers in my district who work very well with the MEP 
centers, and I think this is, just a great opportunity to 
improve this bill by adding recycling in there. I applaud Dr. 
Gingrey's work on this bill. I am pleased that Chairman Gordon 
has worked for its passage. I would like to thank the Committee 
staff and Dr. Gingrey for working with me and accepting my 
amendment.
    It is a very good bill. Hopefully, the third time is a 
charm. I was just thinking about this. Maybe--Dr. Gingrey no 
longer has the mustache. Maybe that will be the change. Maybe 
that will be the difference. This Congress will get the Senate 
to go ahead and also accept this, pass this bill. But----
    Mr. Gingrey. If the gentleman will yield. I will admit to 
being shameless. I will do anything.
    Mr. Lipinski. I encourage all my colleagues to support this 
amendment, and I yield back the balance of my time.
    [The prepared statement of Mr. Lipinski follows:]

          Prepared Statement of Representative Daniel Lipinski

    Thank you, Mr. Chairman. My simple amendment contains a small, yet 
important addition to the underlying bill.
    The amendment would help supply chain manufacturers to increase 
recycling, with the goal of reducing or even eliminating the use or 
generation of hazardous substances. Manufacturing Extension Partnership 
(MEP) Centers would assist in these efforts as they work to enhance the 
productivity and technological performance of U.S. manufacturers.
    I firmly believe that by incorporating innovative recycling 
practices into their manufacturing processes, American industries will 
better position themselves to compete in the increasingly global 
marketplace. In addition, through the increased practice of recycling, 
our manufacturers will help to reduce the production of solid and 
hazardous waste, and improve our environment, and potentially lower 
greenhouse gas emissions and make our country more secure by lessening 
our need for foreign sources of energy.
    I applaud Dr. Gingrey's work on this bill and am pleased that 
Chairman Gordon has worked toward its passage. I'd like to thank the 
Committee staff and Dr. Gingrey for working with me and accepting my 
amendment. I encourage all of my colleagues to support this amendment.
    I yield back the balance of my time.

    Chairman Gordon. Is there further discussion on the 
amendment? If no, the vote occurs on the amendment. All in 
favor, say aye. Aye. Those opposed, no. The ayes have it. The 
amendment is agreed to.
    The second amendment on the roster is offered by the 
gentlelady from Texas, Ms. Johnson. Are you ready to proceed 
with your amendment?
    Ms. Johnson. Yes, Mr. Chairman. I have an amendment at the 
desk.
    Chairman Gordon. The Clerk will report the amendment.
    The Clerk. Amendment to H.R. 2850, offered by Ms. Eddie 
Bernice Johnson of Texas.
    Chairman Gordon. I ask unanimous consent to dispense with 
the reading. Without objection, so ordered. The gentlelady is 
recognized for five minutes to explain the amendment.
    Ms. Johnson. Thank you, Mr. Chairman. I won't take the five 
minutes. I will submit the statement. I simply want to say that 
I strongly support the bill, and I appreciate Dr. Gingrey 
accepting this amendment, which merely says ``Minority-serving 
institutions shall receive due consideration for such 
funding.'' And that is the end of it. I yield back the balance 
of my time, and ask that the bill be passed.
    Chairman Gordon. Are there further, anyone, is there anyone 
else that would like to address this amendment? If no, the vote 
occurs on the amendment. All in favor, say aye. Aye. Those 
opposed, no. The ayes have it. The amendment is agreed to.
    Are there other amendments? If no, then the vote is on the 
bill, H.R. 2850, as amended. All those in favor will say aye. 
Aye. All those opposed will say no. In the opinion of the 
Chair, the ayes have it.
    I recognize Mr. Hall to offer a motion.
    Mr. Hall. Mr. Chairman, I move that the Committee favorably 
report H.R. 2850, as amended, to the House with the 
recommendation that the bill, as amended, do pass. Furthermore, 
I move that the staff be instructed to prepare the legislative 
report, and make necessary technical and conforming changes, 
and that the Chairman take all necessary steps to bring the 
bill before the House for consideration.
    I yield back.
    Chairman Gordon. The question is on the motion to report 
the bill favorably. Those in favor of the motion will signify 
by saying aye. Aye. Opposed no. The ayes have it. The bill is 
favorably reported.
    Without objection, the motion to reconsider is laid upon 
the table. The Members will have two subsequent calendar days 
in which to submit supplemental, Minority, or additional views 
on the measure, ending Monday, June the 16th, at 7:00 a.m.
    I move, pursuant to Clause 1 of Rule 22 of the Rules of the 
House of Representatives, that the Committee authorize the 
Chairman to offer such motions as may be necessary in the House 
to adopt and pass H.R. 2850, the Green Chemistry Research and 
Development Act of 2007, as amended. Without objection, so 
ordered.
    I want to thank Members for their attendance. Under Rule 
IJ, further proceedings of this markup will stand in recess, 
subject to the call of the Chair.
    [Whereupon, at 11:07 a.m., the Committee stood in recess.]


                               Appendix:

                              ----------                              


        H.R. 2850, Section-by-Section Analysis, Amendment Roster


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

               Section-by-Section Analysis of H.R. 2850,
        the Green Chemistry Research and Development Act of 2007

Section 1: Short Title

    ``Green Chemistry Research and Development Act of 2004.''

Section 2: Definitions

    Defines terms used in the text including green chemistry, 
interagency working group, and program.

Section 3: Green Chemistry Research and Development Program

    This section directs the President to establish an interagency 
research and development (R&D) program to promote and coordinate 
federal green chemistry research, development, demonstration, 
education, and technology transfer activities. The program will provide 
sustained support for green chemistry R&D through merit-reviewed 
competitive grants, R&D partnerships of universities, industry, and 
non-profit organizations, and through R&D conducted at federal 
laboratories.
    The program will provide support for, and encouragement of, the 
application of green chemistry through encouragement of, the 
application of green chemistry in all federally funded chemical science 
and engineering R&D; examination of methods to create incentives for 
the use of green chemistry; promotion of the education and training of 
undergraduate and graduate students and professional chemists and 
chemical engineers in green chemistry; collection and dissemination of 
information on green chemistry R&D and technology transfer; and 
provision of venues of outreach and dissemination of green chemistry 
advances such as symposia, forums, conferences, and written materials.
    Establishes an interagency working group composed of 
representatives from the National Science Foundation, the National 
Institute for Standards and Technology, the Department of Energy, the 
Environmental Protection Agency, and any other agency that the 
President may designate, to oversee the planning, management, and 
coordination of all federal green chemistry R&D activities.
    Names the Director of the National Science Foundation and the 
Assistant Administrator for R&D at the Environmental Protection Agency 
as co-chairs and requires the group to establish goals and priorities 
for the program and provide for interagency coordination, including 
budget coordination. Requires the group to submit a report to the 
Committee on Science and Technology of the House of Representatives and 
the Committee on Commerce, Science, and Transportation of the Senate 
within two years of the enactment of this legislation that includes a 
summary of the progress made towards the goals and priorities 
established for the program, including recommendations for future 
program activities.

Section 4:  Manufacturing Extension Center Green Suppliers Network 
                    Grant Program

    Amends the National Institute of Standards and Technology Act to 
make eligible as a Manufacturing Extension Program activity with the 
enabling of supply chain manufactures to conduct activities with the 
aim of reducing or eliminating the use or generation of hazardous 
substances.

Section 5:  Undergraduate Education in Chemistry and Chemical 
                    Engineering

    This section enables the Director of the National Science 
Foundation to award grants to institutions of higher learning to revise 
undergraduate curriculum in chemistry and chemical engineering to 
incorporate green chemistry concepts and strategies.

Section 6: Study on the Commercialization of Green Chemistry

    This section calls for the Director of the National Science 
Foundation to conduct a study with the National Research Council to 
examine the barriers to the successful commercial application of 
promising results from green chemistry research and development.

Section 7: Partnerships in Green Chemistry

    This section establishes a program to award grants to institutions 
of higher education to create partnerships with companies in the 
chemical industry to retrain chemists and chemical engineers in the use 
of green chemistry concepts and strategies.

Section 8: Authorization of Appropriations

    Authorizes appropriations for green chemistry R&D programs from 
sums already authorized to be appropriated, for the National Science 
Foundation, the National Institute of Standards and Technology, the 
Department of Energy, and the Environmental Protection Agency.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



    PROCEEDINGS OF THE MARKUP BY THE SUBCOMMITTEE ON TECHNOLOGY AND 
 INNOVATION ON H.R. 5789, THE SCIENCE AND TECHNOLOGY INNOVATION ACT OF 
                                  2008

                              ----------                              


                       WEDNESDAY, APRIL 16, 2008

                  House of Representatives,
         Subcommittee on Technology and Innovation,
                                      Committee on Science,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 2:08 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. David Wu 
[Chairman of the Subcommittee] presiding.
    Chairman Wu. Good afternoon. The Subcommittee on Technology 
and Innovation will now come to order, and pursuant to notice, 
the Subcommittee on Technology and Innovation meets to consider 
the following measure: H.R. 5789, the Science and Technology 
Innovation Act of 2008. We will now proceed with the markup, 
beginning with opening statements, and the Chair recognizes 
himself.
    I want to welcome everyone to the Subcommittee markup of 
H.R. 5789, the Science and Technology Innovation Act of 2008. 
This bill reauthorizes two programs critical to the 
competitiveness of the United States, the Small Business 
Innovation Research Program, or SBIR, and the Small Business 
Technology Transfer Program, STTR. Our committee has been 
working on this bill for quite some time, and I want to thank 
Ranking Member Phil Gingrey and all of the Members of the 
Committee for continuing our work in crafting legislation which 
supports innovation.
    In today's economy, small business is often where 
innovation comes from. The Science and Technology Committee, 
and especially the Technology and Innovation Subcommittee, 
intends to promote science and technology research that drives 
an innovation-based economy. SBIR and STTR are key components 
of our innovation agenda. At more than $2.3 billion per year, 
SBIR and STTR comprise the largest source of federal support 
for technology innovation for the private sector. These funds 
help companies with innovative ideas bring their products to 
market to create both new products and jobs. However, these 
programs originated more than 20 years ago, and much has 
changed since then. These programs need to be restructured to 
reflect the current global competitive environment, and the 
Technology and Innovation Subcommittee held numerous hearings 
last year on the SBIR and STTR programs to analyze their place 
in an innovation agenda for the 21st century.
    Our witnesses made many suggestions on how the SBIR and 
STTR programs could be strengthened. During hearings for the 
reauthorization of the National Nanotechnology Initiative, 
witnesses said that programs like SBIR and STTR are necessary 
if the U.S. is going to capture the economic benefits of our 
federal investment in nanotechnology research. Outside groups 
agree. SBIR and STTR are important to commercializing 
inventions that begin with investments in basic research and 
end with new jobs, new products, and new services. Members of 
this committee agree on the importance of our high-tech 
entrepreneurial companies in creating new technologies, and 
these are exactly the companies targeted by SBIR. STTR links 
these small high-tech companies with our universities, which 
are a key creator of new high-tech ideas.
    Based upon this subcommittee's hearings, H.R. 5789 will do 
the following: it reauthorizes the SBIR and STTR programs 
through 2010. Although this period is short, it will put both 
programs on the same reauthorization cycle. In addition, the 
authorization timeframe will give Congress time to examine how 
well each program is working to better focus on innovation. 
Next, for any federal agency which spends more than $100 
million per year on extramural research, it would set increases 
to 3.0 percent for SBIR and to 0.6 percent for STTR. This 
emphasizes the importance we place upon SBIR and STTR as part 
of the innovation agenda. Third, this bill increases phase-one 
awards from $100,000 to $300,000, and it increases phase-two 
awards from $750,000 to $2.2 million to better reflect the 
actual costs of doing high-tech research in today's 
environment. Number four, it increases the flexibility of the 
SBIR program by allowing cross-agency awards and allowing 
applicants to apply directly for phase-two funding. Number 
five, the bill allows venture-capital backed small businesses 
to apply for awards and defines eligibility requirements. 
Number six, the bill expands requirements on agency databases 
of award recipients and also requires inter-operability and 
accessibility between agency databases, and this will permit 
improved oversight by the agencies and by Congress, on how on 
the agencies and how the programs are operating. Number seven, 
the bill allows for no more than three percent of program funds 
to be used for administrative costs. Currently, agencies pay 
for administration of SBIR, taking funds from other agency 
programs, and naturally, they must try to administer the 
program as cheaply as possible. This results in little 
oversight of the program, with a focus on simply obligating all 
of the funds. That is not the type of management we want for an 
over $2 billion program. At our hearing, it was agreed that 
allowing some administrative costs would help improve the 
quality and oversight of the program. And finally, the bill 
establishes an interagency committee, co-chaired by the 
Director of OSTP and the Director of NIST, to report to 
Congress on both practices for commercialization of SBIR- and 
STTR-funded research.
    In closing, this subcommittee has been a leader in passing 
legislation that advances our innovation agenda. Today, we 
continue our leadership by reauthorizing SBIR and STTR. I urge 
my colleagues to support the legislation, and I now recognize 
Dr. Gingrey to present his opening remarks.
    [The prepared statement of Chairman Wu follows:]

                Prepared Statement of Chairman David Wu

    I want to welcome everyone to the Subcommittee markup of H.R. 5789, 
the Science and Technology Innovation Act of 2008. This bill 
reauthorizes two programs critical to the competitiveness of the U.S., 
the Small Business Innovative Research Program (SBIR) and the Small 
Business Technology Transfer Research Program (STTR).
    Our committee has been working on this bill for some time, and I 
want to thank my Ranking Member Dr. Gingrey and all the Members of the 
Committee for continuing our work in crafting legislation that supports 
innovation.
    In today's economy, small business is where innovation happens. The 
Science and Technology Committee, especially the Technology and 
Innovation Subcommittee, intends to promote science and technology 
research that drives an innovation-based economy.
    SBIR and STTR are key components of our innovation agenda. At more 
than $2.3 billion per year, SBIR and STTR comprise the largest source 
of federal support for technological innovation in the private sector. 
These funds help companies with innovative ideas bring their products 
to market.
    However, these programs originated more than 20 years ago. Much has 
changed since then; these programs need to be restructured to reflect 
the current global innovation environment.
    The Technology and Innovation Subcommittee held hearings last year 
on the SBIR and STTR programs to analyze their place in an innovation 
agenda for the 21st century. Our witnesses made many suggestions on how 
the SBIR and STTR programs could be strengthened.
    During hearings for the reauthorization of the National 
Nanotechnology Initiative (NNI), witnesses said that programs like SBIR 
and STTR are necessary if the U.S. is going to capture the economic 
benefits of our federal investment in nanotechnology research.
    Outside groups agree--SBIR and STTR are important to 
commercializing products that begin with investments in basic research.
    Members of this committee agree on the importance of our high-tech 
entrepreneurial companies in creating new technologies. These are 
exactly the companies targeted by SBIR. STTR links those small high-
tech companies with our universities, which are a key cradle of new 
high-tech ideas.
    Based upon this subcommittee's hearings H.R. 5798 does the 
following:

        1.  Reauthorizes the SBIR & STTR programs thru 2010. This will 
        put both programs on the same reauthorization cycle. In 
        addition, the authorization time frame will give Congress time 
        to examine how well both programs are working to better focus 
        on innovation.

        2.  For any federal agency which spends more than $100 million 
        in intra- or extramural research per year, the set aside 
        increases to 3.0 percent for SBIR and to 0.6 percent for STTR. 
        This emphasizes the importance we place upon SBIR and STTR as 
        part of the innovation agenda.

        3.  Increases the Phase I awards from $100,000 to $300,000 and 
        Phase II awards from $750,000 to $2.2 million to better reflect 
        the actual costs of doing high-tech research;

        4.  Increases the flexibility of the SBIR program by allowing 
        cross-agency awards and allowing applicants to apply directly 
        for Phase II funding;

        5.  Allows venture capital-backed small businesses to apply for 
        awards and defines eligibility requirements;

        6.  Expands requirements on agency databases of award 
        recipients. This section also requires inter-operability and 
        accessibility between agency databases. This will allow for 
        improved oversight by Congress on how agencies actually operate 
        SBIR programs.

        7.  Establishes an Interagency Committee co-chaired by the 
        Director of OSTP and the Director of NIST to report to Congress 
        on the best practices for commercialization of SBIR- and STTR-
        funded research.

    In closing, this subcommittee has been a leader in passing 
legislation that advances our innovation agenda. Today we continue our 
leadership by reauthorizing SBIR and STTR. I urge my colleagues to 
support this bill.

    Mr. Gingrey. Chairman Wu, I am pleased that this markup has 
been called today to look at the important issue of 
reauthorizing both the Small Business Innovation Research grant 
program, and the Small Business Technology Transfer Program, 
STTR.
    These are both grant programs that have been effective in 
providing government assistance to small businesses to help 
more people in our country achieve the American dream. However, 
Mr. Chairman, I do have to express concerns with the process, 
the legislative process, by which this bill has been conducted. 
I appreciate the Majority's willingness to hold hearing on this 
important matter, like we did last summer, but I do find it 
troubling that the final text of the Science and Technology 
Innovation Act of 2008 was only made available to the Minority 
once this markup was scheduled, late last week. I am proud to 
say, as I have many times in the past, that this committee 
operates in a very bipartisan way. In most cases, our Minority 
side is certainly given the opportunity to provide its input to 
the bills before they are marked up at the Subcommittee level. 
However, I find it unfortunate that that bipartisanship was 
compromised, I think, on this bill, maybe for the sake of 
legislative expediency. Had the Minority been consulted much 
earlier, and had we been given a better notice of today's 
markup, I believe--I truly believe that this legislation would 
be a reflection of broad input from Members on both sides of 
the aisle.
    With that said, Mr. Chairman, I yield back the balance of 
my time.
    [The prepared statement of Mr. Gingrey follows:]

           Prepared Statement of Representative Phil Gingrey

    Chairman Wu, I am pleased that this markup has been called today to 
look at the important issue of reauthorizing both the Small Business 
Innovation Research grant program and the Small Business Technology 
Transfer program. These are both grant programs that have been 
effective in providing government assistance to small businesses to 
help more people in our country achieve the American Dream.
    However, Mr. Chairman, I have to express my concerns with the 
legislative process by which this bill has been conducted. I appreciate 
the Majority's willingness to hold hearings on this important matter 
last summer, but I find it troubling that the final text of the Science 
and Technology Innovation Act of 2008 was only made available to the 
Minority once this markup was scheduled late last week.
    I am proud to say that this committee operates in a very bipartisan 
way. In most cases, the Minority is given the opportunity to provide 
its input to the bill before it is marked up at the Subcommittee level. 
However, it is unfortunate that the bipartisanship was compromised on 
this bill for the sake of legislative expediency. Had the Minority been 
consulted much earlier and been given better notice of today's markup, 
I believe that this legislation would be a reflection of broad input 
from Members on both sides of the aisle.
    Mr. Chairman, I yield back the balance of my time.

    Chairman Wu. And I thank the gentleman, and I understand 
the gentleman's concern about the pace of these proceedings, 
and I personally apologize for any sense of rush on this bill. 
And quite honestly, it was our intent, I think, by staff on 
both sides, to markup this bill just a little ways down the 
pike. But I do believe that a copy of the bill, which is 
substantially unchanged from today's bill, was given to both 
the Majority and Minority side around the middle of March, but 
it was the expectation of both sides that this markup would 
occur a little bit later than this, and due to circumstances 
beyond this Chairman's control, the markup is occurring today.
    Mr. Gingrey. Chairman, if you would yield to me for a 
question.
    Chairman Wu. Yes, I would be happy to yield.
    Mr. Gingrey. Well, that being said, is it the intention 
that this bill will be marked up in the Full Committee after we 
get done with the markup today in Subcommittee?
    Chairman Wu. This subcommittee will markup the legislation. 
The full Small Business Committee, which traditionally has 
marked up first, will markup parallel legislation tomorrow, and 
then we will be bringing those bills together and bringing the 
legislation to the Floor.
    Mr. Gingrey. If the Chairman will yield for just an 
additional question?
    Chairman Wu. I would be happy to yield.
    Mr. Gingrey. Is it not true, though, that that is not what 
we would normally consider regular order, regular order being a 
markup at a Subcommittee level, and then pending approval, a 
markup by the Full Committee. I would assume that is what is 
happening in the Small Business Committee, and I just wonder 
why they are swaying away from regular order in that regard.
    Chairman Wu. Reclaiming my time, my understanding, although 
I am not intimately familiar with their proceedings, my 
understanding is that the Small Business Committee is not 
having a Subcommittee markup. They are having a Full Committee 
markup. Now, prior to this date, at least in this Congress, we 
have, as far as I know, consistently moved legislation from 
Subcommittee to Full Committee and then to the Floor. There may 
have been an exception to that during the 100 days agenda, but 
I am working off recollection, and I just don't know if it is 
100 percent or not.
    Mr. Gingrey. If the Chairman will yield?
    Chairman Wu. I would be happy to yield.
    Mr. Gingrey. Mr. Chairman, and I appreciate very much that 
explanation. How do you foresee these bills being put together 
before they go to the Floor?
    Chairman Wu. I think that the two committees, the bills, as 
marked-up by this subcommittee, and the bill as marked-up by 
the full Small Business Committee, will be substantially 
similar. That is not to preclude the possibility that there may 
be managers amendments or other changes between there and the 
Rules Committee and the Floor.
    Mr. Ehlers. Will the gentleman yield?
    Chairman Wu. I would be happy to yield.
    Mr. Ehlers. Thank you, Mr. Chairman. Just to comment--and 
nothing I say should be construed as criticism of you or the 
Chairman of the Full Committee or the majority party, but I am 
disturbed by the process and largely because this, once again, 
is a case where the Science Committee is getting stomped upon 
by another committee with which it shares jurisdiction. We are 
equal partners in this particular topic, the SBIR. SBA runs the 
program, but we are supposed to monitor the science related to 
it, and we, by the extreme rush with which the other committee 
is handling this, without giving us adequate time to deal with 
it, with suddenly going to Full Committee, reporting it out to 
the Floor. That does not give us an opportunity to really work 
our will on this. We have had the hearings. We have had a 
couple of hearings, over two years, on this issue, waiting for 
the other committee of jurisdiction to act, and now finally 
they are acting, and after two years of diddling around, 
suddenly it has to be done in two days and go to the Floor 
immediately. I object to that procedure, partially because I 
think it really endangers the jurisdiction of this committee. 
This is not the first time that other committees have treated 
us shabbily. I think we really have to, as the youngest 
committee here, and one that did not get adequate jurisdiction 
when it was originally created--obviously, NIH should be in 
this committee, but it isn't because another committee refused 
to give it up. But we see this over and over, and the only way 
we are going to get the subjects before this committee that 
really belong before this committee is to dig in our heels and 
say enough. We are going to claim full responsibility and full 
opportunity in this committee as well. So as I say, this is not 
a criticism of you or the Majority in any sense. It is a 
criticism of the institution, perhaps, on behalf of this 
committee, that we really have to make it clear we are here to 
stay. We are going to act with force on all issues that come 
before, and above all, I would hope that the Majority would 
insist that when this bill goes to the Floor, it goes after 
proceeding through the Rules Committee so that we have the 
opportunity to present amendments there. If after this charade 
that we are going through now it goes directly to the Floor on 
a suspension, we will not have had any opportunity to input, 
and I will certainly raise strong objections to that. And I vow 
to get leaders of the Minority party to also raise a fuss about 
it, lest there be an opportunity to debate these issues on the 
Floor, at least, if we don't have a chance to work on them with 
the other committee of jurisdiction.
    So as you know, I am an even-tempered person. I don't get 
angry often, but this is a case where I think we have to fight 
together. We have to fight for the jurisdiction of this 
committee and make it known that we do not want this sort of 
thing. Thank you very much for yielding.
    Chairman Wu. I thank the gentleman for his comments, in 
reclaiming my time. Without commenting on the scheduling of any 
other committee, it is precisely because I believe very 
strongly in the input of the Subcommittee, and preferably the 
whole Committee, that we are holding this markup today so that 
Members can have as much opportunity as possible to consider 
the bill, to propose amendments, and the gentleman certainly 
has my full support to take this bill to the Floor under a 
rule, rather than under suspension of the rules.
    Mr. Ehlers. And I do thank you for holding this hearing, 
and I appreciate that.
    Chairman Wu. I thank the gentleman.
    Mr. Gingrey. Mr. Chairman, if you would yield for an 
addition short----
    Chairman Wu. I would be happy to yield.
    Mr. Gingrey. The gentleman from Michigan said he is an 
even-tempered man, and the gentleman from Georgia is also even-
tempered; mad all of the time. But no, truly, in the spirit of 
bipartisanship, which especially prevails on this subcommittee, 
Mr. Chairman, we respect you for that, a great wake-up call not 
only would be to bring this bill to the Floor under a rule, but 
also encourage you, Mr. Subcommittee Chairman, to ask our Full 
Committee Chairman and maybe also Chairman Velazquez of the 
Small Business Committee, to encourage the Rules Committee to 
make this open rule. And that would be, I think, a very great 
statement for bipartisanship, and we would hope that you would 
do that for us.
    Chairman Wu. Reclaiming my time, I certainly enjoy and 
encourage and value the bipartisanship of this subcommittee and 
the Full Committee. I will strongly encourage bringing this 
bill under a rule to the Floor. I am afraid that what kind of 
rule it is under is a little bit above my pay-grade, and I 
thank the gentleman for his comments. We do have a set of Floor 
votes, which have been called, and there are two minutes left 
to vote, and under those circumstances, I would like to recess 
this markup until after the Floor votes, and those Floor votes 
will take probably somewhere between 30 and 60 minutes, and we 
will reconvene, very promptly after the Floor votes.
    [Recess.]
    Chairman Wu. The Committee is reconvened. Without 
objection, any Members who have opening statements may place 
their statements in the record at this point.
    I ask unanimous consent that the bill is considered read 
and open to amendment at any point, and that Members proceed 
with the amendments in the order of the roster. Without 
objection, so ordered.
    The first amendment on the roster is an amendment offered 
by the gentleman from Michigan, Dr. Ehlers. Dr. Ehlers, are you 
ready to proceed with your amendment?
    The Clerk will report the amendment.
    The Clerk. Amendment to H.R. 5789.
    Chairman Wu. I ask unanimous consent to dispense with the 
reading. Without objection, so ordered.
    Dr. Ehlers, you are recognized for five minutes.
    Mr. Ehlers. Thank you, Mr. Chairman. This is a very 
straightforward amendment. It would strike sections 201 and 
202, which provide for an increase in the agencies set aside to 
three percent, when it is currently 2.5 percent, for SBIR, and 
.06 percent, up from the current .03 percent, for the STTR.
    My concern about this is, first of all, it is a substantial 
increase in the set-aside in both cases. Secondly, as we all 
know, when the Omnibus Bill was passed last fall, it did major 
damage to the funding for the science organizations of the 
federal government, particularly the National Science 
Foundation, NIST, Department of Energy, and several other 
agencies. And it seems to me particularly strange that when we 
have either reduced or given very small increases for the basic 
research, which this country desperately needs, and which is 
what the COMPETES Act was all about, which this committee 
worked on so hard for so long, it seems strange to me that when 
the funding is low, that we would increase the set-aside and do 
even greater damage to a agencies such as the National Science 
Foundation, et cetera. It is just--even aside from whether or 
not they should have the increase, which we can certainly 
debate, this is obviously the wrong time to do it, and I 
believe it will hurt the science agencies of the Federal 
Government which are already really struggling. The Department 
of Energy, for example, is laying off several hundred people as 
a result of the cuts they received in the Omnibus Bill, so I 
strongly support this amendment, and I hope we will pass it. We 
can consider changing the set-aside at some future date, once 
we properly restore funding to the science agencies I 
mentioned.
    I yield back the balance of my time.
    Chairman Wu. Thank you, Doctor. Anyone seeking time?
    The Chair recognizes himself. Regrettably, I oppose this 
amendment. The increase to three percent would be more than 
offset by the R&D increases authorized in the America COMPETES 
Act, and if the authorization levels are met by the 
appropriators of the increase to three percent, it will not 
decrease the amount of funds available for pure research.
    Additionally, at our hearings, there is uniform support for 
increasing the size of awards, at a minimum, to adjust for 
inflation. However, I think that many folks are concerned that 
if we do increase the size of awards, that there will be fewer 
awards, so we do need to increase the set-aside, and on that 
basis, I support the gentleman's sentiment to increase the 
amount of money available to research, but I think three 
percent is a reasonable number for commercialization of the 
products, of the fruits of that research, to turn the research 
into products and jobs.
    Any other comment on the amendment?
    Mr. Ehlers. Will the gentleman yield?
    Chairman Wu. I would be happy to yield.
    Mr. Ehlers. Thank you for yielding. I just would like to 
comment that--and I can see the handwriting on the wall here--
but I think this is another good argument for taking this to 
the Floor under a rule so that we will have an opportunity to 
offer these amendments there, primarily because this is not 
going to Full Committee, and so most of the Science Committee 
will not have an opportunity to debate this amendment unless we 
do have the opportunity to offer amendments on the Floor.
    Chairman Wu. Reclaiming my time, as the gentleman knows, I 
support the gentleman's sentiment about bringing this 
legislation to the Floor under a rule.
    Is there any further discussion of the amendment?
    Chairman Gordon. Mr. Chairman?
    Chairman Wu. The Chairman of the Full Committee is 
recognized for five minutes.
    Chairman Gordon. Well, he doesn't need that long, but let 
me just say that Dr. Ehlers has a reputation for not bringing 
frivolous got-you amendments to this committee, and this is a 
thoughtful--there can be disagreements, but no one would 
disagree that his approach here--it is my understanding, and I 
am not guaranteeing anything--but it is my understanding that 
there is an interest in bringing this bill to the Floor with a 
rule. I will communicate, again for whatever that is worth, to 
the Rules Committee that I think it is appropriate. I may not 
support it. I probably won't support it, because there has been 
a delicate balance reached in making this, with a consultation, 
both with the Minority as well as with the Small Business, but 
there can be no question that this is a worthwhile amendment, 
and I will, again, ask--I used to be on the Rules Committee, 
but I am not any longer, so all I can do is ask.
    Mr. Ehlers. I appreciate that. Thank you.
    Chairman Wu. Is there any further discussion of the 
amendment?
    And if not, the vote occurs on the amendment. All in favor 
say aye. Those opposed to say no. In the opinion of the Chair, 
the nos have it. And the nos have it.
    Mr. Ehlers. Mr. Chairman, could we have a recorded vote on 
that, please?
    Chairman Wu. The Clerk will call the roll.
    The Clerk. Chairman Wu.
    Chairman Wu. No.
    The Clerk. Chairman Wu votes no.
    Ms. Richardson.
    Ms. Richardson. No.
    The Clerk. Ms. Richardson votes no.
    Mr. Matheson.
    Mr. Matheson. No.
    The Clerk. Mr. Matheson votes no.
    Mr. Mitchell.
    [No response.]
    The Clerk. Mr. Wilson.
    Mr. Wilson. No.
    The Clerk. Mr. Wilson votes no.
    Mr. Chandler.
    Mr. Chandler. No.
    The Clerk. Mr. Chandler votes no.
    Mr. Ross.
    Mr. Ross. No.
    The Clerk. Mr. Ross votes no.
    Mr. Gordon.
    Chairman Gordon. No.
    The Clerk. Mr. Gordon votes no.
    Mr. Gingrey.
    Mr. Gingrey. Yes.
    The Clerk. Mr. Gingrey votes aye.
    Mr. Ehlers.
    Mr. Ehlers. Yes.
    The Clerk. Mr. Ehlers votes aye.
    Ms. Biggert.
    Ms. Biggert. Aye.
    The Clerk. Ms. Biggert votes aye.
    Mr. Adrian Smith.
    Mr. Smith. Aye.
    The Clerk. Mr. Adrian Smith votes aye.
    Mr. Broun.
    [No response.]
    The Clerk. Mr. Hall.
    [No response.]
    Chairman Wu. The Clerk will report the tally.
    The Clerk. Mr. Chairman, four Members vote aye, and seven 
Members vote no.
    Chairman Wu. The amendment is not agreed to.
    The second amendment on the roster is an amendment offered 
by the gentleman from Georgia, Dr. Gingrey. Dr. Gingrey, are 
you ready to proceed with your amendment?
    Mr. Gingrey. Mr. Chairman, yes, I have an amendment at the 
desk.
    Chairman Wu. The Clerk will report the amendment.
    The Clerk. Amendment 017, Amendment to H.R. 5789, offered 
by Mr. Gingrey of Georgia.
    Chairman Wu. I ask unanimous consent to dispense with the 
reading. Without objection, so ordered.
    I recognize the Ranking Member, Dr. Gingrey, for five 
minutes to explain his amendment.
    Mr. Gingrey. Mr. Chairman, thank you. This amendment that I 
am offering to H.R. 5789 will provide a practical way to 
maintain the integrity of SBIR and STTR programs.
    In the current form, the bill allows for companies to apply 
directly for a Phase II grant, and we know those grants have a 
maximum award, now, of $2.2 million. They can do this without 
having received a Phase I grant. I find this practice to be 
somewhat problematic because it allows companies to conduct 
Phase I process on private funds before approaching the Federal 
Government for SBIR or STTR assistance in Phase II. Ostensibly, 
if a company has the ability to use private funds for Phase I, 
then it should be able to continue to Phase II on private 
funds. I believe that the current language regarding this 
within H.R. 5789 only provides incentives to companies that can 
already afford to cultivate R&D initiatives to come to the 
Federal Government when they should not do so. This practice 
has the potential of reducing the opportunity for companies 
that truly need the assistance to utilize SBIR and STTR 
programs the way that they are intended.
    I am offering this amendment to specifically address this 
issue by striking the language that provides for bypassing 
Phase I grants. Therefore, the bill would require that in order 
for a company to be eligible for a Phase II grant, it would 
first have to have been a recipient of a Phase I grant. I 
believe that adopting this amendment will strengthen the SBIR 
and STTR programs so that they can fulfill the mission, that of 
providing small-business assistance to entrepreneurs that are 
in the most need of financial assistance from the Federal 
Government.
    I urge my colleagues to support this amendment, and Mr. 
Chairman, with that, I will yield back the balance of my time.
    [The prepared statement of Mr. Gingrey follows:]

           Prepared Statement of Representative Phil Gingrey

    Mr. Chairman, this second amendment that I am offering to H.R. 5789 
will provide yet another practical way to maintain the integrity of the 
SBIR and the STTR programs.
    In its current form, H.R. 5789 allows for companies to apply 
directly for a Phase II grant that has a maximum award of $2.2 million, 
without having received a Phase I grant. I find this practice to be 
somewhat problematic because it allows companies to conduct the Phase I 
process on private funds before approaching the federal government for 
SBIR or STTR assistance in Phase II.
    Ostensibly, if a company has the ability to use private funds for 
Phase I, then it should be able to continue to Phase II on private 
funds. I believe that the current language regarding this within H.R. 
5789 only provides incentives to companies that can already afford to 
cultivate R&D initiatives to come to the Federal Government when they 
should not do so. This practice has the potential of reducing the 
opportunity for companies that truly need the assistance to utilize the 
SBIR and STTR programs the way they are intended.
    I am offering this amendment to specifically address this issue by 
striking the language that provides for bypassing Phase I grants. 
Therefore, the bill would require that in order for a company to be 
eligible for a Phase II grant, it would first have to have been the 
recipient of a Phase I grant.
    I believe that adopting this amendment will strengthen the SBIR and 
STTR programs so that they can fulfill the mission of providing small 
business assistance to entrepreneurs that are in the most need of 
financial assistance from the Federal Government.
    I urge all of my colleagues to support this amendment, and I yield 
back the balance of my time.

    Chairman Wu. I thank the gentleman, and again, regrettably, 
I must oppose the amendment, because if a small business has 
already done the preliminary work under Phase I, I do not think 
that the business should be penalized for having spent its own 
money, and then coming to the Federal Government for a Phase II 
grant, and skipping Phase I. The amounts are dramatically 
different. A Phase I grant, under the proposed legislation, is 
for $300,000, and a company that can afford $300,000 in 
development may not be able to afford the new amount in Phase 
II of $2.2 million.
    The agencies which testified to this subcommittee stated 
that it would enhance SBIR and STTR programs if a small 
business could apply directly for a Phase II award, and I must 
add that this is a not a mandatory program. This is an option 
to the agencies to permit skipping Phase I, if they choose to 
do so.
    Does anyone else seek recognition on the amendment?
    If not, then the vote occurs on the amendment. All in 
favor, say aye. Those opposed, say no. In the opinion of the 
Chair, the nos have it, and the amendment is not agreed to.
    It is now in order to consider the third amendment on the 
roster, and it is also offered by the gentleman from Georgia, 
Dr. Gingrey. Dr. Gingrey, are you ready to proceed with your 
amendment?
    Mr. Gingrey. Mr. Chairman, yes, I have an amendment at the 
desk.
    Chairman Wu. The Clerk will report the amendment.
    The Clerk. Amendment 019, Amendment to H.R. 5789, offered 
by Mr. Gingrey of Georgia.
    Chairman Wu. I ask unanimous consent to dispense with the 
reading, and without objection, so ordered.
    I recognize the gentleman from Georgia for five minutes to 
explain his amendment.
    Mr. Gingrey. Mr. Chairman, thank you. Again, I brought 
forth what I believe is a very common sense and practical 
amendment to ensure that small business innovation and research 
grants actually go to small business applicants.
    Put simply, venture capital is important to small business 
initiatives because it provides needed financial assistance and 
credibility to the ideas and products that possess the 
potential to be commercialized. However, because these grants 
are intended for small business research and development, we 
must ensure that venture capital does not represent a majority 
of the financial interest within an SBIR application. The 
manner in which this bill is currently written only limits a 
single venture capital firm from owning 49 percent of the 
interest of the company applying for the SBIR grant. This 
leaves open the possibility that more than one venture capital 
firm could own in the aggregate a majority of financial 
interest within the company. I mean an example, in the 
aggregate, all owning less than 49 percent, they could own 99 
percent of the company, if you had two or more, as an example.
    I have just given that worst-case scenario, so Mr. 
Chairman, I believe that this really goes against the spirit of 
the SBIR program, and I had some language that I wanted to read 
from the report language of the original bill, back in 1982, 
and it says ``the recognition of the ability of the small firm 
to develop and commercialize new technologies coupled with the 
apparently declining rate of innovation and productivity in 
United States industries as a whole have led to widespread 
interest in the problems of the small business community and 
the amount of federal R&D funding which is flowing into this 
sector.'' And then it goes on to say under subparagraph B, 
state of small business participation in federal R&D, ``a 
purpose of the bill is to increase the utilization of small 
business in federal research and development. Some have argued 
that a set-aside of federal R&D funds for small business is 
justified on the basis that small firms have been demonstrably 
innovative and yet receive a small share of the federal R&D 
budget. During debate on the legislation, frequent reference 
have been made to the small business share of federal R&D.''
    Mr. Chairman, again, I believe that that hopefully reflects 
the original intent of the bill, and that what we are doing in 
regard to venture capitalists goes against the spirit of the 
SBIR program. Reading further from that report language, it 
says, specifically, the legislation is also intended to 
``provide seed capital to small, high-technology firms at the 
early high-risk stage of initial concept development.'' Funds 
provided under--well, that was the name of the bill back then. 
They go on to elaborate on that point. So the program is 
designed to provide assistance to a small business that may 
have an idea that can be considered a diamond in the rough, if 
you will, without necessarily having the financial backing to 
move its promising idea towards commercialization and maybe 
even the interest of venture capitalists at the outset.
    My amendment would assure that we continue to help out the 
true small business entrepreneurs by simply limiting the total 
amount of venture capital investment in the company of a SBIR 
application to 49 percent of their financial interest. With the 
adoption of this amendment, this legislation will acknowledge 
the importance of the influence that venture capital can play 
in small business research and development, while still 
maintaining the integrity of the SBIR program.
    Mr. Chairman, I urge all of my colleagues on the 
Subcommittee to support this amendment, and I yield back the 
balance of my time.
    [The prepared statement of Mr. Gingrey follows:]

           Prepared Statement of Representative Phil Gingrey

    Mr. Chairman, I have brought forth what I believe is a very common 
sense and practical amendment to ensure that Small Business Innovation 
Research grants actually go to small business applicants.
    Put simply, venture capital is important to small business 
initiatives because it provides needed financial assistance and 
credibility to the ideas and products that possess the potential to be 
commercialized. However, because these grants are intended for small 
business research and development, we must ensure that venture capital 
does not represent a majority of the financial interest within an SBIR 
applicant.
    The manner in which this bill is currently written only limits a 
single venture capital firm from owning 49 percent of the interest of 
the company applying for the SBIR grant. This leaves open the 
possibility that multiple venture capital firms could own the majority 
of financial interest within the company. Additionally, in the worst-
case scenario, two venture capital firms could own up to 98 percent of 
the holdings of the company.
    Mr. Chairman, I believe that this goes against the spirit of the 
SBIR program. The program is designed to provide assistance to a small 
business that may have an idea that can be considered a diamond in the 
rough, without necessarily having the financial backing to move its 
promising idea toward commercialization.
    My amendment would ensure that we continue to help out the true 
small business entrepreneur by simply limiting the total amount of 
venture capital investment in the company of an SBIR applicant to 49 
percent of the financial interest. With the adoption of this amendment, 
this legislation will acknowledge the importance of the influence that 
venture capital can play in small business research and development 
while maintaining the integrity of the SBIR program.
    Mr. Chairman, I urge all of my colleagues on the Subcommittee to 
support this amendment and I yield back the balance of my time.

    Chairman Wu. I thank the gentleman.
    Chairman Gordon. If the Chairman would yield? Let me just 
say that although Dr. Gingrey is not quite as pure as Dr. 
Ehlers, I recognize this is not a frivolous amendment by any 
means and that it is offered in good spirit. I have some 
concerns about basing the amendment on the 1982 report, but I 
know that, again, this is legitimate.
    I want to also point out that I am uncomfortable with this 
procedure. I think, you know, we have never taken this--
although in previous Congresses, it has been not uncommon to 
be, what you might say, out of regular order, we have not done 
that in this Congress. I think this is somewhat different in 
the fact that the minority received the draft on March 19. 
There were only minor changes, of which one was a--one of the 
minority suggestions which was incorporated into it. We got 
into extensive deliberations with the Small Business, much of 
which was, as Dr. Ehlers always recommends, maintaining our 
jurisdiction and trying to get it right. And so for that 
reason, we are going to be going, you know, to the Floor next 
week. There is not time to have a Full Committee markup. But I 
am once again, going to recommend to the Rules Committee that 
both of Dr. Gingrey's amendments be made in order, because I 
think it is appropriate that we have a more full discussion on 
this.
    Again, with that said, I will yield back the balance of my 
time.
    Chairman Wu. If there are no other speakers, I must again 
regrettably oppose the amendment.
    I must say that from the inception of SBIR until an 
Administrative Law Judge decision, there was no restriction on 
participation of venture capital in SBIR applicants, and in my 
view, the Administrative Law Judge got the law wrong in 2003, 
in interpreting the term ``American person.'' And I view that 
as a domestic ownership requirement, but the ALJ said that the 
term ``person'' did not include non-real person entities, and 
that is a determination that lawyers make as a standard item of 
statutory interpretation, so after that, in my view, erroneous 
interpretation, venture capitalists have not been permitted to 
own a majority stake in SBIR applicants, and this bill, in 
essence, partially, reverses that decision, and it is a 
carefully crafted partial reversal of that decision.
    No single venture capitalist may own a majority share of an 
SBIR applicant, but a consortium of venture capitalists may own 
any particular percentage of an applicant, and it is precisely 
those applicants which are potentially in a weaker negotiating 
position which may have had to give up a large share of their 
equity in order to get the application that would be hurt by a 
restriction on SBIR applications by those entities which have 
had to give up more than 50 percent of their ownership in order 
to get financed by a venture capitalist.
    And just one further point is that after this ALJ decision 
restricting the type of applicants eligible for SBIR grants, 
the National Cancer Institute noted a drop-off in applications 
and potentially a decrease in the quality of the applicants. 
Frequently, the venture capitalists are backing folks who have 
a better mousetrap, and a lot of those folks have become 
ineligible to apply for venture capital, so for all of those 
reasons, I am going to oppose the motion.
    Mr. Ehlers. I move to strike the last word.
    Chairman Wu. The gentleman is recognized for five minutes.
    Mr. Ehlers. Thank you, Mr. Chairman. This is really a 
difficult issue, and something that we have discussed in this 
committee quite a few times, and I guess my concern is the same 
as before that another committee has made this decision and we 
are simply accepting it. We have had some very good discussions 
and good ideas that have emerged, and this is, I think, a sort 
of brute-force approach, I think, to really resolve the problem 
properly and fairly for all parties, we need more 
consideration, more discussion, and try to come up with an 
approach that really accomplishes--or accommodates all of the 
parties involved, and so I am hesitant to--well, I certainly 
support the amendment, just because that will help us approach 
it better in further discussion, but I think--I recognize there 
is the possibility that we need some change here, but why this 
sudden dramatic change? And I would prefer that we did it in a 
more deliberate manner and tried to come up with a solution 
that really made more sense.
    So I will support the amendment and hope that we can debate 
this on the Floor.
    Chairman Wu. If the gentleman would yield?
    Mr. Ehlers. I would be happy to yield.
    Chairman Wu. In terms of any discussion with other 
committees, I would just like to point out that it was this 
committee which stood up for the ability of applicants to 
structure their capital structure any which way that they 
wished and not any other committee, and I yield back to the 
gentleman.
    Mr. Ehlers. I will yield back. Thank you.
    Chairman Gordon. If the Chairman would yield, just very 
quickly.
    Chairman Wu. The gentleman is recognized for five minutes.
    Chairman Gordon. Once again, the reason that--there should 
be no misunderstanding that the reason we are running a little 
bit late is that the Committee staff negotiated hard and tough 
and wouldn't let it come up next week until we got concessions 
from the other committee in question.
    Let me also point out that we have got to go through--
hopefully, this will pass on the Floor, and hopefully the 
Senate will get up a bill, and that we will go through 
conference, and that this is a dialogue that will continue, 
because we want the best bill that we can get.
    Chairman Wu. Is there any further discussion of the 
amendment?
    Mr. Gingrey. Mr. Chairman, if you would yield?
    Chairman Wu. I have no time to yield, but if----
    Mr. Ehlers. I will yield----
    Mr. Gingrey. Mr. Chairman, I can move to strike the last 
word, then.
    Chairman Wu. The gentleman is recognized.
    Mr. Gingrey. Thank you, Mr. Chairman. I don't need five 
minutes. Basically, I just wanted to, Mr. Chairman, for 
unanimous consent to submit a couple of letters in support of 
both amendments for the record, and one of these, Mr. Chairman, 
comes from the U.S. Small Business Administration. I will not 
read the letter, but it is a letter from a Steven Preston, the 
Administrator of the U.S. Small Business Administration in 
support of the amendment. And the other letter in support, Mr. 
Chairman, is from SBTC, the Small Business Technology Council, 
again, both addressed to you, Mr. Chairman, and myself, in 
support of both of the amendments that I have submitted, and I 
will ask unanimous consent to submit these for the record in 
support of the amendment.
    Chairman Wu. Without objection, so ordered.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Wu. Is there any further discussion of the 
amendment? If not, the vote occurs on the amendment. All in 
favor, say aye. Those opposed, say no.
    In the opinion of the Chair, the nos have it.
    Mr. Gingrey. Mr. Chairman, with that, I ask for a recorded 
vote.
    Chairman Wu. The Clerk will call the roll.
    The Clerk. Chairman Wu.
    Chairman Wu. No.
    The Clerk. Chairman Wu votes no.
    Ms. Richardson.
    Ms. Richardson. No.
    The Clerk. Ms. Richardson votes no.
    Mr. Matheson.
    Mr. Matheson. No.
    The Clerk. Mr. Matheson votes no.
    Mr. Mitchell.
    [No response.]
    The Clerk. Mr. Wilson.
    Mr. Wilson. No.
    The Clerk. Mr. Wilson votes no.
    Mr. Chandler.
    Mr. Chandler. No.
    The Clerk. Mr. Chandler votes no.
    Mr. Ross.
    Mr. Ross. No.
    The Clerk. Mr. Ross votes no.
    Mr. Gordon.
    Chairman Gordon. No.
    The Clerk. Mr. Gordon votes no.
    Mr. Gingrey.
    Mr. Gingrey. Yes.
    The Clerk. Mr. Gingrey votes aye.
    Mr. Ehlers.
    Mr. Ehlers. Yes.
    The Clerk. Mr. Ehlers votes aye.
    Ms. Biggert.
    [No response.]
    The Clerk. Mr. Adrian Smith.
    Mr. Smith. Aye.
    The Clerk. Mr. Adrian Smith votes aye.
    Mr. Broun.
    [No response.]
    The Clerk. Mr. Hall.
    [No response.]
    Chairman Wu. The Clerk will report that tally.
    The Clerk. Mr. Chairman, three Members vote aye, and eight 
Members vote no.
    Chairman Wu. The amendment is not agreed to.
    If we proceed expeditiously, we may be able to get through 
the entire bill before--and get to the Floor in time for this 
series of votes. The fourth amendment on the roster is an 
amendment offered by the gentleman from Ohio, Mr. Wilson. Mr. 
Wilson, are you ready to proceed with your amendment?
    Mr. Wilson. I am.
    Chairman Wu. The Clerk will report the amendment.
    The Clerk. Amendment to H.R. 5789, offered by Mr. Wilson of 
Ohio.
    Chairman Wu. I ask unanimous consent to dispense with the 
reading. Without objection, so ordered.
    I recognize the gentleman from Ohio for five minutes to 
explain his amendment.
    Mr. Wilson. As a strong supporter of small business 
innovation research and small business technical transfer 
programs which serve as a lifeline for many small businesses 
and innovative businesses, my amendment today would designate 
nanotechnology-related research as a critical technology in the 
SBIR--excuse me--and STTR programs. This would allow companies 
to receive special consideration as they apply for federal 
grants for their work in nanotechnology.
    Today, nanotechnology has an impact on all sectors of our 
economy, and the work of nanotechnology can be found in 
electronics like our cell phones and Blackberries, in our 
cosmetics, cars, and medical products. With nanotechnology 
playing such a fundamental role in our economy, it is critical 
that the U.S. investment in this industry continue to grow.
    In my district, at Ohio University, such research is being 
done daily. I recently heard from nanoscientists that if the 
research were included in this way, it would help their 
projects to go from the lab and to migrate to the market. The 
inclusion of nanotechnology research as a critical technology 
will help ensure that federal agencies continue to assist and 
even increase their support for nanotechnology companies in 
both SBIR and STTR programs.
    I encourage all of my colleagues to support my amendment 
and reauthorize the Small Business Innovation Research program. 
Thank you, Mr. Chairman.
    [The prepared statement of Mr. Wilson follows:]

          Prepared Statement of Representative Charlie Wilson

    Mr. Chairman, I have an amendment to offer.
    Thank you. I am here today as a strong supporter of the Small 
Business Innovation Research (SBIR) and Small Business Technical 
Transfer (STTR) programs--which serve as a lifeline for many small and 
innovative businesses.
    My amendment today would designate nanotechnology-related research 
as a critical technology in the SBIR and STTR programs. This would 
allow companies to receive special consideration as they apply for 
federal grants for their work in nanotechnology. As you know special 
consideration means that they're given extra weight throughout their 
application process.
    Today, nanotechnology has an impact on all sectors of our economy. 
And the work of nanotechnology can be found in electronics--like our 
cell phones and blackberries--in out cosmetics, cars, and medical 
products. With nanotechnology playing such a fundamental role in our 
economy--it is critical that U.S. investment in this industry continue 
to grow.
    In my district, at Ohio University such research is being done. I 
recently heard from some nano-scientists that if their research was 
included in this way, it would help their projects in the lab migrate 
to the market.
    The inclusion of nanotechnology research as a critical technology 
will help ensure that federal agencies continue to assist and even 
increase their support for nanotechnology companies in both the SBIR 
and STTR programs.
    I encourage all of my colleagues to support my amendment and 
reauthorize the Small Business Innovation Research Program.
    Thank you.

    Chairman Wu. I thank the gentleman.
    Is there further discussion on the amendment? If not, the 
vote occurs on the amendment.
    Mr. Gingrey. Mr. Chairman?
    Chairman Wu. The Ranking Member?
    Mr. Gingrey. Mr. Chairman, thank you. I am sorry. I was a 
little slow responding there. Mr. Chairman, I am supportive of 
nanotechnology research and education initiatives, but I have 
some concerns about this particular amendment. As I read the 
amendment, the SBIR program includes nanotechnology topics in 
its list of other priorities, alongside those from the 
Department of Defense and the National Critical Technologies 
Panel. For the STTR programs, nanotechnology endeavors would be 
singled out as a category of projects that could receive 
funding, thereby potentially narrowing the scope of the 
program, so I am concerned that the language for these two 
programs, and especially the STTR, would carve out a specific 
benefit for nanotechnology at the expense of other worthy 
endeavors.
    It is very important to point out that under the current 
law, nanotechnology initiatives are not excluded from grant 
consideration. They compete for funding with other research and 
development projects, and there is nothing in the underlying 
bill that detracts from that reality. Nanotechnology research 
should be considered for grant funding, but it should not, I 
don't think, be given special consideration above other 
important topics.
    Just this morning, the Full Committee held a hearing 
reauthorizing the National Nanotechnology Initiative. It is my 
understanding that the bill being drafted will incorporate SBIR 
and STTR programs, and certainly I look forward to working with 
my friend, Mr. Wilson, the gentleman, to ensure that 
nanotechnology programs are advanced across many agencies. So 
while I support nanotechnology research and development 
initiatives, I have concerns that the amendment might unduly 
advance those concerns over many other worthy fields of study, 
so I therefore would reluctantly urge a no vote on this 
amendment.
    [The prepared statement of Mr. Gingrey follows:]

           Prepared Statement of Representative Phil Gingrey

    Mr. Chairman, while I am supportive of nanotechnology research and 
education initiatives, I have some concerns about this particular 
amendment.
    As I read the amendment, the SBIR program includes nanotechnology 
topics in a list of other priorities alongside those from the 
Department of Defense and the National Critical Technologies Panel. For 
the STTR program, nanotechnology endeavors would be singled out as a 
category of projects that could receive funding, thereby potentially 
narrowing the scope of the program. I am concerned that the language 
for these two programs, and especially the STTR program, would carve 
out a specific benefit for nanotechnology at the expense of other 
worthy endeavors.
    It is important to point out that under current law, nanotechnology 
initiatives are not excluded from grant consideration. They compete for 
funding with other research and development projects, and nothing in 
the underlying bill detracts from that reality. Nanotechnology research 
should be considered for grant funding, but it should not be given 
special consideration above other important topics.
    This morning the Full Committee held a hearing in anticipation of 
reauthorizing the National Nanotechnology Initiative. It is my 
understanding that the bill being drafted will incorporate SBIR and 
STTR programs. I look forward to working with the gentleman to ensure 
that nanotechnology programs are advanced across many agencies.
    So, while I support nanotechnology research and development 
initiatives, I have concerns that this amendment might unduly advance 
those concerns over many other worthy fields of study. Therefore, I 
would urge a ``NO'' vote on this amendment.

    Chairman Wu. Is there further discussion of this amendment?
    If no, the vote occurs on the amendment. All in favor, say 
aye. Those opposed say no. In the opinion of the Chair, the 
ayes have it, and the amendment is agreed to.
    The fifth amendment on the roster is an amendment offered 
by the gentleman from Nebraska, Mr. Smith. Mr. Smith, are you 
ready to proceed with your amendment?
    Mr. Smith. Yes.
    Chairman Wu. The Clerk will report the amendment.
    The Clerk. Amendment to H.R. 5789, offered by Mr. Adrian 
Smith of Nebraska.
    Chairman Wu. I ask unanimous consent to dispense with the 
reading. Without objection, so ordered.
    I recognize the gentleman from Nebraska for five minutes to 
explain his amendment.
    Mr. Smith. Very briefly, thank you, Mr. Chairman and 
Members of the Committee. My amendment encourages the federal 
agencies to give priority to applications so as to increase the 
number of SBIR and STTR award recipients from rural areas.
    Firms located in a relatively small number of states have 
been successful in obtaining the awards through the program. 
According to an '06 government accountability study, about 70 
percent of dollars awarded went to firms in only 10 states. Let 
me also say that the rural outreach program contained in these 
programs sunsetted. It expired, and certainly, in the rural 
areas, we need to address the brain-drain. I don't want to 
expound, in the interest of time, on my full remarks here, but 
certainly, it is my intention to bring this to the attention of 
the Committee and urge the Committee to work together on the 
brain-drain and urge its adoption. Thank you.
    [The prepared statement of Mr. Smith follows:]

           Prepared Statement of Representative Adrian Smith

Mr. Chairman and Members of the Committee,

    My amendment would encourage federal agencies give priority to 
applications so as to increase the number of SBIR and STTR award 
recipients from rural areas. Firms located in a relatively small number 
of states have been successful in obtaining awards through the SBIR 
program. According to an April 2006 Government Accountability Office 
study, about 70 percent of all SBIR awards and dollars awarded went to 
firms in 10 states. This leaves many qualified firms in rural areas, 
such as high-tech firms in the Third District of Nebraska, at a 
disadvantage when it comes to funding for innovative research and 
development.
    In order to assist states experiencing difficulty in obtaining 
these awards, the 2001 reauthorization of SBIR encouraged SBIR agencies 
to do a better job of partnering with states via the creation of the 
Rural Outreach Program. The Rural Outreach Program's primary purpose 
was to provide federal assistance to support statewide outreach to 
small high-tech business located in 25 states that are under-
represented in SBIR awards. This outreach program has expired and rural 
areas are once again at a disadvantage in funding for developing 
commercial technologies.
    Unfortunately, many rural states have seen a `brain drain' in 
recent years. As the depletion occurs, we lose our most vital economic 
asset to more populated areas. Responsible policy is needed to retain 
and grow our workforce to make our rural communities more competitive 
in the modern economy.
    Mr. Chairman, it is my intention today to bring this to the 
attention of the Committee and urge the Committee to continue working 
to promote outreach and participation of rural areas in innovative 
research. I look forward to continuing consideration and work on this 
important issue.

    Chairman Wu. I thank the gentleman. I commend him for his 
amendment and support rural outreach. Is there any further 
discussion of the amendment?
    The Ranking Member?
    Mr. Gingrey. Thank you, Mr. Chairman, and I want to support 
the efforts of Mr. Smith. Businesses in rural areas typically 
have a harder time getting capital, even when they have a very 
good concept, because of the limited numbers of lending 
institutions or venture capital firms, so this amendment does 
not require that agencies pick one business over another. It 
simply requires them to consider rural businesses and how they 
are represented in the overall agency awards to increase the 
number of rural businesses receiving grants. I think it is a 
good amendment, Mr. Chairman, and I urge my colleagues to 
support it.
    [The prepared statement of Mr. Gingrey follows:]

           Prepared Statement of Representative Phil Gingrey

    Mr. Chairman, I want to support the efforts of Mr. Smith. 
Businesses in rural areas typically have a harder time getting capital, 
even when they have a good concept, because of the limited numbers of 
lending institutions or venture capital firms. This amendment does not 
require that agencies pick one business over another; it simply 
requires them to consider rural businesses and how they are represented 
in the overall agency's awards to increase the number of rural 
businesses receiving grants.
    It is a good amendment and I urge my colleagues to support it.

    Chairman Wu. I thank the gentleman. Are there any further 
comments on the amendment? If not, the vote occurs on the 
amendment. All in favor, say aye. Those opposed, say no. In the 
opinion of the Chair, the ayes have it. And the ayes have it 
and the amendment is agreed to.
    Are there any other amendments?
    Hearing none, the vote is on the bill H.R. 5789, the 
Science and Technology Innovation Act of 2008, as amended. All 
those in favor will say aye. All those opposed will say no. In 
the opinion of the Chair, the ayes have it.
    I recognize Dr. Gingrey to offer a motion.
    Mr. Gingrey. Mr. Chairman, I move that the Subcommittee 
favorably report H.R. 5789, as amended, to the Full Committee. 
Furthermore, I move that staff be instructed to prepare the 
Subcommittee legislative report, and make necessary technical 
and confirming changes to the bill, as amended, in accordance 
with the recommendations of the Subcommittee.
    Chairman Wu. The question is on the motion to report the 
bill favorably. Those in favor of the motion will signify by 
saying aye. Those opposed, say no. The ayes have it, and the 
bill is favorably reported.
    Without objection, the motion to reconsider is laid upon 
the table. I want to take this moment to thank staff on both 
sides for their very hard work on this bill. Bill Behn, who was 
a detailee to this committee, worked hard on this bill. The 
gentleman sitting next to me, Mike Quear, has worked tirelessly 
on this bill. And for my personal staff, Dennis Worden has 
worked very, very hard on this bill, and I thank them all very, 
very much.
    And Dr. Gingrey?
    Mr. Gingrey. Mr. Chairman, if you will allow me to say one 
thing for the staff on the Minority side, I would like to thank 
them for their hard work. They really did a great job on this, 
and I thank, Mr. Chairman, you as well in running a very fair 
Subcommittee markup as best you can, and I hope that you and 
Chairman Gordon will remember to urge the Committee on Rules to 
make this a fair an open process and ask for an open rule, and 
I thank you, Mr. Chairman.
    Chairman Wu. I thank the gentleman, and I thank the 
gentleman for his cooperation, and I will commit to urging that 
the Rules Committee take this up as a full bill under some form 
of rule, and I want to thank the Members for their attendance. 
This concludes our Subcommittee markup. Thank you all very 
much.
    [Whereupon, at 4:15 p.m., the Subcommittee was adjourned.]


                               Appendix:

                              ----------                              


        H.R. 5789, Section-by-Section Analysis, Amendment Roster


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                     Section-by-Section Analysis of
                   H.R. 5789, Science and Technology
                         Innovation Act of 2008

Section 1. Short Title Science and Technology Innovation Act of 2008

TITLE I--REAUTHORIZATION OF PROGRAMS

Section 101. Extension of SBIR and STTR Programs Extends the 
termination date of the SBIR and STTR programs to 2010.

TITLE II--FEDERAL INNOVATION INVESTMENTS

Section 201. SBIR Cap Increase Increases the amount of research funds 
devoted to small business concerns by requiring federal agencies with 
SBIR programs to expend not less than 3.0 percent of extramural 
research funds towards SBIR.

Section 202. STTR Cap Increase Increases the amount of research funds 
devoted to small business concerns by requiring federal agencies with 
STTR programs to expend not less than 0.6 percent of extramural 
research funds towards STTR.

Section 203. Adjustments in SBIR and STTR Award Levels Increases the 
award levels for the SBIR and STTR Programs to $300,000 for Phase I and 
$2,200,000 for Phase II, and limits the awards to no more than the 
specified maximum amounts. Increases program flexibility by allowing a 
small business that has received an award in the SBIR or STTR programs 
to receive a subsequent phase award in either the SBIR or STTR 
programs; allowing a small business to submit an SBIR Phase II 
application without first completing a Phase I award; and allowing a 
small business to submit an STTR Phase II application without first 
completing a Phase I award.

Section 204. Majority Equity Investment in SBIR and STTR Firms Makes 
eligible small businesses that are backed by venture capital firms and 
defines eligibility requirements.

TITLE III--UTILIZATION SUPPORT

Section 301. Agency Databases to Support Program Evaluation Requires 
that the database of Program Awardees required under the current Act 
include the additional information of ownership structure of award 
recipient at award and after completion of the award period and 
requires that the database be updated annually for five years. Requires 
that each agency database be designed to be accessible to other federal 
agencies required to establish SBIR/STTR programs.

Section 302. Agency Databases to Support Technology Utilization 
Requires each federal agency to create and maintain a technology 
utilization database that is available to the public.

Section 303. Interagency Policy Committee Establishes an Interagency 
SBIR/STTR Policy Committee comprised of representatives from each 
federal agency with SBIR/STTR and names the OSTP and NIST Directors as 
co-chairs. Requires the Interagency Policy Committee to make policy and 
report to Congress its review and recommendations regarding federal 
agency flexibility, commercialization assistance, and initiatives to 
address funding gaps.

TITLE IV--OUTREACH AND TECHNICAL ASSISTANCE

Section 401. Use of Program Funds for Administrative Costs Allows 
federal agencies to use no more than three percent of its SBIR budget 
for administrative expenses.

Section 402. SBIR Discretionary Technical Assistance Allows federal 
agencies to select a vendor to assist award recipients to develop and 
commercialize new products for a term not to exceed three years. 
Increases the amount an agency can provide for technical assistance to 
$5000 for Phase I and $8000 for Phase II.

TITLE V--IMPLEMENTATION

Section 501. Conforming Amendments to the SBIR and STTR Policy 
Directives Requires the Director of the Small Business Administration 
to promulgate amendments to the SBIR and STTR Policy Directives to 
conform to the Act within 180 days.

Section 502. National Research Council SBIR Study Removes the 
requirement of the Small Business Reauthorization Act of 2000 that the 
National Research Council provide an updated report.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



  PROCEEDINGS OF THE BUSINESS MEETING TO CONSIDER AUTHORIZATION OF A 
SUBPOENA FOR DOCUMENTS RELATED TO THE DEPARTMENT OF ENERGY'S FUTUREGEN 
                                PROJECT

                              ----------                              


                        THURSDAY, JUNE 26, 2008

                  House of Representatives,
      Subcommittee on Investigations and Oversight,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 1:10 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Brad 
Miller [Chairman of the Subcommittee] presiding.
    Chairman Miller. This meeting has now come to order. It 
will be a very short meeting just to advise everyone here of 
the status.
    We were prepared today to have the Committee consider 
issuing a subpoena for documents pertaining to the decision to 
end the FutureGen project, what was proposed to be a $1.8 
billion project that was specifically mentioned in three 
different State of the Union addresses. That was somewhat 
precipitously canceled. Obviously a good many Members of 
Congress were more than a little curious about that decision. 
The Subcommittee staff has been involved in discussions with 
the Department of Energy and with the White House for some 
considerable time now, had reviewed several documents without 
taking copies, that was the understanding, and determined that 
there were at least three documents that the Committee really 
did need to see to understand the decision for this committee, 
for the Full Committee to meet probably in September and 
consider the decision on FutureGen. I have within the last five 
minutes been assured by the White House General Counsel's 
Office by Emmett Flood that the three specific documents they 
have now reviewed and do not have any objection to providing 
this subcommittee a copy of. Mr. Sensenbrenner, there was one 
other document, a strategic plan, and that was provided, 
although that had been promised some considerable time ago. Our 
subcommittee staff just got that this morning within the last 
couple of hours. Mr. Sensenbrenner had also agreed to call the 
Department of Energy to encourage them to provide that document 
if it was not provided. The document that we have gotten, 
however, is a draft so I am hoping there will be some other 
discussions to make sure we got the right version, the final 
version. But based upon the recent, recent being within the 
last 20 minutes, showing of good faith, we will accept, for now 
at least, that we will get that document forthwith, not 
promptly but forthwith, and in fact, we have been promised all 
the remaining documents, which are only, you know, maybe eight 
pages collectively, by tomorrow. And with that understanding, 
we will assume that everyone is acting in good faith until that 
assumption is disproven and----
    Mr. Sensenbrenner. Will the Chairman yield?
    Chairman Miller. The Chairman yields to Mr. Sensenbrenner.
    Mr. Sensenbrenner. Let me say that I think that the 
representation that the Chairman has just recounted does show 
good faith on the part of the White House. And earlier today 
before this was wrapped up, I offered to call Secretary Bodman 
up suggesting that the best thing to do is to allow the 
Committee to review the documents that were in question. It 
appears now that that offer does not need to be taken up, but 
it still is on the table.
    Let me make one other observation. This committee has not 
issued a subpoena since 1992. I think we have gone through four 
Chairs, including myself, that has not found a need to issue a 
subpoena on anything within the oversight jurisdiction of the 
Committee on Science and Technology and its predecessor 
committees. Should we issue a subpoena, the Administration will 
resist it; because they have resisted every other subpoena that 
has been issued by every other committee in this Congress. And 
that is going to mean that we won't have a chance to review 
this document during the life of this Congress because an 
attempt to enforce the subpoena is going to take a while to 
wind its way through the courts. So accepting the good faith on 
the part of the White House and the good faith on the part of 
the Majority and its staff, I think that not issuing or 
authorizing a subpoena at this time will say that we are happy 
to meet the Administration halfway. So far there is good faith 
that is being expressed on both sides, and if that continues, 
we will be able to put this matter to rest. I thank the Chair 
for yielding.
    Chairman Miller. And thank you, Mr. Sensenbrenner, and 
provided that sweet reason does continue to prevail, perhaps we 
don't have to issue any subpoenas.
    Does anyone else wish to be heard? On that happy 
conciliatory note, the meeting is adjourned.
    [Whereupon, at 1:14 p.m., the Subcommittee was adjourned.]

                                   

</pre></body></html>
